<html>
<title> - TREATY DOC. 96-53; CONVENTION ON THE ELIMINATION OF ALL FORMS OF DISCRIMINATION AGAINST WOMEN, ADOPTED BY THE U.N. GENERAL ASSEMBLY ON DECEMBER 18, 1979, AND SIGNED ON BEHALF OF THE UNITED STATES OF AMERICA ON JULY 17, 1980</title>
<body><pre>[Senate Hearing 107-530]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-530
 
   TREATY DOC. 96-53; CONVENTION ON THE ELIMINATION OF ALL FORMS OF 
 DISCRIMINATION AGAINST WOMEN, ADOPTED BY THE U.N. GENERAL ASSEMBLY ON 
DECEMBER 18, 1979, AND SIGNED ON BEHALF OF THE UNITED STATES OF AMERICA 
                            ON JULY 17, 1980
=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 13, 2002

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate








                          U.S. GOVERNMENT PRINTING OFFICE
80-461                             WASHINGTON : 2002
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001








                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
PAUL S. SARBANES, Maryland           JESSE HELMS, North Carolina
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       GORDON H. SMITH, Oregon
PAUL D. WELLSTONE, Minnesota         BILL FRIST, Tennessee
BARBARA BOXER, California            LINCOLN D. CHAFEE, Rhode Island
ROBERT G. TORRICELLI, New Jersey     GEORGE ALLEN, Virginia
BILL NELSON, Florida                 SAM BROWNBACK, Kansas
JOHN D. ROCKEFELLER IV, West         MICHAEL B. ENZI, Wyoming
    Virginia
                   Antony J. Blinken, Staff Director
            Patricia A. McNerney, Republican Staff Director

                                  (ii)

  




                            C O N T E N T S

                              ----------                              
                                                                   Page

Balmforth, Ms. Kathryn Ogden, Member, Firm of Wood Crapo, LLC, 
  Salt Lake City, Utah, Former Director, World Family Policy 
  Center, Brigham Young University, Provo, UT....................    40
    Prepared statement...........................................    42
Davis, Hon. Jo Ann, U.S. House of Representatives, Washington, 
  D.C............................................................    11
Hoff-Sommers, Dr. Christina, Resident Scholar, American 
  Enterprise Institute, Chevy Chase, MD..........................    51
    Prepared statement...........................................    54
Kirkpatrick, Hon. Jeane, Senior Fellow & Director of Foreign and 
  Defense Policy Studies, American Enterprise Institute, Former 
  Permanent Representative to the United Nations, Washington, 
  D.C............................................................    29
    Prepared statement...........................................    31
Koh, Hon. Harold Hongju, Professor, Yale Law School, Former 
  Assistant Secretary of State for Human Rights, New Haven, CT...    32
    Prepared statement...........................................    35
Maloney, Hon. Carolyn B., U.S. House of Representatives, 
  Washington, D.C................................................    23
Mclennan, Hon. Juliette C., Former U.S. Representative to the 
  U.N. Commission on the Status of Women, Easton, MD.............    47
    Prepared statement...........................................    48
Millender-McDonald, Hon. Juanita, U.S. House of Representatives, 
  Washington, D.C................................................    14
    Prepared statement...........................................    27
Morella, Hon. Constance A., U.S. House of Representatives, 
  Washington, D.C................................................    21
Smith, Ms. Jane E., Chief Executive Officer, Business and 
  Professional Women/USA, Washington, D.C........................    56
    Prepared statement...........................................    58
Woolsey, Hon. Lynn C., U.S. House of Representatives, Washington, 
  D.C............................................................     9
    Prepared statement...........................................    10


                               Appendixes

A. Text of the Convention on the Elimination of All Forms of 
  Discrimination Against Women...................................    73
B. Material Submitted in Support of Ratification of the 
  Convention on the Elimination of All Forms of Discrimination 
  Against Women..................................................    85
C. Material Submitted in Opposition to Ratification of the 
  Convention on the Elimination of All Forms of Discrimination 
  Against Women..................................................   121

                                 (iii)

  


   TREATY DOC. 96-53; CONVENTION ON THE ELIMINATION OF ALL FORMS OF 
 DISCRIMINATION AGAINST WOMEN, ADOPTED BY THE U.N. GENERAL ASSEMBLY ON 
DECEMBER 18, 1979, AND SIGNED ON BEHALF OF THE UNITED STATES OF AMERICA 
                            ON JULY 17, 1980

                              ----------                              


                        THURSDAY, JUNE 13, 2002

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Joseph R. 
Biden, Jr., chairman of the committee, presiding.
    Present: Senators Biden, Boxer, Feingold, Wellstone, 
Brownback, and Enzi.
    The Chairman. The hearing will come to order, please. 
Today, the Committee on Foreign Relations is going to consider 
an important treaty designed to advance the rights of women 
around the world: The Convention on the Elimination of All 
Forms of Discrimination Against Women. Action on this treaty is 
long overdue. It was submitted by President Carter in 1980. Let 
me say that again. It was submitted by President Carter in 
1980.
    Eight years ago, in September 1994, the committee approved 
this treaty 13 to 5; so we are on record. I voted for this 
treaty, and others who were on this committee at the time, 13 
of us, some of whom are still here, voted for this treaty in 
1994.
    Unfortunately, no action has been taken on the treaty since 
that date. At the outset, let me express my disappointment with 
the manner in which, and I have tried to be very, very 
cooperative with the Department with which this committee has 
had great relations and no substantive complaints with the 
Department of State, but I want to express my disappointment 
with the manner in which the administration has addressed this 
treaty. Its cooperation has been far from satisfactory, and 
this is not just carping. Let me explain why.
    Last June, I became chairman--as my father would say, it is 
better to be lucky than good. After I became chairman, I wrote 
Secretary Powell to invite the State Department to submit its 
list--and would you close that door back there? I would ask the 
police to close the door in the back and keep the noise down. 
Thank you.
    Last June, as I said, after I became chairman, I wrote 
Secretary Powell to invite the Department of State to submit 
its list of priorities for treaties pending in the Senate, 
restating the request made by Senator Helms 3 months earlier, 
which I might say for my colleagues from the House, this is one 
of the few things the Constitution does not have them do, 
treaties. It is a tradition of the Senate. It is a practice to 
ask each administration to do that. There is nothing abnormal 
about the request that was made. In my letter I indicated that 
I expected to convene a hearing on the Woman's Convention in 
the coming year.
    Senator Boxer and I have been talking about this for 
several years, but because of the--and I do not say this 
critically. It is just an observation. Because of the strong 
opposition of the then-chairman of the committee, there was no 
likelihood we were going to get a hearing on the treaty, and so 
we had planned a half-a-dozen different ways to try to bring 
the treaty up on the floor even without a hearing, and we found 
that we ran into roadblocks that would make it virtually 
impossible to get it done, so I indicated that I expected to 
convene a hearing on the women's convention in the coming year, 
and that the Department would be asked to testify at the time.
    In February of this year, in response to my letter, the 
Department submitted, and I quote, the administration's treaty 
priority list for the 107th Congress.
    Now, the letter places treaties pending in the Senate in a 
number of categories. The letter I received from the 
Department, the letter indicated that the Bush administration 
supported the women's convention and placed that treaty in 
category III, a category of treaties which the administration 
believes, ``are generally desirable and should be approved,'' 
not their highest priority. There are other treaties they have 
listed. There are several categories in the letter they have 
sent us, but in the letter they sent us in February saying, we 
believe this treaty is generally desirable and should be 
approved.
    Heartened by that statement, in early March I wrote back to 
the Secretary of State and indicated the committee would hold a 
hearing after the Easter recess. I invited the Under Secretary 
of State for Global Affairs to appear at the hearing, scheduled 
for May 15. As the hearing date approached, the Department 
informed this committee that it was still discussing who would 
testify for the administration, so I postponed the hearing, 
fully expecting that, giving them the opportunity--they are for 
this treaty--to decide who it was who would best make the case 
for the administration for this treaty, so I postponed the 
hearing and rescheduled it for this week and issued a new 
written invitation to the Under Secretary for Global Affairs.
    Despite this considerable advance warning--now, remember, 
this is right after Easter, and we rescheduled it for now. At 
the end of May the committee received a request for another 
delay in the hearing. The reason given, the Department of 
Justice had just begun a new review of the treaty. So at the 
end of May we are told, after being told in February they 
supported this treaty, that the Department of Justice was going 
to review the treaty.
    Now, for years I was chairman of the Judiciary Committee. I 
can tell you how long it takes the Department of Justice to 
reach a decision on anything that is controversial. So, I fail 
to understand this new development. The committee was informed 
that the treaty priority letter had been subject to a thorough 
interagency review prior to its submission to the committee. I 
asked, I said, now look, you sent us this list at the beginning 
of the year. Was it just an accident that it got put on the 
list, no one vetted it? They said no, the whole letter we sent 
you listing all the treaties and our priorities had been 
subject to a thorough interagency review prior to its 
submission to this committee.
    The sudden news that the Department of Justice has just 
initiated a review suggests that was either not the case, or 
something has intervened that I do not fully understand. More 
to the point, I am concerned by the casual attitude of the 
executive branch toward the treaty process and the legitimate 
request of this committee for testimony on a significant treaty 
pending before it.
    I indicated last June--not this June, last June--that the 
committee would have a hearing in the coming year. I reiterated 
that notice in early March, when I told the State Department 
the treaty would be subject to a hearing this spring, and over 
this period never once was the committee informed that the 
Department of Justice had initiated, was planning to initiate, 
even thought about initiating a review of this treaty.
    I should note that the State Department made a last-minute 
offer to send two mid-level officials, but inasmuch as their 
testimony would be incomplete until the Department of Justice 
had completed a review, I decided to proceed with this hearing 
today and to hear from the executive branch when it is fully 
prepared, and if it is not fully prepared, to move the treaty, 
period, with or without their input.
    As of today, the position of the Bush administration, as 
reiterated in a letter dated June 4, is this. It believes the 
treaty is generally desirable and should be approved. That 
statement has not been rescinded, so I am assuming and 
proceeding as if the President of the United States supports us 
passing this treaty. The fact that it is reviewing the treaty 
and the committee's proposed resolution for ratification from 
1994 to see if additional conditions should be recommended to 
the Senate, should be done quickly, because if it is not done, 
we are going to move, and you all know I say--I have five of my 
colleagues sitting before me here. You all know our legislative 
schedule. What are the prospects, if we were to bring up this 
treaty on the floor between now and the time we go out, even 
if--even if there were overwhelming support for it? Time is a-
wasting.
    The treaty on the rights of women is a landmark document. 
It sets forth the basic obligations to advance and protect 
equality for women. Most nations of the world, 169 of them in 
all, have become a party to this treaty. For the United States, 
the treaty will impose a minimal burden. The U.S. Constitution 
and existing Federal laws will satisfy the obligations of the 
treaty. The United States will need to enter a handful of 
reservations to a treaty where it is inconsistent with our 
Constitution or current Federal law, as we do with nearly every 
treaty, but the United States will not need to enact any new 
laws to be in compliance with this treaty.
    For the United States, the treaty can be a powerful tool to 
support women around the world who fight for equal rights. Our 
voice on women's rights will be enhanced by becoming a party to 
this treaty, because we will be empowered to call nations to 
account for their compliance with the treaty. Absent our 
membership, we cannot do that.
    Similarly, the treaty is a powerful instrument for women to 
demand their rights under it. For example, after the Colombian 
Government ratified the treaty in 1981, women's groups across 
Colombia relied on the treaty to successfully fight for women's 
rights in Colombia's new constitution.
    The importance of giving women an equal role in society 
cannot be understated. Secretary Powell said it as well as 
anyone in his statement on the International Women's Day:

          It is not just popular opinion, but plain fact. 
        Countries that treat women with dignity, that afford 
        women a choice in how they live their lives, that give 
        them equal access to essential services, give them an 
        opportunity to contribute to public life, these are the 
        countries that are the most stable, valuable, and 
        capable of meeting the challenges of the new century.

    Within the last decade, the United States has joined 
multilateral human rights treaties banning torture, promoting 
civil and political rights, banning racial discrimination. It 
is long past time we joined the rest of the world in dealing 
with this same fervor on the rights of women.
    Now, let me just conclude by saying this. If we need any 
more graphic illustration of why this treaty is needed for 
women of the world, I just invite you to come back to 
Afghanistan with me. I invite you to come back to Afghanistan 
with me, stand there with the Minister for Women's Affairs, and 
observe that even after the liberation, the majority of women 
are still wearing burkas. Even after this, they are still 
worried about their future.
    As I met with the Minister of Education and the Minister of 
Women's Affairs in a building with no heat in the middle of 
January, I believe, there were a group of women, about 50 or 
60, standing out in a big anteroom waiting to see the 
Ministers. They were all former teachers, and they all had 
their burkas on, and I said why? Why? And the Minister of 
Women's Affairs asked the Minister of Education, whose office 
we were in, whether or not she could call in one of the women. 
The woman she called in spoke English. She said, Senator Biden 
wants to know why you are still wearing a burka, and she told 
me the following story, and I will be very brief.
    She said she rode in on a bus--and by the way, an 
interesting incongruity, women with burkas in modern high 
heels. Seriously, you ought to go and see it. And she said in 
perfect English,

          I rode in on the bus, and as I got off the bus from 
        my home I had to walk two blocks to this building. As I 
        crossed the street, a taxicab with five men pulled over 
        off the road and up on the sidewalk and blocked my way 
        between the sidewalk, the cab, and the wall, and the 
        men jumped out and asked me why did I not have my burka 
        on, and I just looked at them, and they said, ``the 
        Taliban may be gone, but the mujahedin is still here.'' 
        I now wear my burka.

    If you women had not fought to make sure that in Bonn, this 
new Government, this Loya Jirga which is taking place in 
Afghanistan right now, included women, it would not happen. If 
we do not set an international standard, we are going to have 
this repeated time and again.
    So, as I turn the gavel over--and it is not just 
ceremonial, it is real--to the woman in this place who has been 
the single strongest voice for women internationally, the 
person who has been the single strongest voice for women 
internationally as a member of this committee, and I want to 
make something clear. I do not want anybody to read my not 
chairing this as meaning that this committee does not view this 
as vital. The reason that the Senator from California is going 
to chair this is she has forgotten more about this than most 
people know. She cares more about it than anybody else in the 
Senate, and it should be viewed in the way it is intended. This 
is a symbolic gesture as well to indicate just how important 
this committee, speaking for myself and I think the majority of 
this committee, believes this treaty is.
    So without any further ado, I am going to sit here somewhat 
silently, although I make no firm commitment, and turn the 
gavel over to my friend from California to run this hearing.
    Senator Boxer [presiding]. Senator Biden, I am very moved 
and touched by your remarks. I hope this hearing will be very 
fair. It is very balanced, I say to my friends on the other 
side of the aisle who may not agree with us, and it means a 
great deal to me, not only that you are allowing me this honor 
of chairing the first hearing since 1994, but it says to me the 
fact that you are here and that you made as strong a statement 
as you did, that we could not be better served. It is, as you 
would say, a big deal. It is a big deal to me and to the 
members of this committee.
    I would ask unanimous consent to put my entire statement in 
the record. Since I am now chair, I will give myself permission 
to do that, and I would like to summarize here so we can get to 
every Member and get to our panels.
    I think there is no better time than right now to show our 
commitment to women by approving this treaty, CEDAW. Senator 
Biden, you touched on the reasons, and I am going to amplify on 
them a little bit. Afghanistan, we had no idea after 9/11 the 
road would lead there. The road did lead there, and it led to 
the liberation of the women of Afghanistan, or at least the 
first steps of their liberation.
    Afghanistan showed us how cruelly women can be treated 
throughout the world. Under the Taliban, women were beaten for 
offenses like bearing their ankle or going outside to beg for 
food without a male escort, or for not wearing the suffocating 
burka, and the word suffocation is an important word, because 
the burka not only interfered with their ability to breathe--
and if you have ever put a burka on, you know what I mean--but 
it suffocated their individuality.
    Indeed, it suffocated their humanity, which is exactly the 
point. Women were forced to be made invisible, and clearly from 
Senator Biden's eye witness reports they still are. Their 
daughters are forced to go without an education, or without 
basic health care.
    Right now, Afghanistan is in the midst of the process to 
form a new Government, given the past treatment of women and 
girls in their country, Afghanistan needs an international 
framework to look to in drafting the new laws of their nation. 
Clearly, CEDAW should be that guide, and the U.S. should be 
pushing Afghanistan to abide by the principles contained in the 
CEDAW treaty, which I might say are the very same principles 
that guide us in our laws.
    I would like to place into the record, and I will do so, a 
letter sent to me yesterday by Dr. Sema Samar, a vice chair of 
the Afghan Interim Authority, and the Minister of Women's 
Affairs, who Senator Biden referred to. As pointed out by Dr. 
Samar, the U.S. cannot use CEDAW as a diplomatic tool for human 
rights because we have not ratified it. It is very important, 
she writes to us, to the women of Afghanistan, that we do this. 
I want to make clear to all colleagues we are speaking to the 
women of Afghanistan and the women of the world when we act on 
this treaty.
    I would like to use the prerogative of the chair to ask two 
Afghan women who are here with us today to rise, Nasiba and 
Nafesia. Would they rise, please? Would you stand, please?
    We want to welcome you. These two women work for the 
Minister of Women's Affairs, and they come here to show their 
strong support for this treaty. We also have women from Egypt 
and India here today, and I want to thank them. They also feel 
very strongly. Would they stand up, the women from Egypt and 
India? They were at a press conference.
    Ladies and gentlemen of this committee, this is not a 
theoretical matter. This is a matter that impacts these women 
every single day of their lives. This treaty has been ratified 
by 169 countries since it was first adopted in 1979. The United 
States is one of the few not on the list. I want to point out 
to my colleagues, we are standing with non-ratifying countries 
like Syria, Iran, and Somalia. Syria, Iran, and Somalia. We 
cannot continue to stand with those nations. It is a disgrace, 
in my opinion. In my humble opinion it is time to move forward.
    The CEDAW treaty is designed to overcome barriers to 
women's equality in the areas of legal rights, education, 
employment, health care, politics, and finance. It is a 
meaningful treaty. Senator Biden gave an example of Colombia. 
Let me give you one in Brazil. When Brazil reformed its 
constitution it used the treaty as a guide for including 
guarantees of human rights to women. In Costa Rica, the treaty 
was helpful in developing property rights and political 
participation for women.
    Yet we know women all over the world are still suffering 
discrimination. Worldwide, 130 million women are victims of 
female genital mutilation, 2 million girls are sold into sexual 
slavery every year, and women are four times more vulnerable 
than men from dying from the HIV/AIDS virus. The disease is 
killing 1.3 million women a year, and yet women are being 
denied health care throughout the world.
    So the committee did hold its last hearing in 1994, and it 
voted 13 to 5 to report it out, with one abstention. I was not 
on the committee then. I am so happy to be on it now. But 
despite this bipartisan vote, the treaty never came before the 
full Senate for consideration. Today's hearing is an effort to 
address this treaty from the point where we left off in 1994. 
We are using as a starting point the recommendations made by 
the Clinton administration and the understanding added by 
Senator Helms that says that nothing in the treaty shall be 
construed to reflect or create any right to abortion.
    Is that a vote in the House?
    Ms. Woolsey. I am going to miss the Journal.
    Senator Boxer. If some of you want to go and come back, we 
will do that.
    Ms. Davis. It is adoption of the rule, and then there is 
another vote after that.
    Senator Boxer. Maybe you should go over at the end and vote 
on the one and the next.
    I also understand there are concerns the CEDAW committee 
established by the treaty somehow interferes with the 
sovereignty of the United States. This is false, and I want to 
lay that right out there. The committee does say some 
controversial things that I do not agree with, but let it be 
clear the committee cannot in any way force any government to 
change its laws or adopt the opinions that they are expressing. 
If we have to clarify that, we will. We will take care of that 
problem. We do not want to be deterred.
    It is also important to make clear that the ratification 
would not require the United States to change or adopt any 
laws. This is very important. Senator Biden addressed the fact 
that we do not have the Bush administration here, they are not 
ready, so I will put that in the record.
    What I am trying to do is see if we can, with the agreement 
of the Minority, allow at least one or two of you to go forward 
before you need to leave, so I am going to put the rest of my 
statement into the record and say again what an honor this is, 
and Senator Enzi, would it be alright if we heard from, say, a 
pro and a con, and then take your testimony immediately 
following, since they have a vote? That would be nice, so why 
don't we take Lynn Woolsey, and then Hon. Jo Ann Davis, then 
they can run and do the vote. Go ahead, Lynn.
    [The prepared statement of Senator Boxer follows:]

              Prepared Statement of Senator Barbara Boxer

    I want to thank Senator Biden for bringing us to this moment and 
for giving me the honor of chairing this hearing. It means a great deal 
to me.
    There is no better time than now for the Senate to approve the 
Convention on the Elimination of All Forms of Discrimination Against 
Women (CEDAW). We should be propelled forward because Afghanistan has 
shown us how cruelly women can be treated throughout the world.
    The number of people outside of this hearing room shows the great 
interest in this Treaty. The young women who are here today demonstrate 
that the future in many ways is about them. They want to know we 
believe in them.
    Under the Taliban, women were beaten for offenses like showing an 
ankle or for going outside to beg for food without a male escort. They 
were forced to wear the burka which suffocated their individuality and 
their humanity. Women were made to be invisible and their daughters 
forced to go without an education or basic health care.
    Right now, Afghanistan is in the midst of the Loya Jirga process to 
form a new government. Given the past treatment of women and girls, 
Afghanistan needs an international framework to look to in drafting the 
new laws of their nation.
    CEDAW should be that guide and the U.S. should be pushing 
Afghanistan to abide by the principles contained in the CEDAW treaty.
    I want to place into the record a letter sent to me yesterday by 
Dr. Sima Samara--Vice Chair of the Afghan Interim Authority and 
Minister of Women Affairs. As pointed out by Dr. Samar, the U.S. cannot 
use CEDAW has a diplomatic tool for human rights because we have not 
ratified it--it is very important to the women of Afghanistan that we 
do so.
    The treaty has been ratified by 169 countries since it was first 
adopted in 1979. The United States is one of the few who are not on 
this list. We are standing with non-ratifying countries like Syria, 
Iran and Somalia. In my opinion, this is a disgrace.
    President Carter signed the CEDAW treaty in 1980. It is time to 
move forward. The CEDAW treaty is designed to overcome barriers to 
women's equality in the areas of legal rights, education, employment, 
health care, politics and finance. It is a meaningful treaty.
    For example, when Brazil reformed its constitution, it used the 
treaty as a guide for including guarantees of human rights for women. 
In Costa Rica, the treaty was helpful in developing property rights and 
political participation for women.
    Yet there is much more work to be done because women throughout the 
world are still suffering because of discrimination.
    We know that 130 million women are victims worldwide of female 
genital mutilation, 2 million girls are sold into sexual slavery each 
year; and women are four times more vulnerable than men of dying from 
the HIV/AIDS virus. The disease kills 1.3 million women each year.
    As I said before, the committee last held a hearing on the treaty 
in 1994, and voted 13-5 with one abstention to recommend ratification. 
Despite this bipartisan vote, the treaty has never come before the full 
Senate for consideration.
    Today's hearing is an effort to address this treaty from the point 
where we left off in 1994. We are using as a starting point the 
recommendations made by the Clinton administration, and the 
understanding added by Senator Helms that says that nothing in the 
treaty shall be construed to reflect or create any right to abortion.
    I also understand that there are concerns that the CEDAW committee 
established by the treaty somehow interferes with the sovereignty of 
the United States. This is false. The only requirement this treaty 
imposes on ratifying countries is to report progress and obstacles 
encountered in moving toward treaty standards. The committee, which I 
don't always agree with, cannot mandate government actions.
    I want to be clear here: the committee has no enforcement powers. 
If we need to clarify this fact in the Resolution of Ratification, I 
think it is worth exploring.
    It is also important to make clear that ratification of this treaty 
would not automatically require the United States to change or adopt 
any laws. Whenever the U.S. Constitution or laws conflict with the 
obligations of the treaty, U.S. laws will take precedence.
    Unfortunately, we can not explore these issues with the Bush 
Administration today. The administration has said that this treaty is 
``generally desirable and should be approved.'' However, no senior 
State Department official was made available to testify today. Clearly 
they have dropped the ball on an issue that is very important--
especially after the way women were treated in Afghanistan.
    The U.S. effort to prevent another Afghanistan and to promote 
health and equality for women everywhere will be much more effective 
and credible if we join with other nations that support human rights 
and ratify this treaty without further delay.
    I hope that the administration will join us in this view and work 
to ratify the treaty this year. And I really hope that the committee 
will report the treaty favorably to the full Senate as soon as 
possible.

    [The letter from Dr. Samar referred to by Senator Boxer 
follows:]

                       Ministry of Women's Affairs,
                     Interim Administration of Afghanistan,
                                                     June 12, 2002.
Hon. Barbara Boxer,
U.S. Senate, Washington, DC.
    Dear Senator Boxer: The leaders of my homeland of Afghanistan are 
convening once again in the traditional Loya Jirga, a long-awaited 
council whose delegates will outline the way we will live in the 
future. In my capacity as Chairperson of the Human Rights Commission in 
Afghanistan, I am asking for the help of the United States in making 
sure that our new government guarantees full human rights for women. An 
urgent first step must be your ratification of the International CEDAW 
Treaty for the Rights of Women.
    As the world knows, Afghan women were subjected to outrageous 
abuses under the previous Taliban government as well as oppression and 
violence throughout the last 23 years. For the first time in many 
years, there is a hope that the rights of women will be recognized and 
defended in this country. Now the Loya Jirga is considering parts of 
our 1964 Constitution as a model for the new government. It was broadly 
respectful of basic rights for women, but there is no guarantee the 
Loya Jirga will adopt those provisions. More models and more persuasion 
are needed. The CEDAW treaty is the most important international guide 
and set of standards on the human rights of women, which of course has 
never been ratified by Afghanistan.
    I understand that the U.S. Senate is now considering whether the 
United States should join 169 other countries in ratifying the CEDAW 
treaty. I believe it will be important for me and other Afghan women if 
you do take this step. We will then be able to tell our countrymen that 
the United States, where women already have full legal rights, has just 
seen the need to ratify this treaty. This treaty will then truly be the 
international measure of the rights that any country should guarantee 
to its women. We will be able to refer to its terms and guidelines in 
public debates over what our laws should say. Your advisers to many of 
our leaders here will be able to cite its provisions in their 
recommendations. And perhaps we women will achieve full human rights 
for the first time in a generation.
    Senator Boxer, on behalf of the women of my country, I urge you to 
do everything possible to see that the United States ratifies the CEDAW 
treaty. Members of the U.S. Senate will thus be able to say that they 
had a significant influence in freeing the women of Afghanistan. Thank 
you very much for your time and attention to my plea. Please keep in 
touch with me on your progress.
        Sincerely,
                                            Dr. Sima Samar,
                        Vice Chair and Minister of Women's Affairs.


       STATEMENT OF HON. LYNN C. WOOLSEY, U.S. HOUSE OF 
               REPRESENTATIVES, WASHINGTON, D.C.

    Ms. Woolsey. Thank you, Madam Chair. It is definitely an 
honor to be here today, and I thank you and I thank the members 
of the committee and Senator Biden for recognizing the 
importance of ratifying this important CEDAW initiative.
    Out of the 22 years that the Convention on the Elimination 
of All Forms of Discrimination Against Women, CEDAW, has been 
in existence, I have spent the last 9 years in the House 
pushing for the ratification of this incredibly important 
treaty. In fact, the first resolution that I introduced in the 
House was a resolution calling on the Senate to ratify CEDAW. 
That was in 1993, and I have reintroduced a resolution every 
Congress since.
    In that time, we have subsequently gained cosponsors, 
bipartisan cosponsors, by the way, as well as support from all 
sectors of Congress, Republicans, Democrats, blue dogs, new 
Democrats. The resolution that I have introduced in the 107th 
Congress, House Resolution 18, currently has 119 bipartisan 
cosponsors. It is important to note that there is a groundswell 
of support for ratification, both here in the House and in the 
Senate and among the local governments and grassroots 
organizations.
    At the end of the year, 16 States and 58 United States 
counties and cities, including Marin County, where Barbara 
Boxer lives, and the city of Santa Rosa, both in the district 
that I represent, and both of these communities and all of 
those States and cities have passed resolutions advocating U.S. 
ratification of CEDAW.
    In 1999, CEDAW supporters, including the Church Women 
United and the United Methodist Women, delivered more than 
10,000 individually handwritten letters to Senators urging 
ratification of the treaty. That is 10,000 individually 
handwritten letters. I am sure you all received yours. Some 
said thank you for already supporting it. Others said, please 
come with us. Needless to say, this has been a long battle for 
CEDAW supporters. That is why I am pleased to be here today to 
testify in support of CEDAW and thank again Senator Boxer for 
making this possible.
    As part of our agenda to promote international human 
rights, we must recognize the importance of elevating the 
status of women. CEDAW is not about creating new rights, but 
about ensuring that women are able to exercise the same human 
rights as men. CEDAW establishes a universal definition of 
discrimination against women and provides international 
standards to discourage sex-based discrimination. These 
standards encourage equality in education, health care, 
employment, and all other arenas of public life.
    Some opponents of CEDAW claim that----
    Senator Boxer. Let me ask you a question. How do we want to 
proceed? Do you want to put the rest of the statement in the 
record and come back and finish? We can hear from Hon. Jo Ann 
Davis so we have some con on the record here. You can come back 
and finish. How do you want to proceed?
    Ms. Woolsey. That would be fine with me. It is up to you.
    Senator Boxer. Why don't you just collect your thoughts, 
finish the presentation, and we will call on you again when we 
come back.
    Ms. Woolsey. What I would do, I will put my statement in 
the record.
    I would like to echo what you said about what this means to 
women around the world, and what an embarrassment it is to our 
Nation to be with North Korea, Iran, and Afghanistan in the way 
we treat women in not supporting this. We do not treat women 
here that way, but they want to hear from us because of how we 
are.
    [The prepared statement of Ms. Woolsey follows:]

           Prepared Statement of Representative Lynn Woolsey

    Madam Chair, it's an honor to be here today. I thank you and the 
Committee for recognizing the importance of holding this hearing.
    Out of the 22 years that the Convention on the Elimination of All 
Forms of Discrimination Against Women (CEDAW) has been in existence, I 
have spent the last nine in Congress, pushing for the ratification of 
this incredibly important treaty. In fact, the first resolution that I 
introduced in the House was a resolution calling on the Senate to 
ratify CEDAW. That was in 1993 and I have reintroduced the resolution 
every Congress since. In that time we've subsequently gained more 
cosponsors, as well as more support from all sectors of Congress: 
Republicans, Democrats, Blue Dogs, New Democrats. The resolution that I 
have introduced in the 107th Congress, H.Res. 18, currently has 119 
bipartisan cosponsors.
    It's important to note that there is a groundswell of support for 
ratification, both here in Congress and among the local governments and 
grassroots organizations. At the end of last year, sixteen states and 
58 U.S. counties and cities, including Mann County and the city of 
Santa Rosa--both in the district that I represent--had passed 
resolutions advocating U.S. ratification of CEDAW. In 1999, CEDAW 
supporters, including the Church Women United and the United Methodist 
Women, delivered more than 10,000 individually hand-written letters to 
Senators urging ratification of the treaty. That's 10,000! Needless to 
say, this has been a long battle for CEDAW supporters. That's why I am 
so pleased to be here today to testify in support of CEDAW, and thank 
Senator Boxer for making this possible.
    As part of our agenda to promote international human rights, we 
must recognize the importance of elevating the status of women. CEDAW 
is not about creating new rights, but about ensuring that women are 
able to exercise the same human rights as men.
    CEDAW establishes a universal definition of discrimination against 
women, and provides international standards to discourage sex-based 
discrimination. These standards encourage equality in education, health 
care, employment and all other arenas of public life.
    Some opponents of CEDAW claim that ratification of CEDAW would mean 
that we would have to abolish ``Mothers Day'' because it singles women 
out based on their gender. But under CEDAW, discrimination is defined 
as any difference in treatment on the grounds of gender, which 
intentionally or unintentionally disadvantages women, and prevents a 
society from recognizing a woman's rights in both the domestic and 
public arenas. So I am here to tell you that under this definition of 
discrimination, we don't have to get rid of ``mothers' day,'' or any 
other day that is designated to celebrate women.
    This comprehensive U.N. treaty serves as a powerful tool for all 
women as they fight against discrimination. CEDAW has led to 
substantial improvements for women's lives in countries including 
Japan, Brazil, Sri Lanka and Zambia. In fact, when Brazil redrafted its 
constitution, it used CEDAW as a framework for articulating human 
rights for Brazilian women. Their constitution now contains provisions 
on gender equality, gender-based violence, and equality of rights 
within marriage, family planning, and employment. These provisions 
parallel those contained in CEDAW.
    To date, 169 countries have ratified CEDAW. However, as we all 
know, the U.S. is not one of these countries. In fact, the U.S. is the 
only industrialized nation that has not ratified CEDAW, a distinction 
that places us in the company of countries like North Korea, Iran and 
Afghanistan. The decision to abandon this unfavorable distinction is 
long overdue.
    If we truly want to be regarded as a world leader and champion of 
human rights, we must teach by example and ratify CEDAW. We must also 
learn from example. The Taliban rule in Afghanistan was an illustration 
of how systematic violations against women sanctioned by governing 
authorities can lead to broader danger and instability. Clearly, a 
country cannot become stable and democratic if half its population 
remains oppressed.
    As the U.S. works to help Afghanistan rebuild, we are presented 
with a shameful irony: while we are trying to teach the Afghan people 
that women must be an equal part of a post-Taliban democracy, we 
contradict ourselves by refusing to ratify the one international treaty 
that ensures the rights of all women. This is leading by example.
    Women remain grossly under represented at the international level, 
and in some areas, they are not represented at all. The globalization 
of today's world makes the equal participation of women at the 
international level increasingly important. The inclusion of women in 
all areas of global affairs will make a difference in the policy and 
decisionmaking processes.
    Women around the world are depending on the U.S. to show support 
for CEDAW because U.S. support will strengthen CEDAW's purpose and 
enhance its credibility. While countries that have ratified may not all 
fully comply with CEDAW, U.S. ratification puts us in a position where 
we can push for fuller compliance.
    The time has come for the U.S. to join the other 169 nations that 
have committed themselves to safeguarding basic human rights and ending 
gender discrimination by ratifying CEDAW. Today's Senate hearing is a 
major step in that direction.
    Thank you.


    Senator Boxer. Well, we thank you very much for your great 
leadership on this from day 1 that you got into the Congress.
    Congresswoman Davis.

STATEMENT OF HON. JO ANN DAVIS, U.S. HOUSE OF REPRESENTATIVES, 
                        WASHINGTON, D.C.

    Ms. Davis. Thank you, Madam Chairman, members of the 
committee. Thank you for the opportunity to testify on the 
ratification of the Convention on the Elimination of all forms 
of Discrimination Against Women, or CEDAW. As you know, CEDAW 
requires participating countries to take appropriate measures 
to eliminate discrimination against women in all facets of 
life. The convention also creates a committee to monitor the 
implementation of CEDAW, composed of representatives of 23 
other countries. It is the work product of this implementing 
committee that I want to focus my testimony upon today, for no 
matter how laudable the goals of this CEDAW treaty may be, the 
attempted application of the principles of the convention by 
the committee has led to profoundly disturbing results, which 
do not advance the condition of women worldwide.
    The committee has the responsibility for overseeing the 
implementation of the convention by reviewing reports submitted 
by participating countries. The committee then makes 
recommendations based upon the reports and responses to 
committee questioning. While this may initially appear rather 
benign, these recommendations exert a great deal of informal 
pressure upon countries that depend upon United Nations funding 
of human aid programs and the CEDAW committee has made some 
startling conclusions in implementing the treaty.
    For instance, although the treaty specifically states that 
countries shall take measures to suppress the trafficking and 
exploitation of women, the CEDAW committee has actually called 
upon China to decriminalize prostitution, rationalizing that it 
is often the result of poverty. Similarly, it commended Greece 
for decriminalizing prostitution and providing a regulatory 
structure, and urged Germany to legitimize prostitution through 
labor and social law.
    Members of the committee, this is simply inexcusable. 
Prostitution is inherently demeaning and degrading to women, 
and in no way promotes sexual equality. It in fact robs women 
of their dignity, spreads disease and death, and leads to a 
downward spiral of exploitation and the cheapening of human 
life. The committee has also criticized a country for the 
reintroduction of Mother's Day, arguing that it reinforces 
sexual stereotypes.
    I believe that there are gender distinctions we should 
celebrate, and motherhood is one of them. I am proud to be the 
mother of two children, and I want to emphatically state that 
the celebration of motherhood does not demean women in any way.
    Madam Chairman, it would be an understatement to say that 
these types of edicts, and these are only examples, do not 
promote confidence in the CEDAW committee. Since 1981, the U.S. 
Senate has had the opportunity to review how CEDAW has worked 
in practice, rather than theory, and there are no compelling 
reasons for our Nation to become a party to this pact.
    Some may argue that if we do not ratify the treaty, then we 
will not have a place at the table in how CEDAW continues to be 
implemented. However, Madam Chairman, the committee is made up 
of representatives from 23 countries, many with very dubious 
human rights records of their own, giving any even well-
intentioned efforts at reform by the United States little 
chance of success, were there even to be an American 
representative on that committee. In fact, to ratify the treaty 
I believe would send the implicit message throughout the world 
that the United States was endorsing the work of the CEDAW 
committee, and that is inexcusable.
    Congress also needs to remember that we are a sovereign 
Nation with a representative democracy sufficient to address 
issues of gender discrimination and equality in our city 
councils, State legislatures, and Congress. In the United 
States, women's voices can be and they are heard, and we enjoy 
unparalleled opportunities and freedoms in this great country, 
and I might say that the women in Afghanistan that are enjoying 
their freedom now was because of our foot soldiers on the 
ground, and not the treaty.
    Our country should enter treaties to promote its interests 
abroad, be it trade or defense-related, to name a couple. We 
should not become a party to a treaty full of broad and vague 
language that has been so recklessly interpreted in the past 
and only has the potential for more abuse in the future, nor 
should we be eager to have our laws and social structures 
pronounced upon by an international committee made up in part 
by representatives of nations with notoriously poor human 
rights records.
    Madam Chairman, the United States is capable of addressing 
gender issues in its own free and democratic institutions, and 
becoming a party to this treaty would in no way further that 
end. At this time of war, and with such pressing security 
issues facing our Nation, I urge the Senate not to take up this 
ill-considered initiative, and I thank you, Madam Chairman.
    Senator Boxer. Thank you very much, and just on your way 
out, and I am looking forward to having you all back if I can, 
I want to read for the record what the committee said about 
prostitution, OK. You said they called for legalization. They 
said, given the HIV/AIDS pandemic, the committee recommends 
that due attention be paid to health services for women in 
prostitution. The Government is also urged to take measures for 
the rehabilitation and reintegration of prostitutes into 
society, and the decriminalization of prostitution. It did not 
call for the legalization.
    But I do want to make a point as a mother and a grandmother 
and a United States Senator from the largest state, I love 
Mother's Day, and this committee is not going to change my view 
on that, and clearly, as I said at the beginning, let us not 
change the subject from the treaty to the committee. The 
committee has no impact on any Government, it is clearly 
stated, and we will address this in our statements as we go 
forward.
    Ms. Davis. If I might make a comment, Madam Chairman, we 
have to address the committee at the same time we address the 
treaty. I mean, we have to when we are considering becoming a 
part of that treaty, because the committee has had a great 
impact, and I did not say legalize prostitution, I said 
decriminalize.
    Senator Boxer. Well, I would just make the point that we 
put it in the record that they talked about the sad case of 
these women getting HIV/AIDS. I just wanted to point out that 
we will deal with the committee. That is what I said in my 
opening statement. Just as Senator Helms dealt with abortion, 
we will deal with the issue of the committee when we talk about 
our statements and our comments and our reservations, so I 
really appreciate your bringing up the committee, because it 
fits into my opening statement, and I thank you very, very 
much.
    Ms. Millender-McDonald, do you want to do your statement 
now?

  STATEMENT OF HON. JUANITA MILLENDER-McDONALD, U.S. HOUSE OF 
               REPRESENTATIVES, WASHINGTON, D.C.

    Ms. Millender-McDonald. I really have an extended 
statement. I would not want to water it down by doing it 
quickly. I would like to come back, but I certainly want to say 
how much I appreciate this committee having us come before it 
and want to applaud Congresswoman Lynn Woolsey for her 
tenacious commitment to this particular treaty.
    Now, please give me some thoughts. Can I come back to speak 
on this, because there are two votes.
    Senator Boxer. Yes. We will hold open until you return. we 
will have the other panelists. Senators from the Republican 
side will now speak to their heart's content, as long as they 
wish. As Congresswomen come in it is my intention to call on 
them even if we need to interrupt another panelist.
    Ms. Millender-McDonald. Thank you, Madam Chair.
    Senator Boxer. Senator, which of you would like to begin? 
Senator Enzi, thank you.
    Senator Enzi. Thank you, Madam Chairman. As we have heard 
and will hear today, accounts of the history and status of the 
United Nations Convention on the Elimination of all Forms of 
Discrimination Against Women, or CEDAW, the title itself 
promotes the right thing on behalf of women, and I sense that 
all of us here today share that view. Indeed, the name of this 
treaty draws good people to want to do good things, but 
ultimately it is not about the name.
    What matters for us here is what is inside the convention. 
We find an assortment of measures both radical and ill-defined 
that belie its name, so for 22 years there has wisely been a 
lid on the Pandora's box, but from time to time curiosity takes 
control, as is the case today, but curiosity asks many 
questions, such as, how can we still be interested in the CEDAW 
agenda decades after the Carter White House sent it to the 
Hill, after Democrat administrations and Democrat-controlled 
Senates let it languish for 22 years?
    The answer, in short, is that efforts to ratify CEDAW have 
been sustained by the politics of symbolism. Indeed, the 
convention addresses an important symbolic principle, one that 
the United States has supported in other anti-discrimination 
treaties throughout the 20th century. I suppose that the best 
intentions were at work when CEDAW was initiated at the United 
Nations during the Carter administration, but its elaboration 
was flawed. Perhaps U.N. group-think, the twists and turns of 
finding agreement, any agreement, is what torpedoed an 
otherwise useful effort, or perhaps extreme agendas came to 
dominate the outcome. This can happen in the U.N. setting, as 
we were reminded last autumn when the U.N. World Conference 
Against Racism, held in Durban, nearly fell victim to the type 
of hatred and stereotyping it was supposed to repair.
    The big point is that CEDAW's advocates claim to be taking 
the moral high ground when actually they want to stand 6 feet 
on top of buried values, values that recognize and appreciate 
the diversity of people, be they man or woman, boy or girl. 
Meanwhile, the convention has not made any difference in 
eliminating discrimination against women. Rather, it serves as 
a facade for continuing atrocities.
    For example, its most admiring signatory countries do not 
adhere to the letter of CEDAW. China's Government practices 
forced abortion and sterilization. In Afghanistan, women were 
oppressed by a series of governments until liberation by U.S. 
and allied forces. France refuses unconditional extradition to 
U.S. fugitives who murder American women and girls. Germany, 
who signed, declines to return abducted American girls to their 
American parents. Iraq kills its own women and girls with 
chemical weapons. In Saudi Arabia, religious police let 14 
girls die in a fire, rather than allow male rescuers to enter 
their burning school, and North Korea starves and oppresses its 
women and girls.
    I do not want the United States' prestige to suffer by 
association with this group of anti-women rogues, and so I 
subscribe to the views that the ratification of CEDAW is not in 
the interest of the United States. Now, we will hear testimony 
as to its merits and demerits, but I am compelled to state that 
CEDAW would supersede U.S. Federal, and State law, surrendering 
American domestic matters to the norm setting of the 
international community. On this point, given its broad 
definition of discrimination, potentially it could tempt 
frivolous lawsuits in the United States.
    So even if you believe that our country could get something 
useful out of CEDAW for civil rights at home, or that it would 
not bargain away any of its sovereignty, why should the United 
States lend its power and prestige to this misshaped 
convention? Why give cover to signatory States that continue to 
discriminate severely against women? Why try to breathe life 
into an agenda of stale goods whose expired shelf life makes 
them unhealthy for the United States and the international 
community?
    Despite the fact that for years a democratically controlled 
Senate and the Clinton White House did not advance its 
ratification, which is also unlikely in the foreseeable future, 
CEDAW is in front of us again. So today, therefore, we must 
revisit these themes that have rightly given the Senate cause 
to contain its curiosity on this Pandora's box. We will learn a 
lot, we will advance a principle, but we have to be very 
careful of a treaty that is written this way.
    Senator Boxer. Thank you, Senator.
    Senator Brownback.
    Senator Brownback. Thank you, Madam Chairman, and I want to 
state at the outset I appreciate the hearing. I appreciate you 
hosting and holding the hearing. I have had the opportunity to 
work with the chairman on a number of vital women's issues over 
the years, something I am very proud of. In fact, our 
collaboration recently won the favorable attention of Ms. 
Magazine, which the chairperson noted to me, and something we 
have joked about may never happen again, at least not for me. 
It may for you, but perhaps not for me, but it has been a 
pleasure to be able to work with you.
    Senator Boxer. Well, you have a chance today to get back 
in.
    Senator Brownback. We will see. We worked together on 
Afghan women about 4 years ago, putting forward a resolution 
calling on the United States and the U.N. to condemn what was 
taking place in Afghanistan toward women, and I think it was a 
helpful issue that we brought forward at that time, and I am 
pleased we did that then, and pleased to see the Afghan women 
here today. I am looking forward to hearing the testimony, to 
hearing about the treaty, and the thoughts that people want to 
put forward. I want to have a good, candid discussion and 
dialog on the issue. I want to keep an open mind on it and hear 
what people have to say.
    I would note one thing before turning the microphone over 
and then being able to hear witnesses. I think it really is 
actions that count more than the words. Afghanistan was a 
signatory in 1980 to CEDAW, and look what took place there. It 
is the actions I think that are the important thing, and I 
realize there is criticism of the Bush administration on this, 
but it is the actions that count, the actions of our putting 
forward troops, putting forward an aggressive effort, putting 
forward a push, an aggressive effort to see that women were 
involved in the Afghanistan cabinet. I worked with the 
chairperson on that issue as well.
    The actions are the ones that matter to the women around 
the world, and I think the Bush administration has taken very 
strong actions here to liberate women and to provide 
opportunities. Afghanistan signed CEDAW, and yet what are its 
actions? I think that is what speaks far louder, and I hope 
that the United States continues to take a very active role, 
regardless of views on the treaty, and there are differing 
opinions on it in pursuit of the rights of women throughout the 
world, everywhere in the world, including Islamic portions of 
the world that we aggressively and strongly push for those 
rights of women.
    I have traveled to many countries in the world, and I have 
seen a number of places, Madam Chairman, that women do not have 
significant rights or opportunities, many oppressed by their 
government to not have rights or opportunities, and it is the 
failings of those countries. I think the United States has a 
unique position and obligation to press for those rights for 
women throughout the world and aggressively to do so. It is the 
actions. It is the actions that count much more than the words, 
and I look forward to us continuing to be very strong in our 
actions in the support of women throughout the world.
    Senator Boxer. Thank you so very much, Senator.
    What we are going to do is to take a little break right 
after I make some comments regarding Senator Enzi's remarks, 
but before he leaves I want to make a couple of remarks, then 
we will take a little break. If in 5 minutes we do not have our 
Congresswomen back, we will go to the next panel and then we 
will bring them in.
    Senator Brownback. Madam Chairman, can I ask, why don't we 
bring up that next panel, because with two votes it is going to 
take them awhile.
    Senator Boxer. That is what I said we would do.
    Senator Brownback. Rather than a break, why don't we just 
go.
    Senator Boxer. I will make the decision. I think we are 
going to wait 5 minutes and then we are going to go, because I 
am trying not to disrupt the flow here, but here is what I 
wanted to say to Senator Enzi. The answer to the charge that 
the Democrats let this languish is this. In 1988 and 1990 the 
committee held hearings, this committee. It did not proceed 
because neither the Reagan nor Bush administrations, Bush I, 
supported CEDAW, and as you know we do need the President to 
sign it. The Senate did move it forward under President Clinton 
in the 103d Congress, but it was blocked in the full Senate. It 
was reported out favorably.
    Now, this administration wrote to us and told us that the 
treaty should be approved, so we are moving forward on that 
basis, but what I want to say, Senator Enzi, is when you say--
and I will be glad to yield to you when I finish--from time to 
time curiosity takes hold when we look at the treaty, let me 
just say that my interest in the treaty is not that I am 
curious about it at all. I am not curious about it. I am very 
anxious to see it ratified in this, the greatest Nation in the 
world, and I want to see women have rights, so it is not about 
curiosity.
    Second, he says the treaty is symbolic, and I want to point 
out a few specifics. In Colombia, it was not symbolic when the 
courts ruled in 1992 that the absence of legal recourse then 
available to a female victim of domestic violence violated her 
human right to life and personal security. The State now 
ensures protection for all women. In Uganda it was not symbolic 
when the State and cities created programs to campaign against 
domestic violence using State funds for the purpose that is 
cited in CEDAW. In Costa Rica, the courts are authorized to 
order an abusive spouse to leave the home and to continue 
providing economic support, and CEDAW played a big role there. 
In promoting girls' education in even Switzerland, and 
Slovenia, and Pakistan, which has a long way to go, and India, 
when they made progress CEDAW was cited. In improving health 
care in many countries, Australia, Israel, the Philippines, 
Argentina, Mexico, and Australia, CEDAW was cited. Improving 
women's lives at work, CEDAW was cited in many countries, 
ensuring legal rights in Tanzania, Zambia, Uganda, Botswana, so 
on the ground it is not a symbolic thing.
    Now, in our country, because we are the leader, it is not 
going to force any changes in the laws, I would agree with you 
there, that is clear, but what we are hearing from our Afghan 
women friends and from others is, if the United States does 
ratify this, it gives us moral authority when we go around to 
other countries and ask them to please respect the rights of 
women. It is a pretty simple thing, I think, and so I just 
wanted to put my disagreements with you into the record, and I 
would be glad to yield to you for as much time as you might 
have to respond.
    Senator Enzi. Madam Chairman, I do not want to take up time 
from Senator Feingold, but I do have additional comments I 
would like to put in the record that I did not include in that, 
places where the idea of the treaty has failed, places where 
the committee has absolutely gone against at least the 
principle of the treaty, and places where the United States 
would be giving up some of its sovereignty if it were to go 
into the treaty, and I think those are reasons why it has not 
been taken up.
    If a treaty is taken up by the U.S. Senate and passes by 
the majority that is necessary to pass a treaty, I do not think 
there is much chance that a President who put that forward 
would be vetoing the treaty.
    Senator Boxer. I am very delighted to see that we have been 
joined by Senator Russ Feingold, and we would recognize you to 
make an opening statement.
    Senator Feingold. I simply would like to put my statement--
well, I will talk for 30 seconds. I would like to put my longer 
statement in the record. What I wanted to do is just commend 
you, Madam Chair, because I remember when you and I were the 
only Democratic Senators here at an attempt to bring this up a 
while back, and a group of our distinguished Congresswomen came 
here and sat in the audience and were concerned about this, and 
it was kind of a lonely time, and it is only because of your 
leadership. You are the driving force behind this. It is long 
overdue. I get very frequent contacts from people in my State 
that they want this done, and so I just want to commend you, 
and I am delighted that this is getting the leadership it 
needs.
    [The prepared statement of Senator Feingold follows:]

             Prepared Statement of Senator Russell Feingold

    I am pleased to be here today to consider the ratification of the 
Convention on the Elimination of All Forms of Discrimination Against 
Women (CEDAW). Since my election to the Senate, I have called for the 
ratification of this important treaty, and I have been amazed and 
perplexed through the years that the United States has remained one of 
the few countries in the world that has not ratified this bedrock human 
rights document.
    The commitment of the United States to the fundamental human rights 
of all women and girls cannot be questioned. Yet we have refused to 
join the primary international mechanism for promoting and protecting 
the rights of women and girls around the globe. We have had twenty-two 
years now to consider this ratification. I urge my colleagues to stop 
hesitating. Our hesitation is an embarrassment to this body and to the 
United States. We must ratify this treaty, and we must ratify it now. 
Our ratification stands to send an important message to the larger 
world about our commitment to the rights of women and girls, while 
lending additional support and momentum to the work of the body that 
administers CEDAW.
    We all know that discrimination against women robs a country of the 
talents and productive resources of at least half of society. But it is 
important to reflect on this point. Think, if you will, of the 
development potential that is lost every day in so many developing 
countries, and of the vast potential that will continue to be lost so 
long as girls and young women face discrimination in accessing 
education, careers, economic credit, and participation in the political 
life of their country. Think, too, of the lives that are lost as a 
result of more violent patterns of discrimination. Think of the women 
and girls who are denied access to health care, or denied the right to 
make decisions about their care; think of those who face prosecutions 
or death for asserting their sexual or reproductive autonomy in 
defiance of fathers, husbands, or brothers; think of the endemic crisis 
of domestic violence, and the failure of so many governments and 
societies to address the epidemic. Women are literally dying because of 
persistent patterns of discrimination.
    In recent months we have listened with horror and shock as the 
women of Afghanistan have emerged from their enforced seclusion to 
describe years of abuse. The world has witnessed few more egregious 
examples of institutionalized discrimination against women, but we must 
also recognize that women in many other societies are living equally 
restrictive lives. I can think of no better way for the United States 
to encourage governments around the world, including the new government 
in Afghanistan, to respect the rights of women than for us to ratify 
CEDAW.
    I look forward to this hearing today, and I look forward to swift 
action to ratify this Convention. It is time for the United States to 
join the 169 other nations that have ratified CEDAW. And it is time for 
all of us to make a personal commitment to eliminating all forms of 
discrimination against women and girls worldwide.


    Senator Boxer. I would commend you, Senator. It is an honor 
to serve with you on this committee.
    I was given statements by Senator Dodd and Senator Nelson. 
I am going to place them in the record.
    [The prepared statement of Senator Dodd follows:]

           Prepared Statement of Senator Christopher J. Dodd

    Good morning. I would like to welcome our witnesses to the 
committee, and thank them for coming here to testify on a topic that I 
believe to be of vital importance, the Convention to Eliminate All 
Forms of Discrimination Against Women. This hearing has been a long 
time coming, and, in my view, serves an important purpose. It is high 
time that the United States, as the only industrialized democracy that 
has not ratified CEDAW, make clear its policy toward this treaty and 
the broader issue of discrimination against women.
    The United Nations Convention on the Elimination of All Forms of 
Discrimination Against Women, CEDAW, is in essence a ``Bill of Rights'' 
for women worldwide. It is the first and only tool available to address 
women's political, cultural, economic, social, and family rights on a 
global level. When this treaty was drafted in 1979, it represented the 
initial step in the development of human rights language for women 
throughout the world.
    Unfortunately, while the rest of the world has built upon the 
foundation of 1979, the United States lags woefully behind. As of May 
2002, 169 countries have ratified CEDAW, yet the United States is among 
a small number of countries, including Afghanistan, Iran, and Sudan, 
that have not yet taken the important step of ratification. 
Negotiations on this convention were completed under the Carter 
Administration in 1980, and the treaty was formally transmitted to the 
Senate on November 12, 1980. Although the Senate has held many hearings 
on this treaty over the past few years, it has never been brought to 
the Senate floor for a vote. The United States made ratification of the 
Women's Convention by the year 2000 one of its public commitments at 
the U.N. Conference on Women in Beijing in 1995. It is now up to us to 
honor this commitment.
    In my view, the United States must recognize the positive impact 
that the treaty can have internationally, and act accordingly to ratify 
this treaty as soon as possible. Already, CEDAW has promoted the 
development of citizenship rights in Botswana and Japan, inheritance 
rights in the United Republic of Tanzania, and has fostered political 
participation in Costa Rica. Domestic violence laws have been developed 
in countries such as Turkey, Nepal, South Africa and the Republic of 
Korea, as have anti-trafficking laws in the Ukraine and Moldova.
    As long as the United States remains a part of the small minority 
of nations that has not ratified the treaty, the country's credibility 
as a world leader in human rights is grossly compromised. The United 
States has and must continue to set an example for other nations to 
follow. Without U.S. ratification, other nations may feel at liberty to 
ignore CEDAW's mandate and their responsibilities under it. The United 
States must continue in its quest for equality and send a message to 
the rest of the global community that discrimination against women must 
end.
    On a domestic level, CEDAW ratification would promise positive 
implications for women in our nation. The treaty would encourage women 
and girls to pursue vocations in math and science through the 
recruitment of female workers, as well as the expansion of both private 
and public programs that boost participation in these fields that are 
currently dominated by men. In regard to sexual harassment, a pressing 
issue for the United States, the treaty encourages schools to adopt and 
enforce stronger sexual harassment policies.
    Discrimination is an active force in employment even today. CEDAW 
seeks to eliminate any and all gaps that exist between the employment 
of men and women in the work force. Through the treaty's ratification, 
the United States would be forced to take necessary measures to 
introduce paid maternity leave without the loss of employment 
seniority, merit, or benefits. Twenty-two of the nations that have 
ratified the treaty have instituted laws and policies to promote equal 
opportunities for females in employment; the United States must follow 
suit, building on the success of the FMLA.
    In our country, domestic violence is and has been an issue of 
nationwide concern. Only 44 percent of all rural counties have full-
time prosecutors for violent crimes against women, and women in these 
areas do not even have sufficient legal representation to combat 
domestic violence if they choose to seek it. Ratification of the treaty 
would encourage the United States to provide more sufficient social and 
legal services.
    CEDAW has great domestic and global implications. Rarely does this 
committee have the opportunity to consider actions that can affect so 
many people in all corners of the globe. Especially now, as the US 
seeks to encourage active participation of women in Afghanistan, we 
must finally step up to our leadership role in this debate. I thank 
Senator Boxer for holding this hearing today to encourage the Senate to 
do just that.
    I would like to take this opportunity to thank our witnesses for 
coming, and especially recognize a distinguished scholar from my state 
of Connecticut. The Honorable Harold Hongju Koh, former Assistant 
Secretary of State for Human Rights and a Professor at Yale Law School, 
is with us today and I welcome him to the committee and thank him for 
his important contributions to our country and this dialogue.
    I am hopeful that this hearing will further urge this committee 
toward the ratification of a treaty that is sorely needed and necessary 
for the advancement of our domestic and international community. The 
time for ratification of the CEDAW treaty is now.


    [The prepared statement of Senator Nelson of Florida 
follows:]

  Statement for the Record Submitted by Senator Bill Nelson of Florida

    I would like to praise Chairman Biden for calling this hearing, as 
well as Senator Boxer for her leadership on this issue. The time for 
U.S. leadership to advance women's rights around the globe is now. We 
can take a significant step forward using the bully pulpit of our 
nation's position as the beacon of freedom, and as an advocate of human 
rights and equality when this committee reports, and the full Senate 
ratifies, the Convention on the Elimination of All Forms of 
Discrimination Against Women (CEDAW) Treaty. Twenty-two years of 
inaction is inexcusable. It is time to put force and substance behind 
repeated U.S. calls for the advancement of women's rights in all parts 
of the world by ratifying CEDAW.


    Senator Boxer. Senator Dodd says he hopes this hearing will 
further urge this committee toward the ratification of a treaty 
that is sorely needed and necessary for the advancement of our 
domestic and international community. He says the time for the 
ratification of the CEDAW treaty is now.
    So what we are going to do at this point is take a 5-minute 
break and in 5 minutes if, in fact, the women have not 
returned, or at least one for the panel, we are going to go to 
the first two pro and con witnesses in the next panel, so for 5 
minutes we will take a break. We stand in recess until 11:01.
    [Recess.]
    Senator Boxer. The committee will come to order. I see we 
have our Congresswomen back. We are most grateful for you 
moving so quickly, and then right after they are completed we 
will hear from our next panel, and we are going to lead it off 
with Hon. Jeane Kirkpatrick and then we will get to the rest of 
the panel, so why don't we continue where we left off.
    Congresswoman Woolsey, would you like to add to your very 
eloquent statement that you made before, and I would ask the 
audience--we are going to move really quickly here. Yes, 
Congresswoman.
    Ms. Woolsey. I am trying to find where I left off. OK, 
CEDAW. Thank you for doing this and being so patient with us. 
We have 2 hours now.
    Senator Boxer. Well, I do not, though.
    Ms. Woolsey. CEDAW establishes a universal definition of 
discrimination against women and provides international 
standards to discourage sex-based discrimination. These 
standards encourage equality in education, health care, 
employment, all other areas of public life. Some opponents of 
CEDAW claim that ratification would mean that we would have to 
abolish Mother's Day. That is sort of what we heard with one of 
the other witnesses, because it singles women out based on 
their gender, but under CEDAW discrimination is defined as any 
difference in treatment on the grounds of gender which 
intentionally or unintentionally disadvantages women and 
prevents a society from recognizing a woman's rights in both 
the domestic and public arenas. I am here to tell you that 
under this definition of discrimination we will not have to get 
rid of Mother's Day or any other day that is designated to 
celebrate women.
    This comprehensive treaty serves as a powerful tool for all 
women as they fight against discrimination. CEDAW has led to 
substantial improvements for women's lives in other countries, 
including Japan, Brazil, Sri Lanka, and Zambia. I am going to 
leave off here, because I have said in general that it is an 
embarrassment not to be part of this as the leading Nation in 
the world, and I yield to my other colleagues.
    Senator Boxer. Thank you so much. We are going to ask Hon. 
Connie Morella now to address us.

     STATEMENT OF HON. CONSTANCE A. MORELLA, U.S. HOUSE OF 
               REPRESENTATIVES, WASHINGTON, D.C.

    Ms. Morella. Thank you. Thank you, Madam Chair. I want to 
congratulate you for holding this long overdue hearing on the 
Convention on the Elimination of all Forms of Discrimination 
Against Women. I am pleased to join my colleagues, 
Congresswoman Woolsey, Congresswoman Maloney, and Congresswoman 
Millender-McDonald----
    Senator Boxer. Would you pull the microphone up?
    Ms. Morella  [continuing].----I certainly shall. I join 
them in strong support of its full ratification. I thank you 
for allowing us this opportunity to speak for many Members in 
the House of Representatives who feel as strongly as we do.
    Madam Chair, as you know, the Senate has already agreed to 
the ratification of several important human rights treaties, 
including the Genocide Convention, the Convention Against 
Torture, the International Covenant on Civil and Political 
Rights, and the Convention on the Elimination of All Forms of 
Racial Discrimination. CEDAW established a worldwide commitment 
to combat discrimination against women and girls, yet the 
United States has neglected our responsibility to participate. 
While 169 countries of the world have ratified or acceded to 
CEDAW, and the United States is among a small minority of 
countries, including Afghanistan, North Korea, Iran, and Sudan 
which have not.
    Previous administrations have proposed a small number of 
reservations, understandings, and declarations to ensure that 
United States ratification fully complies with all 
constitutional requirements, including the rights of States and 
individuals. The legislatures of California, Iowa, 
Massachusetts, New Hampshire, New York, North Carolina, South 
Dakota, and Vermont have all endorsed United States 
ratification of CEDAW. Also, over 100 United States-based 
civic, legal, religious, educational, and environmental 
organizations, including many major national membership 
organizations, support ratification of CEDAW, and yet we have 
seen no Senate action since President Carter signed the treaty 
and submitted it to the Senate for its consent in 1980.
    We did, of course, hear that this committee had passed it 
out in 1994. Our overdue ratification of CEDAW would allow the 
United States to finally nominate a representative to the CEDAW 
Oversight Committee. Our vocal support for the human rights of 
every individual. Our role as a world leader should mandate our 
support for CEDAW, and our lack of action, quite frankly, is 
nothing short of embarrassing.
    The statistics surrounding the abuse and discrimination of 
women is staggering. Around the world at least one in every 
three women has been beaten, coerced into sex, or otherwise 
abused in her lifetime. Violence against women is one of the 
most common human rights violations, and it takes many forms: 
physical, sexual, and psychological. It cuts across most 
country's social groups and socioeconomic classes.
    Violence against women can occur in every setting: homes, 
streets, schools, and places of work. Violence is a 
multidimensional issue that stems from women's subordinate 
status in society, women's economic dependence on men, and 
women's overall lack of power, as is the case most commonly in 
developing nations. In most societies around the world there 
are beliefs, norms, and social institutions that legitimize and 
perpetuate violence against women.
    Women are particularly vulnerable to violence during times 
of political upheaval and economic instability. Although rape 
as a weapon of war has been internationally condemned, armies 
continue to use it in conflicts around the globe. For example, 
in 1992, as many as 20,000 women were raped in the first few 
months of the war in Bosnia-Herzegovina, and most recently we 
hear horrible accounts of women and girls being raped in 
Afghanistan as they try to return to their homes from refugee 
camps.
    Violence prohibits many women from participating in the 
economy, being active in civic life, accessing educational 
opportunities, and obtaining health care. One out of every five 
healthy years of life are lost to women ages 15 to 44 as a 
result of violence. This loss of productivity impairs women's 
economic development and overall growth in their respective 
national economies.
    War and violence have uprooted and displaced 35 million 
people worldwide from their homes; 80 percent of these refugees 
are women and children. They have little access to basic food, 
medical care, hygiene, and shelter. But women are not only 
victims, they are taking the initiative to reach across the 
conflict divide and foster peace. In Mali and Liberia women 
joined together to collect arms, in Northern Ireland, Catholic 
and Protestant women created joint community development 
projects; and yet, despite women's positive roles in fostering 
peace, they are excluded from most peace negotiations.
    The United States should actively engage in ways to 
eliminate the brutality that women face around the world. One 
of the first and most basic steps is to adopt the objectives of 
CEDAW. We can also strengthen our support for programs that 
advocate for protective legislation, judicial accountability, 
and enforcement of existing laws relating to the prevention of 
violence against women and girls. We should also encourage the 
integration of violence intervention into all sectors of the 
United States' international development assistance, invest in 
a variety of intervention programs, strengthen women's economic 
opportunities in order to improve their options and their 
negotiating power outside of and within the home, and encourage 
communities to design response capabilities like health, 
police, judicial, and social services to respect the autonomy 
and meet the needs of victims.
    Madam Chair, thank you again for this opportunity to share 
our frustration for the 22 years of basic inactivity on CEDAW. 
I hope that this hearing will finally create some movement, 
some momentum on the Convention on the Elimination of all Forms 
of Discrimination Against Women. It is belated, but I think the 
time is now. I think this will be the beginning of that 
ratification by the Senate. I sincerely believe that its 
ratification will finally give the force of international law 
to our effort on behalf of women's rights, and also give us the 
credibility to be taken seriously on this issue when we 
advocate with foreign governments on behalf of human rights.
    So I thank you, Madam Chair, and I thank Senator Brownback 
for being here also, and other members of the committee who 
have been here.
    Senator Boxer. Thank you so much, Congresswoman.
    Congresswoman Maloney.

      STATEMENT OF HON. CAROLYN B. MALONEY, U.S. HOUSE OF 
               REPRESENTATIVES, WASHINGTON, D.C.

    Ms. Maloney. Thank you, Senator Boxer, Chairman Biden, 
other members of the committee. On behalf of the U.S. House of 
Representatives, and especially on behalf of the women Members 
and supporters of the rights of women worldwide, I commend you 
for holding this hearing on CEDAW, the treaty for the rights of 
women.
    This hearing is an important step toward ratification of 
the treaty and a step toward equality for women worldwide. This 
hearing is long overdue, more than 22 years overdue. This week 
is an historic one for women. Here we are considering a step in 
which the United States would officially join the world 
community in supporting the rights of women. Meanwhile, across 
the globe in Kabul, Afghanistan, women are talking about and 
are taking part for the first time in the Loya Jirga, the 
assembly of leaders who will determine the future of that 
shattered country.
    I hope that future will include ratification of the CEDAW 
treaty for the rights of women. I would hope that in the year 
2002, both the United States and Afghanistan will join the 169 
other countries that have already ratified the treaty for the 
rights of women. Let's face it, 169 countries cannot be wrong.
    Why is the treaty for the rights of women so important? It 
is the bill of rights for women worldwide. It sets up standards 
for the treatment of women. It is a framework from which any 
country can build programs that can save women's lives and 
bring women into the economic mainstream of development. If we 
are serious about helping women in Afghanistan, we will ratify 
the CEDAW treaty. If we are serious about making sure that the 
Taliban's terrible actions against women will never, ever 
happen again anywhere, we will ratify the CEDAW treaty. If we 
are serious about saving women's lives, we will ratify the 
CEDAW treaty.
    How does the treaty work? It outlines what equal treatment 
for women looks like in everyday life, in legal rights, 
education, health care, employment, politics, and finance. The 
United States is already among the world's leaders in rights 
for women, and ratification would not require us to change a 
single one of our laws; but the situation is different in other 
countries. Too many women cannot speak out, out of fear of 
being beaten. Too many women are sold as sex slaves. Too many 
are raped as a weapon of war. Too many girls still cannot go to 
school, and too many women are not allowed even to inherit 
property.
    In places like that, women and their governments have used 
the terms of the CEDAW treaty to set up primary school and 
health care programs for girls, for example, and to get women 
the right to vote and to inherit property. Organizations have 
used it for guidance in setting up programs to keep women from 
being beaten or killed by husbands in dowry disputes or to 
provide safe motherhood kits.
    But the United States needs to ratify the treaty, too, in 
order to give strength to these movements. I have had the 
privilege of taking part in events worldwide related to 
implementing the CEDAW treaty. I was the congressional co-chair 
of our delegation to the Fourth World Conference on Women in 
Beijing, China, in 1995. I am a member of several groups of 
parliamentarians who represent hundreds of countries.
    Often, I am asked, ``Why hasn't the United States ratified 
CEDAW? Don't you know how important this treatment is for our 
country and around the world?'' Senator Boxer, it is 
tremendously embarrassing as a Member of Congress to face these 
questions, especially when President and Mrs. Bush have spoken 
so forcefully about the need to help women in Afghanistan. I 
can only tell people that the reason we have delayed so long is 
that too many Senators have serious misunderstandings about 
what the treaty really does.
    Let me now discuss some of these misunderstandings for one 
brief moment. Opponents of this treaty have called it a radical 
version of the Equal Rights Amendment. I have to say, I only 
wish that that were true. I wish this treaty did have the power 
to require Afghanistan and other countries to treat women 
fairly, but the truth is that it has no true enforcement 
mechanisms. Ratification requires no change in anyone's laws. 
The treaty's only power is the power of public opinion.
    Critics say the treaty will let the United Nations meddle 
in U.S. family life, or that it will generate a flood of 
lawsuits. Not true. It authorizes nothing that is not already 
possible here.
    Senator Helms, I believe, has said this treaty has, ``a 
radical anti-family agenda, close quote, that denigrates 
motherhood and seeks to level out all distinctions between men 
and women.'' With respect, this is just not true, and I ask you 
to look carefully at the facts. The CEDAW committee's words on 
these matters have been twisted and taken out of context by 
treaty critics.
    For example, the critics say the committee wants all 
children to be in day care rather than at home with their 
mothers. This is an extreme distortion of a remark the 
committee made about the situation in Slovenia, where only 30 
percent of young children of working parents, fathers and 
mothers both working, were in day care. Only 30 percent were in 
day care. The committee noted that the other 70 percent were 
missing out on possible education while their mothers and 
fathers were at work. They were home alone.
    Critics say the treaty would promote abortion because it 
endorses family planning and that is a code word for abortion, 
but family planning is no code word. President Bush supports 
family planning and the right of every couple to plan the 
number and spacing of their children. The CEDAW treaty has been 
certified as abortion-neutral by the State Department; Senator 
Helms led the way in making this explicit back in 1994, adding 
a formal understanding to the treaty that notes it does not 
guarantee any right to abortion.
    In a number of cases, critics say the CEDAW committee came 
out against motherhood. In truth, the committee was lamenting 
stereotypes about women that some countries use to justify laws 
discriminating against them, or to let men avoid sharing family 
responsibilities. This was the case in Armenia and even in 
Denmark and Luxembourg.
    The committee rightly said that honoring, ``the noble role 
of the mother,'' and setting up Mother's Day, is no excuse for 
keeping pregnant women from working or denying women their job 
benefits. The vast majority of American women would agree with 
that. In fact, an overwhelming majority of American women and 
men support U.S. ratification of CEDAW, just as they support 
full human rights for women and men.
    Already, 16 States and several dozen cities and counties 
have passed resolutions calling for ratification, including Los 
Angeles, Boston, and New York. It is not just women in other 
countries who would benefit if the United States ratifies this 
treaty. American women have many rights, but they still lag 
behind men in some important areas.
    In January, my colleague, Representative John Dingell and I 
released a report from the General Accounting Office that 
compared the----
    Senator Boxer. Congresswoman, could you wrap it up here, 
please?
    Ms. Maloney [continuing].----salaries of U.S. men and women 
in management, and it found that men's pay remains higher than 
women's in virtually every field, and that in seven fields the 
gap has actually gotten worse since 1995. Other studies have 
found that large majorities of American women think the glass 
ceiling is stronger than ever before. Men seem to think it is 
only women's lack of experience that keeps them out of the 
executive suite, or that women prefer it that way. Women know 
better.
    If we ratify the CEDAW treaty, none of these things would 
change overnight, and the treaty could not require any 
additional laws to change them, but it would be a signal that 
the U.S. Government is committed to promoting and protecting 
the equality of opportunity for its own citizens; it would set 
the stage for U.S. leadership, ensuring that women are fairly 
treated here and around the world. This action is long overdue.
    In closing, I would just call for ratification and join you 
in recognizing and applauding the four women who have come 
here, two from Afghanistan, Nafisia, Nasiba, and Dr. Joji from 
India, and Azina from Egypt.
    Senator Boxer. Thank you very much.
    Congresswoman McDonald.
    Ms. Millender-McDonald. Thank you, Madam Chair. It is good 
to see you in the seat. You have absolutely been tenacious on 
behalf of women in trying to pass this treaty. I also would 
like to thank my dear friend and colleague, Congresswoman Lynn 
Woolsey, who, too, has been tenacious and has had a commitment 
to passing CEDAW.
    I speak for those young women who are outside of this door 
who are unable to come into this committee room today. We all 
know that 169 countries have ratified this treaty for the 
rights of women, and yet our own country, the United States, is 
the only industrialized western nation not on the list. Madam 
Chair, given our position in the world, by failing to endorse 
this treaty we are compromising our credibility as a world 
leader for human rights.
    The treaty for the rights of women provides benchmarks 
against which countries can measure their domestic and foreign 
policies with regard to women. Our Government made a public 
commitment at the United Nations Conference on Women held in 
Beijing in September 1995, and at that time we said that we 
would ratify this treaty by the year 2000. Well, 2000 has come 
and gone, and we have yet to honor that promise.
    The treaty is a tool that women around the world are using 
to fight the effects of discrimination. We all know the 
statistics. Women and children are the poorest groups of our 
societies. Increasingly, women and children are the primary 
victims of war. When we reflect on the desperate plight of 
Afghan women, which you have been in the lead on, they have 
been terrorized, tortured, and stripped of all human rights and 
human dignity under this Taliban law.
    We realize that the United States must make every effort to 
prevent similar tragedies from occurring in other rogue States 
and nations. By ratifying this treaty, Americans would be 
adding a powerful voice to the ongoing fight against violence 
against women. However, if we fail to ratify the treaty we are 
sending a very different signal to the world. We need to be 
able to speak out loudly and strongly on the violence against 
women, and to be able to point to our country's signature on 
the treaty. Without our ratification, we are arguing from a 
position of weakness.
    Because the United States is not a signatory, some 
Governments may feel free to ignore the treaty's mandate and 
their obligation under it. By ratifying the treaty, the United 
States will enforce and reinforce its commitment to the 
elimination of discrimination based on gender. In addition, by 
ratifying this treaty, the United States would gain 
international credibility and influence in three ways.
    First, we would be adding our voice as the most powerful 
Nation in the world to the treaty for women's rights.
    Second we would be entitled to wield even greater influence 
in the fight against violence and discrimination based on sex. 
This is because we would be entitled to nominate a United 
States' expert to be a member of this committee on this treaty. 
The committee is responsible for only monitoring the status and 
the treaty of women from countries that have ratified this 
treaty. They only try to make sure that we are in compliance.
    A report based on the committee's observation is presented 
regularly to the United Nations. One function of the report is 
to reveal human rights abuses and to encourage the countries 
where abuses have occurred to change their discriminatory laws. 
For instance, measures are being taken in many countries to 
stamp out the sexual exploitation and trafficking of women and 
girls. I met just yesterday with about 10 African women who are 
speaking about the trafficking, this horrific thing that 
happens to women in other countries and the exploitation of 
their children. This is real. This is real, committee members, 
and we are begging for this committee to ratify this treaty. A 
United States expert would bring to the committee and to the 
United Nations the knowledge, the experience and benefit of our 
own experience in combating discrimination against women.
    The third advantage that the United States would gain from 
ratifying the women's treaty relates to women in our own 
country. While women in the United States can access legal 
protections against violent attackers, the fact is that 
incidents of violence remain high right here in our country. 
Every year, about 3 million women are physically abused by 
their husbands or boyfriends, and unfortunately this has been 
documented by the United States Department of Justice Study in 
1998 and the Commonwealth Fund study in 1998. Ratification of 
the treaty for the rights of women would send a signal to 
perpetrators and victims alike that the United States is 
serious about eliminating violence at home as well as abroad.
    Madam Chair and members of this committee, it is for this 
reason that I join my colleagues today asking you to support 
this resolution and to please pass it so that we women across 
this country and across the world can feel that we are helping 
in the elimination of discrimination.
    Thank you, Madam Chair.
    [The prepared statement of Ms. Millender-McDonald follows:]

     Prepared Statement of Congresswoman Juanita Millender-McDonald

    Madam Chair: The United Nations Treaty for the Rights of Women--
also known as CEDAW (the Convention on the Elimination of All Forms of 
Discrimination Against Women) provides a universal definition of 
discrimination against women. The Treaty for the Rights of Women 
provides benchmarks against which countries can measure their domestic 
and foreign policies with regard to women.
    One hundred and sixty nine (169) countries have ratified the treaty 
but the United States is the only industrialized western nation not on 
the list. By failing to endorse the treaty, we compromise our 
credibility as a world leader for human rights. Our Government made a 
public commitment at the United Nation Conference on Women held in 
Beijing in September 1995. At that time, we said that we would ratify 
the treaty by the year 2000. The year 2000 has come and gone and we 
have not yet honored that promise.
    The Convention is a tool that women around the world are using to 
fight the effects of discrimination. We all know the sad statistics--
women and their children are the poorest group in all societies. 
Increasingly women and children are the primary victims of war. When we 
reflect on the desperate plight of Afghani women--terrorized, tortured 
and stripped of all human rights under Taliban rule--we realize that 
the United States must make every effort to prevent similar tragedies 
from occurring in other rogue states.
    By ratifying the treaty, Americans would be adding a powerful voice 
to the on-going fight against violence against women. However, if we 
fail to ratify the treaty, we are sending a very different signal to 
the world. We need to be able to speak out loudly and strongly against 
violence against women--and to be able to point to our country's 
signature on the treaty.
    Without our ratification, we are arguing from a position of 
weakness. Because the United States is not a signatory, some 
governments may feel free to ignore the treaty's mandate and their 
obligations under it. By ratifying the treaty, the United States will 
reinforce its commitment to eliminate discrimination based on gender.
    In addition, by ratifying the treaty, the United States would gain 
international credibility and influence in three ways.
    First, we would be adding our voice--as the most powerful nation in 
the world--to the treaty for Women's Rights.
    Second, we would be entitled to wield even greater influence in the 
fight against violence and discrimination based on sex. This is because 
we would be entitled to nominate a United States expert to be a member 
of the Committee on the treaty (CEDAW). The committee is responsible 
for monitoring the status and treatment of women from countries that 
have ratified the treaty. A Report based on the committee's 
observations is presented regularly to the United Nations.
    One function of the report is to reveal human rights abuses--and to 
encourage the countries where abuses have occurred--to change 
discriminatory laws. For instance, measures are being taken in many 
countries to stamp out the sexual exploitation and trafficking of women 
and girls. A United States expert would bring to the committee--and to 
the United Nations--the knowledge, experience and benefit of our own 
experience in combating discrimination against women.
    The third advantage that the United States would gain from 
ratifying the Women's Treaty relates to women in our own country. While 
women in the United States can access legal protections against violent 
attackers, the fact is that incidents of violence remain high. Every 
year, about three million women are physically abused by their husband 
or boyfriend. (United States Department of Justice study in 1998 and a 
Commonwealth Fund study in 1998.) Ratification of the Treaty for the 
Rights of Women would send a signal to perpetrators and victims alike 
that the United States is serious about eliminating violence at home as 
well as abroad.
    It is for these reasons that I support the Resolution that the 
Senate should consent to the ratification of the Treaty for the Rights 
of Women (CEDAW).
    Thank you, Madam Chair.


    Senator Boxer. Thank you very much. We want to thank the 
panel. It has been sort of a stop-and-go start, but we got you 
all in, and we are very happy. Have a good day. I want to also 
thank Hon. Jo Ann Davis who came with a con view on this 
treaty.
    We are going to move very quickly to the second panel. We 
are going to lead it off with Hon. Jeane Kirkpatrick, who is 
against the treaty, and then go to Hon. Harold Hongju Koh, 
professor at Yale Law School, and I am going to ask the 
panelists if they could move quickly, because tempus fugit, and 
we need to move forward. Thank you.
    Next will be Juliette McLennan, who is pro, then Kathryn 
Balmforth, who is con, then Christina Sommers, who is con, so 
the next panel will be three pro and three con. We are going to 
lead it off with Ambassador Kirkpatrick. I am going to ask her 
if she could take a seat right now, and ask the Congresswomen 
if they could allow that to occur, and we are going to start 
with Hon. Jeane Kirkpatrick, and I am going to ask the 
panelists to put your statement in the record.
    If you want to read it, that is fine. We are going to let 
you know when 5 minutes is up, we will give you an additional 
minute, and I would ask all the other panelists to please join 
the other two if they would at this time, Juliette McLennan, 
Jane Smith, Ms. Balmforth, Dr. Sommers, if they will all join, 
and as soon as they are set up we are going to start.
    Thank you all for your great patience, and we will be 
bringing you water, and we will start with you, Ambassador 
Kirkpatrick. We are very pleased you could come, take time out 
of your busy schedule. Please open.

STATEMENT OF HON. JEANE KIRKPATRICK, SENIOR FELLOW AND DIRECTOR 
  OF FOREIGN AND DEFENSE POLICY STUDIES, AMERICAN ENTERPRISE 
   INSTITUTE, FORMER PERMANENT REPRESENTATIVE TO THE UNITED 
                   NATIONS, WASHINGTON, D.C.

    Ambassador Kirkpatrick. Thank you very much, Senator Boxer.
    Senator Boxer. And let us pull the mike real close to you 
so everyone can hear you.
    Ambassador Kirkpatrick. Thank you very much, Senator Boxer. 
Thank you for inviting me to testify today. I want to address 
three questions very briefly:
    1. Is there significant discrimination in the world?
    2. Will the passage of the convention on the elimination 
and discrimination solve the associated problems?
    3. Will it help the women who need help most?
    Finally, maybe we ought to say, what could we do that 
might?
    The answer to the first question is, the widespread 
discrimination in many societies, including most Third World 
societies, most societies in the world, the answer is yes, 
clearly, obviously in most societies. Many, if not most, girls 
and women have little control over their lives. Almost all 
women are denied equal rights, equal educational opportunity.
    In many Third World countries, as you know, women can 
neither choose their husbands nor their marital status, nor 
control the size of their families. In many of these countries 
women are denied contraception, access to contraception, even 
if it is widely available in their countries.
    In a number of countries in Africa and the Middle East 
societies, women are trapped in early and polygamous marriages, 
denied education beyond elementary school, if that, and 
destined to live as dependents and paupers. Should they become 
widows, these are miserable circumstances. I can hardly bear to 
think about them. There are countries in which bride-burning is 
still a practice, widow-burning is still a practice. These are 
dreadful situations.
    If one thing is clear, it is that there are no global 
standards agreed upon about what constitutes discrimination 
against women particularly. It is also true, of course, that 
most of the issues associated with women specifically, like 
marriage and child-bearing are dealt with casually if at all in 
most societies.
    What I am going to address very briefly is, what could a 
convention eliminating discrimination do for women who are 
trapped, for example, in the codes governing marriage? What 
could they do for that Nigerian woman that we read about not 
long ago who was sentenced to be stoned to death because she 
was thought to be guilty of adultery? I guess she was finally 
pardoned, or that sentence was suspended. Only at the very last 
moment, though.
    This convention unfortunately is unable to have much 
effect. Because I lived at the U.N. for 5 years I became 
extremely impressed with the emptiness of words. I would like 
very much to see women all over the world have all of the 
rights that are enumerated in CEDAW. I would like to see women 
all over the world have all of the rights enumerated in the 
Universal Declaration of Human Rights, I might say, too, and I 
believe that it is important, it is more important to do than 
to speak.
    It would be very important, in my opinion, if we desire to 
make the U.N. a seat of improvement of the status of women, if 
the U.N. desired to make the U.N. the site of improvement and 
elimination of discrimination against women, they could begin 
with their own personnel policies which, though less 
discriminatory than they have been in past times, remain highly 
discriminatory. Very few women ever manage to make their way 
out of the lower ranks of U.N. personnel systems.
    They could also systematically eliminate discrimination 
against women in each and every one of their international 
programs, refugee programs, development programs, health 
programs, where when I visited those programs and supported 
them, I saw with my own eyes the incredible discrimination 
against women in some of the refugee camps, above all in the 
Afghan refugee camps, actually, in the eighties. The U.S. and 
U.N. were both trying to respect traditional culture, which 
made paupers and beggars out of the women in the camps, and 
most of the people in the camps were women.
    What really bothers me is the impression that people have 
that they have solved the problem because they have passed 
their U.N. treaty. The fact is, U.N. treaties read well and 
they act almost not at all. I mean, they simply do not lead to 
improvement and progress almost never, and unless and until 
there is implementation, then, of the treaties, and that is 
true for all the treaties, I might say, not just this treaty 
but all the treaties, and until there is implementation of the 
treaties----
    Senator Brownback. Madam Chairman, could she proceed?
    Senator Boxer. I have not stopped anybody.
    Senator Brownback. I just wanted to make sure she has the 
ability to proceed. She is probably the most knowledgeable 
witness we will have here today and----
    Senator Boxer. I think every single person here is 
extremely knowledgeable, and I did not intend to cut her off at 
all, and I said to all that the bell will go off in 5 minutes 
and then you can conclude as you wish.
    Senator Brownback. I am glad you did not intend to cut me 
off, either, but if she could just have that time to speak.
    Senator Boxer. Let me just reiterate what I said at the 
beginning. We set the clock for 5 minutes because of the press 
of time. Everyone can take as much as they need to then 
conclude their remarks. The chair will permit that. Please 
proceed.
    Ambassador Kirkpatrick. I understand that, Madam Chairman, 
and I thank you for that. I just want to emphasize that I 
believe it is cynical, if I may, to pretend that ratifying the 
global treaty will transfer or transform the practices of 
discrimination against women in almost all the societies in the 
world. If we want to help women in the most oppressed 
societies, I think we should above all try to share the lessons 
that American women have learned from experience.
    We should emphasize implementation of the Universal 
Declaration of Human Rights, because, Madam Chairman, one thing 
I am certain of, and that is that women never have their rights 
respected except in societies where men have rights respected. 
That is just a fact, and so I think maybe the focus needs to be 
on freedom and on democracy and on rule of law, and universal 
rights for everyone.
    Thank you very much.
    [The prepared statement of Ambassador Kirkpatrick follows:]

            Prepared Statement of Hon. Jeane J. Kirkpatrick

    Thank you for inviting me to testify today. The rights and roles of 
women is a subject about which I have thought and written a good deal 
in the course of my life. I have lived through very significant changes 
in the opportunities and practices that determine the lives of women in 
the United States and elsewhere. My own life and experiences have been 
importantly affected by changes in attitudes and practices concerning 
women. So naturally I have been and remain interested in this subject.
    At the time that I sought employment as a teacher of political 
science at the university level, it was still commonplace to encounter 
frank admission by some persons in authoritative positions in public 
university such as I encountered from one department chair: ``We don't 
have any women in this department and, frankly, we like it that way.'' 
Fortunately I was able to identify a department whose members had more 
open minds on this matter.
    When Ronald Reagan appointed me to serve as the U.S. Permanent 
Representative to the United Nations in his first Administration, I 
became the first woman ever to represent a major power or a Western 
Country in the United Nations; and the first woman to be ``at the 
table'' when major issues of foreign policy were decided.
    As I said, there have been major increases in the opportunities 
available to women in my lifetime.
    I desire to address three questions:

          (1) Is there significant discrimination against women in the 
        world?

          (2) Will passage of the Convention on the Elimination of 
        Discrimination solve the associated problems?

          (3) Would it help women who need help most?

There is widespread discrimination against women in many societies 
including most Third World societies. In many, if not most, of these 
societies, girls and women have little control over their lives. In 
many, women are denied equal, legal rights, and equal educational 
opportunity. In many Third World Countries women can neither choose 
their husbands, nor their marital status, nor control the size of their 
families. In many of these countries women are denied contraception 
even where it is available.
    In a number of Africa's polygamous societies women are trapped into 
early marriages, denied education beyond elementary school, if that, 
and destined to live as a dependent or a pauper should they become 
widows.
    As all women (and men) familiar with life on five continents 
understand, there are no global standards agreed upon by all concerning 
what constitutes discrimination against women. The patterns of 
relations between men and women, of distribution of roles, 
responsibilities, rights, resources, and obligations are as diverse as 
the laws and practices governing courtship, marriage, divorce, death, 
inheritance and so forth.
    Issues of reproduction and education are more complex but equally 
or more resistant to regulation by global treaties. Views vary widely 
and deeply between cultures and civilizations concerning the education 
of girls as well as boys, of age at marriage, of childbearing, divorce, 
and distribution of responsibilities in a family.
    What can a convention eliminating discrimination do for women 
trapped into Shari'a codes governing marriage, divorce and inheritance? 
I share CEDAW's desire to see ended any existing vestige of 
discrimination against women. I also believe U.S. law provides 
important defenses for U.S. women against workplace discrimination.
    No U.N. body, no U.N. code can overhaul practices in, say, West 
Africa, where some farmers have four wives, and perhaps, a concubine or 
two. It may be that U.N. bodies can influence the age for marriage.
    This convention will not help girls being sucked into polygamous 
marriages, nor left penniless by inheritance laws that give everything 
to the sons and/or the favorite wife or impose a sentence of death by 
stoning on an unfaithful wife or widow.
    The establishment of universal norms and goals can be helpful if 
the norms are relevant, not if they are so remote from the lives and 
societies of these societies being considered. A treaty such as CEDAW 
describes an ideal society and reflects realities of life in no 
society. It reflects the author's aspiration of some women who managed 
to get an education for all women: for education, employment, medical 
care, and a degree of control over their own lives.
    If taken literally, this convention can only breed cynicism.
    Should the United Nations desire to eliminate discrimination 
against women, they could and should begin with their own personnel 
policies which, though somewhat less discriminating than in the past, 
remain heavily biased against women in all policy levels.
    The U.N. could and should systematically eliminate discrimination 
in its programs, its refugee programs, its development programs, its 
health programs, its education programs. It could undertake a crash 
program to provide education for girls in societies where there is 
none.
    This convention cannot begin to guarantee American women what our 
Constitution, our laws, and practices provide us.
    It is cynical to pretend that a global treaty can transform 
societies and governments that deny citizens all rights. If we want to 
help women in the most depressed societies, we should sharp the lessons 
American women have learned from experience.
    Women have rights only in societies where men have rights. Freedom 
and democracy are what they both need.


    Senator Boxer. Thank you very much. I want to say that Hon. 
Jeane Kirkpatrick is the senior fellow and director of foreign 
and defense studies at the American Enterprise Institute, and 
of course we all remember her as a former Permanent 
Representative to the United Nations. Every one of our 
witnesses brings tremendous credibility to this topic, and it 
is my pleasure now to introduce Hon. Harold Hongju Koh, who is 
a professor at Yale Law School, who is a former Assistant 
Secretary of State for Human Rights.
    We welcome you, and again I will reiterate we have the 5- 
minute clock. When it turns red, just try to collect your 
thoughts and finish up.

   STATEMENT OF HON. HAROLD HONGJU KOH, PROFESSOR, YALE LAW 
 SCHOOL, FORMER ASSISTANT SECRETARY OF STATE FOR HUMAN RIGHTS, 
                         NEW HAVEN, CT

    Mr. Koh. Let me commend you, Senators, for your action to 
move to ratify this long overdue convention, which I have 
studied and worked for both in an academic capacity and as 
Assistant Secretary of State. In his recent State of the Union 
Address, President Bush said, ``America will always stand for 
the nonnegotiable demands of human dignity, the rule of law, 
limits on the powers of the State, and respect for women,'' 
among other things. There is no more fitting way for this 
administration and this Senate to answer that demand than by 
moving quickly to ratify this treaty.
    Senator Boxer, I want to commend both you for your efforts 
to make these hearings a reality and Chairman Biden, as the 
principal author of the Violence Against Women Act, for your 
sustained efforts to secure a national commitment to end 
violence against women across the country.
    My message today is that this commitment should not stop at 
the water's edge. Particularly after September 11, the U.S. 
cannot be a world leader in guaranteeing progress for human 
rights--whether in Afghanistan, in the United States, or around 
the world--unless it is also a party to this treaty on women's 
rights.
    You have heard about the background and history of the 
CEDAW. Let me simply reinforce Ambassador Kirkpatrick's request 
that we implement the Universal Declaration of Human Rights. 
That is precisely what this treaty is designed to do. It says 
in the Universal Declaration that everyone is entitled to the 
rights in the universal declaration ``without distinction of 
any kind such as race, color, or sex,'' and it was for that 
reason that they moved to the drafting and ratification of this 
treaty.
    You have heard that at this moment our country is the only 
established industrialized democracy in the world that has not 
ratified the women's rights treaty. That is a national disgrace 
for a country that views itself as a world leader on human 
rights.
    So why should we ratify? For two reasons. First, 
ratification would make an important global statement regarding 
the seriousness of our commitment on these issues. Second, it 
would have a major impact on ensuring both the appearance and 
the reality that our national practices fully satisfy or exceed 
international standards.
    Senator Brownback, you mentioned the things that occurred 
in Afghanistan when they had simply signed but not ratified 
CEDAW. Yet that is precisely the situation that we are now in. 
We have signed but not ratified CEDAW, and ratification is 
clearly the next step that we need to take. In response to 
Ambassador Kirkpatrick, I would say, it may well be that 
ratifying this treaty is not the whole answer, but it is 
certainly an important part of the answer.
    You have heard about the provisions of the CEDAW. Let me 
say from my own experience at the State Department, where I 
supervised the production of annual country reports on human 
rights conditions worldwide, that a country's ratification of 
CEDAW is one of the strongest indicators of the strength of its 
commitment to internalize the norm of gender equality into 
domestic law. For us, to obey the treaty's provisions would not 
be burdensome, while countries with far less impressive records 
have, in fact, ratified the treaty, and these are countries we 
would never consider to be our equal on such matters.
    From my time in the Government I can also say that our 
continuing failure to ratify the CEDAW has reduced our global 
standing; it has damaged our diplomatic relations, and it has 
hindered our ability to lead in the international human rights 
community. Nations that are otherwise our allies cannot 
understand why we have not taken this obvious step. Our 
European and Latin American allies in particular regularly 
question and criticize us for this both in public settings and 
in private diplomatic meetings. They have challenged our moral 
leadership on human rights, which is devastating after 
September 11; and perhaps most important, our exclusion from 
this treaty has provided anti-American diplomatic ammunition to 
countries who have exhibited far worse records on human rights 
generally and women's rights in particular. So, to persist in 
nonratification, I think, would be extremely damaging.
    Will ratification help? As a recent comprehensive world 
survey issued by the U.N. Development Fund for Women 
chronicles, numerous countries around the world who have 
ratified CEDAW have found that it has helped to empower them to 
change their constitutions, to pass new laws, and influence 
court decisions. It would have the same effect here. Most 
fundamentally, ratification would further our national 
interest. You do not have to take my word for it. Secretary 
Powell put it well earlier this year when he said, ``the 
worldwide advancement of women's issues is not only in keeping 
with the deeply held values of the American people, it is 
strongly in our national interest as well.''
    I have studied this treaty for many years. I have found 
nothing in it that even arguably jeopardizes our national 
interest. The provisions are entirely consistent with the 
letter and spirit of the Constitution, both State and Federal. 
The U.S. can and should accept virtually all of the obligations 
without qualification. It seems to me, in fact, that the 
various understandings and reservations that have been proposed 
in the past are too extensive. Only one of them, regarding free 
speech, I think, is advisable to preserve the integrity of the 
treaty.
    I can address quickly some of the fallacies that have been 
circulated about the likely impact of ratification. First, that 
CEDAW supports abortion rights. This is flatly untrue. There is 
no provision in CEDAW that mandates abortion or contraception 
on demand. CEDAW does not create an international right to 
abortion. The treaty itself is neutral on abortion, allowing 
policies in this area to be set by signatory States. Its goal 
is to ensure equal access to family planning information for 
men and women alike. In fact, some countries where abortion is 
illegal, among them Ireland, Rwanda, and Burkino Faso, have 
ratified CEDAW.
    Second, the claim that CEDAW would somehow undermine the 
American family by redefining gender roles. It contains no 
provisions that seek to regulate any constitutionally protected 
interest and, as you know, the U.S. Constitution limits the 
Government's power to interfere in family matters.
    Third, some have falsely suggested the ratification of 
CEDAW would require decriminalization of prostitution. Again, 
Article 6 specifically states that countries shall take all 
appropriate matters to suppress forms of trafficking in women 
and exploitation of prostitution in women. Some have suggested 
that ratification would require a legalization of same-sex 
marriage. Whatever view you may hold about this practice, it is 
clearly not contained in the treaty, which requires only 
elimination of discrimination against men and women alike.
    Senator Boxer. The red light and the yellow light got 
confused, so your time is up, if you could just wrap up.
    Mr. Koh. Yes, Senator. In closing, let me say how much this 
means to every American. My mother came to this country from 
Korea, and is now a naturalized American citizen. My wife is an 
American-born citizen of Irish and British heritage, and my 
daughter, who will turn 16 years old in 10 days time, is a 
young American woman.
    I cannot explain to my daughter why her grandmother and 
mother would be protected by CEDAW in their ancestral countries 
but she is not protected by it in the United States, which 
professes to be a world leader on gender equality. I cannot 
explain to her why the country that I served as Assistant 
Secretary for Human Rights has for so long failed to ratify the 
authoritative instrument on women's human rights, and finally, 
I cannot explain why we insist on keeping company with such 
non-ratifying countries as Iran, Sudan, and Syria, in which 
human rights and women's rights have been brutally repressed.
    So our choice is simple. Our failure to ratify the treaty 
will undermine our efforts to fight for democracy and human 
rights worldwide. Ratification now would be both prudent 
foreign policy and simple justice.
    Thank you.
    [The prepared statement of Mr. Koh follows:]

           Prepared Statement of Professor Harold Hongju Koh

    Chairman Biden, Senator Boxer, Members of the committee:
    Thank you for inviting me to appear before your committee today to 
testify regarding the long-overdue United States Ratification of the 
Convention on the Elimination of All Forms of Discrimination Against 
Women (CEDAW or Women's Convention). I have studied and argued for 
ratification of that Convention for more than a decade, first in my 
academic capacity as Gerard C. and Bernice Latrobe Smith Professor of 
International Law (and from 1993-1998 as Director of the Orville H. 
Schell, Jr. Center for International Human Rights) at Yale Law School, 
where I have taught since 1985, and then from 1998 to 2001 when I 
served as Assistant Secretary of State for Democracy, Human Rights and 
Labor. \1\
---------------------------------------------------------------------------
    \1\ See, e.g., Testimony of Harold Hongju Koh, Assistant Secretary 
of State for Democracy, Human Rights and Labor. Before the Subcommittee 
on International Operations and Human Rights, U.S. House of 
Representatives, March 8, 2000.
---------------------------------------------------------------------------
    In his State of the Union address, President George W. Bush 
recently announced that ``America will always stand for the non-
negotiable demands of human dignity: the rule of law; limits on the 
power of the state; respect for women; private property; free speech; 
equal justice; and religious tolerance'' (emphasis added). I can 
imagine no more fitting way for this Administration and this Senate to 
answer that demand than by moving quickly to ratify this treaty for the 
rights of women.
    I am particularly honored to appear here today in front of Senators 
who have been such strong advocates for gender equality over so many 
years. Senator Boxer, let me commend you for your efforts during these 
past several Congresses to make this hearing a reality, particularly by 
introducing S. Res. 237, which called not just for hearings on CEDAW 
ratification, but also for a date certain for Senate action. Let me 
equally commend you, Chairman Biden, as principal author of the 
Violence Against Women Act, for your sustained efforts to secure a 
national commitment to end violence and discrimination against women 
across this country.
    My main message today is that this commitment should not stop at 
the water's edge. Particularly after September 11, America cannot be a 
world leader in guaranteeing progress for women's human rights, whether 
in Afghanistan, here in the United States, or around the world, unless 
it is also a party to the global women's treaty.
    Let me first review the background and history of CEDAW; second, 
explain why ratifying that treaty would further our national 
commitments to eliminating gender discrimination, without jeopardizing 
our national interests; and third, explain why some concerns 
occasionally voiced about our ratification of this treaty are, upon 
examination, completely unfounded.
    First, some history. The United Nations Charter reaffirms both the 
faith of the peoples of the United Nations ``in the equal rights of men 
and women,'' Preamble, and their determination to promote respect for 
human rights ``for all without distinction as to race, sex, language, 
or religion.'' Art. 1(3). In 1948, the Universal Declaration of Human 
Rights similarly declared that ``everyone'' is entitled to the rights 
declared there ``without distinction of any kind, such as race, colour, 
(or) sex  . . .  .'' Art. 2. In 1975, a global call for an 
international convention specifically to implement those commitments 
emerged from the First World Conference on Women in Mexico City. But 
until 1979, when the General Assembly adopted the CEDAW, there was no 
convention that addressed comprehensively women's rights within 
political, social, economic, cultural, and family life. After years of 
drafting, the United Nations adopted the Convention on the Elimination 
of All Forms of Discrimination Against Women in December 18, 1979, and 
the Convention entered into force in September 1981.
    In the more than two decades since, 169 nations other than our own 
have become parties to the Convention. Only nineteen United Nations 
member states have not. That list includes such countries as 
Afghanistan, Bahrain, Iran, Somalia, Sudan, Syria, Qatar, and the 
United Arab Emirates. To put it another way, the United States is now 
the only established industrialized democracy in the world that has not 
yet ratified the CEDAW treaty. Frankly, Senators, this is a national 
disgrace for a country that views itself as a world leader on human 
rights.
    Why should the United States ratify this treaty? For two simple 
reasons. First, ratification would make an important global statement 
regarding the seriousness of our national commitment to these issues. 
Second, ratification would have a major impact in ensuring both the 
appearance and the reality that our national practices fully satisfy or 
exceed international standards.
    The CEDAW treaty has been accurately described as an international 
bill of rights for women. The CEDAW simply affirms that women, like the 
rest of the human race, have an inalienable right to live and work free 
of discrimination. The Convention affirms the rights of all women to 
exercise on an equal basis their ``human rights and fundamental 
freedoms in the political, economic, social, cultural, civil or any 
other field.'' \2\
---------------------------------------------------------------------------
    \2\ Art. 1.
---------------------------------------------------------------------------
    The treaty defines \3\ and condemns discrimination against women 
\4\ and announces an agenda for national action to end such 
discrimination. By ratifying the treaty, states do nothing more than 
commit themselves to undertaking ``appropriate measures'' \5\ toward 
ending discrimination against women, steps that our country has already 
begun in numerous walks of life. The CEDAW then lays a foundation for 
realizing equality between women and men in these countries by ensuring 
women's equal access to, and equal opportunities in, public and 
political life--including the right to vote, to stand for election, \6\ 
to represent their governments at an international level, \7\ and to 
enjoy equal rights ``before the law'' \8\--as well as equal rights in 
education, \9\ employment, \10\ health care, \11\ marriage and family 
relations, \12\ and other areas of economic and social life. \13\ The 
Convention directs States Parties to ``take into account the particular 
problems faced by rural women,'' \14\ and permits parties to take 
``temporary special measures aimed at accelerating de facto equality'' 
between men and women, a provision analogous to one also found in the 
Convention on the Elimination of All Forms of Racial Discrimination, 
which our country has already ratified. \15\
---------------------------------------------------------------------------
    \3\ See Art. 1 (``the term `discrimination against women' shall 
mean any distinction, exclusion or restriction made on the basis of sex 
which has the effect or purpose of impairing or nullifying the 
recognition, enjoyment or exercise by women, irrespective of their 
marital status, on a basis of equality of men and women, of human 
rights and fundamental freedoms in the political, economic, social, 
cultural, civil or any other field.'').
    \4\ See Art. 2 (``States Parties condemn discrimination against 
women in all its forms, agree to pursue by all appropriate means and 
without delay a policy of eliminating discrimination against women and, 
to this end, undertake'' to embody the principle of gender equality 
into national laws.).
    \5\ See Art. 3.
    \6\ See Art. 7.
    \7\ See Art. 8.
    \8\ See Art. 15.
    \9\ See Art. 10.
    \10\ See Art. 11.
    \11\ See Art. 12.
    \12\ See Art. 16.
    \13\ See Art. 13.
    \14\ See Art. 14.
    \15\ Compare CEDAW Art. 4 with International Convention on the 
Elimination of All Forms of Racial Discrimination Art. 1(4).
---------------------------------------------------------------------------
    Ratifying this treaty would send the world the message that we 
consider eradication of these various forms of discrimination to be 
solemn, universal obligations. The violent human rights abuses we 
recently witnessed against women in Afghanistan, Bosnia, Haiti, Kosovo, 
and Rwanda painfully remind us of the need for all nations to join 
together to intensify efforts to protect women's rights as human 
rights. At the State Department, where I supervised the production of 
the annual country reports on human rights conditions worldwide, I 
found that a country's ratification of the CEDAW is one of the surest 
indicators of the strength of its commitment to internalize the 
universal norm of gender equality into its domestic laws.
    Let me emphasize that in light of our ongoing national efforts to 
address gender equality through state and national legislation, 
executive action, and judicial decisions, the legal requirements 
imposed by ratifying this treaty would not be burdensome. Numerous 
countries with far less impressive practices regarding gender equality 
than the United States have ratified the treaty, including countries 
whom we would never consider our equals on such matters, including 
Iraq, Kuwait, North Korea, and Saudi Arabia.
    At the same time, from my direct experience as America's chief 
human rights official, I can testify that our continuing failure to 
ratify CEDAW has reduced our global standing, damaged our diplomatic 
relations, and hindered our ability to lead in the international human 
rights community. Nations that are otherwise our allies, with strong 
rule-of-law traditions, histories, and political cultures, simply 
cannot understand why we have failed to take the obvious step of 
ratifying this convention. In particular, our European and Latin 
American allies regularly question and criticize our isolation from 
this treaty framework both in public diplomatic settings and private 
diplomatic meetings.
    Our nonratification has led our allies and adversaries alike to 
challenge our claim of moral leadership in international human rights, 
a devastating challenge in this post-September 11 environment. Even 
more troubling, I have found, our exclusion from this treaty has 
provided anti-American diplomatic ammunition to countries who have 
exhibited far worse record on human rights generally, and women's 
rights in particular. Persisting in the aberrant practice of 
nonratification will only further our diplomatic isolation and 
inevitably harm our other United States foreign policy interests.
    Treaty ratification would be far more than just a paper act. The 
treaty has demonstrated its value as an important policy tool to 
promote equal rights in many of the foreign countries that have 
ratified the CEDAW. As a recent, comprehensive world survey issued by 
the United Nations Development Fund for Women chronicles, numerous 
countries around the world have experienced positive gains directly 
attributable to their ratification and implementation of the CEDAW. 
\16\ CEDAW has been empowering women around the globe to change 
constitutions, pass new legislation, and influence court decisions in 
their countries. Ratification of the CEDAW by the United States would 
similarly make clear our national commitment to ensure the equal and 
nondiscriminatory treatment of American women in such areas as civil 
and political rights, education, employment, and property rights
---------------------------------------------------------------------------
    \16\ See, generally, UNIFEM, ``Bringing Equality Home: Implementing 
the Convention on the Elimination of All Forms of Discrimination 
Against Women (CEDAW),'' available at:
          http://www.unifem.undp.org/cedaw/cedawen4.htm.
---------------------------------------------------------------------------
    Most fundamentally, ratification of CEDAW would further our 
national interests. Secretary of State Colin Powell put it well when he 
said earlier this year: ``The worldwide advancement of women's issues 
is not only in keeping with the deeply held values of the American 
people; it is strongly in our national interest as well. . . . Women's 
issues affect not only women; they have profound implications for all 
humankind. Women's issues are human rights issues. . . . We, as a world 
community, cannot even begin to tackle the array of problems and 
challenges confronting us without the full and equal participation of 
women in all aspects of life.''
    After careful study, I have found nothing in the substantive 
provisions of this treaty that even arguably jeopardizes our national 
interests. Those treaty provisions are entirely consistent with the 
letter and spirit of the United States Constitution and laws, both 
state and federal. The United States can and should accept virtually 
all of CEDAW's obligations and undertakings without qualification. 
Regrettably, the Administration has not provided a witness here today 
to set forth its views on the ratification of this treaty. Although 
past Administrations have proposed that ratification be accompanied by 
certain reservations, declarations, and understandings, only one of 
those understandings, relating to limitations of free speech, 
expression and association, seems to me advisable to protect the 
integrity of our national law. \17\
---------------------------------------------------------------------------
    \17\ That proposed understanding, included in the 1994 Senate 
Foreign Relations Committee Report, states in relevant part, that the 
United States understands that by ratifying it could not 
constitutionally ``accept any obligation under this Convention, in 
particular under Articles 5, 7, 8, and 13, to restrict those rights [of 
freedom of speech, expression and association), through the adoption of 
legislation or any other measures, to the extent that they are 
protected by the Constitution and laws of the United States.'' S. 384-
10, Exec. Rep. Sen. Comm. On For. Rel. Oct. 3, 1994, reprinted in 89 
Am. J. Int'l L. 108 (1995).
---------------------------------------------------------------------------
    Finally, let me address some myths and fallacies that have been 
circulated about the likely impact of United States ratification of the 
CEDAW. The most common include the following:
    First, that CEDAW supports abortion rights by promoting access to 
``family planning.'' This is flatly untrue. There is absolutely no 
provision in CEDAW that mandates abortion or contraceptives on demand, 
sex education without parental involvement, or other controversial 
reproductive rights issues. CEDAW does not create any international 
right to abortion. To the contrary, on its face, the CEDAW treaty 
itself is neutral on abortion, allowing policies in this area to be set 
by signatory states and seeking to ensure equal access for men and 
women to health care services and family planning information. In fact, 
several countries in which abortion is illegal--among them Ireland, 
Rwanda, and Burkina Faso--have ratified CEDAW.
    A second fallacy is that CEDAW ratification would somehow undermine 
the American family by redefining traditional gender roles with regard 
to the upbringing of children. In fact, CEDAW does not contain any 
provisions seeking to regulate any constitutionally protected interests 
with respect to family life. The treaty only requires that parties 
undertake to adopt measures ``prohibiting all discrimination against 
women'' and to ``embody the principle of the equality of men in women'' 
in national laws ``to ensure, through law and other appropriate means, 
the practical realization of this principle.'' How best to implement 
that obligation consistent with existing United States constitutional 
protections--which as you know, limit the government's power to 
interfere in family matters, including most parental decisions 
regarding childrearing--is left for each country to decide for itself.
    Third, some have falsely suggested that ratification of CEDAW would 
require decriminalization of prostitution. Again, the text of the 
treaty is to the contrary. CEDAW's Article 6 specifically states that 
countries that have ratified CEDAW ``shall take all appropriate 
measures, including legislation, to suppress all forms of traffic in 
women and exploitation of prostitution in women.''
    Fourth, some claim that if CEDAW were U.S. law, it would outlaw 
single-sex education and require censorship of school textbooks. In 
fact, nothing in CEDAW mandates abolition of single-sex education. As 
one way to encourage equal access to quality education for all 
children, Article 10 requires parties to take all appropriate measures 
to eliminate ``any stereotyped concept of the roles of men and women at 
all levels and in all forms of education by encouraging [not requiring] 
coeducation and other types of education which will help to achieve 
this aim . . .,'' (emphasis added) including, presumably, single-sex 
education that teaches principles of gender equality. CEDAW also 
encourages the development of equal education material for students of 
both genders. This provision is plainly designed not to disrupt 
educational traditions in countries like ours, but rather, to address 
those many countries in the world (like Afghanistan during Taliban 
rule) in which educational facilities for girls are either nonexistent 
or remain separate and unequal.
    Fifth, some have suggested that U.S. ratification of CEDAW would 
require the legalization of same-sex marriage. Whatever view one may 
hold regarding the desirability of same-sex marriage, this treaty 
plainly contains no such requirement. Article 10 of CEDAW requires only 
elimination of discrimination directed against women ``in all matters 
related to marriage and family relations.'' Thus, for example, the 
practice of polygamy is inconsistent with the CEDAW because it 
undermines women's equality with men and potentially fosters severe 
financial inequities. Article 10 would neither require nor bar any 
national laws regarding same-sex marriage, which by their very nature, 
would apply equally to men and women.
    Finally, and most pervasively, opponents of CEDAW have claimed that 
U.S. ratification would diminish our national sovereignty and states' 
rights by superseding or overriding our national, state or local laws. 
Given the broad compatibility between the treaty requirements and our 
existing national laws, however, very few occasions will arise in which 
this is even arguably an issue. Moreover, the treaty generally requires 
States to use ``appropriate measures'' to implement the non-
discrimination principle, which by its terms accords some discretion to 
member countries to determine what is ``appropriate'' under the 
national circumstances. Finally, the Senate is, of course, free to 
address any material discrepancies between national law and the treaty 
by placing understandings upon its advice and consent, along the lines 
of the ``freedom of speech'' understanding discussed above, or by the 
Congress passing implementing legislation--as it has done, for example, 
to effectuate the Genocide Convention--specifying the precise ways in 
which the Federal legislature will carry out our international 
obligations under this treaty.
    Ironically, many of the unfounded claims about the likely effects 
of CEDAW ratification have been asserted by self-proclaimed advocates 
of states' rights. In fact, within our own country, the emerging trend 
has been the opposite. Broad sentiment has been emerging at both the 
state and local level to incorporate the CEDAW requirements into local 
law. As I speak, governmental bodies in some fifteen states and Guam, 
\18\ sixteen counties \19\ and forty-two cities \20\ have adopted 
resolutions or instruments endorsing CEDAW or adopting it on behalf of 
their jurisdictions. Far from CEDAW imposing unwanted obligations on 
local governments, local governments are in fact responding to the 
demands of their citizens, who have become impatient at the lack of 
federal action to implement these universal norms into American law.
---------------------------------------------------------------------------
    \18\ To date, legislative bodies have endorsed US ratification of 
the CEDAW in CA (twice), CT (Senate), FL (House), HI (House), IL 
(House), IA, ME, MA, NH, NY, NC, RI (Gen. Assembly), SD (House), VT, 
Wisconsin (Senate), and the territory of Guam. For a complete listing, 
see Working Group on Ratification of UNCEDAW, Human Rights for All, at 
41-42, available at:
          http://www.amnestyusa.org/commit/cedawbw.pdf.
    \19\ These include counties in California, Illinois, Kentucky, 
Ohio, Florida, Wisconsin, and Washington.
    \20\ San Francisco, California, for example, has enacted a city 
ordinance designed to incorporate CEDAW into the functioning of the 
city by promoting equality in the city's treatment of public employees, 
its budgetary spending, and its provision of municipal services to city 
inhabitants.
---------------------------------------------------------------------------
    A host of other misconceptions exist about CEDAW, some of them 
preposterous, which I would be happy to address in response to your 
specific questions. \21\ But my main point is clear: we must not let 
unfounded fears projected onto the CEDAW prevent us from the long 
overdue step of ratifying this important document.
---------------------------------------------------------------------------
    \21\ One such preposterous claim, for example, is that U.S. 
ratification of the CEDAW would somehow require the United States to 
abolish Mother's Day. Nothing in the treaty requires this. Rather than 
denigrating motherhood, the CEDAW's central aim is to support 
motherhood, by promoting women's freedom to make choices on an equal 
basis with men. Nothing in that goal conflicts with our proud American 
tradition of celebrating both Mother's Day and Father's Day every year, 
as expressions of this country's commitment to gender equality, which 
is fully consistent with the nondiscrimination goals of the CEDAW.
---------------------------------------------------------------------------
    Particularly in a time of terror, promoting human rights and 
eradicating discrimination should not be partisan issues. As President 
Bush recently reminded us, the United States cannot fight a war on 
terrorism alone; it needs cooperation not only from its current allies, 
but also from the rest of the world. ``We have a great opportunity 
during this time of war,'' he said, ``to lead the world toward the 
values that will bring lasting peace  . . .  [such as] the non-
negotiable demands of human dignity [that include] respect for women.  
. . .'' First Lady Laura Bush echoed that sentiment on International 
Women's Day 2002, when she said, ``People around the world are looking 
closely at the roles that women play in society. And Afghanistan under 
the Taliban gave the world a sobering example of a country where women 
were denied their rights and their place in society  . . .  . Today, 
the world is helping Afghan women return to the lives that they once 
knew.  . . . Our dedication to respect and protect women's rights in 
all countries must continue if we are to achieve a peaceful, prosperous 
world.  . . . Together, the United States, the United Nations and all 
of our allies will prove that the forces of terror can't stop the 
momentum of freedom.''
    The world looks to America for leadership on human rights, both in 
our domestic practices and in our international commitments. Ours is a 
nation conceived in liberty and dedicated to the proposition that all 
human beings--not just men--are created equal. Our country has fought a 
civil war and a centuries-long social struggle to eliminate racial 
discrimination. It is critically important that we seize this 
opportunity to announce unequivocally to the world that we, of all 
nations, insist on the equality of all human beings, regardless of 
gender.
    Senators, in closing let me say how much United States ratification 
of this important treaty means to every American. My mother, Hesung 
Chun Koh, came to this country more than fifty years ago from the 
Republic of Korea and found equal opportunity here as a naturalized 
American citizen. My wife, Mary-Christy Fisher, is a natural-born 
American citizen and lawyer of Irish and British heritage. I am the 
father of a young American, Emily Koh, who will turn sixteen years old 
in ten days' time.
    Although I have tried, I simply cannot give my daughter any good 
reason why her grandmother and mother would have been protected by 
CEDAW in their ancestral countries, but that she is not protected by it 
in the United States, which professes to be a world leader in the 
promotion of women's rights and gender equality. I cannot explain to 
her why this country we love, and which I have served as Assistant 
Secretary of State for Human Rights, has for so long failed to ratify 
the authoritative human rights treaty that sets the universal standard 
on women's equality. Finally, I cannot explain why, by not ratifying, 
the United States chooses to keep company with such countries as 
Afghanistan, Iran, Sudan, and Syria, in which human rights and women's 
rights have been brutally repressed.
    The choice is simple. Our continuing failure to ratify this treaty 
will hamper and undermine our efforts to fight for democracy and human 
rights around the world. Ratification now of the CEDAW treaty would be 
both prudent foreign policy and simple justice.
    Thank you. I now look forward to answering any questions you may 
have.


    Senator Boxer. Thank you very much.
    We will hear from Ms. Kathryn Ogden Balmforth, member of 
the firm of Wood Crapo, LLC, Salt Lake City, Utah, former 
director of the World Family Policy Center, Brigham Young 
University, and we are very grateful for your presence here, 
and please begin.

STATEMENT OF MS. KATHRYN OGDEN BALMFORTH, MEMBER, FIRM OF WOOD 
CRAPO, LLC, SALT LAKE CITY, UTAH, FORMER DIRECTOR, WORLD FAMILY 
      POLICY CENTER, BRIGHAM YOUNG UNIVERSITY, PROVO, UTAH

    Ms. Balmforth. Thank you, Madam Chairman, members of the 
committee. I approach CEDAW as a civil rights lawyer, having 
represented both plaintiffs and defendants in discrimination 
cases. As you said, I am a member of the firm of Wood Crapo in 
Salt Lake City, a firm founded by a woman. I took a leave from 
my firm to serve for 3 years as the director of the World 
Family Policy Center at Brigham Young University.
    The World Family Policy Center is an interdisciplinary 
center drawing expertise from the law school, the school of 
family life, and the Center for International Studies. The 
center works with diplomats at the United Nations to protect 
the family from efforts to denigrate its status and protection 
in international documents.
    I oppose CEDAW for two reasons. First, I can say 
unequivocally that CEDAW would offer nothing of substance to 
American women. We have a highly developed system of civil 
rights laws protecting women in this country. Those laws are 
crafted by democratically elected representatives and 
interpreted by courts designed to protect fundamental rights 
and liberties which are the birthright of Americans. If 
Americans do not like these laws, there are mechanisms for 
Americans to change them.
    Our system is not perfect because people are not perfect, 
but it is so far superior to anything that exists at the United 
Nations in establishing the rule of law that it would be the 
sheerest folly to subordinate our right to legislate these 
purely domestic matters, even to the slightest degree, to some 
international body, and I must say that on its face CEDAW calls 
for changes in constitutions and legislation to the extent they 
do not comply with CEDAW.
    Clearly, you cannot ignore the pronouncements of the CEDAW 
committee, as the committee is set up by the treaty itself to 
monitor compliance. In so doing, they interpret and apply the 
treaty. They issue general recommendations trying to flesh out 
these very vague and broad terms of the treaty, and as soon as 
the optional protocol goes into existence they will further 
interpret the treaty by deciding individual cases brought under 
the treaty. You simply cannot ignore the pronouncements of the 
CEDAW committee if you are thinking of ratifying CEDAW.
    Second, I oppose CEDAW because both on its face and a 
fortiori, as interpreted by the doctrinaire CEDAW committee, it 
is a threat to fundamental freedoms everywhere. This is not a 
regime behind which the United States should throw its power 
and prestige.
    An important characteristic of American civil rights law is 
that it is crafted legislatively and judicially to balance 
society's interests in preventing discrimination with other 
equally important societal interests such as right to speech, 
free exercise of religion, privacy, and parental rights. Rather 
than acknowledging these fundamental rights, the language of 
CEDAW is so sweeping and overbroad that it threatens to overrun 
them and any other standing in its path.
    Article I of CEDAW defines discrimination as any 
distinction on the basis of sex in any field.
    Article II requires Governments to eliminate all 
discrimination, not just by Government, but by any person, 
organization, or enterprise.
    Article V requires Governments to modify the social and 
cultural patterns of conduct of men and women with a view to 
achieving the elimination of all practices which are based on 
stereotyped roles for men and women.
    CEDAW thus requires Governments to intrude in all areas, no 
matter how private, consensual, or even sacred. On its face, 
CEDAW calls for an unprecedentedly intrusive Government to 
exert its power against family, private interaction between men 
and women, religion, and even thought.
    The reports of the CEDAW committee offer no hope that 
restraint might be exercised in the interpretation of its 
overbroad language. To the contrary, the committee reports are 
disturbingly ad hoc, undisciplined, and inconsistent. I might 
add that advocates of the CEDAW and the CEDAW committee like to 
dignify the committee pronouncements by calling them 
jurisprudence. There is no requirement that the so-called 
experts forming this committee be jurists, let alone prudent 
ones, and they show none of the restraint or thought of 
traditional jurisprudence.
    The committee shows no respect for competing fundamental 
rights. They show no reluctance to issue new rights even when 
the committee knows that Governments would never have ratified 
CEDAW if those rights had been spelled out in the treaty. In 
fact, in 1996, the High Commissioner for Human Rights, the U.N. 
Population Fund, and the Secretary cosponsored a roundtable 
discussion for the heads of the treaty bodies, including CEDAW 
to urge reinterpretation of those treaties to include 
controversial unagreed rights such as abortion and lesbianism.
    The CEDAW committee has fully complied. My written remarks 
contain numerous citations to some of the overreaching and 
outrageous pronouncements of the committee. This is a 
representative list. It is by no means complete. Briefly, the 
committee routinely instructs countries to liberalize their 
abortion laws. They have issued an interpretive document which 
coyly states that Article XII of CEDAW prohibits 
criminalization, quote, of medical procedures only needed by 
women.
    The committee has even gone so far as to state in the case 
of Italy and one of the former Soviet republics whose name 
escapes me now, and I apologize for that, that women's rights 
are violated when hospitals refuse to do abortions for reasons 
of conscience, thus implying that this implied right to 
abortion trumps the rights of conscience, which are expressed 
in other international documents.
    The committee has instructed Kyrgyzstan to legalize 
lesbianism. The committee did instruct China to decriminalize 
prostitution, and frankly I have always thought that if 
something is no longer criminalized it is legal, and if there 
is a distinction between decriminalization and legalization I 
think it is too fine a distinction to have any practical 
meaning. It commended Greece for legalizing prostitution and 
admonished Germany to make sure its prostitutes received all 
benefits from labor and employment laws.
    Now, I would say that on its face the document says that it 
purports to be opposed to trafficking and exploitation of 
prostitution. It is a very careful and somewhat sneaky 
distinction being made by the document and in its application, 
because it says nothing about voluntary prostitution, and in 
fact I sat and watched at the 5-year followup to Beijing as 
western Governments, including ours, I am ashamed to say, 
refused to take any position in opposition to voluntary 
prostitution.
    Senator Boxer. I would ask you if you could wrap up.
    Ms. Balmforth. OK. The primary characteristics of the 
committee are its unrelenting hostility to religion and to any 
traditional family structures, and this does not just mean in 
Afghanistan, although advocates of the treaty routinely point 
to Afghanistan as a justification for the overreach of the 
treaty, thus proving the adage that hard cases make bad law.
    The committee attacks religion incrementally. You only have 
to look at the instruction to Libya to reinterpret the Koran in 
ways the committee finds permissible to see its disdain for 
religion, but it has also explicitly found in one of its 
general comments that religion disadvantages women in all 
countries.
    And even if a country has completely secularized its 
system, the committee finds noncompliance if people persist in 
thinking and acting and voting according to their religious 
convictions. They recently did so to Ireland, because the Irish 
persist in thinking, acting, and voting like Catholics, 
especially with respect to abortion. The committee invoked 
Article V requiring Ireland to step in to eradicate the effects 
of Catholicism on their culture to the extent it offended the 
CEDAW committee's interpretation of CEDAW.
    Senator Boxer. I would ask you to please wrap it up.
    Ms. Balmforth. I will do that.
    There has been a great deal of talk about reservations to 
the treaty. I do not believe, for a number of legal reasons, 
that appropriate reservations can be made to protect against 
whatever rights the committee may invent in the future. There 
is a lot of high-flown language and noble sentiment attached to 
this treaty. As usual, the devil is in the details, and as a 
woman who is familiar with some of these details, I am very 
much opposed to ratification.
    Thank you.
    [The prepared statement of Ms. Balmforth follows:]

            Prepared Statement of Kathryn O. Balmforth, Esq.

    I oppose ratification of CEDAW for two reasons. First, CEDAW offers 
nothing to American women. Second, CEDAW is so overreaching and flawed 
that it is a threat to civil rights and liberties everywhere. America 
should not throw its power and prestige behind it.
    I approach CEDAW as an American civil rights lawyer, having 
represented both plaintiffs and defendants in anti-discrimination 
cases. I took a three year leave from my practice to serve as the 
Director of the World Family Policy Center at Brigham Young University, 
and there became familiar with CEDAW.
    I can say unequivocally that ratification of CEDAW would offer 
nothing of substance to American women. The United States already has a 
highly developed system of civil rights laws promoting equality for 
women. It is a system developed, and developing, through laws passed by 
legislators and courts interpreting and applying those laws. The 
legislatures directly reflect the will of the American people, while 
the courts are designed to protect fundamental rights and freedoms that 
Americans claim as their birthright. If Americans are dissatisfied with 
the law, there are mechanisms for Americans to change it.
    Does the American system always operate perfectly? Of course not. 
Human beings are fallible. But the rule of law as established in our 
system is so far superior to anything that exists in the international 
human rights treaty system, that it would be the sheerest folly to 
subordinate, in even the slightest degree, our right to make our own 
laws in this purely domestic area to any international treaty body.
    One important characteristic of American civil rights law is that 
it is crafted, legislatively and judicially, to balance society's 
interest in preventing discrimination with other, equally important, 
societal interests, such as fundamental first amendment rights to 
speech and freedom of religion. By contrast, CEDAW, on its face--and a 
fortiori, as it is being interpreted by the CEDAW committee--is a 
threat to political freedom, freedom of thought and belief, parental 
rights, privacy rights, and religious freedom.
    Rather than acknowledging these fundamental rights, the language of 
CEDAW is so sweeping and overbroad that it threatens to overrun them, 
and any others standing in its path. For example, Article 1 of CEDAW 
defines ``discrimination'' as ``any distinction . . . on the basis of 
sex,'' in ``any . . . field.'' Article 2 requires states parties to 
eliminate ``all discrimination against women,'' not just by government, 
but ``by any person, organization, or enterprise.'' Article 5, requires 
states parties to ``modify the social and cultural patterns of conduct 
of men and women, with a view to achieving the elimination of . . . all 
. . . practices which are based on . . . stereotyped roles for men and 
women.''
    In other words, CEDAW requires government to intrude in all areas, 
no matter how private, consensual, or even sacred, if there is any 
distinction made on the basis of sex, or if any culture perpetuates 
``stereotypes.'' CEDAW requires the exertion of government power 
against family, religion and even thought. On its face, CEDAW calls for 
an unprecedentedly intrusive government. The fact that the intrusion 
would be made to advance a politically correct feminist ideology makes 
it no less oppressive.
    The reports of the CEDAW committee offer no hope that restraint 
might be exercised in the interpretation and application of CEDAW's 
broad language. To the contrary, the committee's reports are 
disturbingly ad hoc, undisciplined, and inconsistent. Though CEDAW 
advocates like to dignify the pronouncements of the CEDAW committee by 
calling them ``jurisprudence,'' there is no requirement that the so-
called ``experts'' comprising the committee be jurists--let alone 
prudent ones.
    The reports do not suggest that the committee gives any weight to 
competing fundamental rights. The committee shows no reluctance to 
intrude into protected areas or to expand its reach--even beyond the 
sweeping language of CEDAW--by stretching that language to encompass 
new rights that were clearly never intended by the states parties. In 
fact, in 1996, the U.N. High Commissioner on Human Rights, the U.N. 
Secretariat, and the U.N. Population Fund held a round table discussion 
for the heads of the human rights treaty bodies, including the CEDAW 
committee. At that meeting, the committee heads were encouraged to 
reinterpret their respective treaties to create ``rights'' that have no 
popular support in most parts of the world, and were given theoretical 
blueprints for such reinterpretations.\1\
---------------------------------------------------------------------------
    \1\ See Round Table of Human Rights Treaty Bodies on Human Rights 
Approaches to Women's Health, with A Focus on Sexual and Reproductive 
Health and Rights, 1996.
---------------------------------------------------------------------------
    The committee reports are, indeed, increasingly doctrinaire. For 
example, the ``stereotype'' routinely targeted for eradication by the 
CEDAW committee is ``motherhood.'' The CEDAW committee behaves as if 
motherhood were an arbitrary designation, rather than a fact of life. 
One of the committee's most pronounced characteristics is an 
unrelenting hostility to traditional family arrangements. Despite the 
right of the family to state protection in numerous international 
documents, and even the specific admonition in the Universal 
Declaration of Human Rights that motherhood is entitled to special 
care,\2\ the CEDAW committee views CEDAW as a mandate to eradicate the 
very idea that being a mother and a homemaker is a role that might be 
valued and freely chosen by some women. The committee views full 
employment in paid work as a woman's only acceptable role, and day care 
as the best environment for even the youngest children. The committee 
has even admonished countries to change tax laws that make it easier 
for mothers to be with their children.\3\
---------------------------------------------------------------------------
    \2\ Universal Declaration of Human Rights, Art. 25, para. 2.
    \3\ A/55/38 para. 314 (Germany).
---------------------------------------------------------------------------
    Make no mistake, this hostility to traditional family roles is not 
aimed only at governments like the Taliban, although CEDAW advocates 
used the Taliban as a justification for CEDAW's excessive reach (thus 
proving the adage that ``hard cases make bad law''). In recent reports, 
the committee has told Western European countries like Germany, Spain, 
and Luxembourg--with their below replacement birth rates and imploding 
populations--that their governments must do more to get women into the 
full-time work force, and to ``eradicate stereotypical attitudes.'' \4\ 
The committee recently chastised Sweden because its young men and women 
were freely choosing vocational roles that the committee views as too 
``traditional.'' The committee admonished Sweden to do a better job of 
indoctrination.\5\ The call for governmental ``eradication'' of 
``attitudes'' violates fundamental rights to freedom of thought and 
belief.
---------------------------------------------------------------------------
    \4\ CEDAW/C/2000/I/CRP.3/Add.7/Rev. 1, paras. 25-28 (Germany); 
CEDAW/C/1999/L.2/Add.6, paras. 24-27 (Spain); CEDAW/C/2000/I/CRP.3/Rev. 
1, paras. 25-26 (Luxembourg).
    \5\ A/56/38 para. 342.
---------------------------------------------------------------------------
    The committee made similar pronouncements to Georgia and Belarus, 
countries struggling both with declining populations and attempts to 
rebuild societies after the collapse of Communism. The committee 
accused both countries of overemphasizing women's role as mothers, and 
specifically criticized Belarus for reinstituting a national Mothers' 
Day.\6\ The committee has criticized countries because too many of 
their tiniest children--from newborns to the age of three--were with 
their mothers, instead of in day care.\7\
---------------------------------------------------------------------------
    \6\ 16 CEDAW/C/1999/L.2/Add.3, para. 30; CEDAW/C/2000/I/CRP.3/
Add.5/Rev. 1, paras. 9, 23-27 (Belarus).
    \7\ See, e.g., A/55/38 para. 313 (Germany); A/52/38/Rev. 1, paras. 
104, 114 (Slovenia).
---------------------------------------------------------------------------
    The committee also seems oblivious to political self-determination 
and freely chosen democratic leadership. In applying Article 4 of 
CEDAW, which calls for ``temporary special measures'' to achieve 
equality of the sexes, the committee has recommended institution of 
quotas in all spheres, public and private, and even for elective 
offices.\8\ The committee suggested that the government of Georgia, 
when undoing its former totalitarian regime, had been too quick to 
abandon its political quotas.\9\ This notion of quotas for women in 
elective office is so extreme that, when it was placed before the 
voters of Switzerland a couple of years ago, it received only 17 
percent of the vote, suggesting that even the majority of women voted 
against it.
---------------------------------------------------------------------------
    \8\ CEDAW/C/2002/1/CRP.3/Add.7, para 33 (Estonia); A/56/38 para. 
341 (Egypt); CEDAW/C/2000/CRP.3/Add.1/Rev. 1, para. 42 (Jordan); CEDAW/
C/1999/L.2/Add.3, para. 29 (Georgia); A/53/38, para. 110 (Croatia).
    \9\ CEDAW/C/1999/L.2/Add.3, paras. 28-29.
---------------------------------------------------------------------------
    The committee's disregard of rights to religious exercise can be 
understood simply by referring to its incredible instruction to the 
Libyan government to reinterpret its people's fundamental scripture--
the Koran--in ways that were ``permissible under CEDAW.'' \10\
---------------------------------------------------------------------------
    \10\ A/49/38 paras. 130, 132.
---------------------------------------------------------------------------
    Again, however, the committee's disdain for religion is not limited 
to conservative Muslim countries. The committee has expressly opined 
that religion disadvantages women ``in all countries.'' \11\ The 
committee has criticized governments, Norway and Hong Kong, for 
example, because they grant exemptions from discrimination laws to 
religious institutions, thus allowing churches and religious 
communities to establish their own rules for internal governance.\12\ 
If the United States were to ratify CEDAW, existing exemptions for 
religious institutions in American civil rights laws would similarly 
offend the CEDAW committee.
---------------------------------------------------------------------------
    \11\ A/52/38/Rev.1, para. 10.
    \12\ A/54/38, para. 314 (China/Hong Kong); A/50/38, para. 460 
(Norway).
---------------------------------------------------------------------------
    The committee attacks religion incrementally. When a country makes 
a reservation based on religious belief, the committee pressures that 
country to withdraw it, or declares it invalid.\13\ The committee then 
pressures countries to completely secularize their laws. Then, even 
after legal systems have been completely secularized, the committee 
finds non-compliance if the citizens' freely cast votes reflect their 
religious values.
---------------------------------------------------------------------------
    \13\ See, e.g., A/56/38 paras 326-27 (Egypt)
---------------------------------------------------------------------------
    For example, the committee's primary criticism of Ireland was that 
the Irish persist in thinking, living, and voting like Catholics, 
particularly with respect to abortion.\14\ The committee invoked 
Article 5 of CEDAW, which obligates the Irish government to take 
measures to eradicate the influence of Catholicism on its culture and 
people, to the extent Catholicism offends the committee's 
interpretation of rights under CEDAW. \15\
---------------------------------------------------------------------------
    \14\ CEDAW/C/1999/L.2/Add.4, para. 20.
    \15\ Id., paras.33-34.
---------------------------------------------------------------------------
    Furthermore, as I previously mentioned, the committee shows no 
reluctance to invent new, unanticipated and unagreed rights by 
processes of ``interpretation.'' For example, the committee is treating 
abortion and lesbianism \16\ as ``rights,'' even though such ``rights'' 
have little popular support throughout the world and have been, in 
fact, clearly rejected by the General Assembly at Cairo and Beijing, in 
follow ups to those conferences, and numerous other negotiations. The 
committee even began treating voluntary prostitution as a ``right'' 
under CEDAW.\17\ This practice of inventing new ``rights'' raises 
serious questions about the committee's good faith in interpreting 
CEDAW, and about the legitimacy of a committee of ``experts'' imposing 
these new rights on sovereign governments, when they know that these 
governments would never have agreed to a document expressly containing 
them.
---------------------------------------------------------------------------
    \16\ See, e.g., CEDAW/C/1999/L.2/Add.2, paras 26-27 (abortion); A/
54/39, paras. 127-28 (lesbianism).
    \17\ See A/54/38, paras. 288-89 (China), and para. 197 
(Greece);CEDAW/C/2000/I/CRP.3/Add. 7/Rev. 1, paras. 39-40.
---------------------------------------------------------------------------
    Nor do all women, themselves, agree with the CEDAW committee's 
priorities. Many women, in all parts of the world, view their family 
role as the most important role they will ever have. They freely choose 
to be with their families, nurturing their children, and passing on 
culture and values. They do not want to work full-time, at least while 
their children are small. In many cases, women are forced to work 
because of economics, and would like to be ``liberated'' from their 
jobs to spend more time with their families. They do not feel oppressed 
by their ``stereotypical role.'' They believe that motherhood and 
homemaking offer benefits to themselves and to their families. Yet, 
CEDAW requires that the force of government be brought to bear to 
eradicate these ``stereotypical attitudes.'' What business does any 
government have interfering in this manner?
    These matters, and other matters covered by CEDAW, go to the core 
of culture, family, and religious belief. CEDAW--particularly as it is 
interpreted by the CEDAW committee--poses a threat to fundamental 
rights in all these areas. The doctrinaire approach of the CEDAW 
committee is nothing less than ``cultural colonialism,'' which attempts 
to force a radical Western agenda which is widely rejected even in the 
West. It completely ignores the rights of women, and men, to political, 
social, and cultural self-determination. We have not done women a favor 
if, for the sake of possible short-term gains, we persuade them to 
sacrifice political freedom.
    As global communication and commerce shrink the world, and as 
people in all parts of the world become better educated and more aware 
of the situation of women in the developed world, the lot of women 
worldwide will inevitably improve, with or without CEDAW and the CEDAW 
committee. It wasn't so long ago that women in America were second-
class citizens. We have evolved, and that has changed. These changes 
were made without an international committee interfering in our 
domestic governance and telling us which parts of our culture we had to 
jettison. People in the rest of the world deserve the same opportunity 
to evolve, consistent with their own cultures and values. CEDAW is too 
blunt an instrument for the task. Whatever advances it may secure for 
women, the collateral costs, in terms of denigration of other 
fundamental rights, are too high.
    The international human rights system--which is much more malleable 
and corruptible than the American legal system--has become a magnet for 
groups seeking ways to seize power and impose their beliefs without 
popular support. It attracts those groups precisely because of its 
malleability and corruptibility. The CEDAW committee is a prime example 
of these characteristics.
    Some may say that the CEDAW committee can't hurt the United States, 
because we are too powerful, the committee has no enforcement 
authority, and we can make appropriate reservations.
    Of course, if only the weak nations must kowtow to the CEDAW 
committee, then this isn't a system of ``law'' at all, but merely the 
exercise of power, and we should not pretend otherwise.
    It is true that the CEDAW committee, at present, has no ``teeth'' 
with which to enforce its pronouncements, nor do any of the United 
Nations Human Rights treaty bodies. These bodies were ostensibly 
founded on the principle of respect for the sovereignty of nations. 
Accordingly, for the present, compliance with human rights committee 
recommendations depends on the political will of the states 
parties.\18\
---------------------------------------------------------------------------
    \18\ This is true, at least, among the developed nations. If 
countries are poor, weak, and in need of international assistance, they 
may already be subject to coercion to comply as a condition of 
receiving assistance.
---------------------------------------------------------------------------
    However, one only need follow the news to recognize that there is 
an ongoing effort, both at the United Nations and among some Western 
powers, to give ``teeth'' to the enforcement of human rights. Who can 
doubt that one of the main purposes of NATO's activities in the former 
Yugoslavia was to make the point that human rights supersede national 
sovereignty? Several recent pronouncements from within the United 
Nations system have made the same point. Kofi Annan has spoken openly 
about ``redefining'' sovereignty, and stating that the ``individual is 
the focus of the [United Nations'] concerns,'' thus bypassing 
bothersome national governments.\19\
---------------------------------------------------------------------------
    \19\ Kofi Annan, ``The Legitimacy to Intervene: International 
Action to Uphold Human Rights Requires a New Understanding of State and 
Individual Sovereignty,'' Financial Times, December 31, 1999.
---------------------------------------------------------------------------
    Moreover, one of the newly minted ``crimes against humanity'' in 
the statute of the International Criminal Court is the crime of 
``persecution,'' which is broadly defined as ``the intentional and 
severe deprivation of fundamental rights contrary to international law 
. . . '' \20\
---------------------------------------------------------------------------
    \20\ A/CONF.183/9, Rome Statute of the International Criminal 
Court, Art. 7, para. 2(g).
---------------------------------------------------------------------------
    If national sovereignty must give way in cases of violation of 
``human rights,'' and if individuals are to be imprisoned for the 
denial of ``fundamental rights'' under ``international law,'' then 
these undisciplined, doctrinaire committee pronouncements matter a 
great deal because they purport to give content to those ``rights.'' If 
a human rights regime with ``teeth'' becomes a reality, CEDAW would 
indeed pose a danger to important rights and freedoms, not to mention 
sovereignty. This is not a regime to which the United States should 
encourage by lending its prestige and support.
    Nor can the United States necessarily always rely on reservations 
to protect its sovereignty and the constitutional rights of its 
citizens. We are certainly too powerful now for the ``international 
community'' to impose its will upon us. But there is no guarantee that 
the ``international community,'' or the CEDAW committee, would always 
respect our reservations. And, again, if this is simply a matter of raw 
power, not of law, then it is undeserving of our support for that 
reason alone.
    We could declare that CEDAW is not self-executing. But the CEDAW 
committee takes the position that CEDAW must become part of domestic 
law.\21\ We can make reservations on specific topics. But who can 
predict what non-textual rights will be introduced by the CEDAW 
committee in the future? We can make a broad reservation based on our 
Constitution. But a quick perusal of the reservations to the CEDAW, 
and, more specifically, the objections to those reservations, will 
reveal that members of the ``international community'' routinely 
declare such broad reservations invalid because they are too vague and 
non-specific. In short, there is no way to guarantee that the CEDAW 
committee will not at least attempt to meddle in the domestic affairs 
of the American people, in violation of our Constitution and our 
sovereignty. It is precisely this type of meddling by human rights 
committees that recently prompted Australia to declare that it would no 
longer report to them.
---------------------------------------------------------------------------
    \21\ See, e.g., CEDAW/C/2002/I/CRP.3/Add.4 para. 31 (Trinidad and 
Tobago).
---------------------------------------------------------------------------
    In conclusion, the advocates of CEDAW usually speak in broad, 
glowing terms about all CEDAW's noble intentions. As usual, however, 
the devil is in the details. As a woman who is familiar with some of 
those details, I oppose ratification of CEDAW. It offers nothing of 
value, and there are too many important rights at risk.

                                 ______
                                 

        supplement to prepared statement of kathryn o. balmforth
    As discussed at the hearing on CEDAW before the Committee on 
Foreign Relations on June 13, 2002, I am pleased to provide additional 
information clarifying the source of footnote 11 on page 6 of my 
prepared statement.
    In United Nations document A/52/38/Rev.1, paragraph 387 reads:

          1. General Recommendation 23
                  387. The committee adopted general recommendation 23 
                on articles 7 and 8 of the Convention relating to women 
                in public life, and authorized Ms. Silvia Cartwright, 
                in conjunction with the Secretariat, to edit the text 
                so that it could be included in final form in the 
                report of the committee on its seventeenth session (for 
                the text, see part two, chap. I, sect. A).

    Paragraph 10 of General Recommendation 23, as approved by the 
committee and posted on the United Nations High Commissioner for Human 
Rights website, reads:

                  10. In all nations, the most significant factors 
                inhibiting women's ability to participate in public 
                life have been the cultural framework of values and 
                religious beliefs, the lack of services and men's 
                failure to share the tasks associated with the 
                organization of the household and with the care and 
                raising of children. In all nations, cultural 
                traditions and religious beliefs have played a part in 
                confining women to the private spheres of activity and 
                excluding them from active participation in public 
                life.

    Equality of participation in public life is a mandate of Article 7 
of the Convention. The CEDAW committee is interpreting that to mean 
numerical equality, not just equal opportunity. The committee has 
called for quotas, even for elective office. Since Article 5 of CEDAW 
expressly calls for changing any practice that is based on 
``stereotyped roles'' for women, it is clear that the express targeting 
of ``religion'' in this General Comment is meant to convey the idea 
that any religion that encourages motherhood and caring for the family 
as a valuable activity is violating CEDAW, and that action should be 
taken to change those belief systems.


    Senator Boxer. The Hon. Juliette McLennan, former U.S. 
Representative to the U.N. Commission on the Status of Women, 
we welcome you.

      STATEMENT OF HON. JULIETTE C. McLENNAN, FORMER U.S. 
 REPRESENTATIVE TO THE U.N. COMMISSION ON THE STATUS OF WOMEN, 
                           EASTON, MD

    Ms. McLennan. Thank you, Madam Chairman and other members 
of the committee, and I thank you for inviting all of us here 
today to discuss this treaty. Recalling the Convention on the 
Elimination of All Forms of Discrimination Against Women, or 
CEDAW, the treaty for the rights of women, U.S. ratification of 
this is a matter of crucial, crucial importance for the health 
and well-being of women and children around the world. It is 
also critical for the international interests of the United 
States, and I hope my testimony will help persuade some of you 
in this case. I have a longer testimony which I would like to 
submit to you, and I will just try and touch on some of the key 
points as I go through.
    As a former Representative to the U.N. Commission on the 
Status of Women during the first Bush administration--I believe 
some refer to it as Bush 41--I can tell you that my work as an 
ambassador, you would hear stories all the time from other 
diplomats, where is the leadership of the United States? 
Without ratifying this treaty we do not have the authority and 
the credibility to go forward with our leadership in human 
rights. It is very simple.
    International standards, the importance of having 
international standards for human rights is vital. In 
Afghanistan, as we have been talking about this morning, we 
have seen the terrible effects of apartheid, gender apartheid. 
In too many other countries women and girls are still deprived 
of the basic rights we take for granted right here in the 
United States. The international treaty for the rights of women 
was approved 22 years ago. 169 countries have ratified it. We 
have already heard about the company we keep, somewhat 
embarrassing, to say the least.
    May I just say that the supreme court of Tanzania put it 
very well when it cited the standards in ruling that women must 
be allowed to inherit clan property. The treaty for the rights 
of women and these other facts the court said are, quote, a 
standard below which any civilized nation will be ashamed to 
fall. International standards, international benchmarks. These 
are the key things this treaty does, and we need to support it.
    The question for the Senate Foreign Relations Committee is 
whether it makes a difference for the human rights of women if 
the United States ratifies this treaty. Clearly, we have heard 
from all sorts of people this morning the effects that this 
treaty, the ratification of this treaty will have. It is 
terribly, terribly important. The failure of our ratification 
has again, if I may say, caused our credibility to be called 
into question in the international arena. We have not ratified 
the treaty. We have very little leverage when we argue that 
other nations ought to observe basic human rights of women.
    When we are not treaty partners, it is very awkward for us 
to demand, for example, that India and Pakistan work hard to 
enforce treaty bans in their own laws against bride-burning and 
the so-called honor killings of women. Without a seat at the 
table, our voice is not heard and thus is not taken seriously, 
and I might also say from my own personal experience, when I 
was at the United Nations, the other diplomats would come up to 
me and say, your country publishes a country-by-country human 
rights report every year, yet you have not ratified CEDAW. It 
does not equalize in weight. We are not being heard.
    Critics like to point out that there are countries that 
have ratified the treaty where women's rights are still abused. 
Well, the treaty is only one tool. We live in an imperfect 
world, but without that seat at the table, without that 
leadership, we cannot show and prove the bipartisan support 
that this country has exhibited in human rights for the last--
well, forever. Forever.
    Senator Boxer. I would ask you to wrap up.
    Ms. McLennan. Yes, I would be happy to. I would just like 
to say, again, the importance of ratifying this is so important 
for our leadership capability, helping women around the world.
    We have to be able to stand up and say we, the United 
States, we do not support sex slavery, we oppose the deaths of 
women dowry disputes, we oppose women dying as victims of honor 
crimes, and from AIDS, and the complications of child birth. We 
are a Nation who supports education for girls as well as boys, 
and we refuse to leave women behind as second-class citizens in 
voting, or gaining credit, or owning property.
    That is why the United States must ratify this treaty. It 
is long overdue. Our voice and support are long, long overdue, 
and I urge the committee to please ratify this treaty with 
great haste.
    [The prepared statement of Ms. McLennan follows:]

       Prepared Statement of Ambassador Juliette Clagett McLennan

    Madame Chairman, members of the committee: thank you very much for 
inviting me to be here today to discuss with you this very important 
treaty. Its formal name is the Convention for the Elimination of All 
Forms of Discrimination Against Women, or CEDAW. But to be perfectly 
clear on what this means, I will call it the Treaty for the Rights of 
Women. U.S. ratification of this treaty is a matter of crucial 
importance for the health and well-being of women and children around 
the world, and it is also critical for the international interests of 
the United States. I hope my testimony will help to persuade all of you 
that this is the case.
    My name is Juliette Clagett McLennan and I am a former U.S. 
Representative to the United Nations Commission on the Status of Women, 
where I served in the administration of President George Bush with the 
rank of ambassador. I am also on the board of directors of the U.S. 
Friends of the World Food Programme and the International Center for 
Research on Women. My first concern here today is that some members of 
the committee may not see any need for America to ratify this treaty. I 
can tell you from my work as an ambassador and subsequent work around 
the world that ratification of this treaty is sorely needed.
    Next, I want to explain how the treaty has worked overseas to help 
save women's lives, and how U.S. ratification will help to save 
millions more lives around the world. And finally, I am concerned that 
some senators may have some misunderstandings about the Treaty for the 
Rights of Women. I want to try to clear those up.
    First let me talk about the importance of having international 
standards for human rights of women. In Afghanistan we have seen the 
terrible effects of gender apartheid at work. In too many other 
countries, women and girls are still deprived of the basic rights we 
take for granted here at home. While it is hard to hear and harder to 
bear, the facts tell us that there is no doubt a need for international 
standards:

  <bullet> Some two million girls between five and 15 are brought into 
        the commercial sex market every year \1\ as part of worldwide 
        human trafficking.

  <bullet> An estimated 60 million girls are ``missing'' because of son 
        preference, female infanticide or simple neglect. \1\

  <bullet> Around the world, pre-pubescent girls are routinely required 
        to marry before their bodies are mature enough to cope with 
        sexual relations or pregnancy, and as a result, pregnancy-
        related complications are the main cause of death for girls 15 
        to 19.\2\

  <bullet> Because older men often prey upon uneducated young girls, 
        the HIV/AIDS infection rate for teenage girls worldwide is five 
        times the rate for boys their own age. For women in their 20s, 
        the rate is three times higher.\4\

  <bullet> In India, Bangladesh and Pakistan, women are often attacked 
        with acid in dowry disputes, and so-called ``honor'' killings 
        took the lives of 5,000 women in 1999--a stabbing, stoning, 
        strangulation or live burning every two hours.\1\ The murderers 
        are not prosecuted.

  <bullet> In developing countries, one woman in every 48 will die from 
        the complications of pregnancy and childbirth, compared to only 
        one in 1,800 in the industrialized world, because women get 
        unequal medical care.\3\

  <bullet> Women are two-thirds of the world's 880 million 
        illiterates,\1\ and of the 300 million children with no access 
        to education, two-thirds are girls.\1\

  <bullet> Women may be barred from owning property or from inheriting 
        it, or they cannot get credit to start businesses, or they are 
        kept from voting and barred from the councils where decisions 
        are made about their own lives.

  <bullet> When wars and conflicts rage, women are rarely at the tables 
        where negotiators try to preserve peace or end conflict. Yet, 
        women and children make up more than 75 percent of the world's 
        millions of displaced persons and refugees.\5\

    The International Treaty for the Rights of Women was approved at 
the United Nations in 1979 as an effort to end those abuses. It does 
not establish any laws but rather sets standards for the human rights 
of women, standards that were developed from measures that the United 
States strongly supports, including the Universal Declaration of Human 
Rights and the Bill of Rights of our Constitution. The Supreme Court of 
Tanzania put it very well when it cited these standards in ruling that 
women must be allowed to inherit clan property. The Treaty for the 
Rights of Women and these other pacts, the court said, are ``a standard 
below which any civilized nation will be ashamed to fall.''
    The question for the Foreign Relations Committee is whether it 
makes a difference to the human rights of women if the United States 
ratifies this treaty. At this moment, the United States stands 
shoulder-to-shoulder in failing to ratify this treaty with such nations 
as Afghanistan, Sudan, Syria and Somalia. As the members of this 
committee know very well, women and girls in Afghanistan under the 
Taliban were subjected to shocking abuse. They were punished or killed 
for exercising basic freedoms of speech, assembly and public 
participation--for just trying to go to work or to school. In Sudan and 
Syria women lack full property and legal rights, and in Somalia girls 
are subjected to female genital cutting. Our partnership with these 
nations in refusing to join the world community that stands for the 
human rights of women is embarrassing, to say the least--one that we 
ought to abandon as soon as possible. Over the last 22 years, 169 
countries have ratified the Treaty for the Rights of Women, and we are 
the only industrialized and developed nation that has not.
    This failure has compromised our credibility as a world leader in 
helping women to seek their human rights. Because we have not ratified 
the treaty, we have little leverage when we argue that other nations 
ought to observe the basic human rights of women. When we are not full 
treaty partners, it is awkward for us to demand, for example, that 
India and Pakistan work harder to enforce the treaty bans and their own 
laws against bride-burning and the so-called honor killings of women. 
Without a seat at the table, our voice is not heard and thus, not taken 
seriously.
    We have learned to our national dismay that it harms our national 
interest when we are not eligible to be on a U.N. committee where human 
rights are protected and promoted. Only if we ratify the Treaty for the 
Rights of Women can we serve on and lend our strength to the CEDAW 
committee, the group that monitors countries on their progress in 
overcoming barriers to women's full equality. The committee is named 
for the formal treaty name, and gets periodic reports from each 
ratifying country. But its voice would be a lot stronger if the United 
States could be a member. In the same way, the treaty and the committee 
would amplify the U.S. voice in our drive to end discrimination and 
abuse of women around the world.
    Critics like to point out that even in countries that have ratified 
this treaty, women's rights are still abused. But the treaty, like 
other human rights instruments, is one tool available to women to press 
their governments to make good on their treaty commitment. We live in 
an imperfect world but because the treaty sets standards for basic 
human rights, it has become a strong tool to stop violence against 
women and open the doors of opportunity. Where the treaty can be 
invoked, women and girls can more credibly demand the rights that 
American women take for granted--like the right to vote, to hold 
elected office and to have credit and property in their own names.
    In Colombia, for example, the courts ruled in 1992 that the absence 
of legal recourse for a victim of domestic abuse was a violation of the 
woman's human rights to life and personal security. In Uganda, the 
treaty terms led the state and cities to create programs against 
domestic violence. Pakistan introduced co-education in primary schools 
after it ratified the treaty, and girls' enrollment, although still 
very low, has increased rapidly. Developed countries benefit too. 
Argentina set up a program to prevent teen pregnancy and provide care 
when it does occur, especially for homeless girls. Slovenia and 
Switzerland have changed their school admission policies to benefit 
girls, and Australia launched efforts to promote awareness and 
prevention of breast and cervical cancer.\6\
    The Treaty for the Rights of Women is a tool that women around the 
world are using to seek the right to own or inherit property, to 
establish their own credit, to hold jobs and get an education, to fight 
poverty and violence, and to improve their own health care, saving 
millions of lives. Ratifying the Treaty for the Rights of Women will 
allow the United States to lead the way in reducing the suffering of 
the world's three billion women. It is in our own urgent national 
interest to do this.
    Let me now tell you some things the Treaty for the Rights of Women 
will NOT do. First, it will NOT require any change in U.S. laws. As 
this committee noted in its report in 1994, U.S. laws are already 
consistent with the standards in the treaty. In addition, the treaty is 
not self-executing. This means that the treaty cannot change U.S. 
domestic law in any way. Any argument that the treaty will require a 
lot of legal changes or inspire a flood of lawsuits is just plain 
incorrect. The treaty certainly does not authorize any lawsuits that 
are not possible right now. In addition, the treaty has no enforcement 
mechanisms--just the force of international opinion. No international 
court or tribunal will be meddling in U.S. laws or family arrangements.
    The only thing this treaty requires is periodic reports on progress 
in overcoming barriers to women's equality and the national good will 
to address barriers that might still exist. And some of the 
misconceptions about the treaty arise from the fact that irresponsible 
critics have taken lines out of context from some CEDAW committee 
recommendations. Let me be clear. There are no mandates to governments, 
nor can there ever be mandates to governments, from the CEDAW 
committee.
    For example, critics of the treaty say the CEDAW committee in its 
comments on China said prostitution should be legal worldwide. That is 
simply wrong. The CEDAW committee noted in its country report on China 
that it has rampant prostitution and sex trafficking as well as a 
skyrocketing rate of HIV/AIDS infection. So it urged the government of 
China to regulate prostitution so that the victimized women can come 
forward without fear of jail to get health care, education and 
treatment for AIDS and other sexually transmitted infections. 
Evangelical Christian groups among others have made the very same 
recommendations.
    Critics also charge that the CEDAW committee has come out against 
motherhood and Mother's Day. This is totally false. The committee in 
1998 noted that in Belarus, the majority of the poor are women and most 
of the jobless are mothers, but the government, rather than calling on 
men to assist with domestic and family needs, reinstituted Mother's Day 
to deflect attention from mothers' situation. In another report, it 
noted that Armenia had justified barring women from working night 
shifts or in manual labor with claims it was defending ``the noble role 
of motherhood.'' Critics have twisted these defenses of women's rights 
to employment to sound like attacks on motherhood, but in fact 
protection for mothers and motherhood must include economic protections 
against discrimination, for all working women.
    Another example involves a 1997 general committee report that 
urged, ``full participation of women in the military,'' Irresponsible 
treaty critics say that means women will have to be sent into ground 
combat. But that is another misrepresentation. The phrase was in the 
context of the committee's observation that women's absence from 
military decision-making hampers diplomacy, negotiations, and efforts 
to make and keep the peace. It also neglects the effect upon women and 
families of military decisions in times of conflict. Full participation 
of women in military affairs would change these processes for the 
better.
    A fourth misrepresentation about the treaty is that it advocates 
the use of abortion because it supports, ``access to family planning.'' 
In fact, family planning means just that, the ability to plan the size 
of one's family, and access to services to ensure a healthy family. It 
is not a code word. It is true that the CEDAW committee has been very 
concerned about access to family planning, given the rise of HIV/AIDS 
and the importance of promoting healthy and safe pregnancy. The treaty 
itself is abortion-neutral. Countries on both sides of the abortion 
debate have ratified the treaty. Ireland, for example, ratified the 
treaty without any reservations and maintains a ban on abortion. 
Nevertheless, to underscore this point, the Foreign Relations Committee 
attached a legal ``understanding'' to the legislation in 1994 noting 
that it does not confer or deny any right to abortion.
    So those are some of the things that the Treaty for the Rights of 
Women does not do.
    So why does the United States need to ratify the treaty? The simple 
answer is that a bipartisan consensus of Americans wants to defend the 
basic human rights of women. We need the treaty as a tool to set clear 
standards for achieving that goal around the world. Ratification will 
give us credibility in urging other countries to give women their full 
human rights. It will strengthen our international partnerships and 
affirm our leadership position in working to protect and promote human 
rights and reduce human suffering. And it will help to guarantee that 
the outrages committed against the women of Afghanistan are never 
repeated anywhere again.
    The United States must stand with other civilized countries to 
protect and promote the human rights of women. We must affirm the 
international standards that we so strongly defended for the women of 
Afghanistan. We must tell the world: We oppose sex slavery. We oppose 
the deaths of women in dowry disputes and as victims of ``honor 
crimes,'' and from AIDS and from the complications of childbirth. We 
are a nation that supports education for girls as well as boys, and we 
refuse to leave women behind as second-class citizens in voting or 
gaining credit or owning property. That is why the United States must 
ratify the Treaty for the Rights of Women. Our voice and support are 
long overdue. I urge you to ratify this treaty without delay.
    I appreciate this opportunity to testify, and I will be happy to 
answer any further questions you may have.
    Thank you.

    Sources:

    1.U.N. Population Fund, Lives Together, Worlds Apart: State of 
World Population 2000, UNFPA, New York, 2000.
    2. Family Care International, Sexual and Reproductive Health 
Briefing Cards, FCI, New York 2000.
    3. World Health Organization, Revised 1990 Estimates of Maternal 
Mortality: A New Approach by WHO and UNICEF, Geneva, 1996.
    4. UNAIDS, Report on the Global HIV/AIDS Epidemic, Eleven 
Population-Based Studies. UNAIDS, New York, 2000.
    5.U.N. Population Fund, Reproductive Health for Communities in 
Crisis: UNFPA Emergency Response, UNFPA, New York, 2001.
    6. For these and additional examples, see Milani, Leila Rassakh, 
ed., Human Rights for All, Working Group on Ratification of the U.N. 
Convention on the Elimination of All Forms of Discrimination Against 
Women, Washington DC 2001.


    Senator Boxer. Thank you so much. It is my pleasure to call 
on now Dr. Christina Hoff Sommers, resident scholar, American 
Enterprise Institute. You are very well-represented here by two 
women. Please proceed.

  STATEMENT OF DR. CHRISTINA HOFF SOMMERS, RESIDENT SCHOLAR, 
         AMERICAN ENTERPRISE INSTITUTE, CHEVY CHASE, MD

    Dr. Sommers. And I am also an adjunct professor at Clark 
University, Worcester, Massachusetts.
    Senator Boxer. We will let the record so show.
    Dr. Sommers. Although I actually am arguing we should not 
ratify the CEDAW convention, I want to first speak as a 
feminist who would very much like to see a realistic 
international effort for securing women's rights. American 
women have been beneficiaries of two major waves of feminism. 
In the first wave, women won basic political and legal rights. 
The second wave advanced women economically and socially. Now, 
with this progress, American women have achieved virtual 
equality with men. There are still unresolved equity issues, 
but overall we are now among the freest and most liberated 
women in the world, and in some ways we are not merely doing as 
well as men, we are doing better
    Now we have reached the third wave, and much of our efforts 
can now be devoted to helping women in other parts of the world 
achieve the kind of equity that we have here, but committing 
ourselves to the CEDAW convention is the wrong way to do that. 
I have several reasons for opposing ratification of this 
convention. I will submit my longer statement to the record.
    Senator Boxer. Without objection, we will put that in.
    Dr. Sommers. Here I will focus on two or three that I 
regard as decisive. The CEDAW has many admirable and sound 
goals that any person of conscience must support, but it was 
formulated throughout the seventies. It promotes reforms that 
we now know undermine economic prosperity.
    Article XI, for example, calls for Governments to set 
wages. It demands, quote, the right to equal remuneration in 
respect of equal work--I am sorry, in respect to work of equal 
value. Now, that is the policy we call comparable worth. 
Americans have rightly rejected it as unjust and unworkable, so 
why should we advocate it for women elsewhere?
    Article XI also demands a vast array of costly, ambitious 
programs. American women have benefited from a free, open, and 
economically dynamic society. Shouldn't we be promoting 
policies that bring these advantages to women everywhere?
    The treaty includes several sweeping demands that I would 
regard as socially divisive. Article V, for example, calls for 
the Government to, quote, modify the social and cultural 
patterns of conduct of men and women with a view of achieving 
the elimination of all practices which are based on 
stereotypical roles for men and women. Now, of course, some 
stereotypes are destructive and prejudicial, and we must call 
disparaging attention to them, but there are other male/female 
stereotypes that are descriptively true.
    Now, in the 1970's there were many feminists who believed 
that gender was a social construct, just an artifact of society 
that gave men the advantage. Today, very few, but a handful of 
scholars in women's studies still believes that. A growing body 
of research suggests there is a biological basis for sex 
differences and aptitudes and preferences. As the Rutgers 
University anthropologist Lionel Tiger has said, biology is not 
destiny, but it is good statistical probability. Unfortunately, 
much in CEDAW is premised on the false idea that all gender 
preferences are socially constructed and should be targeted for 
elimination.
    Now, of course, in recognizing that men and women have 
distinctly different preferences, I am not for one moment 
suggesting that any woman should be prevented from pursuing her 
goals in any field she chooses. I am suggesting, however, it 
would be wrong to expect and to impose parity in all fields. 
There are always going to be more women than men that want to 
stay home with little children, more women will be drawn to 
fields like early childhood education, more men in hydraulic 
engineering or helicopter mechanics.
    Consider how the feminist hard-liners could deploy Article 
X of the treaty. It calls for, quote, the elimination of 
stereotype concepts of roles of men and women at all levels in 
all forms of education, in particular, by the revision of 
textbooks and school programs. Can there be anyone in the 
United States, apart from a small coterie of activists, who 
would favor empowering a committee of foreign gender experts to 
oversee American social mores and to intrude into public 
education by distorting the textbooks our children read?
    This treaty could do harm by promoting male and female 
resentments in this country at a time where the country badly 
needs unity. Most American women are proud and grateful to be 
from a society that has afforded us unprecedented freedoms and 
opportunity, but this favorable view of our society is not 
shared by many of my colleagues in academia, particularly 
feminist activists in women's studies. I have reviewed 
textbooks, I have taught from these textbooks where routinely 
they call America a patriarchal, oppressive society. One 
leading textbook calls it a rape culture, another refers to the 
gender terrorism faced by American women. Well, Bosnia for a 
time was truly a rape culture, Afghanistan under the Taliban 
practiced gender terrorism, but to apply such terms to the 
United States is ludicrous. Too much of what passes as gender 
scholarship is ideologically and factually wrong. American men 
are depicted as violent predators, American women their hapless 
victims. If you had to distill the philosophy of academic 
feminism to a single dictum, it would be this: women are from 
Venus, men are from hell.
    Now, in the last 10 years, a number of moderate feminist 
academics----
    Senator Boxer. Somebody who said that was remembering her 
first husband.
    Would you wrap up, please?
    Dr. Sommers. I will try to wrap up. In the last 10 years, a 
number of moderate feminist academics like myself and a growing 
number of dissident independent scholars have been working hard 
to correct the misinformation, challenge the naive hostility to 
free markets, call for an end to the male- bashing rhetoric. We 
are beginning to make slow progress in opening up the national 
discussion on gender to diverse perspectives.
    Now, what does it have to do with CEDAW? If the United 
States signs this treaty it would dramatically increase the 
power of these misguided gender scholars. The treaty calls for 
the elimination of sexism. American society has achieved this 
goal in most of the ways that count, but if you compare us with 
the rest of the world, we are a shining example of gender 
equity, but this is not the view of the feminist theorists. 
They do not agree with that, and in support of their gloomy 
perspective they cite a body of statistically challenged 
advocacy research that castigates American males and denigrates 
American society.
    Now, this treaty--this is my point. This treaty, in 
conjunction with the counterfeit gender research could be a 
toxic combination. If CEDAW is ratified, expect more rancor, 
more lawsuits, more divisiveness.
    A final point. The United Nations has a history of using 
its human rights doctrines and commissions for scoring points 
against western democracies, all the while carefully refraining 
from censuring countries that notoriously abuse the rights of 
its citizens. The United States was excluded from a Commission 
on Human Rights last year, petulantly expelled from the 
Commission on Human Rights, and on every occasion it seems the 
United States is alone.
    I do not consider it a bad thing to be alone, because we 
are alone in defending little Israel, the only democracy in the 
Middle East. Anyway, there is no reason to believe the CEDAW 
would not be used in a highly political way as well.
    Women in the developing countries need our help. We are 
morally bound to assist them in ways that are constructive and 
reflect the ideals of fairness and common sense that have 
lifted American women to a level of freedom unprecedented in 
human history. Thank you.
    [The prepared statement of Dr. Sommers follows:]

              Prepared Statement of Christina Hoff Sommers

    the case against ratifying the united nations convention on the 
    elimination of all forms of discrimination against women (cedaw)
    Although I shall be arguing that we should not ratify the CEDAW 
convention, I want first to speak as a feminist who would very much 
like to see a realistic international effort for securing women's 
rights.
    American women have been the beneficiaries of two major waves of 
feminism. In the First Wave, led by the great foremothers, Elizabeth 
Cady Stanton and Susan B. Anthony, women won basic political and legal 
rights, including the right to vote. The Second Wave, which came in the 
sixties and early seventies, advanced women economically and socially. 
Employers could no longer legally restrict a job to one sex. A company 
could no longer refuse to hire a woman because she had children. Such 
laws have been critical to the well-being and success of American women 
and most of the reforms of the First and Second Waves are appropriate 
and necessary for women everywhere.
    With this historical progress, American women have achieved virtual 
equality with men. There are still some unresolved equity issues, but 
overall, we are now among the freest and most liberated women in the 
world. In some ways, we are not merely doing as well as men--we are 
doing better. We live longer, we are better educated, we have more 
choices on how to lead our lives. By any reasonable measure, equity 
feminism is the great American success story.
    When I lecture about the history of the women's movement on college 
campuses, students often ask what's next for the Third Wave. My answer 
is always the same; we have to help women in other parts of the world 
secure the freedoms we now take for granted. There are countries, 
especially in Africa and Asia, where women have not yet had their 
Elizabeth Cady Stanton and Susan B. Anthony; as for second wave 
reforms, they are light-years away from them.
    American women have much to tell the women of the world. We can and 
should help women everywhere to achieve the kind of equity we have 
here. But joining the CEDAW convention is the wrong way to do that. I 
have several reasons for opposing ratification of this treaty. I will 
focus here on two or three that I regard as decisive.
    The CEDAW convention has many admirable and sound goals that any 
person of conscience must support. But it was formulated in the 1970s 
and it promotes several reforms that we now know to be harmful. These 
programs looked promising, exciting and progressive in 1975, but since 
then we have come to realize that they undermine economic prosperity. 
Article 11, for example, calls for governments to set wages. It demands 
``The right to equal remuneration. . . . in respect of work of equal 
value.'' This is the policy we call ``comparable worth.'' Americans 
have rightly rejected comparable worth as unjust and unworkable at 
home. So, why should we advocate it for women anywhere?
    Article 11 also demands that governments provide paid maternity 
leave, and provide the ``necessary supporting social services to enable 
parents to combine family obligation with work responsibility and 
participation in public life . . . through the establishment and 
development of a network of childcare facilities.'' All very salutary, 
except that experience shows that such programs tend to burden a 
country's economy to everyone's detriment. American women have 
benefited from a free, open and economically dynamic society: shouldn't 
we be promoting policies that bring these advantages to needy women 
everywhere?
    The treaty includes several sweeping demands that are socially 
divisive and likely to create unnecessary misery. Article 5, for 
example, calls for all governments to ``modify the social and cultural 
patterns of conduct of men and women with a view to achieving the 
elimination of prejudices and all other practices which are based on . 
. . stereotyped roles for men and women.'' What exactly does this 
provision entail? Of course, some gender stereotypes are destructive 
and prejudicial and we must call disparaging attention to them. 
(Typical examples include generalizations that women are irrational, 
that they are less intelligent than men, that they are politically 
immature, etc.) But, other male/female stereotypes are descriptively 
true. In the 1970s, many feminists believed that truly liberated men 
and women would become more and more alike--that a gender-just society 
would eventually become androgynous. Gender was supposedly an 
artificial social construction that gave men the advantage. Well, 
today, only a handful of scholars in Women's Studies programs still 
believe that.
    A growing body of research in neuroscience, endocrinology, and 
psychology over the past 40 years provides evidence that there is a 
biological basis for many sex differences in aptitudes and preferences. 
Males have better spatial reasoning skills, females better verbal 
skills. Males are greater risk takers, females are more nurturing. 
(There are exceptions, but these are the rules.) As the Rutgers 
University anthropologist Lionel Tiger has said, ``Biology is not 
destiny, but it is good statistical probability.'' Unfortunately, much 
in CEDAW is premised on the false idea that all gender preferences are 
socially constructed.
    Of course, in recognizing the obvious differences between men and 
women, I am not for one moment suggesting that women should be 
prevented from pursuing their goals in any field they choose; but I am 
suggesting we should not expect or aim at parity in all fields. More 
women than men will continue to want to stay at home with small 
children and pursue careers in fields like early childhood education or 
psychology; men will continue to be heavily represented in fields like 
helicopter mechanics and hydraulic engineering.
    A few years ago I took part in a television debate with celebrity 
lawyer, Gloria Allred. Ms. Allred was representing a 14-year-old girl 
who was suing the Boy Scouts of America for excluding girls. Allred 
characterized same-sex scout troops as a form of ``gender apartheid.'' 
She spoke of the need to ``socialize'' boys to play with dolls so they 
could be more nurturing and less fractious. CEDAW will give all the Ms. 
Allred's in this country a treaty of their own to create mischief.
    Consider, for example, how hard-liners could deploy Article 10 of 
the treaty: It calls for the ``elimination of stereotyped concepts of 
the roles of men and woman at all levels in all forms of education . . 
. in particular, by the revision of textbooks and school programs.'' 
Our textbooks and school materials cannot endure any more political 
corrections. The New York Times recently ran a story about how politics 
of textbook revisions is now out of control: great works of literature 
were recently scanned for insensitivity and altered by censors before 
intense lobbying eliminated the practice. The CEDAW Treaty demands this 
kind of textual revision--which amount to censorship inconsistent with 
American civil liberties.
    Can there be anyone in the United States, apart from a small 
coterie of feminists activists and academics, who would favor 
empowering a committee of foreign bureaucrats to oversee American 
social mores--or intrude into public education by distorting the 
textbooks our children read?
    the treaty could do us harm by promoting male/female resentments 
and divisions at a time when the country badly needs social unity. Most 
American women feel blessed to live in a country where, for the most 
part, the men are fair-minded, decent and supportive of women in their 
quest for equality. We are proud and grateful to be part of a society 
that has afforded us unprecedented freedoms and opportunities. But this 
very favorable view of American men and of American society is not 
shared by the hard-line feminists in our universities. These activists/
scholars tend to take a dim view of American society, routinely 
referring to it as a ``patriarchy,'' a ``male hegemony,'' a culture 
that keeps women socially subordinate. One leading textbook in women's 
studies talks of an epidemic of gender ``terrorism'' plaguing the 
average American women. Another calls the United States a ``Rape 
Culture.'' Now, Bosnia, for a time, was truly a rape culture. 
Afghanistan, under the Taliban, routinely practiced gender terrorism. 
To apply such terms to the United States is ludicrous.
    The activists and scholars who characterize America as a sexist 
society sincerely believe we are in a gender war. In all wars, the 
first casualty is truth. Too much of what we hear from contemporary 
women's organizations is outrageously false. Too much of what passes as 
gender scholarship is ideological and factually wrong: American men are 
depicted as violent predators and American women their hapless victims. 
If you ask me to reduce the philosophy of academic feminism to a single 
phrase it be this one: Women are from Venus, Men are from Hell.
    For the past decade, moderate feminist academics like myself, and a 
growing number of dissidents scholars such as Camille Paglia 
(University of the Arts), Daphne Patai (University Of Massachusetts), 
Betsy Fox-Genovese (Emory), Noretta Koertge (University of Indiana), 
Judith Kleinfeld (University of Alaska), Jennifer Braceras (Harvard 
Law)--to name only a few--have been hard at work correcting the 
misinformation, challenging the naive hostility to the free market 
system, and calling for an end to the male bashing-rhetoric that is 
standard fare at most of our colleges and universities. We have made 
slow but steady progress in opening up the national discussion on 
gender to diverse perspectives, but thinking on these matters on campus 
and in the major feminist organizations remains dismayingly rigid and 
intolerant. For the time being, the organized women's movement in this 
country is dominated by ideological gender theorists and by well-
intentioned, but misinformed, women's groups that take what these 
theorists say seriously.
    Now what does this have to do with CEDAW? If the United States 
signs the treaty, it would dramatically increase the power of the 
misguided gender scholars. The treaty calls for the elimination of 
sexism. Reasonable people believe that our American society has already 
achieved this goal in most of the ways that count. If you compare us 
with the rest of the world, we are a shining example of gender equity. 
Unfortunately, most campus theorists do not agree with that. They 
believe that American women live in a male supremacist society; and 
they can cite twenty years of feminist ``scholarship'' to persuade 
themselves and us that they are right. What they actually cite is a 
body of statistically challenged gender ideology.
    This treaty in conjunction with the counterfeit feminist research 
could be a most toxic combination. If CEDAW is ratified, expect more 
rancor, more lawsuits, and more divisiveness. Gender bureaucrats from 
the United Nations will join the feminist ideologues and the United 
States will be subject to relentless legal assaults for alleged 
violations of the treaty.
    The United Nations has a history of using its human rights 
doctrines and commissions for scoring points against Western 
democracies--all the while carefully refraining from censuring 
countries that notoriously abuse the rights of their citizens. The 
United States was banished from the Commission on Human Rights for a 
year. The UN's 2001 Conference against Racism in Durban, South Africa 
turned into a shameful anti-Semitic condemnation of Israel. There is no 
reason to believe that the CEDAW would not be used in a highly 
political way as well.
    Women in the developing countries need help. We are morally bound 
to assist them in ways that are constructive and that reflect ideals of 
fairness and common sense that have lifted American women to a level of 
freedom and unprecedented in human history. CEDAW is not the way.


    Senator Boxer. Thank you so much.
    Our final speaker will be Ms. Jane E. Smith, chief 
executive officer of Business and Professional Women/USA.

   STATEMENT OF MS. JANE E. SMITH, CHIEF EXECUTIVE OFFICER, 
     BUSINESS AND PROFESSIONAL WOMEN/USA, WASHINGTON, D.C.

    Ms. Smith. Thank you. Good morning. I am Jane Smith, CEO of 
Business and Professional Women, and I want to thank Senator 
Biden and Senator Boxer and the members of the committee for 
inviting me to be here today. We do thank you and ask that the 
longer statement be placed in the record.
    Senator Boxer. Without objection, so ordered.
    Ms. Smith. Business and Professional Women is a bipartisan 
organization of 30,000 women in 1,600 federations around the 
country, and we are an organization representing equity for 
women in the work place, but I also represent, as a member of 
the steering committee, the National Council of Women's 
Organizations, a nonpartisan network of 160 women's 
organizations collectively representing 7 million women in the 
Nation, but I would also like to say that I am the immediate 
past president of the National Council of Negro Women, having 
managed programs in Zimbabwe, Egypt, Eritrea, and Senegal, and 
also worked at the Carter Center, where we worked around the 
world for the democratization of cultures, and it is with those 
experiences that I come.
    The treaty for the rights of women is an instrument that 
BPW wants ratified to address discrimination against women in 
their political, cultural, economic, social, and family values. 
We believe in having formal representation of being a member of 
treaties, of conventions that speak to human rights for people 
here in the United States and around the country.
    We have examined this as a business plan because we are 
businesswomen, and we see best practice models in this treaty 
that can be used by many of us all over this country and around 
the world. None of it is perfect, not even practices here in 
the United States, but we have here a road map of where we hope 
to go, and it shows us how we can get there. BPW therefore 
supports ratification of the treaty for the following reasons.
    First, in ratifying the treaty, the United States heightens 
its credibility as a world leader of human rights. To do so is 
to do what is right, and to do so is to be able to have a 
position on what is right.
    Second, the treaty offers the United States an opportunity 
to share its progressive work on the rights of women with less 
advanced nations.
    Third, the treaty provides a plan for ending discrimination 
against women, thereby offering an opportunity to better our 
Nation.
    Now, while BPW's members and American women in general have 
made tremendous strides toward equality in the last 80 years, 
women around the world continue to experience discrimination in 
all facets of their lives. As many have said before me today, 
this discrimination is no better exemplified than in 
Afghanistan. BPW in 1956, when our members visited Afghanistan, 
stood in support of a program for opportunities for girls. We 
published it in our magazine and spread it around the United 
States. 40 years later, BPW's members continue to show support 
for these women in Afghanistan, and we do understand many 
similar situations around the world.
    The United States works with impoverished countries around 
the globe on a daily basis, providing instruction on issues 
from irrigation to voting procedures to inoculations, but most 
importantly the United States instructs countries on human 
rights issues, even though we are not perfect, encouraging 
other nations to adopt policies in line with democratic 
principles that we stand for even though we often do not live 
up to them.
    Yet we are the only industrialized Nation that has not 
ratified the treaty for the rights of women. Our members ask 
how can we have other countries ask us to provide guidance in 
human rights when we are not ready to stand for that.
    A personal editorial note, as an African American, I will 
always be grateful to the American citizens who took a formal 
position on my freedom. Unfortunately, life for Afghan women 
and other women around the world is only a snapshot of what is 
going on. We could talk about the things that need to be worked 
on in Peru, and Thailand, and Brazil, and Pakistan, and 
Zimbabwe, and then on the other hand we could talk about those 
things that are still not perfect but going on well in Uganda, 
United States, Costa Rica, Canada, India.
    All of these examples, pro and con, even though none are 
perfect, illustrate that the treaty for the rights of women has 
proven to be a valuable tool in broadening the basic rights of 
women and girls as a formal tool, as a formal plan, as a formal 
guideline. Although I have focused much of my remarks on what 
goes on both here and around the world, we have to say one more 
time that it would only be collective as Mrs. Bush, as the 
administration, as the women's organizations in the United 
States have brought to the table in facing Afghanistan. Despite 
all of the successful work that we have done on this this year, 
for some reason many of us cannot still see that ratifying the 
treaty is definitely the way to go.
    On behalf of Business and Professional Women/USA and the 
National Council of Women's Organizations, I thank the 
committee for this opportunity to testify, and if we had had 
time I would have welcomed questions. I thank you specifically, 
Madam Chair.
    [The prepared statement of Ms. Smith follows:]

                  Prepared Statement of Jane E. Smith

    Good morning. I am Jane Smith, Chief Executive Officer of Business 
and Professional Women/USA. On behalf of Business and Professional 
Women/USA (BPW/USA), I want to thank Senator Biden, Senator Boxer, 
Senator Helms and the members of the committee for inviting me here 
today. I applaud Senator Biden for holding this hearing and Senator 
Boxer for chairing it. I welcome the opportunity to represent the 
working women who are members of my organization to discuss the 
importance of ratifying the Convention to End All Forms of 
Discrimination Against Women, often called the Treaty for the Rights of 
Women.
    Business and Professional Women/USA is a bi-partisan organization 
that promotes equity for all women in the workplace through advocacy, 
education and information. BPW/USA represents the interests of 30,000 
working women who participate in 1,600 local organizations across the 
nation, including every Congressional District. I am here today also as 
a Steering Committee Member of the National Council of Women's 
Organizations. In this capacity, I represent a nonpartisan network of 
160 women's organizations, collectively representing seven million 
women nationwide.
    The Treaty for the Rights of Women is an instrument to address 
discrimination against women in their political, cultural, economic, 
social, and family lives. As Chief Executive Officer of Business and 
Professional Women, I view it as a business plan because the treaty 
provides a ``best practice'' model for improving the rights of women. 
It offers us a road map of where we hope to go and shows us how we can 
plan to get there. Research has taught us that improving the lives of 
women impacts greatly the quality of their families' lives, and 
ultimately the quality of their nations.
    BPW/USA supports ratification of the Treaty for the Rights of Women 
because it provides a plan for ending discrimination against women, 
thereby offering an opportunity to better our nation. Additionally, in 
ratifying the treaty, the United States heightens its credibility as a 
world leader on human rights.
    Let us take a moment to look at the quality of women's lives in the 
United States. A glance at BPW/USA's organizational history provides an 
interesting time line of the considerable gains American women have 
made in the last eight decades. BPW/USA was founded in 1919 by 
suffragettes and the organization has been fighting to achieve equity 
for women here and abroad ever since. In the 1930s BPW/USA's members 
lobbied successfully to end the legal practice of denying jobs to 
married women and in the 1940s we fought for the creation of women's 
branches of the armed forces. BPW/USA's members played a significant 
role in the passage of the Equal Pay Act and the Civil Rights Act and 
in the 1960s, and since the 1970s we have lobbied successfully for 
increases in the minimum wage and passage of the Family Medical Leave 
Act and the Violence Against Women Act.
    While BPW/USA's members, and American women in general, have made 
tremendous strides toward equality in the last eighty years, women 
around the world continue to experience discrimination in all facets of 
their lives. This discrimination is no better exemplified than in 
Afghanistan. BPW/USA's concern for the status of Afghan women dates 
back to 1956 when BPW/USA's members recommended support of the UNESCO 
Afghanistan Project--a program to increase educational opportunities 
for girls. Forty years later, BPW/USA's members continued to advocate 
on behalf of Afghan women who were prohibited from attending school, 
participating in government, or working outside of the home by Taliban 
regime. BPW/USA's members advocated on behalf of their sisters in 
Afghanistan, passing a legislative resolution in 1999 at our National 
Conference urging the United States government to exert its influence 
diplomatically and economically to force Afghanistan's Taliban 
government to recognize the fundamental rights of women.
    In 1999, at the same time BPW members were calling on the Taliban 
to cease its oppression of Afghan women, we were renewing our call to 
the United States government to ratify the Treaty for the Rights of 
Women, a call that began in 1982. BPW/USA's members, and those of our 
sister organizations, understand that other countries look to the 
United States as an example of freedom and equality and are aware that 
our failure to ratify the treaty affects our ability to promote basic 
human rights. The United States works with impoverished countries 
around the globe on a daily basis, providing instruction on issues from 
irrigation to voting procedures to inoculation. But, most importantly, 
the United States instructs countries on human rights issues, 
encouraging other nations to adopt policies in line with democratic 
principles. BPW/USA's members recognize the privileges they enjoy here 
in the United States--rights that allow them to vote, to start their 
own businesses, to pursue careers of their choice, to hold political 
office. These are basic human rights. Yet, we are the only 
industrialized nation that has not ratified the Treaty for the Rights 
of Women. How can we ask other countries to accept our guidance and 
follow our lead on human rights when we ourselves have not committed to 
a Treaty to end discrimination against women already ratified by 169 
countries, including a number of America's allies such as Great 
Britain, Canada and France? And, what company are we keeping by not 
ratifying the treaty? Presently, countries like Sudan, Iran and yes, 
Afghanistan have failed to ratify the treaty. Surely, we want to 
differentiate ourselves from these countries and their documented 
terrorist practices, oppression of women, and human rights violations. 
The United States is the leading country of the free world and we must 
also be the lead supporter of human rights.
    Unfortunately, life for Afghan women under the Taliban regime 
offers only a snapshot of the oppression experienced by women around 
the globe. There is much work still to be done around the world to 
ensure equality for women and girls. According to a recent report 
issued by the World Health Organization, as many as 60 percent of women 
in rural areas of Peru, Thailand, and Brazil are victims of violence, 
and in other parts of the world, two in three women experience 
violence. In Pakistan, Islamic law does not distinguish between 
consensual sex and rape when banning ``adultery,'' so up to 50 percent 
of women who report rape in Pakistan are charged with ``adultery'', and 
up to 80 percent of Pakistani women in jail have been convicted of 
``adultery''. In Zimbabwe, with an AIDS population of 1.5 million, the 
rapid spread of the disease has been facilitated by a culture of near-
total male-dominance with women risking physical punishment, 
humiliation or rejection if they refuse sexual relations. Even a 
request that a would-be sexual partner wear a condom can earn a woman a 
beating, or can see her returned as an unfit wife to her family. 
Internationally, women also experience high rates of maternal 
mortality, have limited access to education and training, possess 
little decision-making authority, and have unequal access to health 
care. the treaty is an excellent first step toward addressing these 
issues and many others that women around the world continue to 
confront. In fact, two years ago, I was a delegate to a special session 
of the United Nations General Assembly, a follow-up to the 1995 Beijing 
Conference on Women. At this special session, I was approached by women 
from all over the world inquiring as to why the United States has 
failed to ratify the Treaty for the Rights of Women. They could not 
understand why the United States, a model for countries around the 
globe, refused to ratify a Treaty to end discrimination against women.
    The women I spoke with at the United Nations General Assembly 
meeting also shared ways the treaty had assisted the women in their 
countries in gaining political, civil and economic rights. These 
women's experiences are not isolated examples. A number of countries 
that have ratified the treaty have implemented policies to improve the 
status of women and increase their educational and employment 
opportunities. For instance, twenty-two of the countries that have 
ratified the treaty have instituted programs to promote women's equal 
opportunity in employment. The Uganda government has created programs 
to combat domestic violence. Costa Rica is implementing training 
modules to decrease the incidence of sex crimes. And, India 
universalized its Integrated Child Development Services program after 
ratifying the treaty, increasing significantly the number of girls 
enrolled in school. These examples illustrate that the Treaty for the 
Rights of Women has proven to be a valuable tool in broadening the 
basic rights of women and girls.
    Although I have focused much of my remarks on the status of 
international women, it is important to note that American women have 
not achieved parity with their male counterparts either. Discrimination 
still exists-in schools, in the workforce, in civil and political 
rights. True, American women have made significant inroads but, as a 
nation, considerable works lies before us. And, this is where the 
treaty becomes important. As business and professional women, many BPW 
members have drafted business plans. These plans provide them with a 
road map of where they plan to go and how they plan to get there. As I 
stated earlier, the treaty should be the United States' business plan 
for women. Although the treaty would not impose new requirements in our 
laws, it would reinforce compliance with already existing federal 
obligations and laws granting women legal autonomy and protection 
against discrimination in matters of property and contract.
    The United States must continue to strive for equality between men 
and women because we are not there yet. Currently:

  <bullet> American women continue to experience sexual harassment in 
        the workforce and many girls are now subjected to sexual 
        harassment in schools;

  <bullet> Almost one-third of the American women murdered each year 
        are killed by their current or former partners, usually a 
        husband;

  <bullet> Women are paid 73 cents for every dollar their male 
        counterparts are paid;

  <bullet> More than one in eight women lack health insurance;

  <bullet> Working mothers do not have adequate access to child care. 
        Currently 20 states maintain waiting lists for child care;

  <bullet> Women are often excluded from medical research, which means 
        doctors know less about how to recognize and treat diseases 
        among women. In particular, our nation is failing to fight 
        adequately the number one killer of American women--
        cardiovascular disease; and

  <bullet> In the United States, about 1 million teenagers become 
        pregnant each year. Approximately 70 percent of these pregnant 
        girls do not receive adequate prenatal care.

    While these statistics focus on women, I must emphasize that the 
fact that American women have not achieved full equality in our society 
impacts directly on the lives of America's children. The next 
generation is shortchanged when working mothers must resort to sub par 
child care facilities, when children witness domestic violence in their 
homes, and when working mothers do not bring home an adequate paycheck 
because of unfair pay.
    With all of that said, I must emphasize that the treaty would only 
provide us with a road map or a business plan, it would not be a 
mandate. The Treaty for the Rights of Women requires regular progress 
reports from ratifying countries but it does not impose any new changes 
in existing laws or require new laws. It lays out models for achieving 
equality and provides recommendations for improved programs and 
practices. It monitors progress without stipulating changes in the 
United States Constitution.
    Last fall, I participated in meetings with the Administration and 
the women's community, meetings to discuss ways to include women in the 
rebuilding of Afghanistan. The women's community emphasized that the 
participation of women in the new Afghan government was essential to 
creating a stable political and social structure and I am proud to say 
that the Administration understood the importance of women having a 
seat at the table. In the words of First Lady Laura Bush, ``Afghan 
women should have the opportunity to play a role in (the future of 
Afghanistan).'' And, in fact, women have played an important role in 
the rebuilding of Afghanistan. Currently, the women of Afghanistan are 
working with their American sisters to ensure that Afghan women 
participate equally in the drafting of a new Constitution for their 
country, thereby guaranteeing parity for women under the law. Despite 
the success of this partnership, I cannot help but think that our role 
as a guide in the rebuilding process is somewhat hypocritical because 
of our failure to ratify the Treaty for the Rights of Women.
    By not ratifying the treaty, America is expressing to the world 
that we stand apart, even from our allies, in the quest to end 
discrimination against women. We must acknowledge that even the most 
advanced country in the world can still work toward the ideal of 
equality for all under the law. We must recognize that as a leader, the 
United States must lead by example. Just as the women's community and 
the Administration understood the importance of including women in the 
decision making process in the rebuilding of Afghanistan I urge you to 
recognize the importance of ratifying the Treaty for the Rights of 
Women in the United States' goal of achieving human rights around 
globe.
    On behalf of Business and Professional Women/USA, and the National 
Council of Women's Organizations, I thank the committee for this 
opportunity to testify and I welcome your questions.
    Thank you.


    Senator Boxer. Thank you so much. We do have time for 
questions. The question period will be led by Senator Biden. I 
will submit my questions for the record. I have a longstanding, 
pressing Senate commitment in 5 minutes. I just want to say for 
the record that the reason we have come to this moment is 
because of the Senator sitting next to me here, Senator Joe 
Biden.
    The bottom line is that women cannot face these problems 
alone, as was so clearly pointed out by Dr. Sommers. So let me 
be very clear: without the support of Senator Biden and many of 
my male colleagues, in addition to, of course, the women on 
both sides of the aisle, we would not be at this point today. 
This has truly been, I think, a model on how we should proceed 
equally together.
    As far as the opposition, men and women equally coming 
forward and speaking their minds. There is not any question 
about that, because this is about a treaty that I believe will 
move our country forward in the eyes of the rest of the world, 
and clearly in the eyes of the women and men who care about 
women in our own country.
    When I saw, Mr. Chairman, the line of young women and young 
men waiting to get into this room, and I talked to a few of 
them, they were so happy that this day had come, so in parting, 
let me just say that I know the question and answer period will 
be very stimulating and exciting, knowing my two colleagues 
that are remaining here to do the questioning. I will read the 
record very carefully. I look forward to voting this treaty out 
of committee and bringing it to the Senate floor an taking the 
Bush administration at its word that they believe this treaty 
would be good for us to approve. That is their current 
position. I hope it does not change, and I thin if we do this, 
it will be a tremendous signal to the women around the world 
who are looking to us for leadership.
    Again, my deepest thanks for the trust you have placed in 
me. I greatly appreciate it, Mr. Chairman, and I hand the gavel 
over to you at this point.
    Senator Biden [presiding]. Thank you, Senator. Since 
Senator Brownback and I are the two remaining, maybe we can use 
a 10-minute rule, and I invite you to interrupt at any time, 
because I find we are most likely to learn the most if we 
actually have a genuine exchange, a genuine dialog here.
    When in the course of human events it becomes necessary for 
one people to dissolve the political bonds which have connected 
them with another, and to assure among the powers of the earth 
the separate and equal station to which the laws of nature and 
the nature of God entitle them, decent respect for the opinions 
of mankind requires that they should declare the cause which 
impels them to the separation.
    We hold these truths self-evident, that all men are created 
equal, that they are endowed by their Creator with certain 
inalienable rights, that among them are life, liberty, and the 
pursuit of happiness. To secure those rights, Governments are 
instituted among men, deriving their just powers from the 
consent of the governed, and whenever any form of Government 
becomes destructive to those ends, it is--and so on.
    You are all familiar with the Declaration of Independence, 
not a single word of which is self-executing, but I would 
respectfully suggest it emboldened and empowered the world--the 
world--the world to act.
    But the bottom line of this is that I find it kind of 
fascinating that one of the several reasons offered against 
ratifying this treaty is, it is not self-executing, that there 
is no enforcement mechanism, and in the same argument--we are 
allowed to argue an alternative here.
    At the same time, we argue that because there are 
provisions in the treaty which we have, as Dr. Hoff Sommers has 
indicated, we have moved well beyond as a society, that there 
is a commission, a committee, which has no power, by the way, 
has no power, that can comment on whether a country has abided 
by or is following the tenets of the treaty, that we should not 
join because it has power to influence events in the United 
States.
    I believe, Doctor, you said it will increase lawsuits, it 
will do these other things.
    Dr. Sommers. Definitely.
    Senator Biden. There is not a single ounce of evidence to 
sustain that position, none, but I will go into this in a 
minute.
    Dr. Sommers. I could offer some.
    Senator Biden. Let me speak. Now, you mentioned--let me get 
the witness list here.
    Now, Ms. Balmforth, you mentioned abortion, and you 
mentioned Mexico and Ireland. Do you know whether or not they 
are signatories to the treaty?
    Ms. Balmforth. Yes. They ratified it. This was a comment 
made to them by the committee in determining whether they had 
complied or not.
    Senator Biden. Do you know whether they have withdrawn from 
the treaty?
    Ms. Balmforth. No.
    Senator Biden. You do not know, or you do know?
    Ms. Balmforth. I do not believe they have.
    Senator Biden. Ambassador Kirkpatrick, you indicated that--
which is, I think, a very important point--it is more important 
to do than to speak. Is it sometimes more important to speak 
than remain silent?
    Ambassador Kirkpatrick. Of course.
    Senator Biden. Is there--and I am sure you are all aware, 
but we passed this out of committee last time. It contained a 
resolution of ratification, contained as we are able to do 
under the Senate under our Constitution, 10 conditions, four of 
which were reservations, four of which were understandings, and 
two of which were declarations.
    The reservations were, we would accept no obligation to 
regulate private conduct. We accept no obligation to assign 
women to all military units, accept no obligation to establish 
comparable worth, we accept no obligation to provide paid 
maternity leave. The understandings were federalism, the 
Federal Government will assure compliance within the reach of 
its powers, otherwise the States will, not the U.N. or anyone 
else, not to accept the obligations under Articles 5, 7, 8, and 
13, which may violate free speech, expression, or association.
    Third, understanding that Article 12 allows State parties 
to decide what his appropriate.
    Fourth, nothing in the convention creates a right to 
abortion, which is the Helms understanding, and the 
declarations were that the convention is not self-executing 
under U.S. law, and the U.S. is not bound by Article 29, 
paragraph 1, regarding arbitration in the International Court 
of Justice.
    That was what we did on this treaty, as we have done on 
SALT treaties and START treaties and many, many other treaties 
that we have ratified, and so each of the areas that I have 
heard you mention specifically we have--and there may be others 
which I would be prepared to entertain--we have made it clear, 
or we made it clear in the past that our ratification of this 
treaty was conditioned upon the reading of the treaty as our 
conditions indicated, which would obviate in the specific legal 
sense at least the concerns that most of you have expressed.
    It may not obviate the generic concern you have about 
unleashing radical feminism around the world, and I kind of 
find it fascinating when I am in India or in any other country, 
the last kind of concern as the woman is about to be put on the 
pyre to be burned after her husband has been killed, because it 
is the custom still in some parts of India that the wife be 
burned with him, is whether or not there is enough protection 
of men's rights. It really does not just leap up to the top of 
their consciousness at that moment, and so I have a question of 
you, Professor Koh, and then I would yield to my colleague.
    The provisions of the treaty state that the obligations in 
general--they state each of the obligations in general, not in 
specific terms. Nearly all the substantive articles of the 
treaty obligate nations which join to, quote, take all 
appropriate measures to address gender discrimination in 
specific segments of law and society. Can you tell us in 
layman's terms what that means, to take all appropriate 
measures? What does that mean within the context of the treaty?
    Mr. Koh. I think you have hit on, Senator, the central 
contradiction of the position taken by the con speakers, which 
is, on the one hand they are saying this convention does not do 
anything at all. It is a nothing. On the other hand, they are 
saying it would have this sweeping effect and force a radical 
change in our society. The real answer is in between. It is a 
valuable and useful tool to promote gender equality.
    Now, their basic concern is about its imposition on 
national sovereignty. As you have suggested, the Senate can put 
understandings on its advice and consent, which protect 
constitutional rights. Then the language which you have just 
read says that we shall take ``appropriate measures,'' and 
there is a margin of appreciation for what we consider to be 
``appropriate measures.''
    I want to say something about the CEDAW committee, because 
I am, I think, the only person here who has actually appeared 
before one of these treaty committees. The concerns that are 
being expressed about these treaty committees were also 
expressed about the treaty committee for the Torture 
Convention, the treaty committee for the Race Discrimination 
Convention, and the treaty committee for the Covenant on Civil 
and Political Rights. In each case, it was argued that somehow 
they would take over our sovereignty.
    In fact, particularly once U.S. experts were put on those 
committees, those committees have done a good job. I have 
actually appeared before one and submitted the U.S. report to 
the other. It has been a very valuable exercise for the U.S. 
Government in demonstrating exactly how much we have done to 
meet international standards. So, I think the suggestion that 
somehow these committees are going to run wild and invade our 
sovereignty, when in fact we have various ways of ensuring that 
our National interests are protected, and when in fact our own 
practices are so fully compliant with most of the treaty 
provisions already, just rebuts the criticism that is being 
made here.
    Senator Biden. I would like to and I will insert for the 
record, not in literal terms of rebuttal, but to elaborate on 
the statements Mrs. Balmforth made regarding some of the 
decisions taken on lesbianism and religion, et cetera. Let me 
just read--in the Kyrgyzstan example you gave about lesbianism, 
if I am not mistaken--and you can correct the record if I am 
wrong. I will put this in--the committee you are talking about 
did not direct them to legalize lesbianism. In its 
consideration of Kyrgyzstan's report it noted that lesbianism 
is punishable by imprisonment, and it recommended that criminal 
penalties be abolished.
    Now, we do not have any criminal penalties in the United 
States under our Constitution for being a lesbian. I guess you 
know that, right?
    Ms. Balmforth. Of course I do.
    Senator Biden. So all they are doing is what we do in the 
United States, recommending that.
    In the same report the committee called on Kyrgyzstan to 
institute legislation to suppress the growth of trafficking in 
prostitution, and to offer support for the rising number of 
victims of violent and sexual acts such as gang rapes.
    Now, again, I am not suggesting that everything this 
committee suggests makes sense, but I want to make clear it 
only suggests, period. Absent us having a representative on the 
committee as a voice to have a more balanced or reasoned view, 
or enlightened view, it seems to me that we put ourselves at 
some risk, and at least on the example--I will not go through 
the ones with regard to the Koran as well and religion, but on 
the one on lesbianism, I could be wrong, but I believe that 
what I have just said to you is accurate, that it did not call 
for legalizing lesbianism. It called for doing what the United 
States Constitution says.
    If you are a lesbian, because you are a lesbian, we have no 
right under our Constitution to put you in jail. That is what 
they do in Kyrgyzstan. They put you in jail if you are a 
lesbian, and all this report said to the best of my knowledge 
was, we recommend you not do that. You decriminalize it, not 
promote lesbianism, but anyway, I will put in the record 
comments on the actions of the advisory committee on 
prostitution, Mother's Day, lesbianism, the religion and the 
Koran, gender roles, the noble mother, this notion of 
stereotypes, day care in Slovenia, and sex education in 
Romania.
    From my perspective, I would give you a chance to take a 
look at it when it is in the record and invite you to comment 
on whether or not the characterization that I believe is 
appropriate is appropriate, but I am over my time, and I would 
yield to my friend Senator Brownback.
    [The information referred to follows:]

      Excerpt From Report of the Committee on the Elimination of 
   Discrimination Against Women, Twentieth Session (A/54/38 (Part I))

                            *    *    *    *

        127. The Committee is concerned that lesbianism is classified 
        as a sexual offence in the Penal Code.
        128. The Committee recommends that lesbianism be 
        reconceptualized as a sexual orientation and that penalties for 
        its practice be abolished.

                            *    *    *    *

    Senator Brownback. Thank you, Mr. Chairman. I want to thank 
the members of the panel for being here and for giving us your 
opinion. It is illuminating. You have made me certainly see the 
wisdom and the need for the Department of Justice to review 
this document thoroughly. By all of the strength of the legal 
opinions that many of you--and I presume we have got a good 
balance of lawyers here on the panel, or people that are 
trained in the law.
    That we have differences of opinion on this, and that that 
would bear certainly a thorough review of its impact on the 
United States and around the world.
    I want to focus on several different areas if I could on 
this. One is on the issue of sex trafficking. I have last year, 
and thanks under the chairman, although he ought to thank me a 
little bit too, we got through a bill opposed to sex 
trafficking.
    Senator Biden. You are the main reason why it happened. You 
have been outspoken and articulate and consistent and 
persistent on sex trafficking, just as I am going to be on this 
convention.
    Senator Brownback. Thank you very much, and it was a good 
bill, it was a good piece of legislation, and I think it is 
helping young girls live free in some countries that would not 
be otherwise. It is a continuation of the actions-versus-words 
sort of argument that I would like to follow.
    The problem of it is, that I see in this area, is both in 
the treaty itself and in the committee of CEDAW. In the treaty 
itself, we have got three levels of worst-offender trafficking 
countries, and the worst is tier 3. This report just came out 
here a week ago. Of the people that are in tier 3--these are 
the worst offender countries in this area of sex trafficking--
12 of 19 are signers on the CEDAW participating parties, of 
CEDAW 12 of 19, and two are even members of the CEDAW 
committee, of the overarching committee that governs CEDAW, 
Indonesia and Turkey.
    I mean, here is again a use of a document saying, look, we 
are signed on to CEDAW, but we are going to be the worst 
offenders on trafficking of young women and children. I want to 
point this out, and say that again, it is actions that speak so 
loud. I like, frankly, what Ambassador Kirkpatrick pointed out, 
that we should really be rallying around the International 
Declaration of Human Rights and pressing that issue.
    I have visited these places. I have been to India and 
talked with officials, and been to places where they are 
recruiting young girls into brothels and the horrible life that 
they have lived. I have been to Nepal, where some of these 
girls have traveled back to, and I have met with the girls that 
have been trafficked into these places. I have been to 
Thailand, and I have been to the border where they are 
recruiting and trafficking the girls across these borders, and 
you have Governments in these countries that are signing these 
documents saying yes, we are doing this, and not doing a darned 
thing, and I have met with the officials and pressed them on 
it.
    Afghanistan is raised a great deal here, but our actions of 
sending troops into Afghanistan and insisting that women be 
placed on the overall council in Afghanistan and in the Loya 
Jirga are far more important than any words that we would say, 
and I think we would be far better to focus on the 
international rights.
    The human rights documents would be the place for us to 
emphasize and focus, rather than a treaty that you have raised 
some serious questions for me on this, and I want to ask 
particularly Ms. Balmforth, the lawyer, you cite to the 
committee's actions more than the document, and Dr. Sommers, 
you cite the document more than to the committee's actions. I 
mean, you are saying that what the committee is doing are a 
number of things that are highly questionable.
    Is the committee taking this from the document, or are they 
a rogue committee that is operating the CEDAW committee, Ms. 
Balmforth, because I read from your testimony some of the 
things they are putting forward, are really very troubling 
about what the committee is putting forward. How do you 
interpret their actions?
    Ms. Balmforth. Well, they are not a rogue committee in the 
sense that they are operating at the express instruction of the 
High Commissioner of Human Rights, the Secretary of the 
Division for the Advancement of Women, the U.N. Population 
Fund. I mean, this kind of reinterpretation of the treaty has 
been expressly encouraged by them.
    One of the problems is structural. I mean, what becomes a 
tool of diplomacy, this vagueness, this ambiguity that allows 
countries to sign on to a document that can mean different 
things to different people becomes--it gives people 
interpreting it a blank check to say it means whatever it 
means. I mean, it is a two-edged sword, when you start trying 
to interpret the meaning of this document into actual, positive 
law in countries, or constitutional provisions in countries, so 
they have been given a virtual blank check with this sweeping 
language of the treaty.
    I mean, I see the treaty as being problematic in itself. It 
can mean whatever the committee says it means, and it is very 
true that the committee has no teeth. Right now, you cannot 
send blue helmets in to enforce this, and if you are as strong 
as we are, certainly the intelligence community cannot force 
its will on us at this point in time, but there is no guarantee 
that our reservations will always be respected.
    If you look at what the committee does, if you look at what 
other nations do, when countries have made broad reservations 
to the treaty--for example, to protect their religious laws, or 
some other way, the western countries, European Union countries 
in particular object to those reservations as being invalid. 
The committee has said they are invalid because they are either 
too broad or vague, or because they are against the purpose of 
the convention, which would make it invalid under international 
law.
    We cannot begin to predict what the committee will come up 
with next in terms of what they think this document means, so 
we cannot offer a specific reservation to everything, and 
reservations that are too broad, that purport to place our 
Constitution above it, will likely be declared invalid by the 
members of the intelligence community.
    And I must say, too, I mean, it is true they cannot force 
us now to do anything, but if all this is is an exercise of 
power, it is not the rule of law, and we should not pretend 
that it is.
    Senator Brownback. Dr. Sommers, is that your concern, that 
the committee's interpretation of the language that you put 
forward and cited will lead to the committee having broad 
places that it could go that we may not contemplate?
    Dr. Sommers. Absolutely. I think the committee is being 
true to the document, and I would also suggest, if you want 
some comic relief, go to the web site of--San Francisco has 
ratified the treaty. San Francisco has ratified the treaty.
    Senator Biden. You know there is a bunch of radical 
feminists out there, don't you?
    Dr. Sommers. Then why don't you go and look and see what 
they did, and they have established a gender bureaucracy.
    And by the way, I did not use the phrase radical feminists. 
That is yours. I talked about orthodox feminists and hard-line 
feminists.
    Senator Biden. I think you did say radical, but----
    Dr. Sommers. And statistically challenged gender scholars. 
But San Francisco has passed this and has established--
seriously, I mean, it is not a joke, and they have a gender 
bureaucracy, and it is all there. I mean, go in and look and 
you get a harbinger of what could actually happen if we were to 
allow the bureaucrats who are so carried away with the worst 
kind of divisive sexual politics into our communities.
    In this case in San Francisco, it can be humorous, but 
imagine that they had power, and I will tell you the thinking 
of the activists in San Francisco is not that different from 
the people on the committee. You see the sorts of things that 
they have gone after, and again, I agree with my colleague 
that--well, how will it affect the world, something in between, 
and in between I think it will be very mischievous in this 
country because of the current composition of our feminist 
leadership, and the fact that women's studies in America where 
they generate the scholarship is a one-party system. They do 
not allow diversity.
    So really Americans have not had the benefit of scholarship 
that represents the richness of both conservative, liberal, and 
include libertarian ideas, so that would be a very dangerous 
combination of the misinformation that is generated from a 
women's studies departments which are just carried away with 
their own ideology, and mix that power with the U.N. This would 
be a hammer to hit us with.
    Senator Brownback. Ambassador Kirkpatrick, a document like 
this, ratified by the United States, signed and ratified by the 
United States, how would that be used? What would we see coming 
out of the U.N. toward the United States if something like this 
happens here, from your experience?
    Ambassador Kirkpatrick. Frankly, I do not think much would 
happen. That is really my position. I do not think much of 
anything would happen.
    I think I said it as clearly as I could that in a very real 
sense what offends me the most about just such treaties is that 
they leave people with a sweeping coverage and language. They 
leave people with the impression that they are running a 
revolution and will change and improve a great many things, and 
that is just not true. Most of the global treaties really, and 
the committees which are founded on the basis of them, lead to 
very little.
    Now, sometimes they lead to more. Sometimes there are some 
technical commissions established from time to time. For 
example, on some of the nuclear arms treaties and the chemical 
weapons treaty, there are commissions established which would 
visit all of the pharmaceutical manufacturing places, but most 
of the treaties, nothing much happens at all. I cannot conceive 
of anything very positive coming out of this treaty, and 
really, frankly I doubt if anything very negative will come out 
of it.
    I just do not think much of anything would come out of it, 
and it bugs me to have the impression created that we have 
solved big problems. Actually, I really think discrimination 
against women is a very big problem, a very big problem----
    Senator Brownback. I do, too.
    Ambassador Kirkpatrick.--in many other countries, above all 
in the Third World.
    Senator Brownback. And I have seen it there.
    Ambassador Kirkpatrick. And I have, too. I visited the 
places you described.
    Senator Brownback. And it is horrible, what is taking 
place. I am not resolved, myself, where I am going to come down 
on this treaty, Mr. Chairman. I hear a lot of question raised 
today, but I am resolved about what the United States needs to 
do to help women and children around the world, and we need to 
act. We need to take action in places, and like what we have 
done in Afghanistan I think is a good early step action to try 
to liberate, and what we have done on sex trafficking I think 
are good steps, that we need to act. We need to act in these 
places, and so I am looking forward to more input on the 
treaties.
    Mr. Koh. Might I respond to three points Senator Brownback 
made? First you said you thought we should implement the 
Universal Declaration for Human Rights. The universal 
declaration is not a treaty. This treaty is one, and this is 
the very implementing force you are calling for.
    Second, your important point about 12 of the 19 being 
violators who are members of the treaty. It is precisely 
because we are not members of the treaty that we cannot force 
them through the treaty to enforce Article VI, which targets 
trafficking. If we were to join, we could.
    Senator Brownback. Why don't the others do it?
    Mr. Koh. That is what the CEDAW committee does. In fact, I 
think we want a committee which is aggressive and in context, 
holds countries' feet to the fire. The real question is, do we 
have more to gain or lose from ratification, and my answer is 
that we clearly have more to gain.
    Senator Brownback. We have opinions here that I do not know 
if we want a real aggressive committee, from what I have seen 
Ms. Balmforth put forward of what actions they have taken with 
a very aggressive committee.
    Mr. Koh. I think Senator Biden put it well. You have to 
read the language in context, and when a full and searching 
evaluation of a country's commitment to gender discrimination 
is made by the committee, that tends to be a good thing, 
because we come out well, and better than many other countries. 
We have the most to gain by joining this committee and the 
least to lose.
    Senator Biden. Can we trespass on your time just a little 
bit more? We will only hold you for one more round, if you have 
time, Senator.
    Senator Brownback. We just got buzzed for a vote.
    Senator Biden. Let me say, Ambassador Kirkpatrick, I have 
known you for years. I have great respect for you, and one 
thing I most admire, and I mean this sincerely, your 
consistency and your unvarnished statement of what you think 
all the time, and I mean this sincerely.
    Your position does not surprise me at all, and it is 
balanced, because you have said the same thing about the 
Chemical Weapons Convention, you said the same thing about the 
Biological Weapons Convention. You have a consistent and, I 
think--you do not need me to think it--defensible and rational 
argument as to why not only this treaty but other treaties--I 
was literally--you are on a call list for me to call you asking 
you about the Moscow treaty, for example, which has no self-
executing element to it, which I wonder what your views are 
going to be on it, but that is a different subject.
    So what I am trying to say to you is, you and I have had a 
long disagreement about the values of hortatory language that 
is not self-executing, and whether it is damaging or has a 
positive impact, but we both acknowledge most of these 
treaties, if they are not self-executing, are not able to 
deliver what they promise, and our argument, or our 
disagreement, to the extent that it has existed, and it has 
existed in some areas, has been about whether or not this 
establishing international norms improves the prospect for 
whatever the treaty calls for, whether it is arms control or 
whether it is women's rights, or whether or not it has the 
effect in its failure to be abided by, degrading the prospect 
that international norm will be kept, so I am not going to bore 
you or anybody else here with a discussion of our differences, 
but I thank you for your candor, and I really mean it.
    The idea that this is going to radically affect outcomes 
either way is highly, highly unlikely, in my view, number 1, so 
having stated that, in terms of, so the rest of the panel knows 
where I am coming from on this, it is out of the point of view 
that we ought to be able to walk and chew gum at the same time, 
that we can do everything the Senator from Kansas says we 
should do about enforcing or using other methods to deal with, 
wherever we can, insisting upon the ending of trafficking, 
insisting upon women's rights in our bilateral agreements and 
every other fora beyond this treaty, but to suggest that if we 
do this treaty we cannot do those things, or doing this treaty 
will somehow impact upon our ability to do those things I would 
respectfully suggest is not logical. It is not consistent.
    Maybe this treaty does not do much, but by going forward 
with the treaty, it does not mean we cannot and should not move 
forward on bilateral issues, on writing into our legislative 
initiatives conditionality relating to conduct in other 
countries like we have in Afghanistan, like we have in other 
matters.
    But there are a couple of things that I want to make sure I 
understand. Now, I am not going to take the time now, but I am 
going to share with my colleague my analysis of a legal opinion 
by a very talented woman who I think is dead wrong in her 
characterization of what the committee said and does. You read 
from her testimony when you said it worries you about what the 
committee has done.
    I would argue that if you take a look at the context of 
these you will find--like I said, the one on lesbianism, it 
does not legalize lesbianism or call for the legalization as 
stated in that statement, does it?
    Ms. Balmforth. Can you explain to me the difference between 
decriminalization and legalization?
    Senator Biden. I sure can. You decriminalize something, you 
say you do not go to jail for it. You legalize it, and you say 
that it is morally acceptable, that this is a policy of a 
country, that this is our position, so you decriminalize a lot 
of things in our society that we think are morally 
reprehensible. We decriminalize them. All that calls for is 
what the American Constitution says about lesbianism. We have 
decriminalized being a lesbian. We have not legalized being a 
lesbian in a way that we have affirmatively passed legislation 
saying, by the way, to be a lesbian is a good thing. We have 
not done that. We have said, the fact that you may be a lesbian 
does not allow this country or any State to lock you up in jail 
because you are a lesbian.
    Senator Brownback. Mr. Chairman, can I just ask a question 
on this, not on this point, but another? We are going to have 
to go vote shortly. Does she express--because there is a quote 
in here that says the committee has expressly opined that 
religion disadvantages women in all countries.
    Senator Biden. That is not what that says. That is a 
statement--let me find my----
    Senator Brownback. I would like to get clarity on that, if 
that is stated.
    Senator Biden. I have so many papers piled up here.
    Ms. Balmforth. Senator, I do not have the original document 
with me. I could find it and send it to you.
    Senator Brownback. She has a citation here.
    Ms. Balmforth. I have a citation. As I looked at it, 
somebody brought that document to me, and I took this from two 
or three other iterations, and I hope it is not a misstatement, 
but I believe it was a general comment.
    Senator Biden. Let me help you out with that.
    Senator Brownback. If you could, Mr. Chairman, if you have 
specific items on each of these, I think it would be helpful to 
say, OK, well, this is--because there are specific cites on 
these.
    Senator Biden. Rather than tie up the whole committee, I 
was not going to go through that. That is why I submitted it 
for the record, but let me speak on the cite relative to 
religion. It says, the question really asked is, why did this 
committee direct Libya to reinterpret the Koran to fall within 
CEDAW's guidelines, because that is what the allegation is. 
That is what is stated there.
    Before ratification, each country has an opportunity to 
adopt reservations understandings or declarations with regard 
to the provisions of the treaty. When Libya ratified the 
convention, it expressed a reservation about Article 2, which 
calls for an end to all legal forms of discrimination against 
women. At the same time, Libya noted that under the Koran's 
teachings, women are equal partners of men. Therefore, the 
committee asked for further clarification on why they needed 
this reservation.
    Now, that seems to me somewhat different than suggesting 
that, as was suggested in the statement. Now, I may be wrong 
about that. We can battle that out.
    Senator Brownback. Well, if you could Mr. Chairman, and I 
do not mean to interrupt----
    Senator Biden. You are, but go ahead.
    Senator Brownback. She has a specific cite to this, and 
what would be useful to me is if we go to the specific cite and 
say, OK----
    Senator Biden. Now let me move ahead, and I know you want 
to go vote, and I have to go vote, too, and everybody wants to 
get the devil out of here, but with regard to three of you on 
the committee, or two of you on the committee--not the 
committee, but the panel. That is one of those senior moments I 
am having--with regard to cast that has been given, which is 
that if you read the worst possible thing that can be 
interpreted from the treaty as probably happening, I would just 
say--and I am going to be a bit--I was going to go through a 
series of questions, but with 6 minutes we are not going to 
have time. I will submit them in writing with the permission of 
the panel, and I will not overburden you. I will only ask a 
couple of questions for the written record, if I may.
    But there is a provision that--I am glad you all were not 
around asking to sign the Declaration of Independence, Doctor, 
because there is a piece of the declaration that says, it is 
the right of the people to alter or to abolish or to institute 
a new government, laying its foundations on such principles and 
organizing its powers in such forms as to them may seem most 
likely to effect the safety and happiness of the people.
    I am just glad you were not around to dissect this, because 
you would have immediately pointed out, you know, we have 
radical Muslims in the United States. We pass this thing, those 
folks may go out there and justify tearing down our Government 
based upon the fact--right here, we are saying it. Right here, 
we are saying it. Anybody has a right to effectuate, to take 
down a Government, to effectuate the principles.
    And by the way, I have some colleagues at UCLA or Clark or 
wherever, and they are radical wackos. They are anarchists, and 
they are teaching this stuff, and by the way, in San 
Francisco--and I can give you people--I can give cites in San 
Francisco for a lot of things. In San Francisco there are 
people who suggest, and they do, right now--right now, that our 
Declaration calls for the justifiable use of force to overthrow 
this Government. Ergo, do not sign on to this sucker. Do not 
sign on to this.
    Look, folks, we can make this out to be something that is 
absolutely worst case scenario. The bottom line is that the one 
thing, the one thing the rest of the world understands even 
when they try to use it against us, there is nowhere in the 
world where there is the following notion, that is upheld by 
the majority of the people of that country, and the notion 
being America, America is repressive when it comes to women.
    The entire world, the entire world understands that the 
single least repressive nation in the world with regard to 
women is the United States, and I find it absolutely mind-
boggling that the one country that has the strongest suit to 
play on women concludes that we cannot be party to this because 
we may be driven to do things in the name of women that are 
inconsistent with the rights of men, inconsistent with the 
rights of those who share a view that abortion is wrong, 
inconsistent with those who suggest that we in fact have an 
equal place in society for men like us.
    I am going to write--and you can submit your objections to 
my assertions in writing. I am going to give you a chance, 
because I am going to ask you specific questions. I truly 
appreciate your being here. I truly appreciate us getting this 
thing underway, and as my Grandfather Finnegan would say, and 
he was antiabortion, with the grace of God and the goodwill of 
the neighbors and the creek not rising, maybe, maybe we can 
move forward on this treaty.
    Thank you all very much.
    [Whereupon, at 12:55 p.m., the committee adjourned.]


                          A P P E N D I X E S

                              ----------                              


       Text of the Convention on the Elimination of All Forms of 
                      Discrimination Against Women

    The States Parties to the present Convention,

    Noting that the Charter of the United Nations reaffirms 
faith in fundamental human rights, in the dignity and worth of 
the human person and in the equal rights of man and women,

    Noting that the Universal Declaration of Human Rights 
affirms the principle of the inadmissibility of discrimination 
and proclaims that all human beings are born free and equal in 
dignity and rights and that everyone is entitled to all the 
rights and freedoms set forth therein, without distinction of 
any kind, including distinction based on sex,

    Noting that the States Parties to the International 
Covenants on Human Rights have the obligation to ensure the 
equal right of men and women to enjoy all economic, social, 
cultural, civil and political rights,

    Considering the international conventions concluded under 
the auspices of the United Nations and the specialized agencies 
promoting equality of rights of men and women,

    Noting also the resolutions, declarations and 
recommendations adopted by the United Nations and the 
specialized agencies promoting equality of rights of men and 
women,

    Concerned, however, that despite these various instruments 
extensive discrimination against women continues to exist,

    Recalling that discrimination against women violates the 
principles of equality of rights and respect for human dignity, 
is an obstacle to the participation of women, on equal terms 
with men, in the political, social, economic and cultural life 
of their countries, hampers the growth of the prosperity of 
society and the family and makes more difficult the full 
development of the potentialities of women in the service of 
their countries and of humanity,

    Concerned that in situations of poverty women have the 
least access to food, health, education, training and 
opportunities for employment and other needs,

    Convinced that the establishment of the new international 
economic order based on equity and justice will contribute 
significantly towards the promotion of equality between men and 
women,

    Emphasizing that the eradication of apartheid, of all forms 
of racism, racial discrimination, colonialism, neo-colonialism, 
aggression, foreign occupation and domination and interference 
in the internal affairs of States is essential to the full 
enjoyment of the rights of men and women,

    Affirming that the strengthening of international peace and 
security, relaxation of international tension, mutual co-
operation among all States irrespective of their social and 
economic systems, general and complete disarmament, and in 
particular nuclear disarmament under strict and effective 
international control, the affirmation of the principles of 
justice, equality and mutual benefit in relations among 
countries and the realization of the right of peoples under 
alien and colonial domination and foreign occupation to self-
determination and independence, as well as respect for national 
sovereignty and territorial integrity, will promote social 
progress and development and as a consequence will contribute 
to the attainment of full equality between men and women,

    Convinced that the full and complete development of a 
country, the welfare of the world and the cause of peace 
require the maximum participation of women on equal terms with 
men in all fields,

    Bearing in mind the great contribution of women to the 
welfare of the family and to the development of society, so far 
not fully recognized, the social significance of maternity and 
the role of both parents in the family and in the upbringing of 
children, and aware that the role of women in procreation 
should not be a basis for discrimination but that the 
upbringing of children requires a sharing of responsibility 
between men and women and society as a whole,

    Aware that a change in the traditional role of men as well 
as the role of women in society and in the family is needed to 
achieve full equality between men and women,

    Determined to implement the principles set forth in the 
Declaration on the Elimination of Discrimination against Women 
and, for that purpose, to adopt the measures required for the 
elimination of such discrimination in all its forms and 
manifestations,

    Have agreed on the following:

                                 PART I


                               Article 1

    For the purposes of the present Convention, the term 
``discrimination against women'' shall mean any distinction, 
exclusion or restriction made on the basis of sex which has the 
effect or purpose of impairing or nullifying the recognition, 
enjoyment or exercise by women irrespective of their marital 
status, on a basis of equality of men and women, of human 
rights and fundamental freedoms in the political, economic, 
social, cultural, civil or any other field.

                               Article 2

    States Parties condemn discrimination against women in all 
its forms, agree to pursue by all appropriate means and without 
delay a policy of eliminating discrimination against women and, 
to this end, undertake:



         (a) To embody the principle of the equality of men and 
        women in their national constitutions or other 
        appropriate legislation if not yet incorporated therein 
        and to ensure, through law and other appropriate means, 
        the practical realization of this principle;

         (b) To adopt appropriate legislative and other 
        measures, including sanctions where appropriate, 
        prohibiting all discrimination against women;

         (c) To establish legal protection of the rights of 
        women on an equal basis with men and to ensure through 
        competent national tribunals and other public 
        institutions the effective protection of women against 
        any act of discrimination;

         (d) To refrain from engaging in any act or practice of 
        discrimination against women and to ensure that public 
        authorities and institutions shall act in conformity 
        with this obligation;

         (e) To take all appropriate measures to eliminate 
        discrimination against women by any person, 
        organization or enterprise;

         (f) To take all appropriate measures, including 
        legislation, to modify or abolish existing laws, 
        regulations, customs and practices which constitute 
        discrimination against women;

         (g) To repeal all national penal provisions which 
        constitute discrimination against women.


                               Article 3

    States Parties shall take in all fields, in particular in 
the political, social, economic and cultural fields, all 
appropriate measures, including legislation, to ensure the full 
development and advancement of women, for the purpose of 
guaranteeing them the exercise and enjoyment of human rights 
and fundamental freedoms on a basis of equality with men.

                               Article 4

     1. Adoption by States Parties of temporary special 
measures aimed at accelerating de facto equality between men 
and women shall not be considered discrimination as defined in 
the present Convention, but shall in no way entail as a 
consequence the maintenance of unequal or separate standards; 
these measures shall be discontinued when the objectives of 
equality of opportunity and treatment have been achieved.

    2. Adoption by States Parties of special measures, 
including those measures contained in the present Convention, 
aimed at protecting maternity shall not be considered 
discriminatory.

                               Article 5

    States Parties shall take all appropriate measures:



         (a) To modify the social and cultural patterns of 
        conduct of men and women, with a view to achieving the 
        elimination of prejudices and customary and all other 
        practices which are based on the idea of the 
        inferiority or the superiority of either of the sexes 
        or on stereotyped roles for men and women;

         (b) To ensure that family education includes a proper 
        understanding of maternity as a social function and the 
        recognition of the common responsibility of men and 
        women in the upbringing and development of their 
        children, it being understood that the interest of the 
        children is the primordial consideration in all cases.

                               Article 6

    States Parties shall take all appropriate measures, 
including legislation, to suppress all forms of traffic in 
women and exploitation of prostitution of women.

                                PART II


                               Article 7

    States Parties shall take all appropriate measures to 
eliminate discrimination against women in the political and 
public life of the country and, in particular, shall ensure to 
women, on equal terms with men, the right:



         (a) To vote in all elections and public referenda and 
        to be eligible for election to all publicly elected 
        bodies;

         (b) To participate in the formulation of government 
        policy and the implementation thereof and to hold 
        public office and perform all public functions at all 
        levels of government;

         (c) To participate in non-governmental organizations 
        and associations concerned with the public and 
        political life of the country.

                               Article 8

    States Parties shall take all appropriate measures to 
ensure to women, on equal terms with men and without any 
discrimination, the opportunity to represent their Governments 
at the international level and to participate in the work of 
international organizations.

                               Article 9

    1. States Parties shall grant women equal rights with men 
to acquire, change or retain their nationality. They shall 
ensure in particular that neither marriage to an alien nor 
change of nationality by the husband during marriage shall 
automatically change the nationality of the wife, render her 
stateless or force upon her the nationality of the husband.

    2. States Parties shall grant women equal rights with men 
with respect to the nationality of their children.

                                PART III


                               Article 10

    States Parties shall take all appropriate measures to 
eliminate discrimination against women in order to ensure to 
them equal rights with men in the field of education and in 
particular to ensure, on a basis of equality of men and women:



         (a) The same conditions for career and vocational 
        guidance, for access to studies and for the achievement 
        of diplomas in educational establishments of all 
        categories in rural as well as in urban areas; this 
        equality shall be ensured in preschool, general, 
        technical, professional and higher technical education, 
        as well as in all types of vocational training;

         (b) Access to the same curricula, the same 
        examinations, teaching staff with qualifications of the 
        same standard and school premises and equipment of the 
        same quality;

         (c) The elimination of any stereotyped concept of the 
        roles of men and women at all levels and in all forms 
        of education by encouraging coeducation and other types 
        of education which will help to achieve this aim and, 
        in particular, by the revision of textbooks and school 
        programmes and the adaptation of teaching methods;

         (d) The same opportunities to benefit from 
        scholarships and other study grants;

         (e) The same opportunities for access to programmes of 
        continuing education including adult and functional 
        literacy programmes, particularly those aimed at 
        reducing, at the earliest possible time, any gap in 
        education existing between men and women;

         (f) The reduction of female student drop-out rates and 
        the organization of programmes for girls and women who 
        have left school prematurely;

         (g) The same opportunities to participate actively in 
        sports and physical education;

         (h) Access to specific educational information to help 
        to ensure the health and well-being of families, 
        including information and advice on family planning.

                               Article 11

    1. States Parties shall take all appropriate measures to 
eliminate discrimination against women in the field of 
employment in order to ensure, on a basis of equality of men 
and women, the same rights, in particular:



         (a) The right to work as an inalienable right of all 
        human beings;

         (b) The right to the same employment opportunities, 
        including the application of the same criteria for 
        selection in matters of employment;

         (c) The right to free choice of profession and 
        employment, the right to promotion, job security and 
        all benefits and conditions of service and the right to 
        receive vocational training and retraining, including 
        apprenticeships, advanced vocational training and 
        recurrent training;

         (d) The right to equal remuneration, including 
        benefits, and to equal treatment in respect of work of 
        equal value, as well as equality of treatment in the 
        evaluation of the quality of work;

         (e) The right to social security, particularly in 
        cases of retirement, unemployment, sickness, invalidity 
        and old age and other incapacity to work, as well as 
        the right to paid leave;

         (f) The right to protection of health and to safety in 
        working conditions, including the safeguarding of the 
        function of reproduction.

    2. In order to prevent discrimination against women on the 
grounds of marriage or maternity and to ensure their effective 
right to work, States Parties shall take appropriate measures:



         (a) To prohibit, subject to the imposition of 
        sanctions, dismissal on the grounds of pregnancy or of 
        maternity leave and discrimination in dismissals on the 
        basis of marital status;

         (b) To introduce maternity leave with pay or with 
        comparable social benefits without loss of former 
        employment, seniority or social allowances;

         (c) To encourage the provision of the necessary 
        supporting social services to enable parents to combine 
        family obligations with work responsibilities and 
        participation in public life, in particular through 
        promoting the establishment and development of a 
        network of child-care facilities;

         (d) To provide special protection to women during 
        pregnancy in types of work proved to be harmful to 
        them.

    3. Protective legislation relating to matters covered in 
this article shall be reviewed periodically in the light of 
scientific and technological knowledge and shall be revised, 
repealed or extended as necessary.

                               Article 12

    1. States Parties shall take all appropriate measures to 
eliminate discrimination against women in the field of health 
care in order to ensure, on a basis of equality of men and 
women, access to health care services, including those related 
to family planning.

    2. Notwithstanding the provisions of paragraph 1 of this 
article, States Parties shall ensure to women appropriate 
services in connexion with pregnancy, confinement and the post-
natal period, granting free services where necessary, as well 
as adequate nutrition during pregnancy and lactation.

                               Article 13

    States Parties shall take all appropriate measures to 
eliminate discrimination against women in other areas of 
economic and social life in order to ensure, on a basis of 
equality of men and women, the same rights, in particular:



         (a) The right to family benefits;

         (b) The right to bank loans, mortgages and other forms 
        of financial credit;

         (c) The right to participate in recreational 
        activities, sports and all aspects of cultural life.


                               Article 14

    1. States Parties shall take into account the particular 
problems faced by rural women and the significant roles which 
rural women play in the economic survival of their families, 
including their work in the non-monetized sectors of the 
economy, and shall take all appropriate measures to ensure the 
application of the provisions of this Convention to women in 
rural areas.

    2. States Parties shall take all appropriate measures to 
eliminate discrimination against women in rural areas in order 
to ensure, on a basis of equality of men and women, that they 
participate in and benefit from rural development and, in 
particular, shall ensure to such women the right:



         (a) To participate in the elaboration and 
        implementation of development planning at all levels;

         (b) To have access to adequate health care facilities, 
        including information, counselling and services in 
        family planning;

         (c) To benefit directly from social security 
        programmes;

         (d) To obtain all types of training and education, 
        formal and non-formal, including that relating to 
        functional literacy, as well as, inter alia, the 
        benefit of all community and extension services, in 
        order to increase their technical proficiency;

         (e) To organize self-help groups and co-operatives in 
        order to obtain equal access to economic opportunities 
        through employment or self-employment;

         (f) To participate in all community activities;

         (g) To have access to agricultural credit and loans, 
        marketing facilities, appropriate technology and equal 
        treatment in land and agrarian reform as well as in 
        land resettlement schemes;

         (h) To enjoy adequate living conditions, particularly 
        in relation to housing, sanitation, electricity and 
        water supply, transport and communications.

                                PART IV


                               Article 15

    1. States Parties shall accord to women equality with men 
before the law.

    2. States Parties shall accord to women, in civil matters, 
a legal capacity identical to that of men and the same 
opportunities to exercise that capacity. In particular, they 
shall give women equal rights to conclude contracts and to 
administer property and shall treat them equally in all stages 
of procedure in courts and tribunals.

    3. States Parties agree that all contracts and all other 
private instruments of any kind with a legal effect which is 
directed at restricting the legal capacity of women shall be 
deemed null and void.

    4. States Parties shall accord to men and women the same 
rights with regard to the law relating to the movement of 
persons and the freedom to choose their residence and domicile.

                               Article 16

    1. States Parties shall take all appropriate measures to 
eliminate discrimination against women in all matters relating 
to marriage and family relations and in particular shall 
ensure, on a basis of equality of men and women:



         (a) The same right to enter into marriage;

         (b) The same right freely to choose a spouse and to 
        enter into marriage only with their free and full 
        consent;

         (c) The same rights and responsibilities during 
        marriage and at its dissolution;

         (d) The same rights and responsibilities as parents, 
        irrespective of their marital status, in matters 
        relating to their children; in all cases the interests 
        of the children shall be paramount;

         (e) The same rights to decide freely and responsibly 
        on the number and spacing of their children and to have 
        access to the information, education and means to 
        enable them to exercise these rights;

         (f) The same rights and responsibilities with regard 
        to guardianship, wardship, trusteeship and adoption of 
        children, or similar institutions where these concepts 
        exist in national legislation; in all cases the 
        interests of the children shall be paramount;

         (g) The same personal rights as husband and wife, 
        including the right to choose a family name, a 
        profession and an occupation;

         (h) The same rights for both spouses in respect of the 
        ownership, acquisition, management, administration, 
        enjoyment and disposition of property, whether free of 
        charge or for a valuable consideration.

    2. The betrothal and the marriage of a child shall have no 
legal effect, and all necessary action, including legislation, 
shall be taken to specify a minimum age for marriage and to 
make the registration of marriages in an official registry 
compulsory.

                                 PART V


                               Article 17

    1. For the purpose of considering the progress made in the 
implementation of the present Convention, there shall be 
established a Committee on the Elimination of Discrimination 
against Women (hereinafter referred to as the Committee) 
consisting, at the time of entry into force of the Convention, 
of eighteen and, after ratification of or accession to the 
Convention by the thirty-fifth State Party, of twenty-three 
experts of high moral standing and competence in the field 
covered by the Convention. The experts shall be elected by 
States Parties from among their nationals and shall serve in 
their personal capacity, consideration being given to equitable 
geographical distribution and to the representation of the 
different forms of civilization as well as the principal legal 
systems.

    2. The members of the Committee shall be elected by secret 
ballot from a list of persons nominated by States Parties. Each 
State Party may nominate one person from among its own 
nationals.

    3. The initial election shall be held six months after the 
date of the entry into force of the present Convention. At 
least three months before the date of each election the 
Secretary-General of the United Nations shall address a letter 
to the States Parties inviting them to submit their nominations 
within two months. The Secretary-General shall prepare a list 
in alphabetical order of all persons thus nominated, indicating 
the States Parties which have nominated them, and shall submit 
it to the States parties.

    4. Elections of the members of the Committee shall be held 
at a meeting of States Parties convened by the Secretary-
General at United Nations Headquarters. At that meeting, for 
which two thirds of the States Parties shall constitute a 
quorum, the persons elected to the Committee shall be those 
nominees who obtain the largest number of votes and an absolute 
majority of the votes of the representatives of States Parties 
present and voting.

    5. The members of the Committee shall be elected for a term 
of four years. However, the terms of nine of the members 
elected at the first election shall expire at the end of two 
years; immediately after the first election the names of these 
nine members shall be chosen by lot by the Chairman of the 
Committee.

    6. The election of the five additional members of the 
Committee shall be held in accordance with the provisions of 
paragraphs 2, 3 and 4 of this article, following the thirty-
fifth ratification or accession. The terms of two of the 
additional members elected on this occasion shall expire at the 
end of two years, the names of these two members having been 
chosen by lot by the Chairman of the Committee.

    7. For the filling of casual vacancies, the State Party 
whose expert has ceased to function as a member of the 
Committee shall appoint another expert from among its 
nationals, subject to the approval of the Committee.

    8. The members of the Committee shall, with the approval of 
the General Assembly, receive emoluments from United Nations 
resources on such terms and conditions as the Assembly may 
decide, having regard to the importance of the Committee's 
responsibilities.

    9. The Secretary-General of the United Nations shall 
provide the necessary staff and facilities for the effective 
performance of the functions of the Committee under the present 
Convention.

                               Article 18

    1. States Parties undertake to submit to the Secretary-
General of the United Nations, for consideration by the 
Committee, a report on the legislative, judicial, 
administrative or other measures which they have adopted to 
give effect to he provisions of the present Convention and on 
the progress made in this respect:



         (a) Within one year after the entry into force for the 
        State concerned; and

         (b) Thereafter at least every four years and further 
        whenever the Committee so requests.



    2. Reports may indicate factors and difficulties affecting 
the degree of fulfillment of obligations under the present 
Convention.

                               Article 19

    1. The Committee shall adopt its own rules of procedure.

    2. The Committee shall elect its officers for a term of two 
years.

                               Article 20

    1. The Committee shall normally meet for a period of not 
more than two weeks annually in order to consider the reports 
submitted in accordance with article 18 of the present 
Convention.

    2. The meetings of the Committee shall normally be held at 
United Nations Headquarters or at any other convenient place as 
determined by the committee.

                               Article 21

    1. The Committee shall, through the Economic and Social 
Council, report annually to the General Assembly of the United 
Nations on its activities and may make suggestions and general 
recommendations based on the examination of reports and 
information received from the States Parties. Such suggestions 
and general recommendations shall be included in the report of 
the Committee together with comments, if any, from States 
Parties.

    2. The Secretary-General shall transmit the reports of the 
Committee to the Commission on the Status of Women for its 
information.

                               Article 22

    The specialized agencies shall be entitled to be 
represented at the consideration of the implementation of such 
provisions of the present Convention as fall within the scope 
of their activities. The Committee may invite the specialized 
agencies to submit reports on the implementation of the 
Convention in areas falling within the scope of their 
activities.

                                PART VI


                               Article 23

    Nothing in this Convention shall affect any provisions that 
are more conducive to the achievement of equality between men 
and women which may be contained:



         (a) In the legislation of a State Party; or

         (b) In any other international convention, treaty or 
        agreement in force for that State.


                               Article 24

    States Parties undertake to adopt all necessary measures at 
the national level aimed at achieving the full realization of 
the rights recognized in the present Convention.

                               Article 25

    1. The present Convention shall be open for signature by 
all States.

    2. The Secretary-General of the United Nations is 
designated as the depositary of the present Convention.

    3. The present Convention is subject to ratification. 
Instruments of ratification shall be deposited with the 
Secretary-General of the United Nations.

    4. The present Convention shall be open to accession by all 
States. Accession shall be effected by the deposit of an 
instrument of accession with the Secretary-General of the 
United Nations.

                               Article 26

    1. A request for the revision of the present Convention may 
be made at any time by any State Party by means of a 
notification in writing addressed to the Secretary-General of 
the United Nations.

    2. The General Assembly of the United Nations shall decide 
upon the steps, if any, to be taken in respect of such a 
request.

                               Article 27

    1. The present Convention shall enter into force on the 
thirtieth day after the date of deposit with the Secretary-
General of the United Nations of the twentieth instrument of 
ratification or accession.

    2. For each State ratifying the present Convention or 
acceding to it after the deposit of the twentieth instrument of 
ratification or accession, the Convention shall enter into 
force on the thirtieth day after the date of the deposit of its 
own instrument of ratification or accession.

                               Article 28

    1. The Secretary-General of the United Nations shall 
receive and circulate to all States the text of reservations 
made by States at the time of ratification or accession.

    2. A reservation incompatible with the object and purpose 
of the present Convention shall not be permitted.

    3. Reservations may be withdrawn at any time by 
notification to this effect addressed to the Secretary-General 
of the United Nations, who shall then inform all States 
thereof. Such notification shall take effect on the date on 
which it is received.

                               Article 29

    1. Any dispute between two or more States Parties 
concerning the interpretation or application of the present 
Convention which is not settled by negotiation shall, at the 
request of one of them, be submitted to arbitration. If within 
six months from the date of the request for arbitration the 
parties are unable to agree on the organization of the 
arbitration, any one of those parties may refer the dispute to 
the International Court of Justice by request in conformity 
with the Statute of the Court.

    2. Each State Party may at the time of signature or 
ratification of this Convention or accession thereto declare 
that it does not consider itself bound by paragraph 1 of this 
article. The other States Parties shall not be bound by that 
paragraph with respect to any State Party which has made such a 
reservation.

    3. Any State Party which has made a reservation in 
accordance with paragraph 2 of this article may at any time 
withdraw that reservation by notification to the Secretary-
General of the United Nations.

                               Article 30

    The present Convention, the Arabic, Chinese, English, 
French, Russian and Spanish texts of which are equally 
authentic, shall be deposited with the Secretary-General of the 
United Nations.

    IN WITNESS WHEREOF the undersigned, duly authorized, have 
signed the present Convention.
Material Submitted in Support of Ratification of the Convention on the 
        Elimination of All Forms of Discrimination Against Women

  Statement Submitted by the American Association of University Women

                  aauw supports ratification of cedaw
    Dear Members of the Senate Foreign Relations Committee: On behalf 
of the 150,000 members of the American Association of University Women, 
we urge you to support ratification of the U.N. Convention on the 
Elimination of All Forms of Discrimination Against Women (CEDAW). More 
than twenty years after the First World Conference on Women, the United 
States has still failed to ratify CEDAW, the most comprehensive human 
rights treaty addressing international women's rights.
    CEDAW, also know as the Treaty for the Rights of Women, is the only 
international legal instrument that comprehensively addresses women's 
rights with political, cultural, economic, and social spheres at the 
local, national, and international levels. The Treaty has been ratified 
by 169 nations and it has become an important tool for partnerships 
among nations to end human rights abuses and promote the health and 
well being of women and girls. Although the United States played a 
defining role in drafting the convention and signed the treaty in July 
1980, it has never ratified it, and is the only industrialized country 
to fail to do so.
    To guarantee equality and individual rights for a diverse society, 
AAUW advocates support for U.N. programs that address human rights and 
women's and girls' concerns. AAUW has endorsed the ratification of the 
U.N. Convention on the Elimination of All Forms of Discrimination 
Against Women (CEDAW) since 1981, and urges the Senate to take action 
to ratify this important treaty.
        Sincerely,
                                      Nancy Rustad,
                                           President, AAUW.

                                  Jacqueline Woods,
                                  Executive Director, AAUW.

                                 ______
                                 

          Statement Submitted by the American Bar Association

    The American Bar Association welcomes today's Senate Foreign 
Relations Committee hearing on the U.N. Convention on the Elimination 
of All Forms of Discrimination Against Women (CEDAW, or the Treaty on 
the Rights of Women) as a significant step toward U.S. ratification of 
the treaty. The ABA strongly urges the Senate to consent to 
ratification as expeditiously as possible this year.
    One of the ABA's main goals is to advance the Rule of Law around 
the world. The ABA believes that international treaties, such as CEDAW, 
are invaluable tools to help governments, non-governmental 
organizations, and individuals establish laws and policies that protect 
and respect the rights of all persons, regardless of race, religion, 
culture, or gender. Most other nations of the world have agreed upon 
CEDAW as the invaluable framework for defining the basic human rights 
to be afforded women and girls, include rights to equal educational 
opportunities, access to health care, employment without economic or 
other discrimination, ownership of property, and participation in all 
aspects of civic and political life.
    In the United States, these rights generally are assumed. In many 
other countries, however, that is not the case. CEDAW ratification 
therefore could not come at a more critical, yet propitious, time for 
the advancement of the Rule of Law around the globe. Senate action now 
will demonstrate to the world that, despite the events of September 11 
and their aftermath, this country remains committed to human rights 
advancement, encouraging both the further development of emerging 
democracies and the promise of democratic principles and participatory 
government in countries where freedom is newly won. Nowhere is the need 
for such encouragement more evident than in Afghanistan, where the 
United States has won the fight against a repressive regime, but women 
and girls are just beginning their struggle to attain their rightful 
place in society.
    As Afghanistan works to rebuild and to restructure its government, 
CEDAW provides a blueprint for the use of international standards to 
address women's basic human rights need and help ensure equality. CEDAW 
encourages signatories to incorporate the principle of equality of men 
and women in their legal systems, abolish all discriminatory laws, and 
adopt anti-discrimination measures. It underscores the importance of 
ensuring that nations' laws and constitutions reflect and encompass 
women's equal role in strengthening nations by guaranteeing them the 
opportunity to participate fully in all aspects of public life. And it 
recognizes what we all have observed from experience in Afghanistan and 
elsewhere: Women cannot participate fully and effectively in society is 
they are deprived of educational opportunities, health care, property 
rights, and means of redress in the courts and at the ballot box. The 
fact that CEDAW has become an essential tool for promoting women's 
rights in many of the 169 countries that have ratified it to date is a 
clear statement of CEDAW's value as a force for change.
    Historically, the United States has been a world leader in 
promoting human rights. Its failure to ratify CEDAW damages our ability 
to encourage other nations to fulfill their responsibilities under the 
treaty. Ratification in 2002 will send a strong message to the world 
community that the United States supports human rights for women and 
girls at home and around the globe. It is time for the United States to 
take up its leadership role in human rights advancement by ratifying 
CEDAW now.

                                 ______
                                 

            Statement Submitted by Amnesty International USA

    Amnesty International strongly supports ratification of the 
Convention on the Elimination of All Forms of Discrimination Against 
Women (CEDAW). As the largest grassroots human rights organization in 
the world, Amnesty International has gathered countless first-hand 
accounts of the severe violations of human rights women and girls face 
the world over and of the urgent appeal and need for U.S. ratification 
of this treaty.
    Throughout the world, women and girls suffer rape, beatings, honor 
killings, acid burning, genital mutilation, sexual exploitation, and 
other forms of violence. Every day, thousands of girls are sold and 
trafficked into the sex slave trade against their will. Survivors of 
abuse often find no legal recourse or are confronted with egregious 
laws that work against the victim. Many women suffer even further in 
societies that place blame upon the victim and impose shame on her. 
Violence has no boundaries and affects women in every country, of every 
race, nationality, and religion.
    Violence against women is rooted in discrimination and reinforces 
discrimination. Social and cultural norms that deny women the same 
rights as men often render women more vulnerable to physical, sexual, 
and mental abuse. The common thread is discrimination against women, 
the denial of basic human rights to individuals simply because they are 
women.
Treatment of Women Around the World
    No country demonstrates more clearly the need for defending the 
rights of women than Afghanistan, which implemented a ``gender 
apartheid'' unlike anywhere in the world. Under the Taliban regime, 
women and girls were severely repressed and especially vulnerable to 
abuse. Not only were women and girls effectively denied access to 
education, medical treatment, employment, and freedom of movement, but 
those who were deemed to have disobeyed the regime's rules were subject 
to severe beating, amputation, and even death by stoning, depending on 
the alleged offense. They were subject to such mistreatment simply 
because of their gender.
    The world saw vividly the dire conditions women and girls were 
facing in Afghanistan. Sadly, such mistreatment and denial of 
fundamental rights takes many forms and occurs in many places. In India 
the government has failed to curb violence against women and prosecute 
offenders. In this patriarchal society, impoverished families 
frequently have little interest in educating girls and often force them 
into marriage as children (age 8). Girls soon learn that abuse in the 
home is widespread, without distinction to religion, caste, or class. 
In some regions of India, violence is often associated with the 
practice of ``dowry'' as husbands and family harass wives for increased 
dowry. Methods of killing women in the home include soaking them in 
kerosene and setting light to them, as well as poisoning; cause of 
death is often cited as suicide or accident. Although prohibited in 
1961, the practice of ``dowry'' continues, without much consequence to 
perpetrators.
    In Nigeria, domestic violence, including rape, occurs among all 
social and ethnic sectors, largely without response by officials. Women 
who have been raped are often unable to obtain justice and are deterred 
from reporting offences for fear of being punished themselves. As in 
many countries, Nigeria has laws that work against victims of sexual 
violence. In particular, in the northern states where Shari'a law 
applies, the standard for proof of rape requires that four Muslim men 
``of good repute'' corroborate the woman's claim of rape. The 
punishment for sexual relations outside of marriage can include public 
flogging or death by stoning. Amnesty International interviewed Bariya 
Ibrahim Magazu, a 17-year-old girl who reported being raped. She had no 
legal representation and was unable to produce witnesses to 
substantiate her claim that three men had forced themselves on her, 
causing her to become pregnant. The court sentenced Bariya to 100 
lashes for having sexual relations outside marriage and a further 80 
lashes for her accusations against the three men, which were judged to 
be false. The sentence was carried out after the delivery of the baby.
    Amnesty International has documented countless accounts of horrific 
abuses against women. The women tell their stories with strength and 
conviction, stressing the need to change conditions. In Guatemala, Rodi 
Alvarado Pena married a Guatemalan Army soldier when she was sixteen. 
Her husband raped her repeatedly, dislocated her jaw, tried to cut her 
hands off with a machete, kicked her in the vagina, used her head to 
break windows and attempted to abort their second child by kicking her 
in the spine. He terrified her by bragging about his power to kill 
innocent civilians, including infants, with impunity. He made clear 
that he expected her total obedience. Although her husband often 
assaulted her in public, Ms. Alvarado was never offered official 
protection or assistance. She filed a complaint with the police, but 
her husband ignored three citations without consequence. One complaint 
was referred to a court, but the judge failed to send Ms. Alvarado's 
husband a summons. When Ms. Alvarado tried to obtain a divorce, the 
court would not permit it without her husband's consent. Fearing for 
her life, Ms. Alvarado fled Guatemala to San Francisco where she 
applied for political asylum. An Immigration Judge granted her asylum 
in 1996, finding that the abuse she suffered constituted persecution 
and that the government of Guatemala was unwilling to protect her. 
However, the Board of Immigration Appeal (BIA) challenged the judge's 
finding and revoked the decision. The former Attorney General in 
January 2001, intervened to vacate the BIA decision, returning the case 
to the BIA to be heard again. Ms. Alvarado's case is still pending.
    Torture of women is rooted in a global culture which denies them 
equal rights with men, and which legitimizes the violent appropriation 
of women's bodies for individual gratification or political ends. Many 
have fought courageously to prevent and combat abuses and to win 
greater equality for women. However, women worldwide still face many 
obstacles, earning less than men, owning less property than men, and 
having less access to education, employment and health care than men.
Treaty for the Rights of Women
    The Convention on the Elimination of All Forms of Discrimination 
Against Women addresses many of these human rights violations. It is a 
cost-free tool that women around the world are using effectively to 
build stronger communities, economies, and families, as well as to 
combat violence. CEDAW has encouraged the development of citizenship 
rights in Botswana and Japan, inheritance rights in the United Republic 
of Tanzania, and property rights and political participation in Costa 
Rica. CEDAW has fostered the development of domestic violence laws in 
Turkey, Nepal, South Africa, and the Republic of Korea and anti-
trafficking laws in Ukraine and Moldova. CEDAW has had a positive 
impact on laws relating to women in countries as diverse as Uganda, 
Colombia, Brazil, and South Africa. Much more could be accomplished 
with U.S. leadership to hold countries accountable for the commitments 
they have made through CEDAW.
    Governments have a responsibility under international human rights 
law to promote and ensure the rights of all, to prevent violations of 
those rights from taking place, and to provide remedies to victims. The 
Convention on the Elimination of All Forms of Discrimination Against 
Women is the most relevant international treaty to hold governments 
accountable for protecting women and girls from such gender based 
violence and discrimination. Although U.S. law is already in compliance 
with most provisions of the convention, ratification by the United 
States would bolster international advocacy for women's most basic 
human rights and help hold repressive governments accountable.
    The treaty for the rights of women provides the world community 
with an international framework of standards for the recognition and 
protection of women's rights as human rights. The treaty ``reaffirms 
faith in fundamental human rights, in the dignity and worth of the 
human person and in the equal rights of men and women.'' It is a 
comprehensive approach to the right to non-discrimination on the basis 
of gender, and defines discrimination against women as ``any 
distinction, exclusion, or restriction based on sex, that has the 
effect or purpose of impairing or nullifying the recognition, 
enjoyment, or exercise by women of human rights of fundamental 
freedoms.'' The treaty calls on all States Parties to take appropriate 
measures in all fields to ``ensure the full development and advancement 
of women for the purpose of guaranteeing them the exercise and 
enjoyment of human rights and fundamental freedoms on the basis of 
equality with men.'' States Parties to the convention agree to 
undertake legislative, judicial, administrative, and other appropriate 
measures to abolish existing practices, laws and customs that 
discriminate against women and violate their human rights and 
fundamental freedoms.
    Amnesty International has found that CEDAW is an international tool 
that is keenly accurate and comprehensive in its approach to address 
the violations women and girls face. Specifically:

    Article 3 of the Convention calls on governments to ensure that 
women may exercise and enjoy human rights and fundamental freedoms on a 
basis of equality with men. Women should receive the same fundamental 
protections for exercising their human rights as other inhabitants of a 
country.

         Amnesty International has documented a myriad of cases of 
        abuse by government officials and found that women in custody 
        are more likely to face gender-specific violation of human 
        rights, such as rape, sexual assault and sexual intimidation. 
        Amnesty has also documented that rape allegations against 
        police officers are rarely investigated and even more rarely 
        result in convictions. Other forms of sexual humiliation 
        targeted primarily at women detainees include fondling by male 
        guards, verbal abuse that is gender-related, threats of rape or 
        other forms of sexual abuse, strip searching and body cavity 
        searching with the intent to humiliate or degrade. Amnesty has 
        also documented the rape of female children in detention, 
        including cases where children as young as three have been 
        raped.

    Article 7 of the U.N. Women's Convention requires the government to 
assure women's participation in all forms of public life, including 
participation in non-governmental organizations concerned with the 
public and political life of the country.

         Amnesty International has documented numerous cases of women 
        activists who have been detained, tortured, ``disappeared'' or 
        killed because of their activities in organizations that 
        promote civil, political, social, cultural or economic rights 
        or seek to protect human rights.

    Article 12 of the U.N. Women's Convention calls on governments to 
insure appropriate medical services in connection with pregnancy, 
confinement and the post-natal period.

         Amnesty International has documented the torture, ill-
        treatment, and denial of adequate nourishment and medical 
        attention to pregnant prisoners in a number of countries, which 
        in many cases has led to miscarriage and permanent physical 
        damage.

    Article 14 of the U.N. Women's Convention calls on governments to 
take into account the particular problems faced by rural women ``and to 
take all appropriate measure to ensure that rural women benefit from 
the opportunity to organize self-help groups and cooperatives, and to 
participate in all community activities.''

         Anmesty has documented serious human rights violations against 
        rural women in general and rural women who are activists in 
        particular. Indigenous women campaigning on issues of concern 
        to them--such as protection, and the return of or just 
        compensation for land to which they claim traditional rights--
        have themselves frequently become victims of human rights 
        violations.
U.S. Leadership
    The United States has a long tradition of bipartisan support for 
human rights treaties. Eleanor Roosevelt helped draft the Universal 
Declaration of Human Rights and led efforts to garner international 
support for this seminal document for the human rights of all people. 
President Ronald Reagan led efforts to ratify the Genocide Convention 
and President George H.W. Bush led efforts to ratify treaties against 
torture and in support of civil and political rights. President Bill 
Clinton, with unanimous support from a Republican led Senate, ratified 
the race convention. Ratification of the treaty for the rights of women 
would further the U.S. legacy in support of human rights treaties.
    In the last year, President Bush and Mrs. Bush have forcefully 
advocated for the protection of the women of Afghanistan, and in a 
letter to the Senate Foreign Relations Committee the Bush 
Administration has stated that CEDAW ``should be approved.'' The 
importance of U.S. ratification of the treaty for the rights of women 
is especially poignant at this time as an important means of supporting 
the women of Afghanistan and others who suffer around the world.
    In his State of the Union address of January 29, 2002, President 
George W. Bush highlighted the treatment of women as one indicator of 
the freedoms enjoyed in a country: ``We have a great opportunity during 
this time of war to lead the world toward the values that will bring 
lasting peace . . . We have no intention of imposing our culture. But 
America will always stand firm for the non-negotiable demands of human 
dignity: the rule of law; limits on the power of the state; respect for 
women; private property; free speech; equal justice; and religious 
tolerance.''
    Secretary of State Colin L. Powell on March 7, 2002, underscored 
the importance of upholding and defending the rights of women for the 
United States' national and international interests: ``The worldwide 
advancement of women's issues is not only in keeping with the deeply 
held values of the American people; it is strongly in our national 
interest as well . . . Women's issues affect not only women; they have 
profound implications for all humankind. Women's issues are human 
rights issues . . . We, as a world community, cannot even begin to 
tackle the array of problems and challenges confronting us without the 
full and equal participation of women in all aspects of life.''
    Support for the rights of women is bipartisan and universally 
recognized as central to the advancement of humankind. The principals 
espoused in the treaty are consistent with those in U.S. law and with 
our country's foreign and domestic policy objectives. By ratifying, the 
United States will be in a position to contribute to the development of 
the standards and procedures for effective implementation of this 
treaty around the world. It also would enable the United States to 
utilize the internationally agreed upon standards in CEDAW to urge 
other governments to end violence and discriminatory practices that 
deny women fundamental human rights. With U.S. support, the treaty can 
become a stronger instrument for the millions of women around the world 
who desperately need international protection. Women around the world 
look to the United States for leadership; until the US ratifies, many 
governments will take their commitments less seriously.
    The United States has the opportunity to send a clear signal of its 
commitment to defend the rights of women around the world by ratifying 
CEDAW. The treaty affects millions of women in every region, 
nationality, and religion or belief. The United States should welcome 
this historic opportunity to ratify this treaty without delay.


            News Release Submitted by Amnesty International

 Saudi Arabia--Investigation into Tragic Death of 14 School Girls Must 
                       Be Transparent and Public

                        Publish date: 15/03/2002

    Amnesty International is gravely concerned at reports that 14 girls 
have lost their lives and dozens of others were injured following a 
fire at their school in Mecca on 11 March 2002 after the religious 
police (Mutawa'een) prevented them from escaping from the fire because 
they were not wearing headscarves and their male relatives were not 
there to receive them.
    The religious police are also reported to have prevented rescuers 
from entering the school because they were males and therefore not 
permitted to mix with females.
    If these reports are true, this is a tragic illustration of how 
gender discrimination can have lethal consequences.
    When state policies on segregation of sexes are implemented at the 
expense of human life, urgent steps are needed at the highest level. 
Policies and practices through which the lives of women and girls are 
devalued must be changed.
    Amnesty International welcomes calls for an urgent investigation 
into these tragic deaths to prevent any future recurrence and for 
anyone found responsible to be brought to justice. The findings of such 
investigation must be made public.
    Saudi Arabia must take urgent measures to end all forms of 
discrimination against women in accordance with CEDAW (Convention on 
Elimination of All Forms of Discrimination against Women), to which 
Saudi Arabia is a state party.
    The Saudi Arabian English language daily Arab News quoted eye 
witnesses as having said: ``Whenever the girls got out through the main 
gate, these people [Mutawa'een] forced them to return via another, . . 
. ``instead of extending a helping hand for the rescue work, they were 
using their hands to beat us.''

Source: Amnesty International, International Secretariat, 1 Easton 
Street, WC1X 8DJ, London, United Kingdom


  Saudi Arabia's Religious Police Allegedly Contribute to Death of 15 
                                 Girls

                By Brian Carnell--Sunday, March 17, 2002

    On Monday, March 11, 2002, a fire destroyed a school in Mecca, 
Saudi Arabia, killing 15 girls--most of whom were crushed to death in a 
panic to exit the building. But rescue efforts at the fire were 
hampered when members of Saudi Arabia' religious police--the Commission 
for the Promotion of Virtue and Prevention of Vice--refused to allow 
either girls to leave the building or firefighters to enter the 
building. The reason? The girls were not wearing their traditional head 
scarves or black robes.
    The English-language Saudi Gazette quoted witnesses as saying that 
a member of the Commission told men trying to enter the building to try 
to save the girls that, ``it is sinful to approach them'' because they 
were not wearing the required garb.
    Meanwhile, a civil defense officer told Saudi Arabian newspaper al-
Eqtisadiah that he saw members of the Commission ``being young girls to 
prevent them from leaving the school because they were not wearing the 
abaya . . . We told them that the situation was very critical and did 
not allow for such behavior. But they shouted at us and refused to move 
away from the [school's] gates.''
    The official response from the Saudi Arabian government has been to 
claim that the people blocking access to the school were not really 
members of the Commission. In an article in the Saudi English-language 
newspaper Arab News, the Civil Defense Department now claims that it 
has information ``which casts doubt on whether the members of the 
Commission for Promoting Virtue and Preventing Vice who allegedly 
played a role in hampering rescue operations at the fire-hit Makkah 
girls' school were really members of the organization.''
    As the Wall Street Journal put it, this claim smacks of a bad 
cover-up, but either way this is exactly the sort of attitude toward 
women and girls that Saudi Arabia's leaders have long promoted with 
their funding and promotion of Islamic extremism.

Source: ``Were commission members at fire tragedy impostors?'', Khaled 
Al-Fadly & Saeed Al-Abyad, Arab News, March 17, 2002. ``Saudi police 
face deaths criticism,'' Reuters, March 14, 2002.


              News Release Submitted by Human Rights Watch

     Saudi Arabia: Religious Police Role in School Fire Criticized

    (New York, March 15, 2002)--Saudi authorities should conduct an 
independent, thorough, and transparent investigation of the March 11 
fire at a girls' public intermediate school in Mecca that claimed the 
lives of at least fourteen students, Human Rights Watch said today. The 
tragedy has focused attention on the role of the religious police as 
well as the state agency responsible for the education of girls and 
women in the kingdom.
    Eyewitnesses, including civil defense officers, reported that 
several members of the Committee for the Promotion of Virtue and the 
Prevention of Vice (mutawwa'in, in Arabic) interfered with rescue 
efforts because the fleeing students were not wearing the obligatory 
public attire (long black cloaks and head coverings) for Saudi girls 
and women. The mutawwa'in, a law-enforcement agency that has sought to 
ensure the application of the kingdom's strict gender segregation and 
dress code for women, has drawn criticism for abusive practices 
including harassment, physical abuse, and arbitrary arrest.
    ``Women and girls may have died unnecessarily because of extreme 
interpretations of the Islamic dress code,'' said Hanny Megally, 
Executive Director of the Middle East and North Africa division of 
Human Rights Watch. ``State authorities with direct and indirect 
responsibility for this tragedy must be held accountable.''
    There were 835 students and fifty-five women teachers in 
Intermediate School No. 31 when the blaze started at about 8:00 in the 
morning, according to Saudi press reports. Saudi newspapers suggested 
that the school, located in a rented building, was overcrowded, and may 
have lacked proper safety infrastructure and equipment, such as fire 
stairs and alarms.
    The government's investigation should also examine unsafe 
conditions at the school, which is administered by the General 
Presidency for Girls' Education (GPGE), Human Rights Watch added.
    Yesterday's edition of Arab News (Jeddah) cited a report prepared 
by Mecca's Civil Defense Department about the rescue effort at the 
school. The report noted that mutawwa'in were at the school's main gate 
and, ``intentionally obstructed the efforts to evacuate the girls. This 
resulted in the increased number of casualties.'' The religious police 
reportedly tried to block the entry of Civil Defense officers into the 
building. ``We told them that the situation was dangerous and it was 
not the time to discuss religious issues, but they refused and started 
shouting at us,'' Arab News quoted Civil Defense officers as saying.
    ``Whenever the girls got out through the main gate, these people 
forced them to return via another. Instead of extending a helping hand 
for the rescue work, they were using their hands to beat us,'' Civil 
Defense officers were quoted as saying. The officers also said they saw 
three people beating girls who had evacuated the school without proper 
dress. A Saudi journalist told Human Rights Watch that the mutawwa'in 
at the scene also turned away parents and other residents who came to 
assist.
    The tragedy has prompted Saudi journalists to call for greater 
openness on the part of the GPGE in response to inquiries from the 
media for information about its policies and practices. All aspects of 
state-financed education for girls in Saudi Arabia, including the 
renting of buildings for schools, is under the authority of the GPGE, 
an autonomous government agency long controlled by conservative 
clerics. ``A free flow of information would . . . help the press to 
prepare an investigative report on other schools in the Kingdom where 
conditions might also endanger the lives of students and teachers,'' 
Deputy Editor-in-Chief Jamal A. Khashoggi wrote in yesterday's Arab 
News.
    He urged that the GPGE provide information about fire safety in its 
schools for girls, including the number of fire extinguishers, the 
frequency of fire drills, as well as details about the contracts for 
the thousands of rented school premises in the Kingdom, including 
provisions for installation of emergency exits and fire alarms.
    The Kingdom's intermediate public schools, which are segregated by 
gender, provide three years of education for children between the ages 
of twelve and fifteen, following a six-year program of elementary 
education.
    Saudi Arabia is a state party to the United Nations Convention on 
the Rights of the Child and the U.N. Convention on the Elimination of 
all forms of Discrimination Against Women.
    Megally added that in the midst of this tragedy it was encouraging 
to see relatively open discussion of need for investigation in the 
traditionally very quiescent Saudi press.

                                 ______
                                 

   Ecumenical Statement in Support of the U.S. Ratification of CEDAW

    As leaders of Christian denominations and ecumenical organizations, 
we strongly urge the U.S. Senate to ratify the Convention on the 
Elimination of All Forms of Discrimination Against Women (CEDAW). Since 
we believe all peoples are created equally in the eyes of God, each of 
our denominations and organizations supports universal ratification of 
CEDAW.
    CEDAW establishes a legal landmark that women are entitled to all 
human rights and has proven to be one of the most potent tools for 
systematically uprooting gender inequality and oppression. This has 
been evident in the reports made to the United Nations by many of the 
169 countries which have ratified CEDAW since its adoption by the 
General Assembly in 1979. The Convention calls on governments to 
abolish laws that discriminate against women and actively promote 
equality by ensuring that women have equal access to education, health 
care, employment, economic benefits and public life.
    This Convention has successfully created an international standard 
against which the treatment of all women can be measured in all fields 
of life--including civil, political, economic, social, and cultural 
rights. After ratifying CEDAW, many countries enacted laws that extend 
the equal rights of women. Developing democracies have even included 
the equality of women in their new constitutions as a result of their 
ratification of this Convention.
    Nations look to the United States for leadership in the 
international sphere. By ratifying this Convention, the U.S. will be 
making a statement to other nations that human rights and the equality 
of women are a priority to the U.S. and for U.S. foreign policy. 
Ratification of this treaty would promote the basic rights of women 
both in our own country and globally.
    While the United States is a leader in the human rights arena, 
there are still many instances of gender inequality in the U.S. that 
need to be addressed. We have learned from U.S. government reports that 
women are still discriminated against in employment opportunities. One 
example is ``A New Look Through the Glass Ceiling: Where are the 
Women?'' compiled by the U.S. General Accounting Office in January 
2002.
    We uplift the words of First Lady Laura Bush on International 
Women's Day 2002: ``Our dedication to respecting and protecting women's 
rights in all countries must continue if we are to achieve a peaceful, 
prosperous, and stable world.'' The ratification of this Convention is 
a clear step towards this goal.
                                       Clifton Kirkpatrick,
                              Stated Clerk of the General Assembly,
                                          Presbyterian Church (USA)

                                          James E. Winkler,
                                                 General Secretary,
                               General Board of Church and Society,
                                        The United Methodist Church

                           The Reverend John L. McCullough,
                                                Executive Director,
                                              Church World Service,
                                   Division for Church and Society,
                             Evangelical Lutheran Church in America

                                 ______
                                 

     Press Release Submitted by the Family Violence Prevention Fund

leading domestic violence prevention organization urges senate and bush 
           administration to ratify treaty on rights of women
    Washington, DC.--The Family Violence Prevention Fund (FVPF) today 
called on the Senate and the Bush Administration to immediately ratify 
the United Nations Convention on the Elimination of All Forms of 
Discrimination Against Women (CEDAW). The United States is the only 
industrialized nation that has not ratified CEDAW, the universal 
standard for women's rights.
    ``Violence against women is a human rights issue. Every day, 
throughout the world, women are beaten, tortured, abused and killed,'' 
said FVPF President Esta Soler. ``Ratifying CEDAW is a critical first 
step to protecting women's rights and ending violence against women 
around the world and in this country.''
    CEDAW is the most comprehensive treaty ensuring the human rights of 
women. The treaty addresses gender discrimination in areas including 
education, employment, health, politics and law. To date, 168 countries 
have ratified CEDAW. In failing to ratify the treaty, the U.S. joins a 
group of countries that includes Iran and Afghanistan.
    ``At a time when the U.S. focuses on human rights abuses and 
violence in other countries, it is critical that we look at what is 
happening in our own country,'' continued Soler. ``The Senate and the 
Bush Administration must take action to safeguard the rights of women 
at home and abroad, and should waste no time in ratifying CEDAW to 
reaffirm this country's commitment to human rights around the world.''
    The Family Violence Prevention Fund (FVPF) works to end domestic 
violence and help women and children whose lives are devastated by 
abuse, because every person has the right to live in a home free of 
violence. The FVPF challenges lawmakers to take domestic violence 
seriously, educates judges to protect all victims of abuse, and 
advocates for laws to help battered immigrant women. The FVPF works 
with health care providers and employers to identify and aid victims of 
abuse, helps communities support children from violent homes, and shows 
Americans how to help end domestic violence. FVPF programs and policies 
have won countless awards and been replicated around the world.

                                 ______
                                 

                                         Hadassaah,
                                              New York, NY,
                                                      May 14, 2002.
Hon. Joseph R. Biden, Jr.,  Chairman,
Hon. Jesse Helms, Ranking Member,
U.S. Senate Committee on Foreign Relations,
Washington, DC.
    Dear Senators: On behalf of the over 300,000 members of Hadassah, 
the Women's Zionist Organization of America, I am writing to 
congratulate you for holding hearings on the United Nations Convention 
on the Elimination of All Forms of Discrimination Against Women 
(CEDAW). As the only developed country not to have ratified this 
treaty, these hearings are an important first step in the move to 
accept this important benchmark.
    CEDAW has established internationally recognized standards for the 
status of women, thus providing a measure against which countries can 
review the status of their own women. Many countries have used the 
CEDAW benchmarks to improve the status of women in the areas of 
employment equity, access to health care, political involvement, and on 
social issues.
    As the largest women's and largest Jewish organization in the 
United States, Hadassah has a 90-year record of advocacy on issues of 
importance to women and the Jewish community, such as equal pay, 
women's health, combating violence against women, and recognizing rape 
as a war crime. Our flagship project, the Hadassah Medical Organization 
in Jerusalem, recently has inaugurated a Women's Health Center, the 
first of its kind facility in Israel to address health issues for women 
separately from those of men.
    To date, 168 countries have ratified CEDAW. By joining them, the 
United States will re-affirm its global leadership position on ensuring 
women's rights as basic human rights, a key policy objective of 
President Bush--as demonstrated by the important work that the U.S has 
undertaken in Afghanistan.
    Once again, we applaud the hearing. We hope that this is the first 
step along the important road of improving the status of women around 
the world, by ratifying CEDAW.
        Sincerely,
                                             Bonnie Lipton,
                                                National President.

                                 ______
                                 

                         Sisters of the Holy Names,
                    California Justice and Peace Committee,
                                                      San Jose, CA.
Hon. Joseph R. Biden, Jr., Chairman,
Committee on Foreign Relations,
U.S. Senate, Washington, DC.
    Senator Biden: Please list us as strongly endorsing the U.N. CEDAW 
which we urge to Senate to ratify.
                                    Rosemary Everett, SNJM.

                                 ______
                                 

 Statement Submitted by the International Association of Women Judges/
                 International Women Judges Foundation

    I submit this statement on behalf of the International Association 
of Women Judges (IAWJ) to urge that the U.S. Senate ratify the 
Convention on the Elimination of All Forms of Discrimination Against 
Women.
    The IAWJ, is a non-partisan, non-profit organization composed of 
more than 4,000 members at every level of the judiciary in 77 nations, 
including 1300 members in the United States, who share a commitment to 
equal justice and the rule of law. With its educational adjunct, the 
International Women Judges Foundation (IWJF), the IAWJ has long 
supported the Convention on the Elimination of All Forms of 
Discrimination Against Women (CEDAW) and endorsed its ratification by 
every nation. Unfortunately, by failing to ratify the Convention, the 
United States has aligned itself with a handful of nations that spurn 
democratic traditions and the rule of law.
    The IAWJ-IWJF's flagship project, a highly successful educational 
program that prepares men and women judges to apply the terms of 
international and regional human rights conventions to cases in 
domestic courts that involve discrimination and violence against women, 
has been presented in South America, East Africa and the Dominican 
Republic. It soon will be launched in 4 Central American nations, 
Nigeria and the United States. The facilitators who developed the 
curriculum and conduct the training workshops include several 
U.S.experts in women's human rights who, of course, draw heavily on 
CEDAW. Invariably, the judges whom they train ask why the United States 
has not ratified an instrument so vital that it is referred to as the 
women's bible. Underlying this question is a subtle reproach to the 
United States' for its reluctance to ratify the Convention. There 
cannot be the slightest doubt that this nation's recalcitrance in 
ratifying CEDAW has contributed to undermining its prestige and moral 
posture in many parts of the world. Regrettably, this situation exists 
at a time when the U.S, more than ever, needs and seeks the support of 
other nations in a rapidly shrinking world.
    The IWJF enjoys consultative status with the United National 
Economic and Social Council, and in this capacity, I have had the 
privilege of attending many meetings of the CEDAW Expert Committee. The 
Expert Committee has no power to compel compliance with the 
Convention's provisions. Yet, a number of CEDAW's critics in this 
country read into its provisions, arbitrary and compulsory commands 
that simply are not there. The Expert Committee recommends; it does not 
dictate. Through diplomatic questions posed to states-parties that have 
submitted reports, the Committee has succeeded in bringing about many 
useful changes that are of great benefit to women.
    The Senate has an historic opportunity to set the record straight 
by ratifying CEDAW. The IAWJ urges it to do so.
        Yours sincerely,
                                        Judge Arline Pacht,
                                      Executive Director, IAWJ-IWJF

                                 ______
                                 

 Statement Submitted by the International Center for Research on Women

   cedaw: an essential tool for overcoming poverty and ensuring the 
                      dignity and rights of women
    The International Center for Research on Women (ICRW) is pleased to 
submit this statement concerning the importance of the Convention on 
the Elimination of All Forms of Discrimination Against Women (CEDAW) to 
the full realization of women's rights and potential. The Center 
commends the Chairman for convening this hearing to review the U.S. 
position regarding ratification of the treaty.
    The ICRW seeks to improve the lives of women in poverty, advance 
women's equality and human rights, and contribute to broader economic 
and social well-being through research, capacity building, and advocacy 
on issues affecting women's economic, health, and social status in low- 
and middle-income countries.
    The promulgation and implementation of CEDAW represents a landmark 
in efforts to ensure human rights for all. It provides a universal 
reference regarding issues to be addressed to guarantee women the 
rights enshrined in other treaties and it provides guidelines for how 
this can be accomplished. It also provides an important tool for civil 
society organizations working to improve the status of women.
Why CEDAW?
    Why is CEDAW necessary? It is needed to address the effects of 
long-standing and pervasive discrimination against women. As a result 
of this discrimination, women and girls are still the poorest, least 
educated, most unhealthy, and most marginalized segment of the world's 
population. Women lack control of economic assets and often lack 
opportunities for education and training. These factors intensify 
women's poverty, heighten their vulnerability to violence, increase 
their health risks, and undermine their human rights. Despite these 
obstacles, women continue to make essential contributions not only to 
their own households, but also to their communities and societies.
    International conventions and treaties prior to CEDAW failed to 
address the specific ways in which women are prevented from realizing 
their full human rights. Many of these barriers are codified in 
statutory or customary law, reflecting official sanction for, or 
acceptance of, women's second class status.
    The internationally-agreed upon Millennium Development Goals,\1\ 
cannot be achieved without eliminating discrimination against women and 
facilitating their full participation in all aspects of the economic, 
social, political, and cultural life of their communities and nations. 
We now have countless examples of development efforts gone wrong 
because they failed to involve women and to take into account women's 
roles, experiences, and perspectives. The experience of women in 
Afghanistan under Taliban rule provides an especially dramatic example 
of the consequences of failing to respect and protect women's rights. 
On an even larger scale, discrimination against women and girls is 
fueling the spread of the HIV/AIDS epidemic now devastating sub-Saharan 
Africa and threatening other regions of the developing world.
---------------------------------------------------------------------------
    \1\ The Millennium Development Goals were agreed to at the 2000 
United Nations Millennium Summit, the largest gathering of world 
leaders in history. The Goals represent a renewed commitment to work to 
eradicate global poverty and support development. The specific areas 
addressed by the goals are poverty, education, gender equality, child 
mortality, maternal mortality, HIV/AIDS and other diseases, 
environment, and global partnership.
---------------------------------------------------------------------------
CEDAW in Action: An Instrument For Change
    ICRW's research has found that an increasing number of developing 
country governments and non-governmental organizations are referring to 
CEDAW as guidance for their national and local efforts to improve the 
lives of women. Three examples below illustrate, from an on-the-ground 
perspective, the far-reaching changes to improve women's lives that can 
be achieved on the basis of CEDAW. They also illustrate CEDAW's use 
within executive, legislative, and judicial governmental bodies.
            Violence Against Women
    Around the world, one in three women experience violence in the 
intimate setting of their homes and their marriages.\2\ The threat of 
violence is the sub-text of daily life for these women, who represent a 
range of age, education, social status, employment and geographic 
location.
---------------------------------------------------------------------------
    \2\ Heise, Lori and Ellsberg, and Gottemoeller, ``Ending Violence 
Against Women,'' Population Reports, Vol. XXVII, No. 4. Baltimore: The 
Johns Hopkins School of Public Health, December 1999.
---------------------------------------------------------------------------
    A recent study in India by ICRW and in-country research partners 
found that over half of the women surveyed had experienced physical 
violence at least once during marriage.\3\ Nearly two-thirds of those 
had experienced physical violence three or more times and half had 
experience violence while they were pregnant. Employed women were found 
to be a greater risk of violence than women who did not work outside 
the home. The study found that violence has both emotional and economic 
impacts on individuals and families. Women reported loss of motivation 
and energy, a decrease in productivity, with a high percentage having 
considered suicide. The economic costs are also very high. A 
preliminary estimate indicates that a serious incidence of violence, 
leading to hospitalization or inability to work, results in the loss of 
30 to 40 percent of the monthly income of rural households.
---------------------------------------------------------------------------
    \3\ ICRW, ``Domestic Violence in India: A Summary Report of a 
Multi-Site Household Survey,'' May 2000 [funded by USAID, FAO-A-00-95-
00030-00]
---------------------------------------------------------------------------
    Efforts in India to reduce domestic violence build on earlier 
actions related to its ratification of CEDAW in 1993. Consistent with 
Article 24 \4\ of CEDAW, the government, upon ratification, established 
a National Commission for Women and assigned it the task of reviewing 
existing laws to determine their compliance with the provisions of the 
treaty. The Commission identified 22 discrepancies that required 
modification of existing laws or promulgation of new laws. Among these, 
the Commission found that existing law does not protect women from 
domestic violence and therefore is not consistent with Article 2 of 
CEDAW, which provides for equal protection under the law.
---------------------------------------------------------------------------
    \4\ Article 24: ``States Parties undertake to adopt all necessary 
measures at the national level aimed at achieving the full realization 
of the rights recognized in the present Convention.''
---------------------------------------------------------------------------
    As a result, a domestic violence bill is currently being debated in 
the Indian Parliament. The bill would add civil remedies such as 
protection orders and monetary compensation to existing criminal 
provisions on domestic violence. The legislation has generated wide 
debate among the public on the issue of domestic violence and key gaps 
in the draft law have been identified. Given the intensity of debate, 
the bill has now been referred to the Standing Committee of the 
Parliament for revisions and the reintroduction of a more comprehensive 
law.
            Education, Economic Benefits, and Employment
    Women's exclusion from opportunities for property ownership, loans, 
vocational skills, and employment is a fundamental factor in the global 
poverty that President Bush seeks to address through the substantially 
increased resources of a Millennium Challenge Account that he pledged 
at the U.N. Conference on Financing for Development in Monterey, 
Mexico. For example, in Honduras, women earn only half of what men 
earn, while in neighboring El Salvador, women earn less than 70 percent 
of men's wages in small trade and micro enterprise activities.\5\ Yet, 
in both countries, approximately 20 to 25 percent of the households 
depend primarily on women's earnings to meet household requirements.
---------------------------------------------------------------------------
    \5\ Benitez, Manuel, et al., ``A Platform for Action for the 
Sustainable Management of Mangroves in the Gulf of Fonseca,'' 
Washington: ICRW, November 2000.
---------------------------------------------------------------------------
    In South Africa, which ratified CEDAW in 1996, civil society 
organizations have engaged regional government officials in dialogue 
about their obligations under the treaty, with special reference to 
Article 14, which addresses the particular struggles and contributions 
of rural women. \6\ Women farm workers in the Western Cape region of 
South Africa have access only to seasonal or ``casual'' labor 
opportunities and do not have independent employment contracts or 
benefits such as housing.
---------------------------------------------------------------------------
    \6\ Article 14: States Parties shall take into account the 
particular problems faced by rural women and the significant roles 
which rural women play in the economic survival of their families, 
including their work in the non-monetized sectors of the economy, and 
shall take all appropriate measures to ensure the application of the 
provisions of this Convention to women in rural areas. States Parties 
shall take all appropriate measures to eliminate discrimination against 
women in rural areas in order to ensure, on a basis of equality of men 
and women, that they participate in and benefit from rural development.
---------------------------------------------------------------------------
    The Centre for Rural Legal Studies in 1999, under the USAID-funded 
PROWID project, \7\ researched and documented the status of women farm 
workers in the Western Cape to establish a baseline with regard to 
compliance with relevant CEDAW provisions. Overall, the research 
established that low levels of education and access to job training, 
high levels of domestic violence (67 percent according to employers), 
limited access to health services, and lack of benefits (such as paid 
maternity leave) prevent the realization of these women farm workers' 
rights. Most women lack knowledge about the laws related to labor and 
gender equality and have very limited access to legal recourse. These 
circumstances are compounded by their employers' lack of awareness and 
general failure to comply with national legislation.
---------------------------------------------------------------------------
    \7\ PROWID was a grants program conducted by ICRW, in collaboration 
with CEDPA, that sought to improve the lives of women in developing 
countries and economies in transition by promoting development based on 
practical insights gained from field-tested interventions. Operating 
from 1995 to 2000, PROWID grants supported 45 different activities 
implemented by partner organizations in over 30 countries, including 
action-oriented policy research, pilot interventions, and advocacy that 
contributed to economic and social development with women's full 
participation.
---------------------------------------------------------------------------
    The South African government's Commission on Gender Equity (CGE) is 
building on the experience in the Western Cape to educate government 
officials in other parts of the country about their obligations under 
CEDAW. The CGE is moving to address specific issues, such as pay equity 
in agriculture, that were identified through the research conducted by 
the Centre for Rural Legal Studies.
    CEDAW has also provided a blueprint in South Africa for the 
development of gender sensitive indicators for monitoring progress for 
rural women. Various categories of indicators have been developed, 
including measures related to the focus on rural women in government 
programs and budgets; gathering and use of data on women living or 
working on farms; compliance with the anti-discrimination obligations 
under CEDAW; measures taken to ensure that women living or working on 
farms are aware of their rights; the provision of education, training, 
and services to fulfill women's rights; and gender awareness and 
sensitivity among departmental employees.
            Sexual Harassment
    Unwelcome sexual advances, requests for sexual favors, and other 
verbal or physical conduct of a sexual nature is a specific form of sex 
discrimination to which women around the world are routinely subjected. 
Sexual harassment creates stress, undermines psychological well-being 
and productivity, and may force victims to leave their employment. It 
violates the right to a safe and healthy work environment.
    The impact of sexual harassment is a growing concern around the 
world. The U.S. and other industrialized countries have put in place 
laws to prevent sexual harassment and to prosecute those who engage in 
such harassment. At the international level, the definition of sexual 
harassment is being debated.
    In India, the issue was addressed by the Supreme Court in 1998, 
when it issued guidelines and norms regarding sexual harassment. These 
guidelines were developed with reference to provisions in CEDAW and 
recommendations of the International Labour Organization. Subsequently, 
the National Commission on Women developed a work place Code of Conduct 
based on the Supreme Court guidelines, which was circulated widely to 
Ministries and government departments. Last year, the Commission 
initiated an on-going assessment of the implementation of the new 
guidelines and norms.
    The experience in India and other places demonstrates the use of 
CEDAW as an important reference in legal judgements. The international 
standards and norms codified by CEDAW provide important guidance at the 
national and sub-national level on issues related to discrimination 
against women.
Conclusion
    The United States has long been a leader in promoting the rights of 
women. Its ratification of CEDAW would serve to strengthen further its 
leadership in this area and give important added weight to the norms 
and standards embodied in the treaty. CEDAW is serving in very real and 
concrete ways to improve the lives of women around the world. ICRW 
therefore urges the speedy ratification by the United States of the 
Convention on the Elimination of All Forms of Discrimination Against 
Women.

                                 ______
                                 

 Statement Submitted by The Women's International League for Peace and 
                     Freedom, United States Section

    The Women's International League for Peace and Freedom (WILPF), 
founded in 1915 with the goal of achieving peace, security, and women's 
full participation in civic life and leadership, welcomes the Senate 
Foreign Relations Committee's decision to hold hearings on the U.N. 
Convention to Eliminate All Forms of Discrimination Against Women 
(CEDAW). We trust that after full consideration the Committee will find 
every reason to recommend that the United States take immediate action 
to assure its ratification.
    The President of the United States declared our national commitment 
to the principle of human rights in 2001 when he stated that the United 
States ``will always be the world's leader in support of human 
rights.'' His commitment to United States leadership in this important 
arena and its relevance to CEDAW was echoed in First Lady Laura Bush's 
declaration on International Women's Day in 2002 ``our mission to 
protect human rights for women . . . in all countries . . . is 
essential if we are to achieve a powerful, prosperous and stable 
world.''
    The Convention to Eliminate All Forms of Discrimination Against 
Women is not only in conformity to our national goals and aspirations, 
its provisions are consistent with the letter and the spirit of the 
United States Constitution and our nation's legal codes. The Women's 
International League for Peace and Freedom calls upon the Committee 
urge its immediate ratification.

                                 ______
                                 

Statement Submitted by Carolyn Jefferson-Jenkins, Ph.D., President, The 
              League of Women Voters of the United States

    The League of Women Voters of the United States urges you to 
approve the ratification of the Convention on the Elimination of All 
Forms of Discrimination Against Women (CEDAW). The League of Women 
Voters is a nonpartisan citizen organization with more than 130,000 
members and supporters in all 50 states, the District of Columbia and 
the Virgin Islands. For more than 80 years, Leagues across the country 
have worked to educate the electorate, register voters and make 
government at all levels more accessible and responsive to citizens. 
From its inception, the League has worked for equal rights for women.
    CEDAW is the most comprehensive international treaty promoting the 
advancement of women worldwide. It establishes a legal framework to 
which all governments must adhere to ensure the equality of women in 
various areas of life including politics, law, employment, education, 
health care, commerce and domestic relations. CEDAW sets forth criteria 
for discrimination against women and provides a forum for addressing 
and resolving women's rights issues.
    We believe that U.S. ratification of CEDAW would be an important 
statement of support for women worldwide and would give credibility to 
the U.S.'s longstanding opposition to human rights abuses. Women in 
many parts of the world lack basic legal rights or protection of their 
rights under law. CEDAW will allow women to have the legal framework to 
improve their own lives in practice, as well as law. For example, 
although most countries give women the legal right to vote, the 
inequality of women in many countries prevents them from exercising 
this right. By ratifying CEDAW, the United States will show the world 
that we support equality under the law for all women and girls.
    CEDAW is relevant not just to the lives of women in countries with 
poor human rights records, but also to the lives of American women. The 
Convention assures American women that our government believes in, and 
will reinforce, their equality. Most U.S. laws extend rights to all, 
but do not affect the specific ways in which women's rights may be 
compromised. By ratifying CEDAW, the U.S. will make significant strides 
towards ensuring that equality is a political, economic and social 
reality for women and girls both here and abroad.
    The United Nations adopted CEDAW on December 18, 1979. From the 
start, the U.S. was actively involved in drafting CEDAW, but never 
ratified the treaty. CEDAW entered into force on September 3, 1981 and 
currently has 169 state parties. At the Fourth World Conference on 
Women in Beijing in September 1995, the United States was a signatory 
to a document calling for the ratification of CEDAW.
    The League of Women Voters believes that the time is right for U.S. 
ratification of CEDAW. We urge you to send CEDAW to the full Senate for 
ratification. U.S. ratification of the treaty would show the world that 
the United States of America supports human rights and gender equality 
for women and girls worldwide.

                                 ______
                                 

 Statement Submitted by the General Board of Church and Society of The 
                        United Methodist Church

    The General Board of Church and Society of The United Methodist 
Church is a nongovernmental organization to the United Nations and has 
been an ardent supporter of the U.N. since its inception. As an NGO, 
the General Board of Church and Society has participated in many 
consultations, summits and other international events including the 
annual meetings of the Commission on the Status of Women and the yearly 
reporting sessions on the implementation of the Convention on the 
Elimination of Discrimination Against Women (CEDAW). It is through 
these experiences, plus our historical traditions and theological 
beliefs supporting equal rights for women, that we strongly urge the 
United States Senate to ratify CEDAW.
    The Social Principles of the United Methodist Church specifically 
support rights of women in paragraph 162, III (F) by affirming ``women 
and men to be equal in every aspect of their common life. We therefore 
urge that every effort be made to eliminate sex-role stereotypes in 
activity and portrayal of family life and in all aspects of voluntary 
and compensatory participation in the Church and society. We affirm the 
right of women to equal treatment in employment, responsibility, 
promotion and compensation. We affirm the importance of women in 
decision-making positions at all levels of Church life and urge such 
bodies to guarantee their presence through policies of employment and 
recruitment.'' Additionally, Resolution 181 in the Book of Resolutions 
calls for The United Methodist Church ``to urge governments to ratify 
the Convention on the Elimination of Discrimination Against Women, 
which was adopted by the United Nations in December 1979.''
    The twenty-two year old United Nations Convention on the 
Elimination of All Forms of Discrimination Against Women is the only 
comprehensive international standard for eliminating discrimination 
against women. It addresses women's rights within social, political, 
cultural, economic and social life. The United States is the only 
industrialized nation in the world that has not ratified the treaty. To 
date, 169 countries have ratified this treaty. Afghanistan, Iran and 
several other developing nations have not ratified this document.
    CEDAW is consistent with U.S. constitutional principles opposing 
discrimination against women. U.S. law is already in substantial 
compliance with CEDAW. Where discrepancies exist between CEDAW's 
principles of nondiscrimination and U.S. law, CEDAW permits progressive 
implementation. The treaty includes 30 specific articles addressing 
such issues as nondiscrimination in areas of education, health care, 
protection under the law, economic and social life and encourages equal 
involvement of women in political life.
    Once a country ratifies the treaty, it is responsible for reporting 
progress toward implementation at least every four years. The process, 
as witnessed by our staff, is thorough and offers an opportunity to, 
not only indicate progress and challenges, but also to receive valuable 
feedback from the ``panel of experts.''
    The United States should be leading the international fight again 
gender discrimination. By ratifying this convention, the U.S. could 
exercise greater political and moral leadership on human rights in the 
international community and would strengthen its position as a champion 
of international human rights.
        Submitted by:
                     Linda Bales, Program Director,
                    Louise & Hugh Moore Population Project,
    General Board of Church & Society, The United Methodist Church,
                                               Washington, DC 2002.

                                 ______
                                 

              International Human Rights Law Group,
                        Lawyers Committee for Human Rights,
                                                       June 27 2002
Hon. Joseph R. Biden, Jr., Chairman,
Committee on Foreign Relations,
U.S. Senate, Washington, DC.
Hon. Jesse Helms, Ranking Member,
Committee on Foreign Relations,
U.S. Senate, Washington, DC.

    Dear Senators: We, the undersigned human rights and civil rights 
organizations write to strongly urge the Senate to give its advice and 
consent to ratification of the Convention on the Elimination of All 
Forms of Discrimination Against Women (CEDAW).
    Ratification of CEDAW by the United States will send an important 
message to women in this country and around the world by reaffirming 
our nation's deep commitment to women's rights and equality and 
providing global leadership on critically important international human 
rights for women. We urge the Senate to reject the Administration's 
proposed Reservations, Understandings, and Declarations, winch we 
believe are unnecessary and inconsistent with the purpose, scope, and 
objectives of CEDAW (see attached legal analysis).
    More than twenty years have passed since the United States signed 
CEDAW and presented the treaty to the Senate Foreign Relations 
Committee. In the interim, 169 nations have ratified the convention, 
and numerous U.S. states, cities, counties, and 120 domestic 
organizations have formally called for the ratification of CEDAW.
    Domestically, ratification of CEDAW is important because, despite 
the enactment of laws to establish equality for women, discrimination 
against women persists in the United States. Problems such as violence 
against women, economic inequality, and access to affordable childcare 
continue to plague our society and impede women seeking to achieve full 
equality. Ratifying CEDAW will send a strong message that our nation is 
deeply committed to equality for all women.
    United States ratification of CEDAW will serve to reaffirm the 
important leadership role the United States plays in promoting human 
rights, democracy, and freedom throughout the world. Nowhere is the 
need for this leadership more apparent than the serious human rights 
violations suffered by women in Afghanistan under the Taliban. Failure 
by the United States to ratify this treaty not only undermines our 
global leadership and influence in human rights, but also negatively 
impacts our ability to shape and determine future human rights 
standards.
    We strongly urge the Senate to give its advice and consent to 
ratification of CEDAW, a treaty that has as its object and purpose the 
elimination of discrimination and oppression and the realization of 
economic, political, cultural and social equality for all women.

        Sincerely,
                                    Michael Posner,
                        Lawyers Committee for Human Rights.

                                     Gay McDougall,
                      International Human Rights Law Group.

                                    Wade Henderson,
                     Leadership Conference on Civil Rights.



    legal analysis of proposed administration reservations to cedaw
Article 2
    States Parties condemn discrimination against women in all its 
forms, agree to pursue by all appropriate means and without delay a 
policy of eliminating discrimination against women and, to this end, 
undertake:
         (a) To embody the principle of the equality of men and women 
        in their national constitutions or other appropriate 
        legislation if not yet incorporated therein and to ensure, 
        through law and other appropriate means, the practical 
        realization of this principle;
         (b) To adopt appropriate legislative and other measures, 
        including sanctions where appropriate, prohibiting all 
        discrimination against women;
         (c) To establish legal protection of the rights of women on an 
        equal basis with men and to ensure through competent national 
        tribunals and other public institutions the effective 
        protection of women against any act of discrimination;
         (d) To refrain from engaging in any act or practice of 
        discrimination against women and to ensure that public 
        authorities and institutions shalt act in conformity with this 
        obligation;
         (e) To take all appropriate measures to eliminate 
        discrimination against women by arty person, organization or 
        enterprise;
         (f) To take all appropriate measures, including legislation, 
        to modify or abolish existing laws, regulations, customs and 
        practices which constitute discrimination against women;
         (g) To repeal all national penal provisions which constitute 
        discrimination against women.

and

Article 3
    States Parties shall take in all fields, in particular in the 
political, social, economic and cultural fields, all appropriate 
measures, including legislation, to ensure the full development and 
advancement of women, for the purpose of guaranteeing them the exercise 
and enjoyment of human rights and fundamental freedoms on a basis of 
equality with men.

and

Article 5
    States Parties shall take all appropriate measures:
         (a) To modify the social and cultural patterns of conduct of 
        men and women, with a view to achieving the elimination of 
        prejudices and customary and all other practices which are 
        based on the idea of the inferiority or the superiority of 
        either of the sexes or on stereotyped roles for men and women;
         (b) To ensure that family education includes a proper 
        understanding of maternity as a social function and the 
        recognition of the common responsibility of men and women. in 
        the upbringing and development of their children, it being 
        understood that the interest of the children is the primordial 
        consideration in all cases.
Proposed Administration Reservation
    The Constitution and laws of the United States establish extensive 
protections against discrimination, reaching all forms of governmental 
activity as well as significant areas of nongovernmental activity. 
However, individual privacy and freedom from governmental interference 
in private conduct are also recognized as among the fundamental values 
of our free and democratic society. The United States understands that 
by its terms the Convention requires broad regulation of private 
conduct, in particular under Articles 2, 3 and 5. The United States 
does not accept any obligation under the Convention to enact 
legislation or to take any other action with respect to private conduct 
except as mandated by the Constitution and laws of the United States.
NOW LDEF/LCHR Comment
    This proposed reservation is undesirable. Even if there were a 
conflict between U.S. law and CEDAW which required the U.S. to enact 
new laws to meet the requirements of CEDAW, the mere fact that a treaty 
establishes standards to which the U.S. does not currently adhere is 
not sufficient reason for a reservation. The purpose of treaties is to 
undertake new obligations or to make a commitment to the international 
community to adhere to existing obligations. If the U.S. ratifies CEDAW 
subject to this broad limitation that implies a lack of political 
commitment to observe international standards, its actions will rightly 
be decried by the international community. It suggests that the U.S. 
views these international norms as being applicable only in other 
countries and sees no room for improvement in its own rights 
performance. If the concern of the Administration is that CEDAW might 
require the U.S. to forbid private discrimination which is protected by 
the Constitution, it is our position that, under settled principles, 
CEDAW may not be construed so as to forbid what is protected by the 
Constitution. At most, a reservation saying that under this article the 
U.S. is not required to forbid private discrimination which is 
protected by the Constitution would be acceptable.


Article 2 (for text, see above)

and

Article 7(b)
    States Parties shall take all appropriate measures to eliminate 
discrimination against women in the political and public life of the 
country and, in particular, shall ensure to women, on equal terms with 
men, the right:
         (b) To participate in the formulation of government policy and 
        the implementation thereof and to hold public office and 
        perform all public functions at all levels of government
Proposed Administration Reservation
    Under current U.S. law and practice, women are permitted to 
volunteer for military service without restriction, and women in fact 
serve in all U.S. armed services, including in combat positions. 
However, the United States does not accept an obligation under the 
Convention to assign women to all military units and positions which 
may require engagement in direct combat.
NOW LDEF/LCHR Comment
    This reservation is objectionable. Although the Department of 
Defense (``DoD'') and the military policies on women in combat remain 
in flux, legal restrictions on women's participation in the military 
have now been lifted. See, eg, Defense Authorization Act of 1994. The 
military's desire for flexibility is not an appropriate reason for 
taking a blanket reservation permitting continued discrimination. After 
15 years of conducting its own detailed studies, the DoD has found that 
women are fully capable of performing combat roles. In both Panama and 
the Persian Gulf, women proved that they could perform in combat as 
well as men. See Department of Defense, Conduct of the Persian Gulf 
War, Final Report to Congress, App. R at R-4 (April 1992); Bureau of 
International Organization Affairs, U.S. Dep't of State, U.S. Report to 
the U.N. on the Status of Women 1985-1994 93-94 (1994). Rather than 
abdicating any obligation to open direct combat positions to women, the 
U.S. should, at a minimum, commit to continuing current efforts to open 
all combat positions to women. In doing so, the U.S. would fulfill the 
good faith requirement of taking ``appropriate measures'' as the phrase 
was construed during drafting of the Convention. See A/32/2 IS at 4 
(1977).
    Despite recent advances for women, both the Army and the Marines 
continue to exclude women from infantry, armor and field artillery 
units, and thus block women from advancing along the three main routes 
to those branches' senior leadership. The military's policy of 
restricting women's participation in direct combat units denies women 
significant opportunities for job advancement. Most three-star and 
four-star positions require combat experience; at the end of FY 1993, 
there were 114 three-star and 36 four-star admirals and generals in the 
four combined services. None were women. Further, contrary to the 
proposed reservation, women cannot volunteer for military service 
without restriction, as women are precluded from certain designated 
combat positions.


Article 11(1)(d)
    1. States Parties shall take all appropriate measures to eliminate 
discrimination against women in the field of employment in order to 
ensure, on a basis of equality of men and women, the same rights, in 
particular:
         (d) The right to equal remuneration, including benefits, and 
        to equal treatment in respect of work of equal value, as well 
        as equality of treatment in the evaluation of the quality of 
        work.
Proposed Administration Reservation
    U.S. law provides strong protections against gender discrimination 
in the area of remuneration, including the right to equal pay for equal 
work in jobs that are substantially similar. However, the United States 
does not accept any obligation under this Convention to enact 
legislation establishing the doctrine of comparable worth as that term 
is understood in U.S. practice.
NOW LDEF/LCHR Comment
    This proposed reservation is unnecessary. During drafting of the 
Convention, it was understood that the phrase ``appropriate measures'' 
would obligate a State to make a good faith effort to implement a 
provision of the Convention. See A/32/218 at 4 (1977). Instead of 
taking a blanket reservation to enacting comparable worth legislation, 
the U.S. should commit to bringing U.S. law into conformity with the 
international standards of wage equity evidenced by article 11(1)(d), 
General Recommendation No. 13 (encouraging State Parties to ratify ILO 
Convention No. 100), and ILO Convention No. 100 (``equal remuneration'' 
interpreted as ``rates of remuneration established without 
discrimination based on sex''). At a minimum, the U.S. should state 
that it will continue to implement the object and purpose of Article 
11(1)(d) by developing legislative measures where appropriate.
    Federal legislation is currently silent on the issue of comparable 
worth. While the Supreme Court has suggested that Title VII may permit 
claims based on comparable worth, see County of Washington v. Gunther, 
452 U.S. 161 (1981), lower courts construing Title VII have held that 
it cannot redress broader pay inequities. E.g., AFSCME v. Washington, 
770 F.2d 1401 (9th Cir. 1985). However, there continue to be 
significant developments expanding the implementation of comparable 
worth principles to redress wage discrimination in female-dominated 
occupations. For example, over twenty states have adjusted their wages 
to correct for sex or race bias. See Institute for Women's Policy 
Research, Pay Equity Remedies in State Governments: Assessing Their 
Economic Effects (1994). Further, the Fair Pay Act of 1994 (H.R. 4803) 
currently pending in Congress would expand the protections of the Equal 
Pay Act to cover work of ``equivalent'' value in both the public and 
private sector. Ratification of the Convention without the proposed 
reservation would reiterate the U.S. commitment to increase women's 
access to fair wages.


Article 11(2)(b)
    2. In order to prevent discrimination against women on the grounds 
of marriage or maternity and to ensure their effective right to work, 
States Parties shall take appropriate measures:
         (b) To introduce maternity leave with pay or with comparable 
        social benefits without loss of former employment, seniority or 
        social allowances.
Proposed Administration Reservation
    Current U.S. law contains substantial provisions for maternity 
leave in many employment situations but does not require paid maternity 
leave. Therefore, the United States does not accept an obligation under 
Article 11(2)(b) to introduce maternity leave with pay or with 
comparable social benefits without loss of former employment, seniority 
or social allowances.
NOW LDEF/LCHR Comment
    Rather than take this broad reservation, the U.S. should make a 
commitment to take appropriate steps to expand the availability of paid 
maternity leave. Such an undertaking would fill a significant gap in 
U.S. law. The Family and Medical Leave Act (``FMLA''), 29 U.S.C. 260 1-
54, mandates that employers of 50 or more employees provide twelve 
weeks of unpaid leave after childbirth or for other family or medical 
purposes. However, no federal law provides for paid maternity or 
parental leave, nor does U.S. law require an employer to reinstate a 
woman who has taken maternity leave without loss of seniority or 
allowances. Laws such as the FMLA and the Pregnancy Discrimination Act, 
42 U.S.C. 2000e(k), are of little practical benefit to most women, 
given that few can afford unpaid parental leave.
    Paid maternity and parental leave policies are already in place in 
many industrialized countries, including Germany, France, Italy, 
Canada, Austria, Belgium, the Netherlands, Luxembourg, the United 
Kingdom, Ireland, Denmark, Finland, Greece, Portugal, Japan, Sweden and 
Spain. While the number of U.S. employers offering paid maternity leave 
is small, the Congress has already made a commitment to study the 
issue. In 1993, Congress established a Commission on Leave to conduct a 
comprehensive study of, among other things, ``policies that provide 
temporary wage replacement during periods of family and medical 
leave.'' 29 U.S. 2632.


Articles 1-30
    [For the complete text of the Convention on the Elimination of All 
Forms of Discrimination Against Women see page 79 of this hearing 
document.]
Proposed Administration Understanding
    The United States understands that this Convention shall be 
implemented by the Federal Government to the extent that it exercises 
jurisdiction over the matters covered therein, and otherwise by the 
state and local governments. To the extent that state and local 
governments exercise jurisdiction over such matters, the Federal 
Government shall, as necessary, take appropriate measures to ensure the 
fulfillment of this Convention.
NOW LDEF/LCHR Comment
    The proposed language is not constitutionally necessary, nor is it 
desirable. Federal authority in this area is clear. Missouri v. 
Holland, 252 U.S. 416 (1919). Under the Constitution and international 
law, the federal government has the responsibility and the authority to 
carry out obligations under CEDAW. Although the federal government has 
the ultimate responsibility to see that these obligations are carried 
out, it can leave some implementation to the states so long as the 
United States government sees to it that this is done. There are few, 
if any, matters covered by CEDAW that are subject exclusively to state 
jurisdiction. Under the Fourteenth Amendment and other constitutional 
provisions, these matters are subject to the treaty and legislative 
powers of Congress and the jurisdiction of the federal courts.


Article 5 (for text, see above)

and

Article 7
    States Parties shall take all appropriate measures to eliminate 
discrimination against women in the political and public life of the 
country and, in particular, shall ensure to women, on equal terms with 
men, the right:
         (a) To vote in all elections and public referenda and to be 
        eligible for election to all publicly elected bodies;
         (b) To participate in the formulation of government policy and 
        the implementation thereof and to hold public office and 
        perform all public functions at all levels of government;
         (c) To participate in non-governmental organizations and 
        associations concerned with the public and political life of 
        the country.

and

Article 8
    States Parties shall take all appropriate measures to ensure to 
women, on equal terms with men and without any discrimination, the 
opportunity to represent their Governments at the international level 
and to participate in the work of international organizations.

and

Article 13
    States Parties shall take all appropriate measures to eliminate 
discrimination against women in other areas of economic and social life 
in order to ensure, on a basis of equality of men and women, the same 
rights, in particular:
         (a) The right to family benefits:
         (b) The right to bank loans, mortgages and other forms of 
        financial credit;
         (c) The right to participate in recreational activities, 
        sports and all aspects of cultural life.
Proposed Administration Understanding
    The Constitution and laws of the United States contain extensive 
protections of individual freedom of speech, expression and 
association. Accordingly, the United States does not accept any 
obligation under this Convention, in particular under Articles 5, 7, 8 
and 13, to restrict those rights, through the adoption of legislation 
or any other measures, to the extent that they are protected by the 
Constitution and laws of the United States.
NOW LDEF/LCHR Comment
    Under the First Amendment of the U.S. Constitution, the government 
may only penalize speech that incites to imminent lawless action. 
Similar limits apply to restrictions of expression and association. An 
understanding emphasizing that U.S. compliance cannot restrict the free 
speech, expression or association protections of the First Amendment 
would be appropriate.


Article 12
    1. States Parties shall take all appropriate measures to eliminate 
discrimination against women in the field of health care in order to 
ensure, on a basis of equality of men and women, access to health care 
services, including those related to family planning.
    2. Notwithstanding the provisions of paragraph 1 of this article, 
States Parties shall ensure to women appropriate services in connection 
with pregnancy, confinement and the post-natal period, granting free 
services where necessary, as well as adequate nutrition during 
pregnancy and lactation.
Proposed Administration Understanding
    The United States understands that Article 12 permits States 
Parties to determine which health care services are appropriate in 
connection with family planning, pregnancy, confinement and the post-
natal period, as well as when the provision of free services is 
necessary, and does not mandate the provision of particular services on 
a cost-free basis.
NOW LDEF/LCHR Comment
    This understanding is unnecessary. Article 12 makes clear that 
States Parties shall decide which health services are ``appropriate'' 
and when it is ``necessary'' to grant free services. Given the lack of 
conflict between U.S. law and the requirements of Article 12, the 
proposed understanding is superfluous.


Articles 1-30
    [For the complete text of the Convention on the Elimination of All 
Forms of Discrimination Against Women see page 79 of this hearing 
document.]
Proposed Administration Declaration
    The United States declares that, for purposes of its domestic law, 
the provisions of the Convention are non-self-executing.
NOW LDEF/LCHR Comment
    This declaration is not constitutionally required and it is 
undesirable. There is no reason for insisting that neither the 
Executive nor the courts should give effect to a treaty until Congress 
adopts legislation. To do so would go against the spirit of Article 6 
of the Constitution as the framers intended it. It would undermine one 
of the principal reasons why the Constitution made treaties the law of 
the land, and gave the President and the Senate the power to make such 
treaties without the consent of the House of Representatives. 
Incorporation of this declaration will unnecessarily delay U.S. 
compliance with some provisions and set up unnecessary political 
obstacles to U.S. compliance generally. Many of the articles will in 
fact require Congressional implementation, but some might not. 
Determination of what is or is not self-executing should be made 
article by article after ratification and by each branch of government 
for purposes within its responsibility.


Article 29(1-2)
    1. Any dispute between two or more States Parties concerning the 
interpretation or application of the present Convention which is not 
settled by negotiation shall, at the request of one of them, be 
submitted to arbitration. If within six months from the date of the 
request for arbitration the parties are unable to agree on the 
organization of the arbitration, any one of those parties may refer the 
dispute to the International Court of Justice by request in conformity 
with the Statute of the Court.
    2. Each State Party may at the time of signature or ratification of 
this Convention or accession thereto declare that it does not consider 
itself bound by paragraph 1 of this article. The other States Parties 
shall not be bound by that paragraph with respect to any State Party 
which has made such a reservation.
Proposed Administration Declaration
    With reference to Article 29(2), the United States declares that it 
does not consider itself bound by the provisions of Article 29(1). The 
specific consent of the United States to the jurisdiction of the 
International Court of Justice concerning disputes over the 
interpretation or application of this Convention is required on a case-
by-case basis.
NOW LDEF/LCHR Comment
    This proposed declaration is objectionable. When the United States 
ratified the International Covenant on Civil and Political Rights, it 
declared that it accepted the competence of the Human Rights Committee 
to receive and consider communications in which one State Party claimed 
that another State Party was not fulfilling its obligations under the 
Covenant. Since the dispute resolution mechanism in CEDAW similarly 
provides for submission by one of two States to an international body 
for dispute resolution, there is no justification for the U.S. 
objection. The only difference between the two procedures is, in fact, 
that, under CEDAW, the dispute is submitted to the International Court 
of Justice. The U.S. is already a party to over 75 treaties which 
provide for submission of disputes to the Court. There is no basis to 
suspect that the Court will fail to render a fair and impartial verdict 
under those treaties, or under CEDAW. If the U.S. is committed to the 
rule of law, there is no reason to resist the jurisdiction of the 
Court.

                                 ______
                                 

       Statement Submitted by The National Education Association

    Chairman Biden and Members of the Committee: Thank you for the 
opportunity to submit testimony on the importance of ratification of 
the Treaty for the Rights of Women, the Convention on Elimination of 
all Forms of Discrimination Against Women (CEDAW).
    NEA believes that all nations must respect and protect the basic 
human and civil rights of every individual, and that all persons, 
regardless of gender, must have equal opportunity for employment, 
promotion, compensation and leadership. Our 2.7 million members--the 
majority of whom are women--know first hand the difference that access 
to education makes in building a strong, tolerant society, and in 
allowing individuals to fulfill their potential.
    Women with access to education can ensure a better future for 
themselves and their children. while girls who do not go to school have 
little chance to escape poverty and oppression. According to the World 
Bank, UNICEF, and the United Nations Development Program, investment in 
girls' education is the most cost-efficient route to economic 
development and stability. Yet, two-thirds of the 125 million children 
worldwide who have never attended primary school are girls, and women 
and girls experience discrimination in education around the globe.
    The Treaty for the Rights of Women, CEDAW, requires nations that 
have ratified it to take action to end discrimination in education, 
including in professional and vocational training, access to curricula, 
and other means of receiving an equal education. Where ratified, the 
Treaty has already made significant inroads in improving access to 
education for women and girls. For example:

 <bullet> Following its ratification of the Treaty, Slovenia changed 
        its school admission policies to benefit girls.

 <bullet> Pakistan introduced co-education in primary schools following 
        its ratification of the Treaty, and saw sharp increases in 
        female enrollment, especially in rural areas.

 <bullet> India has made increasing girls' educational opportunities a 
        key priority, creating the universal Integrated Child 
        Development Services program. Girls now account for nearly half 
        of all pre-schoolers in India.

    Ratification of the Treaty would enable the United States to play a 
stronger role internationally in advocating for women's rights, 
including in the area of education. The Treaty would offer an important 
tool to advance U.S foreign policy priorities such as increasing access 
to education for women and girls in Afghanistan. Ratification would 
also promote and improve education for women and girls in the United 
States by, for example, opening doors to non-traditional careers and 
expanding school sexual harassment prevention programs.
    Nearly 170 nations have ratified CEDAW, the Treaty for the Rights 
of Women, including all Latin American/Caribbean nations, the 
overwhelming majority of European and African nations, and a large 
number of Asian and Middle Eastern nations. The United States' 
continued failure to ratify the Treaty jeopardizes our foreign policy 
objectives and reinforces the message that our nation is inconsistent 
in the human rights standards we set for other countries and ourselves.
    We urge the Senate to take immediate action to ratify this 
important human rights Treaty.
    Thank you.

                                 ______
                                 

 Statement Submitted for the Record by NOW Legal Defense and Education 
    Fund in Support of Senate Ratification of the Convention on the 
        Elimination of All Forms of Discrimination Against Women

    We thank you for holding a hearing on the Convention on the 
Elimination of All Forms of Discrimination Against Women (``CEDAW''). 
As you are well aware, the struggle for human rights and equality for 
women has yet to result in full equality in this country and abroad, 
and the struggle continues today. United States ratification of this 
important international treaty will reiterate the commitment of the 
United States to the human rights and full equality of women. NOW Legal 
Defense and Education Fund strongly urges you to ratify CEDAW and to 
reject the Administration's proposed Reservations, Understandings, and 
Declarations.
    NOW Legal Defense and Education Fund is a leading national non-
profit civil rights organization that performs a broad range of legal 
and educational services to define and defend women's rights. NOW Legal 
Defense was founded as an independent organization in 1970 by leaders 
of the National Organization for Women. NOW Legal Defense's goals 
include United States recognition of women's human rights and equality.
 i. ratification of cedaw will ensure that the united states continues 
               to play a leadership role in human rights
    CEDAW is the only international agreement to comprehensively 
address the human rights and equality of women. The United States was 
instrumental in drafting CEDAW, which was adopted by the United Nations 
General Assembly on December 18, 1979 and entered into force in 1981. 
President Jimmy Carter signed CEDAW on behalf of the United States on 
July 17, 1980, and sent it to the Senate Foreign Relations Committee in 
November 1980, over twenty years ago. Despite the overwhelming domestic 
support for CEDAW ratification, and despite the fact that the United 
States publicly stated its intention in 1995 at the Fourth World 
Conference on Women to ratify CEDAW by the year 2000, the Senate has 
not yet taken action to ratify CEDAW. Since its adoption, CEDAW has 
been ratified by 169 countries. The United States remains the only 
industrialized nation not to have ratified CEDAW and, in failing to 
ratify CEDAW, is in the company of Iran, Afghanistan, and Somalia.
    The world looks to the United States for leadership in the global 
movement to promote freedom and human rights. That movement undoubtedly 
includes the struggle for the human rights and equality of women, as 
recent events in Afghanistan have made clear. First Lady Laura Bush 
recently emphasized the importance of United States efforts to promote 
women's human rights and equality. In an address to the United Nations 
Commission on the Status of Women on International Women's Day, she 
said:

          [W]e affirm our mission to protect human rights for women in 
        Afghanistan and around the world. . . . Our dedication to 
        respecting and protecting women's rights in all countries must 
        continue if we are to achieve a peaceful, prosperous, and 
        stable world. . . . Human dignity, private property, free 
        speech, equal justice, education, and health care--these rights 
        must be guaranteed throughout the world. Together, the United 
        States, the United Nations and our allies will prove that the 
        forces of terror can't stop the momentum of freedom. \1\
---------------------------------------------------------------------------
    \1\ Remarks by Laura Bush to the United Nations Commission on the 
Status of Women, Mar. 8, 2002; see also Radio Address by Laura Bush, 
Nov. 17, 2001, (``Fighting brutality against women and children is not 
the expression of a specific culture; it is the acceptance of our 
common humanity--a commitment shared by people of good will on every 
continent. . . . The fight against terrorism is also a fight for the 
rights and dignity of women.'').

    President Bush also has stated that ``the world must know'' that 
the United States ``will always be the world's leader in support of 
human rights.'' \2\ Yet, failure to ratify CEDAW undermines the United 
States' credibility and influence in the human rights arena. In order 
to ensure that the world continues to view United States as a leader in 
human rights, the Senate must ratify CEDAW.
---------------------------------------------------------------------------
    \2\ Remarks by President George W. Bush in Recognition of Cuba 
Independence Day, May 18, 2001.
---------------------------------------------------------------------------
    In addition to sending a message that the United States supports 
women's human rights and equality, ratification of CEDAW will enable 
the United States to play a role in shaping international human rights 
norms relating to women's equality. For instance, only States Parties 
to CEDAW may elect members to and influence the agenda of the Committee 
on the Elimination of Discrimination against Women charged with 
encouraging implementation of CEDAW. \3\ Since the United States has 
not yet ratified CEDAW, it cannot yet participate in that process and 
in the discussions of how to protect women around the world.
---------------------------------------------------------------------------
    \3\ See CEDAW, art. 17.
---------------------------------------------------------------------------
 ii. ratification of cedaw will reaffirm the united states' commitment 
                  to women's human rights and equality
    Perhaps the most important reason to ratify CEDAW is to reaffirm 
the nation's commitment to women's equality and human rights in the 
United States. Although the United States has enacted a number of laws 
to protect women from many forms of discrimination and oppression--
including the Nineteenth Amendment, Title VII of the Civil Rights Act 
of 1964, Title IX of the Education Reform Act of 1972, the Equal Pay 
Act, the Pregnancy Discrimination Act, the Family and Medical Leave 
Act, and the Violence Against Women Act--as set out below, 
discrimination against women persists in many sectors. Ratification of 
CEDAW will reassure the nation that the United States is still 
committed to working toward eradicating each of those forms of 
discrimination and achieving equality for women.
A. Eradicating Violence Against Women
    One form of discrimination against women that CEDAW addresses is 
violence against women. CEDAW calls for states to undertake efforts to 
eliminate all forms of discrimination against women, and Article 1 of 
the treaty defines ``discrimination against women'' as ``any 
distinction, exclusion or restriction made on the basis of sex which 
has the effect or purpose of impairing or nullifying the recognition, 
enjoyment or exercise by women irrespective of their marital status, on 
a basis of equality of men and women, of human rights and fundamental 
freedoms in the political, economic, social, cultural, civil or any 
other field.'' As the Committee on the Elimination of Discrimination 
against Women has recognized, ``[g]ender-based violence, which impairs 
or nullifies the enjoyment by women of human rights and fundamental 
freedoms under general international law or under human rights 
conventions, is discrimination within the meaning of article 1 of the 
Convention.'' \4\
---------------------------------------------------------------------------
    \4\ See Committee on the Elimination of Discrimination against 
Women, Gen'l Rec. No. 19, at Sec. 7 (11th Sess. 1992).
---------------------------------------------------------------------------
    In the United States, forms of violence that disproportionately 
affect women, such as domestic violence, sexual assault, stalking and 
sexual harassment, are major contributing factors in women's continued 
lower socio-economic status. As many as 60% of women receiving welfare 
have been victims of domestic violence as adults, and as many as 30% 
reported abuse within the last year. Female victims of domestic 
violence and sexual assault are more likely than men to be homeless and 
unemployed, and their physical and mental health are more likely to be 
threatened. CEDAW therefore encourages States to take measures to 
eliminate violence against women so that women can equally enjoy basic 
human rights and freedoms.
    Ratifying CEDAW will reinforce the United States' commitment to 
eliminating violence against women. The United States currently 
recognizes and punishes the perpetration of domestic violence, rape, 
sexual assault, stalking, female genital mutilation, sexual harassment 
and the trafficking in and prostitution of women and girls. Civil and 
criminal remedies are available to women who have become victims of 
these crimes, and funds and resources have been made available to aid 
in the investigation and prosecution of perpetrators as well as the 
physical, material and emotional rehabilitation of victims. In other 
words, CEDAW's obligation that State Parties take appropriate measures 
to combat gender-based violence is consistent with United States law 
and policy.
    Nevertheless, the fact remains that women in the United States are 
still disproportionately subjected to violence, both in their own homes 
and in the public sphere. Although the United States has made great 
strides in addressing gender-based violence and ensuring women's 
safety, there is still much to be done. According to the Bureau of 
Justice Statistics, each year approximately 1.3 million women are 
victims of domestic violence. \5\ Another 1 million women are stalked 
annually in the United States, \6\ and one in every six women have been 
victims of attempted or completed rape. \7\ Overall, a woman in the 
United States is ten times more likely than a man to be raped, \8\ and 
she is more than twice as likely as a man to be injured during a rape 
or physical assault. \9\ These statistics point to the stark reality 
that despite our best efforts, women are still the victims of violence 
simply because they are women. Ratification of CEDAW will send a 
message that the United States will continue to fight against gender-
based violence.
---------------------------------------------------------------------------
    \5\ United States Dept. of Justice, Office of Justice Programs, 
Full Report of the Prevalence, Incidence, and Consequences of Violence 
Against Women, Research Report (Nov. 2000) at iv.
    \6\ Id.
    \7\ Id. at 13.
    \8\ Id. at 43.
    \9\ Id. at 49.
---------------------------------------------------------------------------
B. Promoting Economic Justice for Women
    Ratification of CEDAW will also signal the United States' 
commitment to elevating women from poverty and achieving their economic 
equality. For instance, Article 11(1) of CEDAW requires States Parties 
to ``take all appropriate measures to eliminate discrimination against 
women in the field of employment,'' including by ensuring ``the right 
to the same employment opportunities,'' ``the right to receive 
vocational training,'' and ``the right to equal remuneration.'' While 
United States law prohibits employment and other economic 
discrimination against women, the fact remains that women in the United 
States are still denied the economic opportunities available to men and 
still make up the vast majority of this nation's poor. Women still make 
only $0.74 for every dollar paid to a man for the same work. \10\ This 
is the case despite the fact that a majority of college graduates are 
women. \11\ For women who have earned high school, but not college, 
degrees, the inequities in pay between men and women--with women making 
an average of $9,000 less annually than men with comparable 
educations--contribute significantly to the number of women who live 
below the poverty level. \12\ Thus, despite advancements in the law, 
the United States must continue to work to end economic discrimination 
against women.
---------------------------------------------------------------------------
    \10\ See State Action.org, Solutions for the New Economy: Building 
Blocks for a Strong and Healthy Economy, Families and Communities.
    \11\ Id.
    \12\ U.S. Dep't. of Labor, Women's Bureau, ``20 Facts on Women 
Workers'' (Mar. 2000).
---------------------------------------------------------------------------
    Effective implementation of CEDAW's principles would improve the 
economic status of women in the United States. For instance, CEDAW's 
emphasis on increasing opportunities for women to receive education and 
job training in occupations that have traditionally been filled by men 
would help to move women from lower paying work sectors traditionally 
associated with women to higher paying skilled positions. Women 
comprise the majority of low-wage workers in this country, making up 
59% of workers earning no more than $7.91 an hour in 1998. \13\ By 
contrast, nontraditional jobs in those occupations in which women 
comprise 25% or less of total workers pay 20% to 30% more on average 
than traditionally female occupations. Nontraditional employment offers 
women high wages, good benefits and opportunities for advancement, and 
provides an avenue for many low-income women to move up and out of 
poverty. Thus job training and education will lead to greater 
employment opportunities--opportunities that are not predominantly made 
available, as they are currently, to individuals of one gender and not 
the other.
---------------------------------------------------------------------------
    \13\ Marlene Kim, Women Paid Low Wages: Who They Are and Where They 
Work, Monthly Labor Rev., Sept. 2000, at 26.
---------------------------------------------------------------------------
    The United States has repeatedly demonstrated its commitment to 
equal opportunity for men and women in the workplace and in the 
nation's economy in general, but more needs to be done. Ratifying CEDAW 
will show the nation and the world that the United States stands behind 
its commitment and recognizes that raising the standard of living among 
women is an on-going challenge, one in which the United States plans to 
be a world leader.
C. Promoting Access to Support Services, Including Child Care
    CEDAW also addresses the pressing need for working women to have 
access to reliable and affordable child care. Women make up a 
significant portion of the workforce in the United States, and they 
also remain the primary caregivers in their families. Three-quarters of 
all women with children between the ages of 6 and 17 work outside the 
home. \14\ Women with preschool age children have also entered the 
workforce in dramatic numbers; by 1996, 62% of working women had young 
children--a rate five times higher than in 1947. \15\ It is inevitable 
that work and family commitments will come into conflict; yet it is 
clearly within our nation's best interest that women be given the 
support and resources they need to be effective and productive in their 
essential roles as workers, professionals and mothers. Article 11(2)(c) 
of CEDAW suggests that in order to achieve this interest, states 
parties to the convention should ``encourage the provision of the 
necessary supporting social services to enable parents to combine 
family obligations with work responsibilities and participation in 
public life.'' Such ``supporting social services'' may include 
childcare. The health of our economy and the health of our families 
depend on the commitment to assist women to become the best workers and 
professionals and mothers that they can be. Ratification of CEDAW will 
demonstrate this commitment.
---------------------------------------------------------------------------
    \14\ Committee on Ways and Means, U.S. House of Representatives, 
1998 Green Book Background Material and Data on Programs within the 
Jurisdiction of the Committee of Ways and Means, 105th Congress, 2d 
Sess., at 660 (May 19, 1998).
    \15\ Committee on Ways and Means, U.S. House of Representatives, 
1998 Green Book Background Material and Data on Programs within the 
Jurisdiction of the Committee on Ways and Means, 105th Congress, 2d 
Sess., at 660 (April 1997).
---------------------------------------------------------------------------
D. Promoting Women's Equality in Other Areas
    CEDAW encourages States Parties to take measures to improve women's 
lives and ensure their equality in a number of other areas, including 
health care, \16\ education, \17\ and politics, \18\ among others. 
Again, the United States should ratify CEDAW to demonstrate its 
dedication to promoting women's equality and human rights in all areas.
---------------------------------------------------------------------------
    \16\ See CEDAW art. 12.
    \17\ See CEDAW arts. 5, 10-11, 13-14.
    \18\ See CEDAW arts. 7-9.
---------------------------------------------------------------------------
  iii. there is widespread domestic support for ratification of cedaw
    There is widespread domestic support for ratification of CEDAW. 
Sixteen states and dozens of cities and counties have passed 
resolutions urging the United States to ratify CEDAW. Over 120 
organizations have similarly called for ratification. In 1993, 68 
United States Senators sent a letter to President Clinton in support of 
CEDAW.
    Enthusiasm for CEDAW is so strong that a number of cities and 
counties are undertaking innovative efforts to implement CEDAW locally. 
For instance, in April 1998, San Francisco enacted a local ordinance 
designed to implement the principles of CEDAW in the city. The San 
Francisco CEDAW ordinance commits the city to ``work towards 
integrating gender equity and human rights principles into all of its 
operations, including policy, program and budgetary decision-making.'' 
\19\ To do so, the ordinance sets specific programmatic goals in the 
areas of economic development, violence against women and girls, and 
health care. It also requires selected city departments, programs, and 
other entities to ``undergo a gender analysis'' and to ``develop an 
Action Plan'' containing ``specific recommendations on how [each 
entity] will correct any identified deficiencies and integrated human 
rights principles and the local principles of CEDAW into its 
operations.'' \20\ The San Francisco CEDAW ordinance compliments local, 
state, and federal anti-discrimination laws by proactively promoting 
women's human rights and taking measures to prevent discrimination 
before it occurs. It recognizes that women's human rights are advanced 
not only by prohibitions on discrimination but also by taking women's 
needs and concerns into account at all levels of decision-making. 
Similar efforts to implement CEDAW locally are also underway in New 
York City, Los Angeles, Seattle, Chicago, Boston, Palo Alto, Santa Cruz 
County, and Santa Clara.
---------------------------------------------------------------------------
    \19\ San Fran. Admin. Code, Sec. 12K.4(a) (amended Dec. 2000).
    \20\ Id. Sec. 12K.4(b).
---------------------------------------------------------------------------
    Federal ratification of CEDAW will encourage these innovative local 
efforts to promote women's equality and human rights, efforts which 
provide a roadmap for future positive initiatives both here and abroad.
  iv. the united states should ratify cedaw without qualification and 
   should reject most of the administration's proposed reservations, 
                    declarations and understandings
    The substantive provisions of CEDAW are consistent with the letter 
and spirit of the United States Constitution and laws, both state and 
federal. The United States can and should accept virtually all of 
CEDAW's obligations and undertakings without qualification.
    We are deeply troubled, however, by the reservations, 
understandings, and declarations (``RUDs'') proposed by the 
Administration. We believe that only one understanding, that relating 
to limitations on free speech, expression and association, is 
advisable. The remaining RUDs, eight in number, are all designed to 
support the Administration's view that this treaty should not, in any 
way, change, or commit us to change, anything in United States law or 
practice, now or in the future. This approach is troubling as there are 
several areas where the United States is not in compliance and lags 
behind much of the industrial world in guaranteeing full equality to 
women. The Administration appears to have sought to identify such areas 
and then, by its RUDs, to preclude any obligation to work to improve 
the record of the United States in these areas. At a minimum, the 
Administration should commit publicly, and on the record, to seek 
improvement of its performance in each area, rather than seek to 
preclude all change through the use of RUDs.
    We are very disappointed to observe that the qualifications 
proposed by the Administration reflect the same three principles as did 
the qualifications attached to the Convention on the Elimination of All 
Forms of Racial Discrimination (the ``Race Convention'') and as did 
those attached by the previous Administration to the International 
Covenant on Civil and Political Rights (the ``ICCPR''). Each of these 
principles is misguided.
    The first principle--that the United States will undertake to do 
only what it is already doing--is incompatible with the object and 
purpose of the treaty. The purpose of treaties generally is to 
undertake new obligations or to make a commitment to the international 
community to adhere to existing obligations. The mere fact that a 
treaty establishes standards to which the United States does not 
currently adhere is not sufficient reason for a reservation. A specific 
reservation should be added if a particular treaty provision is found 
to be unacceptable. But there should not be a wholesale rejection of 
change. If the United States ratifies CEDAW subject to broad 
limitations that imply a lack of political commitment to observe 
international standards, its actions will rightly be decried by the 
international community. It will suggest that the United States views 
these international norms as being applicable only in other countries. 
In fact, there has been just such a reaction by other countries in 
regard to the RUDs the United States attached to the ICCPR--at least 10 
countries have filed objections with the United Nations.
    The second principle--declaring the articles of CEDAW not to be 
self-executing--is both constitutionally unnecessary and inconsistent 
with the spirit of Article 6 of the Constitution as the framers 
conceived it. There is no reason for insisting that neither the 
Executive nor the courts should give effect to a treaty until Congress 
adopts legislation. Adoption of this declaration would undermine one of 
the principal reasons why the Constitution made treaties the law of the 
land and gave the President and the Senate the power to make such 
treaties. While some articles of CEDAW may require Congress to pass 
appropriate implementing legislation, others do not. Determination of 
which provisions are, and which are not, self-executing should be made 
article by article after ratification and by each branch of government 
for purposes within its responsibility.
    The third principle, reflected in the ``states' rights 
understanding,'' is also unnecessary and undermines the full 
implications of the treaty. There are few matters covered by the 
Constitution that are subject exclusively to state jurisdiction. Under 
the Fourteenth Amendment and other Constitutional provisions, these 
matters are subject to the treaty and legislative powers of Congress 
and the jurisdiction of federal courts. If the intention is to clarify 
that the obligations of CEDAW may in some cases be implemented by the 
states, the Administration should simply say so; it requires no 
declaration upon ratification, and to make such a declaration only 
causes confusion.
    Overall, the Administration's qualifying language applies one set 
of rules to the United States and another set of rules to the rest of 
the world. No other nations, including our closest allies, have taken 
this view. We believe it is wrong, and undermines the basic purpose of 
the treaty. Other countries, including our allies, will continue to 
view ratification in this manner as hypocritical. They will see it as 
an attempt by the United States to obtain the benefit of being a party 
to the treaty without undertaking the obligations that accompany that 
status.
    Furthermore, we are concerned that United States ratification 
subject to the principle of ``no domestic application'' may be imitated 
cynically by other states, which seek the diplomatic benefits of 
ratification but cling to the view that adherence to international 
human rights standards violates their sovereignty. The universal 
application of human rights is a matter of intense struggle in the 
world today. Many nations seek to excuse their denial of these rights 
under the guise of cultural relativity. The United States, which has 
long been a leader in calling for the universal application of human 
rights (rights which in many instances are modeled on those first 
recognized in the United States), cannot insist that other nations 
respect human rights as the universal inheritance of every person while 
refusing to grant those rights to its own citizens.
                             v. conclusion
    In sum, NOW Legal Defense strongly urges the United States to 
ratify CEDAW (1) to bolster the United States' world leadership role in 
human rights, (2) to reaffirm the nation's commitment to women's human 
rights and equality, and (3) to recognize and encourage the widespread 
local support for CEDAW. NOW Legal Defense further urges the United 
States to reject most of the Administration's proposed RUDs as 
unnecessary and inconsistent with the spirit of CEDAW.

                                 ______
                                 

  Statement Submitted by Zoe Hudson of the Open Society Policy Center

    Our experience in Afghanistan serves as a vivid reminder about the 
crippling effects of discrimination against women and girls. In 
Afghanistan today, there are two generations of girls who have never 
stepped foot into a classroom. Women were not allowed to hold jobs, 
have access to basic health care, vote, or to participate in civil 
society.
    Unfortunately, the women in Afghanistan are not alone. It is 
estimated that every year, more than two million girls are sold into 
sexual slavery; one in four women experience domestic violence; and 
more than 500,000 women die from complications in childbirth. In some 
countries, women cannot own property or pass it along to their 
daughters.
    The Treaty for the Rights of Women is the one international 
agreement that establishes a framework to address violence and 
discrimination against women. Formally called the Convention on the 
Elimination of All Forms of Discrimination Against Women (CEDAW), the 
Treaty has been ratified by 169 nations. Ratification would not require 
the United States to change a single law. But it would give us a 
powerful new tool to partner with other countries to improve the lives 
of women.
    The Treaty for the Rights of Women has already helped women and 
girls around the world. After ratification, Turkey, Columbia, Costa 
Rica, Nepal and others adopted new legislation to prosecute and prevent 
domestic violence. India instituted new education programs and girls 
now account for half of all pre-schoolers. Australia and Israel 
launched new education campaigns about cancer. To be sure, more still 
needs to be done. But the United States cannot ask other countries to 
remain true to their commitments until we ourselves ratify the Treaty.
    The U.S. has a long bipartisan tradition of support for human 
rights treaties. Presidents Regan, Bush, and Clinton ratified treaties 
on genocide, civil and political rights, torture, and race. 
Ratification of the Treaty for the Rights of Women would continue in 
this tradition--recognizing that guaranteeing the basic rights of women 
is vital to a strong democracy and healthy families.
    As First Lady Laura Bush has stated, the Taliban's isolation of 
women is ``not normal--not by international standards, not by Islamic 
standards and not by Afghanistan's own standards.'' The Treaty for the 
Rights of Women is the one international agreement that articulates 
those standards. The United States should ratify it this year.

                                 ______
                                 

                           Peace & Joy Care Center,
                                                Carson, CA.
Hon. Joseph R. Biden, Jr.,
U.S. Senate, Washington, DC.
    Dear Senator Biden: I am writing to express my strong support for 
the Convention on the Elimination of All Forms of Discrimination 
against Women, or CEDAW. I appreciate your leadership on this issue and 
would like to encourage you to hold hearings for CEDAW in the Senate 
Foreign Relations Committee.
    To date, 168 countries have ratified CEDAW. The United States is 
the only industrialized nation that has failed to do so and as such is 
in the company of countries such as Iran and Afghanistan. We must work 
to lead in the support of women's rights at home and around the world. 
Ensuring the health and safety of women everywhere is in the best 
interest of all people.
    Again, please hold hearings for CEDAW in the near future. There is 
no better way to celebrate International Women's Day (March 8th) than 
the Senate's ratification of this important treaty.
        Sincerely,
                             Wilma M. Wilson, RN, MFS, MFT,
                                                Executive Director.

                                 ______
                                 

    Statement Submitted by Werner Fornos, President, The Population 
                               Institute

    The United States Senate should, with all deliberate speed, take 
action towards the ratification of the United Nations Convention on the 
Elimination of Discrimination Against Women (CEDAW). In its ongoing 
quest to achieve universal access to family planning and reproductive 
health, the Population Institute recognizes that perhaps the most 
effective intervention toward this goal is the empowerment of women 
everywhere.
    We, in the United States, take for granted the extension of 
fundamental human rights to women as well as to men. In our view, these 
rights include, among others, the right to vote, access to education; 
access to employment; the right to own property; and the right to plan 
the size of our families.
    Women in many parts of the world are less fortunate. Women perform 
2/3 of the world's work, but earn only 1/10 of its income. Women grow 
one half of the world's food, but own only 1 percent of its property. 
Nearly 2/3 of the world's 876 million illiterate people are women. 
Nearly 1,500 women die every day because of complications from 
pregnancy and childbirth. Some 300 million women around the world who 
either did not want their last child, do not want another child, or 
want to space their pregnancies, lack access to family planning.
    Only a year ago, on May 18, 2001, President George W. Bush stated 
that ``repressed people around the world must know this about the 
United States . . . . We will always be the world's leader in support 
of human rights.'' The record shows that women are among the most 
repressed people around the world; that women are among the poorest of 
the world's poor; that women in many regions and countries of the world 
are denied education, employment and across-the-board equity. Were men 
in virtually any country in the world subjected to the same 
indignities, the same suppression of basic rights, as are all too many 
women in these same countries, they would take arms against their 
leaders.
    The United States--where one of the most cherished symbols of what 
we stand for, the Statue of Liberty, is depicted as a woman, where 
Justice herself is depicted as a woman--should be at the forefront of 
efforts to reverse the deplorable worldwide repression of women. Yet, 
inexplicably and incredibly, the United States is the only 
industrialized country not among the 169 nations that have signed 
CEDAW. The United States cannot expect other nations to follow our lead 
on supporting human rights for all when we fail to support a document 
that calls for ensuring human rights for half the population of the 
world.
    Seven years ago, at the United Nations Conference on Women in 
Beijing, the United States delegation publicly endorsed CEDAW. in a 
recent letter I received from Senator Barbara A. Mikulski of Maryland, 
the Senator said the ``key provisions'' of this treaty are ``basic 
human rights. If even a handful of these provisions were observed, the 
lives of women around the world would dramatically improve.'' I could 
not agree more.
    The United States' failure to ratify CEDAW is more than an 
oversight, it is a travesty of purposeful and unconscionable neglect. 
if the United States Senate is serious about equity, equality and 
empowerment of women, it will ratify CEDAW--which does not commit the 
United States to one solitary thing it is not already doing, nor does 
it change any U.S. law. If the President is serious about his pledge to 
the repressed people of the world that the United States is today, 
tomorrow and always committed to human rights, be will affix his 
signature to a ratified CEDAW. For anything less, puts the United 
States in the untenable position of supporting the denial of basic 
human rights to half of the world's more than 6 billion people. 
Furthermore, and finally, failure to support this reasonable and 
necessary document opens legitimate questions regarding the United 
States' exertion of moral leadership and adherence to the principles of 
democracy.

                                 ______
                                 

Statement Submitted by the National Coalition Against Domestic Violence

    The National Coalition Against Domestic Violence (NCADV), which 
represents a network of approximately 2,000 battered women's shelters 
and community-based programs, as well as individual battered and 
formerly battered women throughout the nation, submits this testimony 
in support of the ratification of the Convention on the Elimination of 
all forms of Discrimination Against Women (CEDAW), the International 
Treaty for the Rights of Women.
The International Consensus on Women's Human Rights
    Discrimination against women infects societies and cultures, 
hurting women and children around the world. To eliminate this social 
disease, every nation must call upon its educational and legislative 
resources and commit to ending discrimination against women. 
Encouragingly, 169 nations have adopted CEDAW but unfortunately, 
although we helped draft CEDAW, the United States stands alone among 
industrialized nations as the sole holdout in ratification. We are 
among the company of nations such as Afghanistan, Somalia, and Sudan.
America's Commitment to Human Rights
    The United States has always prided itself in being among the 
world's leaders in the promotion of human rights, both at home and 
abroad. But we cannot continue to maintain our stance of moral 
superiority if we continue to ignore the fundamental human rights of 
over half the world's population. By not ratifying CEDAW, we undermine 
the very goals we purport to advance. In addition, our inaction has 
resulted in a loss of credibility on issues pertaining to international 
human rights and has degraded our ability to comment on the 
mistreatment of women and to push for critical portions of our 
international human rights agenda. It is time for us to resume 
leadership in the international human rights arena. The time has come 
for us to adopt CEDAW.
    Internationally, violence against women is not new, but in recent 
years it has received increased attention. The media has been inundated 
with images and stories of orphaned children forced into sexual slavery 
in Thailand, of rape camps in war torn Yugoslavia being used as a form 
of ethnic cleansing and sexual terrorism, and of the repression women 
faced under the Taliban in Afghanistan, including public executions and 
stonings. It is now more clear than ever that the effects of 
discrimination against women are beyond devastating, they are deadly.
    We are now at a critical juncture. Afghanistan is in the process of 
re-building itself and it is in everyone's best interests that in the 
new Afghan society women have a place alongside men as equal partners 
in their mutual future. Leaders in Afghanistan and throughout the 
world, often cite our lack of support for CEDAW as a reason for them to 
ignore the treaty and the rights of women. Furthermore, American 
diplomats have complained that whenever they attempt to address the 
issue of women's rights, they face criticism over the United States' 
refusal to ratify CEDAW. Although this is clearly done to evade the 
true issues, it has been an effective tool in deflecting our criticism 
and has often frustrated diplomatic efforts to effectively discuss and 
address international human rights.
CEDAW's Usefulness
    In addition to restoring our legitimacy as an international leader 
in the arena of human rights, ratifying CEDAW will also result in real 
gains for women throughout the world. For instance, the women of 
Nigeria, Christian and Muslim alike, are often subjected to the brutal 
procedure known as Female Genital Mutilation (FGM). This practice often 
results in infection and even death. CEDAW can provide relief for 
individuals who are subjected to this form of oppression, but without 
the United States joining the Convention, we have no say in how or even 
if it is enforced and whether or not these women's rights are 
protected. We have no representation on the Committee on the 
Elimination of Discrimination Against Women and are thus denied the 
most effective arena in which to share with the rest of the world, the 
benefits of our own experiences in eliminating discrimination against 
women in the United States.
    The repercussions of our ratification will not always be as visible 
as ending gender apartheid in Afghanistan or combating FGM in Nigeria 
but the less visible advancements of women are equally as important to 
concerned individuals around the world. While CEDAW does not dictate 
specific changes, it serves as a framework or guideline for policy 
making. CEDAW has been cited by many countries which have adopted it, 
as a reference for change. Since its inception, CEDAW's principles have 
been used to assist in writing new constitutions in Brazil and Uganda, 
and as of 2001, had resulted in twenty-two countries adopting laws to 
advance equal participation of women in decision-making. CEDAW has also 
been used to advance the interests of women in education. Pakistan 
recently introduced co-education in primary schools and as a result, 
there were sharp increases in female enrollment. Similar programs in 
India have increased the numbers of girls in pre-schools to be nearly 
equal to boys. These advancements are promising not only for the girls 
who directly benefit from these programs but also for all those who 
will be affected by the reduction in poverty that generally accompanies 
increased levels of education. Australian women have benefited on the 
employment front as a result of CEDAW. They now have national 
legislation against sexual harassment in employment. CEDAW has also 
been used to promote women's health. In Argentina, there now exists a 
program to prevent early maternity among teens, and when it does occur, 
to provide necessary pre-natal care. And in the Philippines, there is a 
new Maternal Health Care Program, and immunizations for newborns. CEDAW 
has also paved the way to economic improvements for women. For 
instance, in China, The Women's Act was passed guaranteeing equal 
rights to property inheritance. All these examples demonstrate that 
adopting CEDAW is not simply giving lipservice to human rights, the 
gains are real and measurable.
The Importance of Women's Human Rights and CEDAW
    Now more than ever, it is imperative that the United States send a 
message to the world that human rights includes women's rights. We have 
seen what discrimination against women has done, and we have also seen 
what international cooperation can accomplish. By advancing the rights 
and interests of women throughout the world, we will increase access to 
education, health care, involvement in government, and employment 
opportunities. Advancements in these areas will also serve to combat 
poverty, malnutrition, and many other global ailments that serve to 
strengthen the forces of despair and extremism. Since September 11th, 
we have all become painfully aware that these issues are not just the 
problems of other nations. To advance the goals of peace, we must 
eliminate the seeds of despair and inequality that contribute to the 
perpetuation of terrorism; ratification of CEDAW is a clear starting 
point for the accomplishment of this goal.
    Social, economic, and political discrimination against women in our 
society and culture all nurture an environment that accepts violence 
against women. When women are not empowered in these areas, their lives 
and the quality of life for them and their children is at risk. We have 
seen this throughout history and most recently in Afghanistan. Abroad 
and at home, discrimination and violence against women are closely 
linked. Statistics of violence against women are appalling, according 
to a February 2000 study conducted by the United Nations Report on the 
Commission on the Status of Women, internationally, at least one in 
three women and girls has been beaten or sexually abused in her 
lifetime. According to the Center for Disease Control and Prevention, 
in the United States, 1 in 6 women has experienced an attempted or 
completed sexual assault.
    Congress, and in particular the Senate, has often taken a 
leadership role in upholding human rights at home and abroad. 
Continuing in this tradition, we call upon this body to once again 
reaffirm its commitment to the values that it has time and again 
demonstrated dedication to. Ratifying CEDAW will not only prove our 
unwavering support for human rights and equality, it will disarm the 
true human rights abusers of their greatest ammunition in this 
international debate, our past inaction. We urge the Senate to move to 
ratify CEDAW today.

                                 ______
                                 

                 Maine/Rio Grande Do Norte Chapter,
                                  Partners of the Americas,
                                                Cape Elizabeth, ME.
Committee on Foreign Relations,
U.S. Senate, Washington, DC.

Re:U.N. Convention on the Elimination of All Forms of Discrimination 
Against Women (CEDAW)

    Honorable Members: The Maine Chapter of Partners of the Americas 
urges you to recommend ratification of the U.N. Convention on the 
Elimination of All forms of Discrimination Against Women, including the 
Proposed Reservations, Understandings and Declarations of the United 
States (S. Res. 286), scheduled for hearing before your committee on 
May 15. We submit this testimony for the Committee's Hearing Record.
    Maine's partnership with the state of Rio Grande do Norte in 
northeastern Brazil is one of 60 POA partnerships linking U.S. States 
with countries, states or regions in Latin America and the Caribbean. 
Partners of the Americas is the largest private voluntary organization 
in the Western Hemisphere engaged in international cooperation and 
training.
    Our partnership is deeply concerned with the rights of women. Our 
immediate focus is domestic violence, a particularly virulent form of 
discrimination against women. We exchange judges, legal experts and 
others with our Brazilian counterparts. But our leadership in ensuring 
women's rights worldwide is in question when the U.S. has failed to 
ratify the CEDAW since the U.N. adopted the Convention in 1979. With 
169 other countries signing the Convention the U.S. is the only 
industrial democracy not to ratify the treaty. Ironically, Brazil 
incorporated the Convention into its constitution in 1988.
    We see nothing in the treaty with the proposed reservations, 
understanding and declarations that contravenes or conflicts with 
national or state laws. On the contrary, adoption of the Convention can 
only help where our standards need strengthening, implementing or 
enforcing. Accordingly, the Maine Legislature and several other states 
have memorialized the U.S. Senate to ratify CEDAW.
    It is not good for our country or its citizens to be on the 
sideline of this important international treaty without the ability to 
exercise leadership or to influence its direction. We urge you to vote 
S. Res. 286 out favorably.
        Sincerely,
                                        Stephen P. Simonds,
                                                         Secretary.

                                 ______
                                 

                                   Joy R. Simonson,
                                            Washington, DC,
                                                      May 12, 2002.
Hon. Colin Powell,
Secretary of State,
U.S. Department of State,
Washington, DC.
    Dear Secretary Powell: I am writing to urge strongly that the 
United States Government support U.S. ratification of the Convention on 
Elimination of All Forms of Discrimination Against Women (CEDAW). The 
Senate Foreign Relations Committee is expected to hold a long-overdue 
hearing on this matter in the near future, which will be the 
appropriate time for you to speak out on behalf of ratification.
    In 1980 at the United Nations' Mid-Decade Conference on Women in 
Copenhagen I was thrilled to see Sarah Weddington, representing the 
United States, sign the Convention which was the major product of that 
meeting. The knowledge that the treaty has been ratified by the rest of 
the industrialized world and not our country is humiliating.
    The United States--and this Administration--advocate for human 
rights throughout the world. There is no doubt that women's rights are 
human rights. It is surely time for us to take this essential step to 
underscore our commitment to the well-being of the world's women.
    Thank you for you consideration of this urgent appeal.
        Sincerely,
                                           Joy R. Simonson.

cc: President George W. Bush
   Senate Foreign Relations Committee

                                 ______
                                 

      Statement Submitted by Sheryl J. Swed, President, UNIFEM/USA

    On behalf of the United States Committee for the United Nations 
Development Fund for Women (UNIFEM/USA), I would like to thank you for 
this opportunity to submit testimony on CEDAW, the Convention on the 
Elimination of All Forms of Discrimination Against Women.
    UNIFEM/USA is a voluntary committee that works to support the 
mission of UNIFEM, the Women's Fund at the United Nations. UNIFEM/USA, 
one of 19 National Committees worldwide, provides support to UNIFEM by 
increasing public awareness of UNIFEM's mission, and by fundraising in 
the United State for UNIFEM's programs.
    UNIFEM, the United Nations Development Fund for Women, was created 
by a United Nations General Assembly resolution in 1976. It is an 
autonomous agency of the United Nations and is the only fund 
established specifically to support women. Since its inception, UNIFEM 
has established itself as a leader in the pursuit of human rights for 
women by funding innovative initiatives for women in developing 
countries. Currently, UNIFEM provides financial and technical 
assistance to programs and strategies in over 100 countries around the 
world.
    UNIFEM/USA and UNIFEM share a vision: a world where women live 
their lives free from poverty, violence, and inequality. The Convention 
on the Elimination of All Forms of Discrimination Against Women (CEDAW) 
is an essential and powerful tool to achieve this mission. CEDAW is a 
vital precondition to granting and protecting the basic human rights of 
women around the world.
    The plight of women in Afghanistan is the most recent and visible 
example of why the world's women need the protection of CEDAW. The 
leadership that the Congress and the United States demonstrated on 
Afghanistan now needs to be extended to CEDAW. Without the United 
States, the Convention lacks the necessary strength to effectively and 
positively defend women's status and security in nations around the 
world. Therefore, UNIFEM/USA urges the United States Senate to ratify 
CEDAW as a critical demonstration of support from the world's leader on 
human rights issues. To effectively ensure that CEDAW is taken 
seriously, the United States must be one of its chief supporters.
    CEDAW includes provisions on areas of discrimination as varied as: 
political and public life; education; employment and equal pay; health 
care; financial benefits and property; equality in marriage and family; 
as well as issues of violence and trafficking. Just as gender 
discrimination can touch each area of a women's life, so too can CEDAW 
positively affect women's lives in each of these areas. In addition, 
CEDAW can be an extremely important resource for two key issues in 
today's world: ensuring women's human rights during the rebuilding of a 
nation's constitution and legislation, and effectively addressing the 
HIV/AIDS pandemic.
    As detailed in a UNIFEM publication ``Bringing Equality Home: 
Implementing the Convention on the Elimination of All Forms of 
Discrimination Against Women, CEDAW has been used around the world to 
benefit women by strengthening policies, enhancing women's legal 
protections, and moving us closer to our ideal of gender equality.
    For example if Afghanistan ratifies CEDAW, this essential and 
powerful resource can be utilized to make women's human rights an 
inalienable right in that nation as the new constitution and 
legislation is drafted and the civil society rebuilt. Women must be 
included as equals in the new Afghanistan. The women of Afghanistan 
need CEDAW to ensure that their human rights are protected. By 
ratifying CEDAW, the United States strengthens the Convention and will 
be in the position to urge Afghanistan to ratify as well.
    As reported in a UNIFEM publication, ``Turning the Tide: CEDAW and 
the Gender Dimensions of the HIV/AIDS Pandemic,'' just as CEDAW can be 
a critical tool in ensuring that women's human rights are protected 
under constitutions and national legislation, so too can CEDAW serve as 
a vital resource when addressing the rapid spread of HIV/AIDS.
    At the United Nations General Assembly Special Session on HIV/AIDS 
in June 2000, there was overwhelming recognition of the fact that HIV/
AIDS poses a greater threat to women and girls than to men. Gender 
inequality and discrimination greatly increase women's vulnerability to 
infection and results in heavy burdens on the family and the community. 
Women and girls have less access to HIV/AIDS-related information, 
prevention, treatment, and services.
    CEDAW can help ensure that gender is a guiding principle in the 
fight against HIV/AIDS and that gender issues are included in all 
policies, legislation and allocations. CEDAW can help make this happen 
by providing a framework for advocacy on human rights, including issues 
of health care, care-giving, and women's leadership.
    Women's inequality and disempowerment in the family and community, 
in education, in government, in cultural norms, and in the economy has 
resulted in the rapid spread of HIV/AIDS. Women are not only more 
biologically susceptible to contracting HIV/AIDS, but are also socially 
vulnerable as well. Inequality in the family and community, as well as 
economic dependence and threats of violence, may lead to unprotected 
sex. Adequate care and treatment is inaccessible.
    CEDAW can play an important role in each of these areas, as it 
specifically targets inequality in relation to health services, 
education, family, employment, violence against women, and harmful 
cultural stereotypes and practices. The United States' ratification of 
CEDAW can strengthen the acceptance and implementation of this 
Convention and can help ``turn the tide'' of the HIV/AIDS pandemic.
    Ratifying and implementing CEDAW is a critical step in building a 
culture that respects and promotes women's human rights and women's 
equality. UNIFEM will continue working with women in developing 
countries to strengthen policies and programs that ensure a world where 
women live their lives free from poverty, violence, and inequality. We 
urge the United States Senate to ratify CEDAW, the Convention on the 
Elimination of All Forms of Discrimination Against Women, to ensure 
equal access to their full human rights for women around the world.
    On behalf of the United States Committee for UNIFEM, the United 
Nations Developmental Fund for Women, thank you again for this 
opportunity to submit testimony on this vital issue. I would be more 
than happy to answer any written questions you may have and look 
forward to an open dialogue with you on this issue.

                                 ______
                                 

                               Wake County Chapter,
                            United Nations Association/USA,
                                                       Raleigh, NC.
Hon. Joseph R. Biden, Jr. and
Hon. Barbara Boxer,
Committee on Foreign Relations,
U.S. Senate, Washington, DC.
    Dear Senator Biden and Senator Boxer: On behalf of the Board of 
Directors and the 140 members of the Wake County Chapter of the United 
Nations Association in Raleigh, North Carolina, I wish to commend you 
for your action in scheduling hearings on the Convention to Eliminate 
Discrimination Against Women (CEDAW). It is shameful that the United 
States Senate has not yet ratified this convention which was adopted in 
1979 by the General Assembly, signed in 1980 by President Carter, and 
went into effect in 1981.
    By providing a forum for countries to address women's rights 
issues, it can be an effective means of advancing those rights around 
the world. While the situation in Afghanistan under the Taliban may 
have been the worst in the world, women's rights are severely limited 
in many countries. We understand that the convention's provisions are 
consistent with U.S. law, which already provides strong protections for 
American women.
    Although ratification would not change the rights of women in the 
U.S., it would strengthen U.S. efforts to improve the status of women 
elsewhere and our ratification would enhance CEDAW's legitimacy. By 
failing to ratify CEDAW, the U.S. loses credibility as a global leader 
for human rights.
    Besides being the right thing to do for women, U.S. ratification 
could lead to increased participation of the U.S. in the evaluation and 
recommendation of policies that affect women throughout the world. 
Changed policies could lead to an improvement in the education and 
employment of women which could lead to a reduction of both the spread 
of HIV/AIDS and population growth, thereby reducing the disruptive 
economic and environmental impact they cause.
    To ensure approval of ratification, I am sure that you will want to 
stress in the hearing that the Convention has no enforcement authority 
that would enable it to supersede U.S. sovereignty or laws.
    I trust that the record of hearings will show that our Chapter 
supported ratification of CEDAW.
        Sincerely,
                                Isaac T. Littleton,
                       President, Wake County (NC) Chapter.

                                 ______
                                 

                                   John Vanderstar,
                                           Waynesville, NC,
                                                       May 4, 2002.

To the Members of the Senate Foreign Relations Committee:

    Dear Senators: It is my understanding that the Committee will soon 
take up the Convention To End Discrimination Against Women (CEDAW). I 
applaud this decision and write to urge that you report favorably on 
ratification of CEDAW by the full Senate.
    I am the father of four daughters, now in their 30s. One Sunday 
morning in church one of my daughters, then age 9 or so, asked me why 
we always gave God thanks ``for all thy goodness and loving kindness to 
us and to all men,'' I was stumped for an answer, and I still am 
stumped. But I am now and have been for many years a committed 
feminist. That is, I believe women and girls are entitled to take their 
place alongside men and boys in such of life's adventures as they are 
individually capable of and must not be channeled solely because of 
their gender. This I believe is a matter of natural law:

        So God created Adam (humankind) in his image,
        in the image of God he created him (them);
        male and female he created them.--Genesis 1:27.

Christians embrace this principle firmly:

        There is no longer Jew or Greek, there is no longer
        slave or free, there is no longer male and female;
        for all of you are one in Christ Jesus.--Galatians 3:28.

    I have long been active in the Episcopal Church. Presently I am a 
Member of the House of Deputies of our General Convention, the 
``national legislature'' of the Church, from the Diocese of Washington 
(DC), although I am writing from my summer home in North Carolina. I am 
also a Trustee of the Protestant Episcopal Cathedral Foundation.
    Sadly, Christian churches have been as guilty of this sorry history 
as other institutions in society; Scripture has often been cited in 
support of treating women as second-class citizens (as it was once 
cited in support of slavery). But progress is being made, and in 1991 
the General Convention of the Episcopal Church endorsed CEDAW.
    It is with this background that I appeal to the Senate to take this 
next step in pursuit of liberation of females from millennia of 
discrimination by ratifying CEDAW.
        Very truly yours,
                                                   John Vanderstar.

                                 ______
                                 

                                   Vicki L. Hinton,
                                            Santa Cruz, CA,
                                                      June 7, 2002.

    President George W. Bush: It is with great pleasure that we have 
learned of the Senate Foreign Relations Committee hearings on CEDAW, 
The Convention on the Elimination of All Forms of Discrimination 
Against Women, to begin June 13.
    We are aware that the United States was one of the nations most 
active in developing this treaty, which is so important to women 
throughout the world, and that the United States signed CEDAW in 1980. 
We are also aware that, following earlier hearings by the Committee, 
the Treaty was recommended for passage in 1994, prior to the Fourth 
World Conference on Women held in Beijing, China. We also note that 
CEDAW is listed by you as a treaty your Administration believes is 
generally desirable and should be approved.
    It is appropriate for the world to see that the United States 
promotes women's human rights, here at home as well as throughout the 
world.
    Therefore, we most strongly urge you to give your favorable support 
to the hearing and ratification of the Convention.
        Sincerely yours,
                                         Vicki Lynn Hinton.

                                 ______
                                 

                           Carol J. Voelker, Ph.D.,
                                              La Jolla, CA,
                                                      May 30, 2002.
Hon. George W. Bush, President,
The White House, Washington, D.C.
    Dear Mr. President: Your favorable support of the CEDAW hearing and 
ratification is vital at this time if our country is to be counted 
among the 169 countries in the world that support gender equality and 
the elimination of all forms of discrimination against women.
    The Convention on the Elimination of All Forms of Discrimination 
Against Women is a powerful mandate for bringing about concrete changes 
to realize women's human rights.
    Please: it has been 22 years since the United States signed CEDAW. 
It is past time for the United States Senate to ratify it. Your help is 
needed to win this battle.
        Sincerely,
                           Carol J. Voelker, Ph.D.,
                   AARP State Legislative Committee Member,
                            Soroptimist International Board Member.

                                 ______
                                 

Statement Submitted by Women's Action for New Directions and the Women 
                           Legislators' Lobby

    Women's Actions for New Directions (WAND) and its program, the 
Women Legislators' Lobby (WiLL), applaud the Senate Foreign Relations 
Committee's decision to hold hearings on the United Nation's Convention 
on the Elimination of all Forms of Discrimination Against Women 
(CEDAW). WAND/WiLL strongly support the ratification of CEDAW, and 
urges the Senate to ratify this important human rights document.
    WAND is a national, grassroots arms control & disarmament 
organization that has worked since 1980 to empower women to act 
politically to reduce violence and militarism, and to redirect 
excessive military resources toward unmet human and environmental 
needs. Since articles 7 and 8 of the treaty address equality of 
opportunity for women everywhere to engage in political and public 
life, WAND, whose mission begins ``to empower women to act 
politically,'' enthusiastically supports this treaty because it will 
encourage the active and equal participation of women in government.
    Violence against women is the most common human rights violation, 
taking many forms and cutting across ethnicity and socio-economic 
status. CEDAW is an important international tool to suppress violence 
and gender discrimination toward women. In fact, the treaty has 
persuaded governments in Turkey, Nepal, South Africa, and the Republic 
of Korea to develop laws that protect women from domestic violence.
    The Women Legislators' Lobby (WiLL), a program of WAND, is a 
national multipartisan network of women state legislators working 
together to influence federal policies that impact state and local 
communities. With members in all 50 states, WiLL members account for 
one-third of all women legislators and represent over 33 million 
citizens across the country. Because CEDAW is the only international 
instrument that comprehensively addresses women's rights within 
political, economic, cultural, and social spheres, it is a powerful 
tool in promoting and assessing women's equality. The Women 
Legislators' Lobby recognizes that until our nation ratifies CEDAW, the 
United States is constrained in its international promotion of women's 
emancipation. To highlight this point, legislators in 23 states have 
introduced resolutions urging U.S. ratification of CEDAW.
    To date, 169 countries have ratified CEDAW. The United States 
stands alone as the only industrialized democracy that has not ratified 
the treaty. The United States' ratification of CEDAW will strengthen 
the treaty and will assure our nation's credibility. To encourage non-
violence and peace, and to ensure women's political equality, Women's 
Action for New Directions and the Women Legislators' Lobby stand in 
solidarity with women worldwide in support of this important treaty.

                                 ______
                                 

             Statement Submitted by the Women's Commission,
                    County of Santa Cruz, California

    Dear Senator Boxer and Members of the Senate Foreign Relations 
Committee: It is with the greatest pleasure that we look forward to the 
upcoming hearings on the ratification of the Convention to Eliminate 
All Forms of Discrimination Against Women (CEDAW). We most strongly 
urge your Committee to recommend immediate ratification of CEDAW to the 
full Senate.
    Since 1994, when the previous 13-5 recommendation in favor of 
ratification was made by your Committee, we have actively sought Senate 
ratification of CEDAW. It was a great disappointment for the women of 
the United States that we attended the Fourth World Conference on Women 
in Beijing, 1995, as representatives of an unratified nation. It is an 
even greater disappointment that in 2002, the United States is the only 
unratified nation in the Western Hemisphere, and the only remaining 
unratified developed nation in the world.
    Surely, a status that places us on a level with Afghanistan 
demonstrates to the world that in the United States, women's rights are 
not yet human rights. We are asked to make enormous sacrifices to 
ensure the liberation of Afghan women--yet here at home the status of 
American women is not ensured.
    Because our Federal government has failed to extend to women in the 
United States the human rights recognized as essential throughout the 
world, we have been working locally in Santa Cruz County, California, 
and with other cities and counties throughout the State towards local 
legislation and implementation of CEDAW. For several years, this took 
the form of work on implementation of the Platform for Action. However, 
a piecemeal approach is not an effective way to operate, when such an 
excellent blueprint as CEDAW is available to us.
    Therefore, following San Francisco's lead, we determined to pursue 
a local countywide CEDAW ordinance. In 2002, we formed a CEDAW Task 
Force as a part of the Santa Cruz County Women's Commission, and since 
then have been speaking about CEDAW and learning about our community's 
needs with respect to women's human rights. Working in coalition with 
other organizations, we are identifying the issues of greatest concern 
to women locally, and extending awareness across groups to increase our 
support for each other. We have met with neighboring County Commissions 
on the Status of Women to share ideas. And we have worked with our 
local Board of Supervisors to gain approval for the concept of 
meaningful, comprehensive legislation based on CEDAW, which will 
coordinate and codify much of what is already in place.
    However, this is still a piecemeal approach to addressing the 
problems women face throughout the United States. Gertrude Mongella of 
Tanzania, Convenor of the United Nations Fourth World Conference on 
Women, has said: ``The problems of women do not differ from country to 
country; they differ only in intensity.'' We would say that the 
problems of women do not differ from State to State. Poverty, lack of 
access to education and health care, inadequate political 
representation, the particular concerns of women of color and immigrant 
women--these affect all women here to varying degrees, and therefore 
affect the larger community of which women are an inseparable part.
    In these times, when the economic stresses that disproportionately 
affect women have intensified, local governments are balancing their 
budgets by cutting programs and services that benefit women including, 
in the County, the dedicated staffing for the Women's Commission. While 
we will persevere, this means that the local CEDAW effort will have to 
rely totally on volunteers. A fully ratified CEDAW will serve to 
strengthen ongoing local efforts throughout the country as well as 
restoring this nation to its proper place as a world leader in 
recognizing, affirming, and upholding the human rights of women.
        Sincerely yours,
                  Sheila De Lany and Alison Harlow,
              Santa Cruz County CEDAW Task Force Co-Chairs,
                                     Santa Cruz Women's Commission.
 Material Submitted in Opposition to Ratification of the Convention on 
      the Elimination of All Forms of Discrimination Against Women
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

            Petition in opposition to ratification of CEDAW
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      Petition in opposition to ratification of CEDAW (continued)

                                ------                                


 Statement Submitted by Tanya K. Skeen, Vice President, Family Action 
            Council International, Charlottesville, Virginia

    Honorable Chairwoman and Committee members, I would like to thank 
you for the opportunity to speak to you today. My name is Tanya K. 
Skeen. I am married and am the mother of 9 children (8 are living) who 
range in age from 25 to 7. I am also the vice president of Family 
Action Council International (FACI), a Virginia-based non-profit 
organization whose mission is to promote measures designed to maintain 
and strengthen the family as the fundamental unit of society. I have 
become acquainted with CEDAW through participating as a non-
governmental organization in United Nations proceedings, where I have 
met and discussed family issues with many delegates and ambassadors. I 
come here, not just as a representative of an organization supportive 
of the family, but as a representative of millions of American women, 
women who value their unique role as mothers.
    I, and others like me, feel greatly blessed to live in this great 
country of the United States of America. This is a land of freedom 
where we may each decide how best to live our lives. My husband and I 
have chosen to have a large family. We planned from the beginning that 
I would stay at home and raise our children. We made these decisions in 
part because of our religious values. We believe, as a wise man once 
said, that ``no other success can compensate for failure in the home.''
    My life as a mother has been the most important part of my life. My 
husband and I agree with Urie Bronfenbrermer's observation in an 
article from Psychology Today entitled Nobody Home: The Erosion of the 
American Family (May 1977, p. 43) that every ``child should spend a 
substantial amount of time with somebody who's crazy about him. . . . 
[T]here has to be at least one person who has an irrational involvement 
with that child, someone who thinks that kid is more important than 
other people's kids, someone who's in love with him and whom he loves 
in return . . . `You can't pay a woman to do what a mother will do for 
free.' ''
    There are some who may view me as a downtrodden woman--burdened 
with the responsibility of raising 8 children when I should be making a 
``REAL'' contribution to society by proving that I as a woman can stand 
toe to toe with any executive in the board room. They may say I should 
not be saddled with changing diapers, doing laundry, wiping up spills, 
taxiing children from here to there, bandaging scraped knees, fixing 
dinners, and making birthday cakes. But in the process, I am teaching 
them correct principles, including fair play, respect for others, 
kindness, honesty and that integrity counts. I am also correcting 
negative behavior on the spot, teaching them how to clean and to be 
clean, teaching them to pray and to value great music, teaching them to 
read and to value the words of the great books, including the ``Good 
Book.''
    But this is the life I have chosen for myself. And there are 
millions of American women who feel the same way I do. Perhaps I 
represent the traditional woman stereotype that the CEDAW Committee is 
seeking to combat. The truth of the matter is I cannot imagine a 
happier, more fulfilling, or more purposeful life.
    Contrary to the views of the CEDAW Committee, the idea that 
motherhood, as a career, is a most valuable role is not so unique. The 
Universal Declaration of Human Rights adopted by the member nations of 
the U.N. in 1948 provides that ``The family is the natural and 
fundamental group unit of society and is entitled to protection by 
society and the State (Article 17) . . . [M]otherhood and childhood are 
entitled to special care and assistance.'' (Article 25)
    So why am I here today? It is out of grave concern that CEDAW does 
NOT protect motherhood and childhood, and, in fact, is destructive to 
the family. Admittedly, many of the goals of CEDAW are worthwhile. 
There are certainly abuses perpetrated against women throughout the 
world that need to be eliminated. And its goal of bringing equality to 
women is laudable. However, CEDAW goes far beyond the initial purpose 
of eliminating atrocities against women and puts families and 
motherhood at risk. It ``throws out the baby with the bath water'' so 
to speak. The CEDAW Committee, which is charged with interpreting the 
international treaty, seems bent on imposing requirements on parties to 
CEDAW that, I believe, the average American would find astonishing and 
abhorrent! One woman has stated, ``If I wanted to destroy society, I 
would launch an all-out blitz on women.'' While CEDAW purports to 
protect women, ironically, carrying out the CEDAW Committee's 
directives amounts to a blitz on women.
    CEDAW would deny the differences between mothers and fathers, men 
and women.\1\ It encourages ratifying nations to develop policies to 
move mothers to work outside the home, ignoring the special need of 
infants and small children for their mothers' presence and 
nurturing.\2\ CEDAW attacks the special role of motherhood. Thus, the 
CEDAW Committee has objected to the ``over-protective measures for 
pregnancy and motherhood . . .\3\ In effect, CEDAW encourages the 
separation of children from their parents at the earliest possible age 
to be placed in daycare so that the mother may work full-time. For 
example, in Slovenia, the CEDAW Committee recommended the creation of 
more formal and institutionalized child-care establishments for 
children under three years of age as well as for those from three to 
six.\4\ This, by the way, is in direct contradiction to the 1959 U.N. 
``Declaration on the Rights of the Child'' that states that ``[a] child 
of tender years shall not, save in exceptional circumstances, be 
separated from his mother.''
    Implicit in CEDAW is the idea that a woman can only be fulfilled 
when she is freed from the responsibility of raising her children. 
Referring to the Republic of Georgia, the CEDAW Committee wrote: ``The 
Committee notes with concern . . . the prevalence of stereotyped roles 
of women in Government policies, in the family, in public life based on 
patterns of behavior and attitudes that overemphasize the role of women 
as mothers.'' \5\ In Belarus, the CEDAW Committee, has even encouraged 
the elimination of Mother's Day.\6\ While the Committee says that 
motherhood is a ``harmful stereotype,'' \7\ it encourages the 
legalization of prostitution\8\ and prods governments to bring women 
engaged in prostitution into the mainstream and under the protection of 
social law. Thus, for example, the Committee expressed concern to 
Germany that ``although they are legally obliged to pay taxes, 
prostitutes still do not enjoy the protection of labor and social 
law.'' \9\
    It seems ironic, and is a further testament of the indifference and 
even hostility of CEDAW to motherhood, that in the entire CEDAW treaty, 
which purports to protect and advance the role of women, the word 
``mother'' is never used. The concept of motherhood is only indirectly 
referred to in the negative context of a ``stereotyped role.''
    In the United States, we go to excruciatingly great lengths in 
selecting who will interpret our laws, and by democratic and 
constitutional processes, judges are selected whom we entrust to make 
wise, balanced decisions. In contrast the CEDAW Committee are self-
styled, so-called ``experts'', working with NGO volunteers, who are 
selected precisely because their personal agendas are unwaveringly 
supportive of liberating women from the constraints of home, family and 
religion. Their role is to interpret the meaning of the treaty's 
language and to judge the compliance of ratifying nations. They are not 
elected, and they likely hold no allegiance to our laws or 
constitutional principles. Many or most are not, of course, American 
citizens. Their selection is through a process far removed from 
democratic principles or from any concept of the judiciary that we as 
Americans know and accept. And yet they have the power to critique 
sovereign nations, indeed to advance their philosophy of the family and 
of the role of women and to insist upon its acceptance by every nation 
that ratifies this treaty.
    Why are we even considering ratifying this treaty which will 
subject the United States to the interpretations and recommendations of 
the CEDAW Committee and the personal and or political agenda of its 
members? And what is their agenda? From all appearances, it is to 
develop policies that will change our cultural values and religious 
beliefs, that will push women out of the home into the workforce, that 
will push the youngest of children into daycare centers, and will shift 
what are now generally men's responsibilities to protect and provide 
for their families onto women. To Indonesia, the Committee 
``expresse[d] great concern about existing social, religious and 
cultural norms that recognize men as the head of the family and 
breadwinner and confine women to the roles of mother and wife, which 
are reflected in various laws, Government policies and guidelines. It 
is unclear what steps the government is proposing to take to modify 
such attitudes, which present a serious obstacle to the advancement of 
women. . . .'' \10\ And, is the CEDAW Committee acting within the scope 
of CEDAW treaty itself? All we have to do is go back and read the 
treaty, and we see that the answer is yes.
    In addition to promoting policies counter to the traditional roles 
of mother and father, the CEDAW Committee appears to take a hostile 
attitude toward religion. They seem to believe, perhaps rightly, that 
religion helps perpetuate the traditional roles of men and women. The 
CEDAW Committee has instructed one country to reinterpret its holy writ 
to conform to the CEDAW Committee's directives.\11\ As a further 
example of this hostility, I made a phone call to one U.N. agency that 
works to educate NGOs on CEDAW. I was asked to identify my organization 
and, specifically, to indicate whether we were a religious 
organization. I said that ours is not affiliated with any specific 
religion. The person's response was, ``Good, religion does not know 
what is good for families. Religion is not good for families.''
    One argument put forth for our ratification of CEDAW is that the 
United States should support the many nations of the world who have 
embraced this treaty. I suggest that we take a closer look at those 
countries and the circumstances under which they agreed to adopt the 
treaty. I can tell you that a U.N. delegate from one country, in a 
private, confidential conversation, said to me in regard to CEDAW: 
``Where were you when we needed you. When we ratified CEDAW a few years 
ago, we did not understand it, we did not know what it meant. It is 
terrible and now we can do nothing about it. Where were you then?''
    Some have suggested that possible unacceptable interpretations by 
the CEDAW Committee can be dealt with through our specifying 
reservations. The CEDAW Committee has made it perfectly clear, with 
respect to the reservations of some nations, that they have no 
intention of honoring them. For example, in the case of China, which 
inserted reservations with respect to religion, the Committee stated: 
``Of particular concern is the reservation exempting `the affairs of 
religious denominations or orders' from the scope of the Convention.'' 
\12\ The CEDAW Committee was even more direct with regard to Libya's 
religious reservation in stating: ``Reservations that [are] 
incompatible with the goals of the Convention [are] not acceptable.'' 
\13\ Furthermore, the General Assembly of the United Nations, in regard 
to CEDAW, has ``called on governments to ratify the Convention, limit 
the extent of any reservations to it, and withdraw reservations which 
[are] contrary to the object and purpose of the Convention or otherwise 
incompatible with international treaty law.'' \14\
    I want my children to be able to raise their children in a world 
where mothers are respected, honored and valued. I want my daughters to 
be able to be ``stay-at-home'' mothers, if they choose, and to be able 
to raise their children in a safe, nurturing and loving home, without 
any interference or discouragement from government policy.
    By not having ratified CEDAW to date, the United States has not 
yielded to the pressure to adopt international law or policy that would 
undermine and even destroy the traditional roles of mother and father 
in the family. While there is still room for improvement in the rights 
and protections afforded women, progress is being made and can continue 
to be made through existing laws and processes. We do not need CEDAW to 
achieve these ends, and CEDAW brings significant risks. I plead with 
you to consider very, very carefully the impact that this treaty would 
have in matters of gender and family law; and the implications that 
this treaty would have on the traditional role of motherhood, including 
the right of a woman to choose full-time motherhood as an honored and 
respected way of life. CEDAW is BAD LAW, and Family Action Council 
International urges you to reject it. Thank you.
                                 notes
    1. ``For the purposes of the present Convention, the term 
`discrimination against women' shall mean any distinction, exclusion or 
restriction made on the basis of sex which has the effect or purpose of 
impairing or nullifying the recognition, enjoyment or exercise by 
women, irrespective of their marital status, on the basis of equality 
of men and women, of human rights and fundamental freedoms in the 
political, economic, social, cultural, civil or any other field.'' 
Convention on the Elimination of All Forms of Discrimination Against 
Women (CEDAW) Article 1.
    2. See, e.g., CEDAW Committee notes to Colombia directing that 
women be integrated into the labor force. CEDAW Committee, 20th Sess. 
(1999) Concluding Observations for the Committee on the Elimination of 
Discrimination Against Women: Columbia. Para. 382.
    3. ``The Committee also notes with concern the increase in over-
protective measures for pregnancy and motherhood. . . .'' CEDAW 
Committee, 18th Sess. (1998) Concluding Observations for the Committee 
on the Elimination of Discrimination Against Women: Czech Republic, 
Para. 196.
    4. CEDAW Committee, 16th Sess. (1997), Concluding Observations of 
the Committee on the Elimination of Discrimination Against Women: 
Slovenia, Para. 114.
    5. CEDAW Committee, 21st Sess. (1999) ``Concluding Observations for 
the Committee on the Elimination of Discrimination Against Women: 
Georgia,'' Para. 99.
    6. CEDAW Committee, 22nd Sess. (2000) ``Concluding Observations for 
the Committee on the Elimination of Discrimination Against Women: 
Belarus,'' Para. 361.
    7. ``The Committee strongly urged the Government to use the 
education system and the electronic media to combat the traditional 
stereotype of women `in the noble role of mother' . . . '' CEDAW 
Committee, 17th Sess. (1997) ``Concluding Observations for the 
Committee on the Elimination of Discrimination Against Women: 
Armenia'', Para. 65. Also, CEDAW Committee, 19th Sess. (1998) 
``Concluding Observations for the Committee on the Elimination of 
Discrimination Against Women: Peru'', Para. 269: ``[The U.N.] 
recommends, as a matter of priority, the inclusion in gender equality 
programs of a component to promote the gradual elimination of such 
harmful stereotypes, and a general awareness-raising campaign to 
eradicate them.''
    8. ``The Committee recommends decriminalization of prostitution.'' 
CEDAW Committee, 20th Sess. (1999) ``Concluding Observations for the 
Committee on the Elimination of Discrimination Against Women: China'', 
Para. 289. ``The Committee is concerned that prostitution . . . is 
illegal in China.'' CEDAW Committee, 20th Sess. (1999) ``Concluding 
Observations for the Committee on the Elimination of Discrimination 
Against Women: China'', Para. 288.
    9. CEDAW Committee, 22nd Sess. (2000) ``Concluding Observations for 
the Committee on the Elimination of Discrimination Against Women: 
Germany'', Para. 325.
    10. CEDAW Committee, 18th Sess. (1999) ``Concluding Observations of 
the Committee on the Elimination of Discrimination Against Women : 
Indonesia,'' Para. 289.
    11. CEDAW Committee, 13th Sess. (1995) ``Report of the Committee on 
the Elimination of Discrimination Against Women, Supplement No. 38 (A/
49/38),'' Para. 132.
    12. CEDAW Committee, 20th Sess. (1999) ``Concluding Observations of 
the Committee on the Elimination of Discrimination Against Women: 
China,'' Para. 314.
    13. CEDAW Committee, 13th Sess. (1995) ``Report of the Committee on 
the Elimination of Discrimination Against Women, Supplement No. 38 (A/
49/38),'' Para. 132.
    14. Twenty-third special session of the General Assembly ``Women 
2000: gender equality, development and peace for the twenty-first 
century, June 2000.

                                 ______
                                 

       Treaty Trap: Should the U.S. Ratify a Feminist Convention?

                    by ramesh ponnuru, june 10, 2002

                        (National Review Online)

    The United Nations adopted the Convention on the Elimination of All 
Forms of Discrimination against Women (CEDAW) in 1979, but progress 
toward Eliminating All Forms of Discrimination has been held up by 
America's failure to ratify the convention. From time to time, 
feminists have tried to push ratification--in 1999, ten female House 
Democrats marched over to a hearing of the Senate Foreign Relations 
Committee to pressure then-chairman Jesse Helms on the matter. (He 
threw them out for disrupting the hearing.) But it's usually a very 
low-priority issue.
    Recently, however, Democratic senators Joseph Biden and Barbara 
Boxer have made a renewed push for ratification. The Bush 
administration is determining its position. Social conservatives, led 
by Austin Ruse's Catholic Family and Human Rights Institute, are 
lobbying it to oppose.
    The text of CEDAW commits governments that are party to it to 
abolishing all legal distinctions based on sex that impair the exercise 
of ``human rights and fundamental freedoms.'' Further, it commits those 
governments to eliminating all discrimination against women ``by any 
person, organization, or enterprise'' and to modifying ``the social and 
cultural patterns of conduct of men and women, with a view to achieving 
the elimination of . . . all . . . practices which are based on . . . 
stereotyped roles for men and women.''
    Parties to the convention must regularly appear before a U.N. 
committee to detail the progress they are making toward reaching these 
rather coercive and utopian goals. The CEDAW committee tends to take an 
expansive view of its mandate. It has, for example, criticized Ireland 
for prohibiting abortion, and warned Belarus that its establishment of 
Mother's Day could promote stereotypes.
    The debate within the administration does not fall neatly along the 
lines one might expect. Some conservatives are looking for a treaty 
that the administration can support, since they have already spurned 
enlightened European opinion on Kyoto, the International Criminal 
Court, the Anti-Ballistic Missile Treaty, and the like. They think that 
various legal reservations and understandings can limit the damage the 
convention can do. Richard Wilkins, a law professor at Brigham Young 
University, persuasively argues that this is wishful thinking.
    Opponents of the convention are hoping that Elliott Abrams, the 
National Security Council official in charge of reviewing the 
convention, weighs in against it.
Trafficking in Folly
    Last Wednesday, the State Department released a report on sex 
trafficking around the world. The department is obligated to issue such 
a report under a law aimed mainly at ``sex trafficking in which a 
commercial sex act is induced by force, fraud, or coercion, or in which 
the person induced to perform such act has not attained 18 years of 
age.''
    Most of the media has treated the report, to the extent it's been 
noticed at all, as a step forward in the fight against trafficking. But 
that's not the way the activists who fought for the trafficking law see 
it. A group of such activists--mostly but not exclusively 
conservatives--greeted the State Department's briefers with skepticism 
bordering on incredulity.
    State divides countries into three tiers, with Tier One being 
relatively clean and Tier Three abysmal. Tier Two countries are 
``making significant efforts'' against trafficking. It's Tier Two that 
has drawn most of the criticism. Countries can get into it without 
prosecuting a single trafficker, so long as they, for example, set up 
programs to assist victims of the trade.
    The report fails to provide details about the countries involved, 
or about the methods it uses to classify them. How many prosecutions 
have there been in India or Thailand? At the briefing, department 
officials claimed vaguely that there had been prosecutions; 
International Justice Mission, an anti-trafficking group, says that 
there are no confirmed convictions, or dismissals of police officials 
working with the traffickers, in either country.
    The activists also say that Tier Two is too large a category to 
provide useful information. Israel and Romania have done much more to 
fight trafficking than Moldova or Sierra Leone--but they're all 
together in Tier Two. Some countries that are well known to have major 
trafficking problems, such as Australia, aren't in the report at all, 
State having failed to find 100 confirmed cases of victimization.
    Senator Biden is chairman of the Foreign Relations Committee. If he 
is interested in improving the lot of women around the world, and not 
just in scoring points with feminists, he'll put CEDAW back on the 
backburner--and hold oversight hearings about State's lame efforts 
against sex trafficking.

                                 ______
                                 

     Statement Submitted by Patrick Fagan, The Heritage Foundation

    Mr. Chairman, Senator Boxer, and all other members of the Foreign 
Relations committee, I thank you for this opportunity to submit 
testimony. To begin I must stress that, while I serve as William H.G. 
FitzGerald Fellow in Family and Cultural Issues at the Heritage 
Foundation, the views that I express are entirely my own, and should 
not be construed as representing any official position of The Heritage 
Foundation. Again, let me say how grateful I am for the opportunity to 
submit testimony on the United Nations Convention on the Elimination of 
All Forms of Discrimination Against Women.
    Despite the many good elements within CEDAW few Americans are aware 
that CEDAW is also used by certain agencies within the United Nations 
system in a campaign to undermine the foundations of society--the two-
parent married family, the religions that espouse the primary 
importance of marriage and traditional sexual morality, and the legal 
and social structures that protect these institutions. <SUP>1</SUP> 
Using the pretext of international treaties that promote women's 
rights, the social policy sector of the United Nations--specifically, 
committees that oversee implementation of U.N. treaties in social 
policy areas and assisted by special-interest groups--is urging 
countries to change their domestic laws and national constitutions to 
adopt policies that will adversely affect women and children. 
<SUP>2</SUP>
---------------------------------------------------------------------------
    \1\ The key U.N. bodies involved include the Office of the U.N. 
High Commissioner for Human Rights, the U.N. Committee on the Rights of 
the Child and the U.N. Committee on the Elimination of Discrimination 
Against Women that work under the Office of the High Commissioner, the 
Economic and Social Council, and the bureaucracies of the United 
Nations Children's Fund, the U.N. High Commissioner for Refugees, the 
World Food Programme, the U.N. Development Programme, the U.N. 
Environment Programme, and the U.N. Centre for Human Settlements 
(Habitat).
    \2\ A compilation of numerous excerpts from the actual reports 
issued by these committees to the member states and to the U.N. General 
Assembly is available at http://www.heritage.org/library/backgrounder/
bg1407quotes.html.
---------------------------------------------------------------------------
    This is a troubling agenda. And it is incompatible with the U.N's 
Universal Declaration of Human Rights. It states that ``the family is 
the natural and fundamental group unit of society and is entitled to 
protection by society and the state.'' <SUP>3</SUP> The United Nations 
historically has included in treaties and documents language affirming 
a nation's right to determine its cultural norms and practices. The 
U.N. Charter itself states that ``Nothing contained [herein] shall 
authorize the United Nations to intervene in matters which are 
essentially within the domestic jurisdiction of any state or shall 
require the Members to submit such matters to settlement under the 
present Charter.'' <SUP>4</SUP> And a 1960 General Assembly Resolution 
states that ``All peoples have an inalienable right to complete 
freedom, the exercise of their sovereignty and the integrity of their 
national territory.'' <SUP>5</SUP>
---------------------------------------------------------------------------
    \3\ Universal Declaration of Human Rights, Article 16, at http://
ww.unhchr.ch/udhr/lang/eng.htm .
    \4\ United Nations Charter, Article 2, Para. 7.
    \5\ U.N. General Assembly Resolution 1514 (XV), December 14, 1960, 
reiterated in General Assembly Resolution 52/119, December 12, 1997: 
``Popular sovereignty intensifies and fortifies the claim about the 
vital role that popular sovereignty plays in protecting and enhancing 
fundamental international human rights.'' See Robert John Araujo, 
``Sovereignty, Human Rights and Self-Determination: The Meaning of 
International Law,'' Brigham Young University Conference on the United 
Nations and the Family, June 2000, p. 14.
---------------------------------------------------------------------------
    But the U.N.'s long-standing respect for the right of sovereign 
nations to set their own domestic policies has yielded to a new 
countercultural agenda espoused in U.N. committee reports and 
documents, particularly those relating to the implementation of the 
Convention on the Elimination of All Forms of Discrimination Against 
Women (CEDAW). <SUP>6</SUP> Under the auspices of the U.N. High 
Commissioner for Human Rights, along with many laudable recommendations 
these committee reports urge countries to undertake some very radical 
and destablizing initiatives:

    \6\ The United Nations Committee on the Elimination of 
Discrimination Against Women (CEDAW Committee) includes 23 ``experts'' 
on women's issues. Its mandate is to monitor progress made by 
signatories in fulfilling treaty obligations. At biannual meetings, 
members review reports submitted by states the year after signing the 
treaty and every four years thereafter. See http://www.un.org/
womenwatch/daw/cedaw/reports.htm for most of the CEDAW reports cited in 
this study.

  <bullet> Remove their prohibitions on prostitution and eventually 
        legitimize it; for example, a CEDAW committee report on 
        Germany--which has legalized prostitution--notes with disdain 
        that ``although they are legally obliged to pay taxes, 
        prostitutes still do not enjoy the protection of labor and 
        social law [in Germany].'' <SUP>7</SUP>
---------------------------------------------------------------------------
    \7\ CEDAW Committee, 22nd Sess. (2000), ``Report on Germany,'' 
Para. 39.

  <bullet> Make abortion a ``demand right'' protected by national and 
        international law, with unrestricted access for teenagers, and 
        make the non-provision of abortion illegal in all cases, even 
        for reasons of conscience. A report to Croatia, for example, 
        finds ``the refusal, by some hospitals, to provide abortions on 
        the basis of conscientious objection of doctors . . . 
        [constitutes] an infringement of women's reproductive rights.'' 
        <SUP>8</SUP>
---------------------------------------------------------------------------
    \8\ Report of the United Nations Committee on the Elimination of 
Discrimination Against Women, 13th Sess., to the General Assembly of 
the United Nations, 53rd Sess. (1998), ``Report on Croatia,'' Document 
#A/53/38, Para. 109.

  <bullet> De-emphasize the role of mothers and increase incentives for 
        them to work rather than stay home to care for children. 
        <SUP>9</SUP> The U.N. criticized the republic of Georgia, for 
        example, for ``the prevalence of stereotyped roles of women in 
        Government policies, in the family, in public life based on 
        patterns of behavior and attitudes that overemphasize the role 
        of women as mothers.'' <SUP>10</SUP> One country report even 
        criticized the observance of Mother's Day.
---------------------------------------------------------------------------
    \9\ See Mark Genuis, The Myth of Quality Day Care (Calgary, 
Alberta: National Foundation for Family Research and Education, 2000).
    \10\ CEDAW Committee, 21st Sess. (1999), ``Report on Georgia,'' 
Para. 30.

  <bullet> Encourage governments to alter religious rules and customs 
        that impede its efforts. A report on Indonesia states, for 
        example, that ``the most significant factors inhibiting women's 
        ability to participate in public life have been the cultural 
        framework of values and religious beliefs.'' <SUP>11</SUP> 
        Indeed, with such language, social policy agents working for 
        and at the United Nations are promoting an agenda that attacks 
        the natural rights of the family and the independent 
        sovereignty of nations to determine their own domestic policies 
        on parental rights and the free expression of religious values 
        and beliefs.
---------------------------------------------------------------------------
    \11\ Report of the United Nations Committee on the Elimination of 
Discrimination Against Women, 18th Sess., to the General Assembly of 
the United Nations, 53rd Sess. (1998), ``Report on Indonesia,'' 
Document #A/53/38, Para. 10.

    The U.N.'s CEDAW implementing committee may insist that its 
recommendations are in the best interests of women, but in reality they 
will greatly expand government programs and government power and 
adversely affect women and children. <SUP>12</SUP> The consequences 
could be severe.
---------------------------------------------------------------------------
    \12\ Nicky Ali Jackson, ``Observational Experiences of 
Intrapersonal Conflict and Teenage Victimization: A Comparative Study 
Among Spouses and Cohabitors,'' Journal of Family Violence, Vol. 11 
(1996), pp. 191-203. For a review of literature on the effects of 
family structure on child abuse, see Patrick F. Fagan, ``The Child 
Abuse Crisis: The Disintegration of Marriage, Family, and Community,'' 
Heritage Foundation Backgrounder No. 1115, May 15, 1997, at http://
www.heritage.org/library/categories/family/bg1115.html..
---------------------------------------------------------------------------
    Rigorous academic studies show, for example, that separating a 
child from his mother too early or for too long can have serious long-
term damaging effects on the child. <SUP>13</SUP> Yet the U.N. 
committees both disparage stay-at-home mothers and urge nations to make 
publicly funded day care widely available, even for newborns, so that 
more women can go to work or go back to work sooner after giving birth. 
Many studies show that family structure affects income, health, and 
happiness, <SUP>14</SUP> yet the committees advocate policies that will 
increase out-of-wedlock births, especially among teenagers. Studies 
also show that children of married families that worship have better 
incomes, better health, higher education, and lower rates of crime, 
abuse, addiction, and suicide. Married families in developed nations 
also exhibit less violence against women and children. <SUP>15</SUP>
---------------------------------------------------------------------------
    \13\ For a review of the literature, see Robert Karen, Becoming 
Attached: First Relationships and How They Shape Our Capacity to Love 
(New York: Oxford University Press, 1998). See also Patrick F. Fagan, 
``How Broken Families Rob Children of Their Future Income,'' Heritage 
Foundation Backgrounder No. 1283, June 1999, and National Foundation 
for Family Research and Education (Canada), ``The Myth of Quality Day 
Care,'' April 2000.
    \14\ See, for example, Nadine F. Marks and James D. Lambert, 
``Marital Status Continuity and Change Among Young and Midlife Adults: 
Longitudinal Effects on Psychological Well-Being,'' Journal of Family 
Issues, Vol. 19 (1998), pp. 652-686. For a review of the literature on 
the effects on income, see Patrick F. Fagan, ``How Broken Families Rob 
Children of Their Future Income,'' Heritage Foundation Backgrounder No. 
1283, June 1999, Chart 10, at http://www.heritage.org/library/
backgrounder/bg1283.html. For findings on Great Britain, see F. 
McAllister, Marital Breakdown and the Health of the Nation (London: One 
Plus One, 1995).
    \15\ For a review of the literature, see Linda Waite and Maggie 
Gallagher, The Case for Marriage (New York: Doubleday, 2000), pp. 150-
160, Chapter 11.
---------------------------------------------------------------------------
    Social science research continues to show that the married, two-
parent family that worships regularly provides the best environment in 
which to raise healthy, well-adjusted children. Moreover, polls show 
that a growing number of mothers want to stay at home to raise their 
young children, but that if they have to work, they want their children 
in family care, not government-run day care. <SUP>16</SUP>
---------------------------------------------------------------------------
    \16\ A 1998 Wirthlin Worldwide poll, for example, found that 74 
percent of parents in the market for day care want their children in 
family or extended family day care. Options for care were, in order of 
preference: (1) with the mother; (2) with a grandmother or other family 
member; (3) with the parents working split shifts; (4) at a church-run 
center; (5) with a trusted neighbor or friend; (6) with a day-care 
provider at home; (7) with a nanny or au pair; (8) at a commercial day-
care center; and (9) at a government-run day-care center. See also 
Stuart M. Butler and Kim R. Holmes, eds., Issues 2000: The Candidate's 
Briefing Book (Washington, D.C.: The Heritage Foundation, 2000).
---------------------------------------------------------------------------
The U.S. Role
    As yet, the CEDAW has not been signed or ratified by the United 
States. Leaders in Congress and past Administrations considered both 
treaties too controversial. Because it has not ratified this treaty, 
the United States has not received a similar assessment of its policies 
from a U.N. implementing committee. Nevertheless, under President 
Clinton, U.S. representatives supported the general policy direction of 
this treaty throughout the international debate over women's rights, 
and became a major force behind the implementation efforts.
    That support was demonstrated by the United States in 1997 when it 
joined a U.N. voting bloc on social issues, a bloc that includes Japan, 
the United States, Canada, Australia, and New Zealand. <SUP>17</SUP> 
The Clinton Administration joined the coalition on very controversial 
social issues in proceedings leading up to the five-year follow-up to 
the 1994 Beijing World Conference on Women (known as Beijing+5). The 
bloc voted to remove the conscience protection on abortion matters for 
medical personnel and to legalize voluntary prostitution. <SUP>18</SUP>
---------------------------------------------------------------------------
    \17\ The bloc is known as JUSCANZ. Members may vary, and additional 
states may join depending on the issues they are voting on. The United 
States first became part of this voting bloc during the United Nations 
Framework Convention on Climate Change in Kyoto, Japan, in December 
1997.
    \18\ See, for example, George Archibald, ``Feminist Proposals 
Routed at Conference; Sexual Orientation Is the Sticking Point,'' The 
Washington Times, June 12, 2000; ``U.S. Seeks Softer Stance on Hookers; 
Clinton-Led Agenda Weakens Porn Curb,'' The Washington Times, June 7, 
2000; and ``China `Sex Workers' Treaty Backed; Shalala Does Not See Any 
Clash in White House Policies,'' The Washington Times, June 1, 2000.
---------------------------------------------------------------------------
    The United States Senate should recognize that issues of personal 
freedom and the rights of parents, peoples, and institutions are at 
stake in every U.N. debate on social policies. Rather than supporting 
U.N. committee efforts to use the CEDAW treaty to push policy changes 
that would ultimately deconstruct the two-parent married family and 
counter traditional religious norms in various countries, the Senate 
should examine the documents emanating from U.N. implementing 
committees, develop a plan to strengthen the voices of U.N. members 
that oppose this agenda, and take the lead in restoring the U.N.'s 
traditional approach of letting sovereign nations determine their own 
domestic policies on marriage, parenting, and religion.
    Washington, for example, should urge nations that signed the CEDAW 
to consider not cooperating with the U.N. reporting system in this 
area. The United States should assist small and poor nations that face 
reprisals for taking this principled approach, perhaps by offering to 
work with them to develop ways to protect their sovereignty. It should 
also work to establish a U.N. voting bloc of those countries that want 
to protect and strengthen the family, religious freedom, and national 
sovereignty--and, as an ultimate recourse, refuse to fund activities 
aimed at undermining traditional family and religious norms.
The U.N.'s Countercultural Agenda
    The nuclear family has always received special and honorable 
treatment because of the value it adds to social order. In many of the 
U.N.'s foundational declarations and treaties that are still in force, 
not only is the central role of the family recognized, but the 
inability of the state to replace the family's role in society is 
acknowledged and religious freedom is stressed.
    For example, the Universal Declaration of Human Rights--in addition 
to declaring that the family is ``entitled to protection by society and 
the state'' <SUP>19</SUP>--specifies that ``Motherhood and childhood 
are entitled to special care and assistance.'' <SUP>20</SUP> On its 
surface, at least, this implies that society should enable mothers to 
nurture their children and not push policies that would force mothers 
to forfeit precious time with their young children to go to work.
---------------------------------------------------------------------------
    \19\ Universal Declaration of Human Rights, Article 16.
    \20\ Universal Declaration of Human Rights, Article 25, Para. 2.
---------------------------------------------------------------------------
    Such an understanding is also manifested in the International 
Covenant on Economic, Social and Cultural Rights, <SUP>21</SUP> one of 
two agreements to implement the Universal Declaration of Human Rights. 
It states that:
---------------------------------------------------------------------------
    \21\ Adopted by the U.N. General Assembly on December 16, 1966.

          The widest possible protection and assistance should be 
        accorded to the family, which is the natural and fundamental 
        group unit of society, particularly for its establishment and 
        while it is responsible for the care and education of dependent 
        children. <SUP>22</SUP>
---------------------------------------------------------------------------
    \22\ International Covenant on Economic, Social and Cultural 
Rights, Article 10 (emphasis added). The covenant entered into force on 
January 3, 1976.

    The International Covenant on Civil and Political Rights, 
<SUP>23</SUP> the second treaty signed to implement the Universal 
Declaration of Human Rights, states that ``The family is the natural 
and fundamental group unit of society and is entitled to protection by 
society and the State.'' <SUP>24</SUP> It also states that ``Everyone 
shall have the right to freedom of thought, conscience and religion--
and freedom, either individually or in community with others and in 
public or private, to manifest his religion or belief in worship, 
observance, practice and teaching.''
---------------------------------------------------------------------------
    \23\ Adopted by the U.N. General Assembly on December 16, 1966.
    \24\ International Covenant on Civil and Political Rights, Article 
23.1 (emphasis added).
---------------------------------------------------------------------------
    Yet, on the issue of women's rights, the U.N. High Commissioner on 
Human Rights has permitted committees and agents under the U.N. 
umbrella to directly violate these principles as they communicate with 
the signatories of the CEDAW treaty. These agents are targeting 
patterns of behavior and social norms that have had the greatest 
positive effects on society and the individual: marriage, motherhood 
and fatherhood, caring for children in the family, chastity, and the 
special role of religion. They have asked nations to change their 
domestic laws in ways that ultimately will promote sexual activity 
among adolescents, increase abortion and legitimize prostitution, and 
in general alter the foundations of society. The sexual norms they 
promote, moreover, are primarily those sought by radical feminists. 
They are becoming the tenets of a new ``moral'' code against which all 
religions, domestic policies, and cultures would be judged.
Reinterpreting Treaties and Agreements
    International law and the U.N. Charter recognize a society's right 
to self-determination, especially when it comes to marriage and the 
family. In democratic nations, sovereignty is derived not from 
individual rulers but from the popular will of citizens. The 
International Covenant on Civil and Political Rights and the 
International Covenant on Economic, Social, and Cultural Rights state 
in their opening articles that ``All peoples have the right to self-
determination. By virtue of that right they freely determine their 
political status and freely pursue their economic, social and cultural 
development.'' <SUP>25</SUP> Yet the CEDAW committee is violating such 
rules by modifying and reinterpreting treaties.
---------------------------------------------------------------------------
    \25\ Ibid., Article 1.1, and International Covenant on Economic, 
Social and Cultural Rights, Article 1.1.
---------------------------------------------------------------------------
    For example, in December 1996, human rights officials held a 
roundtable in New York specifically to determine how to modify existing 
international agreements with regard to abortion and sexual 
orientation. Their conclusion:

          A human rights approach to women's health creates an 
        international standard that transcends culture, tradition and 
        societal norms. Although these forces may bind society 
        together, they cannot justify value systems which perpetuate 
        women's subordination. <SUP>26</SUP>
---------------------------------------------------------------------------
    \26\ United Nations, ``Round Table of Human Rights Treaty Bodies on 
Human Rights Approaches to Women's Health, with a Focus on Sexual and 
Reproductive Health and Rights,'' Glen Cove, New York, December 1996, 
p. 7.

    In other words, according to the social policy agents of the U.N., 
not having full access to abortion, even for teenagers, <SUP>27</SUP> 
is a form of subordination that violates human rights. But there is 
little reason to believe that U.N. representatives and bureaucrats know 
better than individual societies how they should shape their own 
cultures and laws on family, marriage, sexual behavior, and the raising 
and education of children.
---------------------------------------------------------------------------
    \27\ In its directions to nations, the CRC committee urges 
``medical and legal counseling without parental consent'' to mean 
particularly abortion and contraceptive services. See, for example, CRC 
Committee, 20th Sess. (1999), ``Report on Belize,'' and CRC Committee, 
20th Sess. (2000), ``Report on Austria.'' See also discussion on 
``Expanding Children's Rights.''
---------------------------------------------------------------------------
    As the excerpts from the country reports that follow show, the U.N. 
committees have found a quiet way to subvert the sovereignty of 
nations: by changing the meaning of international agreements. Every 10 
years, and increasingly now every five years, the U.N. holds 
conferences on the CEDAW treaty to reevaluate it and change how 
signatories are to interpret and implement it. In almost every case, 
the U.N. committees advocate interpretations that are more and more 
hostile to the married family, the role of parents (particularly stay-
at-home mothers), and religious norms. As far as the U.N. bureaucracy 
is concerned, the language of a treaty is treated as something that is 
continuously in flux; even though the treaties were negotiated 
carefully by the signatories, they can be continuously reinterpreted to 
meet the goals of each phase of an evolving ideological agenda.
Giving Standing to Special Interests
    The U.N., through these committees, also undermines the standing 
and sovereignty of nations by subtly promoting the status of non-
governmental organizations (NGOs) that promote radical social policies 
in meetings where treaties and agreements are developed and interpreted 
and the strategies for implementation are designed. At the 1994 U.N. 
Conference on Population and Development in Cairo, for example, the 
chairman of the committee drafting the conference document was the 
president of International Planned Parenthood.
    Such standing complicates the objective process of formulating 
international agreements and policies and weakens the role of official 
state diplomats at the conferences. It also undermines the ability and 
authority of state governments to make their own domestic policy 
decisions. Australia has stepped out in front to object to this type of 
interference, which gives special-interest NGOs a way to outflank a 
government's exercise of its legitimate authority. Australia recently 
informed the U.N. that it would no longer cooperate with U.N. reporting 
systems because doing so had enabled environmental NGOs in Australia to 
sue the government for alleged non-compliance with a U.N. treaty in a 
matter that clearly lay within the purview of the country's national 
sovereignty--mining. <SUP>28</SUP> Its decision to oppose the U.N.'s 
encroachment in matters of traditional sovereignty provides a model for 
countries that want to resist the U.N.'s new social policy agenda.
---------------------------------------------------------------------------
    \28\ See Shawn Donnan, ``Australia Vows to Stop Working with UN 
Panels,'' The Financial Times, August 30, 2000. At issue was control of 
mining on property designated by the U.N. as a World Heritage site.
---------------------------------------------------------------------------
Undermining the Fundamental Role of the Family
    To most readers, the very idea that the U.N. might be involved in 
efforts to denigrate motherhood and the married family sounds 
farfetched. But few will be able to dispute the contrast between the 
assertions about family structure that are being put forth in U.N. 
committee reports and the mounting and contrary evidence provided by 
social science research that fractured families produce weaker 
generations of children. In the United States, the growth in single-
parent families, divorced families, and out-of-wedlock births has led 
to more government programs to treat the problems such weak family 
structures create. <SUP>29</SUP> If the objective is to increase state 
control of all functions of society, then the U.N. approach makes 
sense, but if the object is to make for a better social order there is 
little to nothing to show for it.
---------------------------------------------------------------------------
    \29\ For an overview of the issues and research, see Patrick F. 
Fagan, ``The American Family: Rebuilding Society's Most Important 
Institution,'' in Butler and Holmes, eds., Issues 2000, at http://
www.heritage.org/issues/chap6.html.
---------------------------------------------------------------------------
    In the social science research, all family forms other than the 
natural family in which children are raised by a married mother and 
father, are associated with higher rates of crime, illegitimacy, 
dependence on welfare, and drug and alcohol addiction, as well as lower 
levels of education, less income, poorer health, and lower life 
expectancy. Out-of-wedlock births are associated with higher risk of 
infant mortality, especially among teenage mothers; retarded cognitive 
and verbal development; increased behavior and emotional problems; and 
higher rates of juvenile crime. <SUP>30</SUP> The social sciences also 
document the effects of divorce on children, <SUP>31</SUP> which 
include juvenile delinquency and child abuse, increased poverty, 
diminished social competence, earlier sexual involvement, more out-of-
wedlock births, and higher rates of cohabitation.
---------------------------------------------------------------------------
    \30\ See Patrick F. Fagan, ``Rising Illegitimacy: America's Social 
Catastrophe,'' Heritage Foundation F.Y.I. No. 19/94, June 29, 1994.
    \31\ For an overview of the literature, see Patrick F. Fagan and 
Robert Rector, ``The Effects of Divorce on America,'' Heritage 
Foundation Backgrounder No. 1373, June 3, 2000, at http://
www.heritage.org/library/backgrounder/bg1373.html.
---------------------------------------------------------------------------
    Despite such findings, the U.N. is not pursuing programs that would 
help nations stabilize marriage and strengthen families. Instead, the 
U.N. committees are pushing policies that ultimately will weaken the 
traditional married family. The discussion of U.N. reports that follows 
offers specific examples of this unfolding agenda, a compilation of the 
directives U.N. committees have given nations over the past six years. 
Most of these reports are instructions to signatories on how they can 
best implement the next stages of the CEDAW agreement.
Undermining the Roles and Rights of Parents
    University of Chicago Nobel Laureate Gary Becker concludes from his 
research that a woman staying at home to raise her children makes a 
greater economic contribution to her family and community than her 
husband makes by working in the marketplace. <SUP>32</SUP> While women 
in all cultures have made great contributions outside of the family (in 
art, literature, education, science, medicine, politics, and business), 
women also achieve greatness by raising healthy and happy children. The 
U.N. member states acknowledged this in the Universal Declaration of 
Human Rights, which states that ``Motherhood and childhood are entitled 
to special care and assistance.'' <SUP>33</SUP>
---------------------------------------------------------------------------
    \32\ Becker stressed this fact, for example, in a keynote address 
at a 1998 U.N.-sponsored conference on the family in Caracas, 
Venezuela.
    \33\ Universal Declaration of Human Rights, Article 25, Para. 2.
---------------------------------------------------------------------------
    Yet, in the recent past, the U.N. committee recommendations to 
nations about women's rights demonstrate a great disdain for 
motherhood, frequently dismissing the role as mere stereotype. Rather 
than point out to member nations the fallacy of policies that 
jeopardize the position of women who want to stay at home to raise 
their children, U.N. statements denigrate the role of the stay-at-home 
mother as unfulfilling and damaging to her own welfare and decry 
national policies that support her.
    The U.N. reports instruct nations to eliminate, through 
legislation, cultural norms that support the role of the mother at 
home. In the name of elevating the status of women and reducing 
discrimination, the U.N. committee reports make recommendations that 
denigrate the standing of women as mothers. The reports recommend, 
among other policies, that nations:

  <bullet> Regard motherhood as an unimportant ``social construct'' and 
        Mother's Day as ``disturbing'';

  <bullet> Change their constitutions where they protect the role of 
        the stay-at-home mother; and

  <bullet> Emphasize that professional women working outside the home 
        have a higher social status than those who stay at home.

    A CEDAW plenary session report, for example, recommended that the 
government of New Zealand ``recognize maternity as a social function 
which must not constitute a structural disadvantage for women with 
regard to their employment.'' <SUP>34</SUP> It also expressed to 
Ireland ``its concern about the continuing existence, in Article 41.2 
of the Irish Constitution, of concepts that reflect a ``stereotypical 
view'' of the role of women in the home and as mothers.'' <SUP>35</SUP> 
In that article, the constitution makes a clear statement of the 
importance of family and mothers to society:
---------------------------------------------------------------------------
    \34\ CEDAW Committee, 19th Sess. (1998), ``Report on New Zealand,'' 
Para. 269.
    \35\ CEDAW Committee, 21st Sess. (1999), ``Report on Ireland,'' 
Para. 193.

          The state, therefore, guarantees to protect the family in its 
        constitution and authority, as the necessary basis of social 
        order and as indispensable to the welfare of the nation and the 
        state. In particular, the state recognizes that by her life 
        within the home, woman gives to the state a support without 
        which the common good cannot be achieved. The state shall, 
        therefore, endeavor to ensure that mothers shall not be obliged 
        by economic necessity to engage in labor to the neglect of 
        their duties in the home.'' <SUP>36</SUP>
---------------------------------------------------------------------------
    \36\ See http://www.irlgov.ie:80/taoiseach/publication/
constitution/english/contents.htm (emphasis added).

    The U.N. committee members apparently saw such a role as demeaning 
to women. To overturn it, the CEDAW committee ``strongly'' urged the 
U.S. government, for example, to use the education system and the 
electronic media to combat the traditional stereotype of women in the 
role of mother. <SUP>37</SUP> The committee also criticized Belarus for 
the ``prevalence of sex-role stereotypes, as also exemplified by--such 
symbols as a Mother's Day and a Mother's Award, which it sees as 
encouraging women's traditional roles.'' <SUP>38</SUP>
---------------------------------------------------------------------------
    \37\ CEDAW Committee, 17th Sess. (1997), ``Report on Armenia,'' 
Para. 65.
    \38\ CEDAW Committee, 22nd Sess. (1999), ``Report on Belarus,'' 
Para. 27.
---------------------------------------------------------------------------
    Recommendations for less developed countries are not as benign as 
they seem. Concerning Indonesia, the U.N. committee expressed ``great 
concern about existing social, religious and cultural norms that 
recognize men as the head of the family and breadwinner and confine 
women to the roles of mother and wife, which are reflected in various 
laws, Government policies and guidelines. It is unclear what steps the 
Government is proposing to take to modify such attitudes . . . '' 
<SUP>39</SUP>
---------------------------------------------------------------------------
    \39\ CEDAW Committee, 18th Sess. (1998), ``Report on Indonesia,'' 
Para. 289.
---------------------------------------------------------------------------
    This theme is repeated in reports to other countries such as 
Croatia <SUP>40</SUP> and the Czech Republic. <SUP>41</SUP> The message 
to these countries is clear: women should be encouraged to be workers 
in the marketplace, not to stay at home to raise their young children.
---------------------------------------------------------------------------
    \40\ The U.N. explained that the ``Committee is particularly 
concerned about the consistent emphasis placed on women's roles as 
mothers and caregivers in Croatian legislation pertaining to a variety 
of areas.'' Report of the United Nations Committee on the Elimination 
of Discrimination Against Women, 18th Sess., to the General Assembly of 
the United Nations, 53rd Sess. (1998), ``Report on Croatia,'' Document 
#A/53/38, Para. 103.
    \41\ The U.N. committee expressed concern about ``the increase in 
over-protective measures for pregnancy and motherhood--[and] the 
cultural glorification of women's family roles [that] could exacerbate 
the negative impact of economic rationalization policies on women.'' 
Report of the United Nations Committee on the Elimination of 
Discrimination Against Women, 18th Sess., to the General Assembly of 
the United Nations, 53rd Sess. (1998), ``Report on Czech Republic,'' 
Document #A/53/38, Para. 185 and Para. 196, at http://www.un.org/
womenwatch/daw/cedaw/18report.pdf.
---------------------------------------------------------------------------
    The U.N. is not just ``concerned'' about the elevated status of 
stay-at-home mothers. It seeks to deconstruct the status of the family 
by encouraging states to normalize out-of-wedlock birth. The Island 
nation of St. Kitts was criticized, for example, for ``the apparent 
lack of legal protection with respect to the rights . . . of children 
born out of wedlock.'' <SUP>42</SUP> The committees also submitted 
reports encouraging some states to demote the status of married 
fatherhood in public policy, institute massive transfers of payments to 
compensate for the deficits of fractured families, and change family 
law to eliminate the status of marriage regarding property.
---------------------------------------------------------------------------
    \42\ CEDAW Committee, 21st Sess. (1999), ``Report on St. Kitts,'' 
Para. 21.
---------------------------------------------------------------------------
    Step by step, each of these recommendations seeks to change 
cultural values and norms to weaken the standing of the married family 
in society. Though children born out of wedlock deserve fair and loving 
treatment, this does not mean that the importance of marriage to the 
stability of the family, and the role of married mothers and fathers in 
raising good citizens, should be diminished either in law or in public 
policy.
State-Sponsored Child Care as Surrogate Family
    To help more mothers enter the workforce, U.N. reports insist that 
countries modify their laws to ensure that:

  <bullet> Child care is widely available even for newborns, and

  <bullet> Government funds preschool education (another form of 
        government child care).

    The U.N. implementing committees consistently push for nations to 
boost government-managed and subsidized day care, despite overwhelming 
polling data showing that most mothers around the world prefer to stay 
at home to raise their young children <SUP>43</SUP> and research 
demonstrating that child care outside the home often has lasting 
negative effects on children. For example, a recent analysis by the 
Canadian National Foundation for Family Research and Education found 
that on average, children in day care fare worse intellectually, 
emotionally, and socially than their stay-at-home peers. <SUP>44</SUP>
---------------------------------------------------------------------------
    \43\ Wirthlin polling data, op. cit.
    \44\ Researchers analyzed data on over 32,000 children for a 
variety of variables, including sponsor of care (for-profit nursery 
schools, government-run centers, ``the woman down the street''); 
education of the caregivers; caregiver-to-child ratio; and program 
quality. Negative effects persisted, regardless even of the ``quality'' 
of care. See National Foundation for Family Research and Education 
(Canada), ``The Myth of Quality Day Care,'' April 2000.
---------------------------------------------------------------------------
    In the reports on day care that the U.N. sends to less developed 
nations, and even in reports to highly developed and rich nations, the 
best interests of the child are never put forth as a reason to 
intervene. To Slovakia, for example, the U.N. stated that the 
``decrease in pre-school childcare is particularly detrimental to 
women's equal opportunity in the employment market since, owing to lack 
of childcare, they have to interrupt their employment career.'' 
<SUP>45</SUP> The committee recommended to Slovenia ``the creation of 
more formal and institutionalized child-care establishments for 
children under three years of age as well as for those from three to 
six.'' <SUP>46</SUP> The committee expressed disdain that only 30 
percent of the children under age three were placed in formal day care, 
while the rest were cared for by family members and other private 
individuals. <SUP>47</SUP>
---------------------------------------------------------------------------
    \45\ CEDAW Committee, 19th Sess. (1998), ``Report on Slovakia,'' 
Para. 89.
    \46\ CEDAW Committee, 16th Sess. (1997), ``Report on Slovenia,'' 
Para. 115.
    \47\ Ibid., Para. 161.
---------------------------------------------------------------------------
    The CEDAW committee was direct in recommending that Colombia change 
its domestic laws:

          [A]ppropriate measures [should] be taken to improve the 
        status of working women, including through the establishment of 
        child-care centers and the introduction for training programs, 
        to promote the integration of women into the labor force and 
        diversify their participation through the implementation of 
        legislative measures . . .. <SUP>48</SUP>
---------------------------------------------------------------------------
    \48\ CEDAW Committee, 20th Sess. (1999), ``Report on Colombia,'' 
Para. 388.

    With regards to Germany's policies, the U.N. committee was 
``concerned that measures aimed at the reconciliation of family and 
work entrench stereotypical expectations for women and men. In that 
regard the Committee is concerned with the unmet need for kindergarten 
places for the 0-3 age group.'' <SUP>49</SUP>
---------------------------------------------------------------------------
    \49\ CEDAW Committee, 22nd Sess. (2000), ``Report on Germany,'' 
Para. 27 (emphasis added).
---------------------------------------------------------------------------
    The public cost involved in subsidizing day care is least bearable 
among underdeveloped and developing countries. Yet, the U.N. CEDAW 
committee ignores this substantial issue in its reports.
Changing Cultures By Changing Sexual Norms
    For society, the benefits of channeling sexuality and reproduction 
into marriage are significant. Ironically, such a cultural norm 
ensures, better than any reform, the reduction of violence against 
women and children, which also happens to be one of the goals of the 
feminist movement. It also ensures the lowest crime rates, greater 
social cohesiveness, longer life spans, better health, higher levels of 
education, and higher levels of income. <SUP>50</SUP>
---------------------------------------------------------------------------
    \50\ For an overview of the issues and research, see Fagan, ``The 
American Family.''
---------------------------------------------------------------------------
    Yet, the U.N. actively promotes sex outside of marriage as an 
acceptable cultural norm, and this agenda is made clear in its policies 
on abortion, contraception, gender definitions, prostitution, and 
pornography. The U.N. encourages governments to lend legal and 
financial support to the effort to change long-held and wise cultural 
norms. Whereas traditional cultures regulate sexual intercourse by 
shepherding the act toward marriage, the U.N. promotes unconstrained 
consensual sex coupled with larger social insurance ``safety nets'' to 
address the problematic effects. If the U.N. can change the sexual 
norms of youth, it can change the structure of the family.
Reshaping Sexual Norms
    Contraception for teenagers is a highly controversial issue, 
especially when governments advocate access for minors over the wishes 
of parents. Nowhere in the U.N.'s committee reports or on its Web site 
does the organization propose abstinence until marriage. Instead, the 
CEDAW committee repeatedly urge that teenagers have universal access to 
contraceptives and abortions without their parents' permission, and 
access to medical counseling services without their parents' consent.
    For example, the U.N. committee urged Ireland to ``improve family 
planning services and the availability of contraception, including for 
teenagers and young adults.'' <SUP>51</SUP> Yet, since making 
contraception available to single people three decades ago, 
<SUP>52</SUP> Ireland has seen its rates of divorce, out-of-wedlock 
birth, <SUP>53</SUP> sexually transmitted disease, <SUP>54</SUP> 
violence, and abortion <SUP>55</SUP> soar. The U.N. committees also 
give similar advice to other countries, including Peru, <SUP>56</SUP> 
Russia, <SUP>57</SUP> the Maldives, <SUP>58</SUP> Yemen, <SUP>59</SUP> 
and Macedonia. <SUP>60</SUP>
---------------------------------------------------------------------------
    \51\ CEDAW Committee, 21st Sess. (1999), ``Report on Ireland,'' 
Para. 26.
    \52\ Contraception was first legalized by the courts in Ireland in 
1973; legalized by the Dail in 1980; liberalized in 1985 by Desmond 
O'Malley, Minister for Health and long-term member of the U.N.'s oldest 
NGO, International Planned Parenthood; and further liberalized in 1992 
and 1994.
    \53\ Out-of-wedlock births in 1980 represented 5 percent of all 
births; by 1998, they represented 28.3 percent of all births.
    \54\ Sexually transmitted diseases have increased 400 percent 
between 1982 and 1998, from 1,823 to 7,436 per 100,000 population.
    \55\ Abortion as a percentage of total live births increased from 
4.5 percent in 1980 to 11 percent in 1998.
    \56\ CEDAW Committee, 19th Sess. (1998), ``Report on Peru,'' Para. 
341.
    \57\ CRC Committee, 22nd Sess. (2000), ``Report on Russia,'' Para. 
48.
    \58\ CRC Committee, 18th Sess. (1999), ``Report on Maldives,'' 
Para. 39.
    \59\ CRC Committee, 20th Sess. (2000), ``Report on Yemen,'' Para. 
25.
    \60\ CRC Committee, 23rd Sess. (2000), ``Report on Macedonia,'' 
Para. 41.
---------------------------------------------------------------------------
    The U.N. committees have long sought the protection of abortion in 
domestic law; but at the 1995 CEDAW conference in Beijing and at the 
2000 Beijing+5 conference in New York, enough participating nations 
repeatedly voted not to include the protection of abortion in the 
treaty, effectively removing it from the U.N.'s legitimate agenda. 
Despite such a clear outcome, the U.N. implementing committees continue 
to advocate a denial of parental authority and instead advocate an 
expansion of state authority into this intimate domain of family life:

  <bullet> In countries where abortion is highly controversial, such as 
        Peru, the U.N. committee advocates abortion on the grounds of 
        safety (though abortion is about four times more dangerous to 
        the mother's health than childbirth <SUP>61</SUP>);
---------------------------------------------------------------------------
    \61\ David C. Reardon, ``Abortion Is Four Times Deadlier Than 
Childbirth,'' The Post-Abortion Review, Vol. 8, No. 2 (April-June 
2000).

  <bullet> In countries where laws forbid abortion, such as Mexico, the 
        U.N. committee encourages the local and district governments to 
        ``review their legislation so that, where necessary, women are 
        granted access to rapid and easy abortion.'' <SUP>62</SUP> The 
        committee even urges the Mexican national government to ``weigh 
        the possibility of authorizing the use of the RU-486 
        contraceptive, which is cheap and easy to use, as soon as it 
        becomes available.'' <SUP>63</SUP>
---------------------------------------------------------------------------
    \62\ CEDAW Committee, 18th Sess. (1998), ``Report on Mexico,'' 
Para. 426.
    \63\ Ibid., Para. 408.

  <bullet> In countries where the constitution forbids abortion, such 
        as Ireland, the U.N. ``urges the Government to facilitate a 
        national dialogue on women's reproductive rights, including on 
        the restrictive abortion laws.'' <SUP>64</SUP> The people of 
        Ireland, however, already have rejected two recent referenda to 
        change the national constitution to allow abortions.
---------------------------------------------------------------------------
    \64\ See http://www.un.org/womenwatch/daw/cedaw/Irl.htm (September 
19, 1999).

    The U.N. committee even goes so far as to attack freedom-of-
conscience provisions in national law. It has reprimanded Croatia, for 
example, for the refusal by some of its hospitals to offer abortions to 
patients because their doctors on staff object. <SUP>65</SUP> When 
there is a clash between traditional or sacred norms of personal 
freedom and the new but radical ``rights'' promoted by the 
international feminist movement, the U.N. committees target the old and 
true to make room for the new. For example, the committee ``expressed 
particular concern with regard to the limited availability of abortion 
services for women in southern Italy, as a result of the high incidence 
of conscientious objection among doctors and hospital personnel.'' 
<SUP>66</SUP>
---------------------------------------------------------------------------
    \65\ Report of the United Nations Committee on the Elimination of 
Discrimination Against Women, 18th Sess., to the General Assembly of 
the United Nations, 53rd Sess. (1998), ``Report on Croatia,'' Document 
# A/53/38, Para. 109.
    \66\ Report of the United Nations Committee on the Elimination of 
Discrimination Against Women, 17th Sess., to the General Assembly of 
the United Nations, 52nd Sess. (1997), ``Report on Italy,'' Document 
#A/52/38/Rev. 1, Para. 353 and Para. 360.
---------------------------------------------------------------------------
Legitimizing and Promoting Prostitution
    The U.N. recommendations concerning prostitution dramatically 
illustrate one of that organization's social policy goals: the 
decoupling of the reproductive act and marriage. A review of CEDAW 
committee recommendations makes clear that the U.N. implementing 
committees want to elevate the status of prostitution to that of a 
profession and afford it the full protection of labor law and the 
social benefits accorded other professions. The initial steps the 
committees recommend to nations that prohibit prostitution are benign, 
but the recommendations progress to full legitimization in nations that 
already legally allow it. From the reports, the process involves these 
steps:

  <bullet> Eliminate the economic vulnerability of poor women who 
        prostitute themselves for income;

  <bullet> Combat the feminization of poverty;

  <bullet> Rehabilitate prostitutes;

  <bullet> End international trafficking in prostitution;

  <bullet> Enforce some laws concerning prostitution;

  <bullet> Punish pimps and procurers;

  <bullet> Decriminalize prostitution;

  <bullet> Legalize prostitution;

  <bullet> Regulate prostitution; and

  <bullet> Grant the full protection of labor and social law to 
        prostitution as a profession.

    Consider the progression in the actual report excerpts that follow. 
The U.N. committee advises the Czech Republic to ``take effective 
action to combat feminization of poverty and to improve the economic 
situation of women in order to prevent trafficking and prostitution.'' 
<SUP>67</SUP> The U.N. committee urges Bulgaria ``to cooperate at the 
regional and international levels with regard to the problem of 
trafficking in women and their exploitation through prostitution. [The 
U.N.] suggests that in order to tackle the problem of trafficking in 
women, it is essential to address women's economic vulnerability, which 
is the root cause of the problem.'' <SUP>68</SUP>
---------------------------------------------------------------------------
    \67\ CEDAW Committee, 18th Sess. (1998), ``Report on Czech 
Republic,'' Para. 208.
    \68\ CEDAW Committee, 18th Sess. (1998), ``Report on Bulgaria,'' 
Para. 256.
---------------------------------------------------------------------------
    The last sentence reveals that for the U.N. committee, the 
``problem'' is solely a woman's economic condition, not also the sexual 
exploitation of women. But in France, Germany, the Netherlands, 
Belgium, <SUP>69</SUP> and other highly developed economies, 
prostitution prospers; neither poverty nor ``economic vulnerability'' 
is the root societal cause of this type of prostitution. Furthermore, 
in developed Western countries, the feminization of poverty is largely 
due to the breakdown of marriage, as social science research has 
demonstrated. <SUP>70</SUP>
---------------------------------------------------------------------------
    \69\ The top eight destination countries for women in illegal 
prostitution rings include the Netherlands, Germany, the United States, 
Greece, Italy, Spain, Turkey, and Kosovo. According to Dr. Laura 
Lederer of Harvard University's John F. Kennedy School of Government, 
``Over the last 10 years the number of women and children who have been 
trafficked have multiplied so that they are now on a par with estimates 
of the numbers of Africans who were enslaved in the 16th and 17th 
centuries.'' Laura J. Lederer, Ph.D., ``The New Slavery,'' presented at 
a Conference on Sex Trafficking, U.S. Senate Caucus Room, September 13, 
1999.
    \70\ For a review of the literature, see Patrick F. Fagan, ``How 
Broken Families Rob Children of Their Chances for Future Prosperity,'' 
Heritage Foundation Backgrounder No. 1283, June 11, 1999.
---------------------------------------------------------------------------
    The U.N. committee is also pushing Mexico to legalize prostitution, 
as it ``strongly recommends that new legislation should not 
discriminate against prostitutes but should punish pimps and 
procurers.'' <SUP>71</SUP> To tiny Liechtenstein, the U.N. recommends 
that ``a review be made of the law relating to prostitution to ensure 
that prostitutes are not penalized.'' <SUP>72</SUP> The U.N. policy 
goal becomes clear in the report to Greece, where prostitution has been 
decriminalized and ``instead is dealt with in a regulatory manner''--
though the U.N. ``is concerned that inadequate structures exist to 
ensure compliance with the regulatory framework.'' <SUP>73</SUP> To 
Germany, the U.N.'s advice is to raise the standing of the legalized 
profession even higher because, ``although they are legally obliged to 
pay taxes, prostitutes still do not enjoy the protection of labor and 
social law.'' <SUP>74</SUP>
---------------------------------------------------------------------------
    \71\ CEDAW Committee, 18th Sess. (1998), ``Report on Mexico,'' 
Para. 414.
    \72\ CEDAW Committee, 20th Sess. (1999), ``Report on 
Liechtenstein,'' Para. 168.
    \73\ CEDAW Committee, 20th Sess. (1999), ``Report on Greece,'' 
Para. 197.
    \74\ CEDAW Committee, 22nd Sess. (2000), ``Report on Germany,'' 
Para. 39.
---------------------------------------------------------------------------
    This progression, from urging countries that prohibit prostitution 
to move quickly to foster a national debate on legalizing the activity 
<SUP>75</SUP> to chastising Germany for not elevating it to the status 
of a legally protected profession, is even more startling when one 
considers that for the U.N. committees, the celebration of Mother's Day 
is disturbing, and policies and laws that protect the role of the 
mother at home are offensive.
---------------------------------------------------------------------------
    \75\ CEDAW Committee, 18th Sess. (1998), ``Report on Mexico,'' 
Para. 414.
---------------------------------------------------------------------------
Redefining Gender: Reconstructing Social Norms
    The U.N. is intent on removing the cultural and legal structures 
that have shepherded reproduction and the nurturing of children into 
the married family. The U.N. committees recommend:

  <bullet> Combating traditional sex roles and stereotypes;

  <bullet> Defining gender as merely a social construct, not a 
        biological distinction;

  <bullet> Rewriting textbooks and curricula in all school grades to 
        promote the new definition of gender;

  <bullet> Funding gender studies that will foster these attitudes;

  <bullet> Retraining professions in gender issues and gender equity; 
        and

  <bullet> Conducting public relations campaigns on gender issues.

    To the layman, the issue of redefining gender sounds like a strange 
battle in semantics, since the definition of gender is a biological 
distinction: male and female. But in U.N. policy documents, gender is 
seen as a ``social construct,'' a delineation of the ways men and women 
act differently and the structures society organizes around these 
differences. In this way, ``gender'' includes alternative lifestyles 
like homosexuality.
    Redefining gender has two components: eliminating social 
constraints and creating a new framework whereby homosexuality and 
other non-traditional lifestyles are accepted as norm. <SUP>76</SUP> 
According to the U.N. bureaucracy, all ``constructs'' should have equal 
standing in society and law; all aspects of gender that reinforce the 
biological differences between males and females, including the 
traditional roles they hold, are to be eliminated.
---------------------------------------------------------------------------
    \76\ Also worthy of note is that the Department of State delegation 
to 1996 Habitat negotiations in Istanbul held out for language that 
called for equal respect of ``various forms of the family,'' including 
homosexual couples. During that same week, on September 21, 1996, 
President Clinton signed the Defense of Marriage Act (P.L. 104-199), 
which protects states from having homosexual ``marriage'' forced upon 
them.
---------------------------------------------------------------------------
    U.N. committees refering to gender are either referring to the 
different treatment that men and women receive or the treatment of 
heterosexuals and homosexuals. Recent international debates at the U.N. 
illustrate the determination of developed nations to eradicate these 
gender distinctions in social policy. For example, a number of wealthy 
nations allied with radical feminist NGOs at the Beijing+5 conference 
in New York in June 2000 sought to have the term ``sexual orientation'' 
included in the final conference document. <SUP>77</SUP> Despite the 
fact that enough delegates had voted to delete references to ``sexual 
orientation'' and to replace them with ``other status,'' members of 
this alliance declared that they would not abide by the agreed-upon 
language, and would instead interpret references to ``other status'' to 
include sexual orientation. <SUP>78</SUP> Such definitional battles are 
at the forefront of ongoing debates over cultural issues at the U.N.
---------------------------------------------------------------------------
    \77\ The alliance included member nations of the European Union and 
JUSCANZ, a voting bloc made up of Japan, the United States, Canada, and 
New Zealand, as well as other nations depending on the issues.
    \78\ See http://www.iisd.ca/4wcw/csw44/informals.html.
---------------------------------------------------------------------------
Animus Toward Religious Freedom
    Western moral norms are founded generally on the Judeo-Christian 
tradition. Both have powerful norms for personal behavior. The U.N., 
because it seeks the acceptance of behaviors that have long been 
prohibited by these major religions, realizes that its policies 
eventually will provoke a direct clash with these religions. To quote 
Radhika Coomaraswamy, the U.N.'s Special Rapporteur on Violence Against 
Women:

          The right to self-determination [of nations] is pitted 
        against the CEDAW articles that oblige the state to correct any 
        inconsistency between international human rights laws 
        <SUP>79</SUP> and the religious and customary laws operating 
        within its territory . . . While international human rights law 
        moves forward to meet the demands of the international women's 
        movement, the reality in many societies is that women's rights 
        [as interpreted by the feminist movement] are under challenge 
        from alternative cultural expressions.`` The movement is not 
        only generating new interpretations of existing human rights 
        doctrine--but it is also generating new rights. The most 
        controversial is the issue of sexual rights''. One can only 
        hope that the common values of human dignity and freedom will 
        triumph over parochial forces attempting to confine women to 
        the home. <SUP>80</SUP>.
---------------------------------------------------------------------------
    \79\ In this case, the family, moral, and religious issues 
discussed in this paper.
    \80\ Radhika Coomaraswamy, Reinventing International Law: Women's 
Rights as Human Rights in the International Community (Cambridge, 
Mass.: Harvard Human Rights Program, 1997).

    The moral issue of abortion highlights this clash of cultures. The 
U.N. committee believes, for example, that religiously affiliated 
hospitals that refuse to offer abortions discriminate against women. 
<SUP>81</SUP> Hospitals and doctors that adhere to their religious 
beliefs and uphold a tradition that traces back to ancient Greece and 
Hippocrates are targeted for violating human rights by the Office of 
the U.N. Commissioner on Human Rights. One illustration of this is the 
U.N. report to Italy, which noted ``particular concern with regard to 
the limited availability of abortion services for women in southern 
Italy, as a result of the high incidence of conscientious objection 
among doctors and hospital personnel.'' <SUP>82</SUP> In such a 
strongly Catholic part of Italy, it would be paradoxical if the 
opposite were the case.
---------------------------------------------------------------------------
    \81\ CEDAW Committee, 18th Sess. (1998) ``Report on Croatia,'' 
Para. 109.
    \82\ Report of the United Nations Committee on the Elimination of 
Discrimination Against Women, 17th Sess., to the General Assembly of 
the United Nations, 52nd Sess. (1997), ``Report on Italy,'' Document 
#A/52/38, Para. 353 (emphasis added).
---------------------------------------------------------------------------
    In the United States and many other countries, a clear distinction 
is drawn between the roles of church and state in ensuring religious 
freedom. This is not applicable to the United Nations. The U.N. 
committees directly attack the national religious culture of Ireland by 
suggesting that expressions of the popular will, even in democracies, 
are invalid precisely because the people have deeply held beliefs with 
religious roots. The people of Ireland have voted down two referenda 
that sought to legalize abortion. The CEDAW committee objects to this 
free and democratic expression of the public will. Its report asserts 
that:

         . . . although Ireland is a secular State, the influence of 
        the Church is strongly felt not only in attitudes and 
        stereotypes, but also in official State policy. In particular, 
        women's right to health, including reproductive health [i.e., 
        abortion], is compromised by this influence . . ..<SUP>83</SUP>
---------------------------------------------------------------------------
    \83\ See http://www.un.org/womenwatch/daw/cedaw/Irl.htm (September 
19, 1999).

    And to highly secular Norway, which protects religious minorities 
---------------------------------------------------------------------------
in law, the U.N. writes:

          The Committee is especially concerned with provisions in the 
        Norwegian legislation to exempt certain religious communities 
        from compliance with the equal rights law. Since women often 
        face greater discrimination in family and personal affairs in 
        certain communities and in religion, they asked the Government 
        to amend the Norwegian Equal Status Act to eliminate exceptions 
        based on religion. <SUP>84</SUP>
---------------------------------------------------------------------------
    \84\ Report of the United Nations Committee on the Elimination of 
Discrimination Against Women, 14th Sess., to the General Assembly of 
the United Nations, 50th Sess. (1995), ``Report on Norway,'' Document 
#A/50/38, Para. 460.

    The U.N. officials' hostility to religious freedom is also clear in 
its recommendation to Indonesia, which is vastly different in culture 
from Ireland: ``Cultural and religious values cannot be allowed to 
undermine the universality of women's rights,'' <SUP>85</SUP> and 
``[i]n all countries the most significant factors inhibiting women's 
ability to participate in public life have been the cultural framework 
of values and religious beliefs.'' <SUP>86</SUP>
---------------------------------------------------------------------------
    \85\ Report of the United Nations Committee on the Elimination of 
Discrimination Against Women, 18th Sess., to the General Assembly of 
the United Nations, 53rd Sess. (1998), ``Report on Indonesia,'' 
Document #A/53/38, Para. 282.
    \86\ Ibid., Para. 10.
---------------------------------------------------------------------------
    To Croatia, the U.N. officials' state, ``there is evidence that 
church-related organizations adversely influence the government's 
policies concerning women and thereby impede full implementation of the 
[CEDAW] Convention.'' <SUP>87</SUP> And the U.N. committee tells China, 
after it had sought to uphold the tradition of religious freedom in 
Hong Kong following the takeover from Britain, that it is most 
concerned with the fact that China ``entered seven reservations and 
declarations in respect of the provisions of the Convention as applied 
to Hong Kong.'' Of particular concern is the reservation exempting 
``the affairs of religious denominations or orders'' from the scope of 
the Convention. <SUP>88</SUP>
---------------------------------------------------------------------------
    \87\ CEDAW Committee, 18th Sess. (1998), ``Report on Croatia,'' 
Para. 108.
    \88\ CEDAW Committee, 20th Sess. (1999), ``Report on China,'' Para. 
314.
---------------------------------------------------------------------------
    The U.N. committee even recommends that the government of Libya 
reinterpret the country's religious laws and scripture in order to pave 
the way for other governments in Islamic countires to do the same. 
<SUP>89</SUP>
---------------------------------------------------------------------------
    \89\ CEDAW Committee, 13th Sess. (1995), ``Report on Libya,'' Para. 
132 (emphasis added).
---------------------------------------------------------------------------
    Clearly, this hostility to any manifestation of religious belief in 
public policy will bring the U.N. into direct confrontation with 
peoples that hold traditional beliefs. <SUP>90</SUP>
---------------------------------------------------------------------------
    \90\ Coomaraswamy, Reinventing International Law.
---------------------------------------------------------------------------
What The United States Must Do
    The United States and other signatories of the U.N. Charter 
recognize that each nation has a right to determine its own domestic 
policies. The United States protects its own sovereignty and on 
principle should respect the sovereignty of other nations when their 
policies do not conflict with vital U.S. interests. Clearly, while the 
United States is working to strengthen the family domestically through 
legislation like welfare reform and buttressing parents' rights, these 
same efforts among nations that have signed and ratified the U.N.'s 
Convention to Eliminate All Forms of Discrimination Against Women are 
under attack.
    Though it has not ratified either of these treaties, the United 
States under recent past administrations has supported the efforts of 
the U.N. implementing bodies to force nations that afford legal and 
institutional support for the two-parent married family, for the role 
of mothers and fathers in raising their children, and for the 
importance of traditional social norms to change those laws and 
policies. As the leader of the free world and a strong proponent of 
individual and religious freedoms, the United States must take the lead 
in efforts to expose the fallacies inherent in this radical new agenda 
at the United Nations. To this end, members of the United States Senate 
should:

  <bullet> Emphasize to the United Nations that the United States will 
        not sign the Convention on the Elimination of All Forms of 
        Discrimination Against Women because of the U.N.'s 
        controversial interpretations of and efforts to implement it.

  <bullet> Urge U.N. member states to refuse, as Australia has done, to 
        cooperate with U.N. reporting systems when U.N. committees work 
        to undermine their sovereignty. The United States should 
        counter reprisals against countries that follow this 
        recommendation. Norway, Sweden, and Germany, for example, 
        threatened to withdraw their aid from Nicaragua last year 
        unless it removed its Minister of the Family, Max Padilla, from 
        his post. At the Cairo+5 and Beijing+5 preparatory conferences, 
        Padilla had blocked resolutions by a voting bloc known as 
        JUSCANZ <SUP>91</SUP> to redefine gender, to require all 
        obstetricians and gynecologists to learn to perform abortions 
        regardless of their beliefs, and to remove ``conscience 
        clause'' protections. For Nicaragua, with its faltering 
        economy, <SUP>92</SUP> losing that source of revenue was a 
        significant threat to which it would have difficulty adjusting 
        in the short term, so the president removed Padilla from his 
        post. To take the teeth out of such threats, the United States 
        should emphasize that it will assist countries that are 
        threatened for rejecting U.N. proposals. Too many small 
        countries have little recourse and are too dependent on 
        development assistance to fight assaults on sovereignty by the 
        U.N. bureaucracy. The United States must protect the legitimate 
        interests of these countries as well. For example, it should 
        assist representatives from non-governmental organizations 
        (NGOs) that support the family and marriage and countries that 
        oppose the committee's attacks on these valuable institutions 
        in enabling them to attend U.N. conferences be heard alongside 
        those of extreme NGOs that promote anti-marriage and anti-
        family policies.
---------------------------------------------------------------------------
    \91\ See footnote 19.
    \92\ Nicaragua is one of the hemisphere's poorest countries, with 
an estimated 50 percent of the population below the poverty line in 
1999, an estimated GDP per capita of $2,650 in 1999, and huge external 
debt. See CIA World Factbook 2000, at http://www.odci.gov/cia/
publications/factbook/geos/nu.html#Econ.

  <bullet> Hold hearings on the efforts of agents of the U.N. to force 
        nations to implement policies that undermine the family, 
        religious freedom, and national sovereignty, and to give 
        particular attention to how the United States has voted and 
---------------------------------------------------------------------------
        will vote at U.N. conferences on these social issues.

  <bullet> Require the Department of State to submit an annual 
        performance report on the activities of all U.N. agencies and 
        committees. U.S. contributions to the U.N. agencies should be 
        weighed against performance, <SUP>93</SUP> consistent with 
        national interests, and meet an acceptable level of 
        professional competence. Congress should set benchmarks for 
        performance with regard to strengthening the family and 
        traditional religious institutions. Funding for U.N. agencies 
        and organizations that work deliberately to undermine the right 
        of sovereign nations to determine their own domestic policies 
        should be restricted. U.N. agencies should be subjected to the 
        same oversight Congress gives domestic programs. Congress 
        demands performance outcome reporting from U.S. government 
        agencies under the Government Performance and Results Act; it 
        should expect no less an accounting from international bodies 
        that spend U.S. tax dollars. It should use these reports each 
        year to determine whether the U.N. programs, agencies, and 
        affiliated organizations deserve continued funding.
---------------------------------------------------------------------------
    \93\ For more on this reform, see Virginia L. Thomas, ``Restoring 
Government Integrity Through Performance, Results, and 
Accountability,'' Heritage Foundation Backgrounder No. 1380, June 23, 
2000.

  <bullet> Require the Assistant Secretary of State for International 
        Organizations, in coordination with the State Department's 
        Legal Adviser, in the State Department's annual President's 
        Report to Congress on U.S. Participation in the U.N., to report 
        on the performance and activities of the U.N. CEDAW committee 
        and to develop new instructions for the involvement of the 
        United States in any conventions and meetings addressing issues 
---------------------------------------------------------------------------
        of the family, marriage, sexual activity, and abortion.

  <bullet> Attach a rider to funding for the U.N. and the World Bank 
        specifying that any distribution of U.S. funds or contracts 
        awarded to NGOs be made publicly available in a manner similar 
        to that practiced by the U.S. government in its competitive 
        bidding process. Funds should not be appropriated for 
        activities that violate traditional family and religious norms 
        or that undermine a nation's sovereignty.

  <bullet> Request that the U.S. General Accounting Office assess the 
        flow of funds from the United States to NGOs acting under the 
        auspices of the U.N. in the past eight years to determine 
        whether there has been any indirect support of their 
        countercultural activities.

  <bullet> Start forming a new alliance at the U.N. with countries that 
        work to protect and strengthen the family, religious freedom, 
        and national sovereignty.

    In conclusion, United Nations policy committees have become the 
instruments of an ideologically extreme policy that would promote a 
radical restructuring of society, particularly in matters relating to 
marriage and the family. UN officials are attempting to sway nations to 
accept an agenda that, from the U.N.'s foundation, has been outside its 
jurisdiction. These officials and their ideological allies are 
advancing their agenda primarily by promoting the reinterpretation of 
the CEDAW treaty at the five- and ten-year follow-up conferences and by 
the three-year evaluation reports on CEDAW. The object is to 
continuously encourage nations to change their domestic policies 
concerning marriage and the family.
    The United States should object to interference in domestic life of 
nations that undermines the traditional family. The United States 
should instead work to reverse this trend, for the benefit of families, 
women, and children around the world.
    The Congress and the President should devote the time and resources 
necessary to assess the danger these U.N. policies pose to the 
sovereignty and stability of nations and to build an alliance of 
family-friendly nations that will work together to ensure that and the 
the full capacities of all women are advanced in U.N. policies, while 
the legitimate rights of parents and the freedom of religion is 
protected. These are social goods. They are not in opposition, but in a 
good society, they are mutually supportive. Rather than ratifying 
CEDAW, the United States Senate would do more to advance the role of 
women by opposing it. The United States should stand with the forces of 
freedom, and not with those whose intrusive policies would undermine 
that freedom. That is natural alliance for America. May it move in this 
direction.
    Thank you for the great privilege and opportunity to testify.

                                 ______
                                 

                              American Life League,
                                        Stafford, VA 22555,
                                                      June 3, 2002.
Hon. Jesse Helms,
U. S. Senate,
Washington, DC 20510.

    Dear Senator Helms: Once again, American Life League would like to 
express our profound gratitude for your tireless defense of children 
and the family.
    This time we thank you for your steadfast opposition to CEDAW. The 
treaty blatantly promotes abortion and contraception. Moreover, how can 
any treaty promoting women at the same time promote prostitution?
    As you said to Congress on March 8, 2000: ``This treaty is not 
about opportunities for women. It is about denigrating motherhood and 
undermining the family.''
    We are urging President Bush to get the United States out of this 
treaty. And we trust that you will do all that is possible to see that 
the U. S. has no part of CEDAW.
    Thank you again.
        Sincerely yours in the Lord Who IS Life,
                                               Judie Brown,
                                                         President.

P.S. Be assured of our prayers for you and your family. It will be sad 
to see you leave the Senate.

                                 ______
                                 

            Denmark Told To Change Laws by CEDAW Committee,
                         Raising Fears in U.S.

                       FRIDAY FAX, June 21, 2002

                          Volume 5, Number 26

    A familiar refrain of proponents of the Convention on the 
Elimination of All Forms of Discrimination Against Women (CEDAW) is 
that US ratification of the controversial U.N. document would not 
result in significant changes in US law. Since the United States 
already recognizes the equal status of women, they say, US ratification 
is necessary solely to bolster the standing of the Convention in the 
rest of the world. For instance, Senator Joseph Biden (D-DE), a CEDAW 
supporter, said at last week's Senate CEDAW hearing that it is 
``highly, highly, highly unlikely'' that the Convention would have any 
important domestic impact.
    In a June 18 article, New York Times columnist Nicholas D. Kristof 
repeated this point, stating that ``frankly, the treaty has almost 
nothing to do with American women, who already enjoy the rights the 
treaty supports.Instead, it has everything to do with the half of the 
globe where to be female is to be persecuted until, often, death.''
    But the most recent examination of Denmark by the CEDAW Committee 
seems to contradict these arguments. At meetings beginning on June 12, 
the Committee concluded that even Denmark's extremely progressive laws 
and social policies were not sufficient, and that Denmark would need to 
make substantial changes in order to comply with the Convention.
    According to a U.N. press release, one CEDAW expert asked ``How 
often had the Convention been invoked in the country's courts?'' 
Another expert pointed out ``that Denmark's Constitution contained no 
specific provision on discrimination against women. It was important to 
fully integrate the country's domestic legislation with the 
Convention.''
    One Committee expert showed concern that, ``although Danish women 
were now allowed employment in all ranks of the Armed Services, even if 
that involved direct participation in military operations or combat,'' 
women had not yet ``reached the top level in the military.''
    A Committee expert also stated that ``In order to protect women 
engaged in prostitution, the tendency should be to penalize those 
engaged in pimping even more heavily.'' To allay this concern, a Danish 
representative reported that ``in 1999 the Parliament had amended the 
criminal code to decriminalize prostitution and passive pimping.''
    One expert wondered how Danish families divided household duties 
and chores. ``It was gratifying to know that fathers were increasingly 
taking care of babies,'' but the expert ``also wanted to know how they 
participated in bringing up older children and shared in housework.'' 
In response, a Danish delegate assured the Committee that ``continuous 
monitoring was being carried out'' on fathers and their household 
activities.
    Wendy Wright, senior policy director at Concerned Women for 
America, told the Friday Fax that such statements by the CEDAW 
Committee show that it does not seek basic equality, but the radical 
transformation of society, and that it would make the same kinds of 
demands on the US, if it ratified CEDAW. ``If even Denmark doesn't 
satisfy the CEDAW Committee and must change its constitution, then 
surely no country's actions will appease these `experts' on genderless 
feminism,'' she said.

Copyright--C-FAM (Catholic Family & Human Rights Institute). Permission 
granted for unlimited use. Credit required.

                                 ______
                                 

                 Dark Cloud Shades U.N. Women's Treaty

                         Tuesday, June 18, 2002

                      By Wendy McElroy foxnews.com

    The U.S. Senate is debating ratification of a U.N. treaty that has 
been pending for over two decades. However, a stubborn cloud hangs over 
the treaty, the Convention on the Elimination of All Forms of 
Discrimination Against Women (CEDAW). Of the many reasons to oppose 
CEDAW, one of them is the U.N.'s probable complicity in China's one-
child policy that forces women to abort pregnancies if they already 
have a child. It is a shadow that darkens all U.N. programs regarding 
women and children.
    The U.N. Population Fund provides mega-financing to developing 
nations, including China, to assist them in family planning. Currently 
at issue is Congress' appropriation of 34 million dollars for the 
UNFPA. Will American tax dollars facilitate coerced abortions?
    The UNFPA says ``no.''
    In 1999, Dr. Nafis Sadik--then executive director of the UNFPA--
said that in the ``32 pilot counties [targeted by UNFPA], the Chinese 
have agreed to a program that lifts all birth quotas and targets 
including the one-child policy.'' In other words, forced abortions 
would not happen where the UNFPA had to see them.
    In a few months, however, China's unofficial one-child policy will 
become nationwide law. Yet, a recent UNFPA fact-finding ``study tour'' 
of China discovered no evidence of coerced family planning. Thus, the 
flood of first-hand horror stories from Chinese women--the sort of 
evidence that the U.N. finds compelling on virtually every other 
issue--is dismissed.
    According to critics of the UNFPA, the study-tour was able to reach 
its see-no-evil, speak-no-evil conclusions because Chinese authorities 
only allowed UNFPA delegates to tour a tiny area with controlled 
interviews.
    Establishing the facts is essential, but an underlying assumption 
of the discussion must also be addressed: Namely, that the world is 
overpopulated and reproduction needs to be governed. Overpopulation is 
said to cause poverty, starvation, disease, war, environmental disaster 
. . . virtually all evil is laid at the feet of parents who wish to 
have children.
    The idea of overpopulation is inextricably mixed with the UNFPA, 
U.N. family planning and forced abortion. This makes it intimately 
connected to CEDAW, which promotes ``reproductive rights.'' Or does 
CEDAW promote the right not to have children rather than the right to 
reproduce? There are several grounds on which to challenge the 
overpopulation assumption, including:


    Factually: The UNFPA offers math-enshrouded charts and graphs based 
on a soaring world population. But how do they really know what the 
world population is?
    Africa, for example, is ravaged by war and disease; much of it is 
inaccessible and without birth records. Statistician Bjorn Lornborg 
disputes U.N. data, stating: ``The rate of increase has been declining 
ever since [the early 1960s]. It is now 1.26 percent and is expected to 
fall to 0.46 percent in 2050.''
    He also disputes the alleged rise of poverty. ``[T]he proportion of 
people in developing countries who are starving has dropped from 45 
percent in 1949 to 18 percent today, and is expected to decrease even 
further to 12 percent in 2010.''

    Politically: ``Overpopulation causes poverty!'' is the cry of U.N. 
voices that wish to restrict reproduction. Totalitarian governments 
must find that cry convenient: If the Chinese starve, it is not because 
of disastrous governmental policies. Instead, the ``exonerated'' 
government can join the U.N. in pointing an accusing finger at parents 
who selfishly desire families. Shifting the blame disguises the fact 
that taxation, monopoly privileges, government waste, and regulation 
create poverty.
    ``Poor'' areas of the world, like Hong Kong and South Korea, 
prosper when government gets out of the way.
    Economically: Even if UNFPA estimates of population are correct, 
why is that frightening? One answer usually comes back with 
predictability: because the world's natural resources are being 
depleted.
    In his article ``The Population Problem That Isn't,'' political 
commentator Sheldon Richman rebuts that point. Richman argues: ``[in 
practical terms, the supply of a resource is not finite. It is 
integrally dependent on human ingenuity. If we were to think of ways to 
double the efficiency with which we use oil, it would be equivalent to 
doubling the supply of oil.''
    Human ingenuity, not government, solves the problem of scarcity. 
The nations in which poverty is greatest are those that restrain human 
ingenuity--that is, freedom--and punish initiative.

    Powerful voices are demanding that the U.S. ratify CEDAW. In an 
article in the San Francisco Chronicle entitled ``Senate Needs to 
Ratify the Treaty for the Rights of Women,'' Sens. Joseph R. Biden Jr., 
D-Del., and Barbara Boxer, D-Calif., declare CEDAW to be ``an 
international bill of rights.'' They call the treaty ``a tool that 
women around the world can use in their struggle for basic human 
rights.''
    Until the UNFPA ceases to be a tool used by the Chinese 
dictatorship to brutalize women, the words ``basic human rights'' and 
``United Nations'' should not be used in the same sentence.
    CEDAW allegedly champions women's reproductive rights. The treaty 
cannot be divorced from the U.N.'s general policies of population 
control. The U.N.'s hypocrisy in condemning some human rights 
atrocities while tacitly supporting others taints CEDAW.
    More government is not the answer to poverty or human well being. 
Individual freedom is.

                                 ______
                                 

                            Family Research Council
                                      Washington, DC 20001,
                                                      June 7, 2002.
Hon. George Bush,
President of the United States,
1600 Pennsylvania Avenue, NW,
Washington, DC 20500.

    Dear President Bush: On behalf of the families represented by 
Family Research Council, we write to express our grave concern about 
the heavy push being made by radical feminist organizations, as well as 
many in the U.S. Congress, to urge U.S. consideration and ratification 
of the dangerous and unnecessary U.N. Convention on the Elimination of 
all Forms of Discrimination Against Women (CEDAW). It has come to our 
attention that some within your administration are supportive of CEDAW, 
generating further concern.
    CEDAW has been languishing in the Senate for more than two decades; 
since 1980 when President Carter submitted the treaty to the Senate, it 
has never been brought up for a vote, not even during the 10 years when 
the Democratic Party controlled the Senate. Even when Democrats 
controlled the Senate during the first 2 years of the Clinton 
administration, they never saw fit to bring this radical treaty to a 
vote. According to Senator Helms, CEDAW has never been ratified because 
``it is a bad treaty; it is a terrible treaty negotiated by radical 
feminists with the intent of enshrining their radical anti-family 
agenda into international law.''
    Not only have America's elected officials rejected the ratification 
of this radical treaty, the American citizenry rejected CEDAW decades 
ago with the overwhelming defeat of the Equal Rights Amendment (ERA); 
CEDAW is the ERA multiplied one hundred fold.
    CEDAW calls for an absolute leveling of every kind of distinction 
between men and women at every level of society. This is not about 
opportunities for women, it is about denigrating motherhood and 
undermining the family. The nature of the family as the fundamental 
social structure must be recognized, and the rights of the family must 
be protected, not ``modified.'' The deliberately vague language and 
undefined terms in the treaty permit interpretations that are 
destructive of the social order and harmful to individuals and 
families, resulting in what is merely a proposal for social 
manipulation.
    Following are just a few examples of what the ``expert'' committee 
responsible for implementing CEDAW found problematic in signatory 
nations:

         Denmark: The Committee noted with concern that stereotypical 
        perceptions of gender role continued to exist in society [that] 
        kept men from assuming an equal share of funnily 
        responsibilities.

         Belarus: The Committee complained that ``Mother's Day'' and 
        the ``Mothers Award'' encourage women's traditional roles.

         Armenia: The Committee urged them to ``combat the traditional 
        stereotype of women in the noble role of mother.''

         Luxembourg: The Committee complained about its ``stereotypical 
        attitudes that tend to portray men as heads of households and 
        breadwinners, and women primarily as mothers and homemakers.''

         Ireland: The Committee complained that the influence of the 
        Church is still strongly felt and that because of this, ``with 
        very limited exceptions, abortion remains illegal in Ireland,'' 
        and women do not have sufficient access to reproductive health 
        services.

         Slovenia: The Committee derided the fact that only 30 percent 
        of children under age three were in daycare, claiming the other 
        70 percent would miss out on education and social opportunities 
        offered in daycare.

         Romania: The Committee encouraged ``the Government to include 
        sex education systematically in schools . . .'' and to ``place 
        priority on the review and revision of teaching materials.''

         Kyrgyzatan: The Committee ordered that ``lesbianism be 
        reconceptualized as a sexual orientation and that penalties for 
        its practice be abolished.''

         China: The Committee called upon them to ``decriminalize 
        prostitution.''

         Germany: Prostitution is legal but the Committee expressed 
        concern that prostitutes still do not enjoy the protection of 
        labor and social law.

    As these examples make clear, CEDAW seeks to impose its broad and 
radical social agenda on signatory nations without respect for 
sovereign nations' laws regarding marriage, family, life, and other 
social issues, and without respect for the religious and moral 
foundations that support these nations' laws.
    Mr. President, we strongly urge you to oppose and condemn CEDAW on 
behalf of American women and American families. The United States of 
America will work to eradicate legitimate discrimination against women 
the world over, but the U.S. government cannot support the undermining 
of the family unit, the denigration of motherhood, and the usurpation 
of our national sovereignty. To support such propositions would be, in 
our opinion, un-American.
    Thank you for your attention to our concerns and for your continued 
work to protect and defend life and families in the international 
arena.
        Sincerely,
                                             Connie Mackey,
                              Vice President of Government Affairs.

                                 ______
                                 

Letters to the Editor of the Wall Street Journal in Opposition to CEDAW

               human rights are fought for, not declared
Editor:

    Sen. Joseph Biden invokes the Declaration of Independence in 
support of the U.S. ratification of CEDAW, the Convention on the 
Elimination of All Forms of Discrimination Against Women (Christina 
Hoff Sommers, ``Look Who's Preaching to Us!'' editorial page, June 26). 
But the Declaration is Exhibit A against CEDAW.
    The Declaration is a document of general aspiration; that is why 
its premise that all men are created equal and are endowed with 
unalienable rights applied to both women and men and in time became a 
powerful weapon in the battle for women's rights. And the Declaration 
was much more than aspiration: It was a self-executing political act. 
The men who signed it thereby took responsibility for realizing its 
aspirations by establishing free and independent states, failing which 
they would be hanged.
    CEDAW, in contrast, is, like the old Soviet constitution, a long 
list of policy promises drafted by people who, for the most part, have 
no intention to take responsibility for achieving those promises. No 
one thinks CEDAW is going to produce ``comparable worth'' wage 
regulation in Haiti or Uganda, or end forced abortions of baby girls in 
China or North Korea, or provide rudimentary legal rights for the women 
of Saudi Arabia or Yemen. The governments of these nations (all CEDAW 
signatories) could, if they wished, actually pursue those policies at 
home--and take the political credit or blame according to the views of 
their citizens--rather than just recommending them to others. Sen. 
Biden is an influential political leader in his own nation; if he 
really wants to promote nationalized day care (as Vice President Gore 
proposed to do in the 2000 presidential campaign) or equal wages for 
stenographers and firemen, he has the means and responsibility to do so 
without reference to CEDAW.
    CEDAW promotes the notion that rights are things that exist in the 
abstract--manna from globocrats, NGOs and activist lawyers rather than 
the responsibilities of nation-states and their political leaders. 
Those who signed the Declaration of Independence stood and fought for 
the opposite proposition--that rights are secured by governments whose 
powers to do so are derived from the consent of the governed.

                                Christopher DeMuth,
  American Enterprise Institute for Public Policy Research,
                                                        Washington.
           end preferential physical fitness standards first
Editor:

    I wonder how many of those in this country who support CEDAW also 
support the elimination of preferential physical fitness standards for 
women. If discrimination is `` any distinction . . . on the basis of 
sex'' in ``any . . . field,'' such differential standards are 
definitely discriminatory. Article 5 calls for ``the elimination of all 
practices which are based on stereotyped roles for men and women.'' 
Isn't it stereotyping to assume women cannot meet minimum standards?
    I am a 36-year-old mother of two with a professional career and I 
can still meet the strictest minimum military standards for men ages 
17-21 (52 sit-ups in two minutes, 42 push-ups in two minutes, and a 
two-mile run in 15:54). The minimum standards for a woman of my age are 
so absurd (35 sit-ups and 14 push-ups) that I can do them in one 
quarter of the allotted time and I can complete the two-mile run in the 
required 22 minutes and 36 seconds backward. Hurray for ending 
discrimination! Make women meet the same standards. Laws and 
Conventions don't create equality. Hard work and dedication do.

                                               Molly Espey,
                                                      Six Mile, SC.

                                 ______
                                 

                 A Women's Treaty For Radical Feminism

                     john leo, syndicated columnist
    Once again the push is on for the Senate to ratify CEDAW, the 
U.N.'s women's rights treaty that has been hanging around since 1979. 
CEDAW is the Convention on the Elimination of Discrimination Against 
Women.
    There's a good reason why the Senate has ignored it for a 
generation:It's an incredibly toxic document, the work of international 
bureaucrats determined to impose a worldwide makeover of family 
relations and ``gender roles.'' CEDAW is a blueprint for foisting the 
West's radical feminism on every nation gullible enough to sign on. 
(talk about cultural imperialism.) Some 167 nations have signed the 
treaty, many with no intention of observing it. But the CEDAW 
ferociously monitors every nation's compliance. It has a few 
enforcement mechanisms and plans more. The idea is that someday, 
nations may not be able to resist.
    CEDAW is a more perverse version of American radical feminism, 
circa 1975: It bristles with contempt for family, motherhood, religion 
and tradition. Parents and the family don't count. The state will watch 
out for children's rights. The treaty extends access to contraception 
and abortion to very young girls, and imposes ``gender studies'' on 
schools and feminist approved textbooks on students.
    The committee enforcing CEDAW criticized Belarus for reintroducing 
Mother's Day (``a sex-role stereotype'') and strongly urged Armenia to 
combat the image of ``the noble role of mother.'' It complained that 
voters in Ireland seem to reflect Roman Catholic values and warned 
Libya that the Koran can only be followed within ``permissible'' limits 
set by CEDAW. Feminists will decide what religions may teach. CEDAW 
busy bodies are always eager to intrude. Recently they leaned on 
Denmark for not providing data on whether Danish fathers are doing 
their share of chores around the house.
    One of the CEDAW committee's techniques is to use broad language, 
which is then tightened and given a radical interpretation after 
signatories have accepted it. CEDAW did not announce that women's 
``right to free choice of profession and employment'' would turn out to 
mean (as the committee now says) that prostitution must be 
decriminalized around the world. Similarly, CEDAW'S ban on ``any 
distinction, exclusion or restriction made on the basis of sex'' seems 
to make legal approval of homosexual marriage mandatory. Some analysts 
think CEDAW'S ban on ``orientation'' bias will make pedophile sex 
legal, since some people are ``oriented'' toward children. Linguistic 
sinkholes are so common that Muslim women wanted assurance that the 
term ``sexual slavery'' would not be defined later as including 
marriage.
    CEDAW reflects the rising importance of international conferences 
and the United Nations' nongovernmental organizations (NGOs). CEDAW 
bureaucrats constantly monitor and hector the world's nations to 
comply. The World Bank now seems primed to serve as an enforcer for 
CEDAW: One World Bank document is titled ``Integrating Gender Into the 
World's Bank's Work: A Strategy for Action.'' The feminists talk about 
the World Bank's ``accountability mechanisms.'' Translation: No CEDAW 
compliance, no loan.
    Worse, CEDAW backers intend to use the new International Criminal 
Court as an enforcement tool. Patrick Fagan of the Heritage Foundation, 
who follows CEDAW closely, predicts that the CEDAW committee will bring 
an ICC case against Catholic hospitals to break the hospitals' refusal 
to perform abortions. Language setting up the court is so vague that 
radical prosecutors and judges might be able to jail clerics who refuse 
to perform same-sex unions or who decline to ordain women.
    The lesson here is that small groups of dedicated bureaucrats, out 
of the public eye, can make rules affecting the domestic affairs of 
countries that would be difficult or impossible to achieve 
democratically. The trick is to create ``customary international law'' 
out of marginal views, constantly repeated on the world stage. Rita 
Joseph, an Australian human rights specialist, says: ``The basic plan 
is ingeniously simple. The idea is to couch the feminist agenda in 
language of human rights'' and then assert the ascendancy of human 
rights over the sovereign rights of nations.
    Still, over the past five or six years, as awareness of the 
radicalization of the United Nations has set in, nonradical American 
NGOs have mounted resistance, often with the help of the Vatican and 
Muslim nations. This alliance has had some success in exposing the 
language and parliamentary games played by the radicals.
    CEDAW is coming up again now because of a fumble in the State 
Department. Someone listed CEDAW as a treaty the administration 
considered low-level but acceptable. President Bush now has to choose 
between antagonizing his base by calling for Senate ratification or 
antagonizing female voters by seeming to come out against women's 
rights. But if he can't dodge the issue, he will have to oppose the 
treaty. CEDAW is dangerous as well as stupid.

                               <greek-d>

     

</pre></body></html>
